NO. 19-1039
In the

Supreme Court of the United States
________________

PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY, et al.,
Respondents.
________________
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
________________
JOINT APPENDIX
Volume I of II
________________
JEREMY M. FEIGENBAUM
PAUL D. CLEMENT
Counsel of Record
Counsel of Record
OFFICE OF THE NEW
KIRKLAND & ELLIS LLP
JERSEY ATTORNEY
1301 Pennsylvania Ave., NW
GENERAL
Washington, DC 20004
25 Market Street
(202) 389-5000
Trenton, NJ 08611
paul.clement@kirkland.com
(609) 376-2690
jeremy.feigenbaum@njoag.gov

Counsel for Respondents
State of New Jersey, et al.

Counsel for Petitioner

(Additional Counsel Listed on Inside Cover)
March 1, 2021
Petition for Writ of Certiorari Filed Feb. 18, 2020
Petition for Writ of Certiorari Granted Feb. 3, 2021

MATTHEW LITTLETON
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 683-6895
matt@donahuegoldberg.com
JENNIFER L. DANIS
EDWARD LLOYD
MORNINGSIDE HEIGHTS
LEGAL SERVICES
435 W. 116th Street
New York, NY 10027
(201) 306-3382
jld2228@columbia.edu
elloyd@law.columbia.edu
Counsel for Respondent New Jersey
Conservation Foundation

JA i
TABLE OF CONTENTS
Volume I
Relevant Docket Entries, United States Court of
Appeals for the Third Circuit, In re: PennEast
Pipeline Co., LLC, No. 19-1191 ..................... JA-1
Relevant Docket Entries, United States
District Court for the District of New Jersey,
In re: PennEast Pipeline Co., LLC,
No. 3:18-cv-01597 ........................................ JA-26
Order Issuing Certificates, PennEast Pipeline Co.,
LLC, 162 FERC ¶ 61,053 (Jan. 19, 2018) ... JA-35
Order Granting Rehearings for Further
Consideration, PennEast Pipeline Co., LLC,
No. CP15-558-001 (Feb. 22, 2018) ............ JA-212
Order on Rehearing, PennEast Pipeline Co., LLC,
164 FERC ¶ 61,098 (Aug. 10, 2018) .......... JA-213
Volume II
Declaratory Order, PennEast Pipeline Co., LLC,
170 FERC ¶ 61,064 (Jan. 30, 2020) .......... JA-363
Order Denying Rehearing, PennEast Pipeline Co.,
LLC, 171 FERC ¶ 61,135 (May 22, 2020) . JA-460
The following opinions, decisions, judgments, and
orders have been omitted in printing this joint
appendix because they appear on the following page in
the appendix to the Petition for Certiorari:
Appendix A
Opinion, United States Court of Appeals for
the Third Circuit, In re: PennEast Pipeline
Company, LLC, Nos. 19-1191-19-1232
(Sept. 10, 2019) ...................................... Pet.App-1

JA ii
Appendix B
Order, United States Court of Appeals for the
Third Circuit, In re: PennEast Pipeline
Company, LLC, Nos. 19-1191-19-1232
(Nov. 5, 2019) ....................................... Pet.App-32
Appendix C
Opinion, United States District Court for the
District of New Jersey, In re: PennEast
Pipeline
Company,
LLC,
No. 18-1585
(Dec. 14, 2018) ..................................... Pet.App-34
Appendix D
Relevant Statutory Provisions .......... Pet.App-103
15 U.S.C. § 717 ............................ Pet.App-103
15 U.S.C. § 717a .......................... Pet.App-105
15 U.S.C. § 717b .......................... Pet.App-106
15 U.S.C. § 717b-1 ....................... Pet.App-111
15 U.S.C. § 717c .......................... Pet.App-114
15 U.S.C. § 717c-1 ....................... Pet.App-118
15 U.S.C. § 717d .......................... Pet.App-118
15 U.S.C. § 717e .......................... Pet.App-119
15 U.S.C. § 717f ........................... Pet.App-120
15 U.S.C. § 717g .......................... Pet.App-125
15 U.S.C. § 717h .......................... Pet.App-127
15 U.S.C. § 717i ........................... Pet.App-128
15 U.S.C. § 717j ........................... Pet.App-129
15 U.S.C. § 717k .......................... Pet.App-130
15 U.S.C. § 717l ........................... Pet.App-131
15 U.S.C. § 717m ......................... Pet.App-131

JA iii
15 U.S.C. § 717n .......................... Pet.App-135
15 U.S.C. § 717o .......................... Pet.App-138
15 U.S.C. § 717p .......................... Pet.App-138
15 U.S.C. § 717q .......................... Pet.App-140
15 U.S.C. § 717r .......................... Pet.App-141
15 U.S.C. § 717s .......................... Pet.App-145
15 U.S.C. § 717t .......................... Pet.App-147
15 U.S.C. § 717t-1 ....................... Pet.App-147
15 U.S.C. § 717t-2 ....................... Pet.App-148
15 U.S.C. § 717u .......................... Pet.App-151
15 U.S.C. § 717v .......................... Pet.App-151
15 U.S.C. § 717w ......................... Pet.App-152
15 U.S.C. § 717x .......................... Pet.App-152
15 U.S.C. § 717y .......................... Pet.App-153
15 U.S.C. § 717z .......................... Pet.App-162

JA 1
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 19-1191
________________
IN RE: PENNEAST PIPELINE COMPANY, LLC
STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT OF
ENVIRONMENTAL PROTECTION; NEW JERSEY STATE
AGRICULTURE DEVELOPMENT COMMITTEE; DELAWARE
& RARITAN CANAL COMMISSION; NEW JERSEY WATER
SUPPLY AUTHORITY; NEW JERSEY DEPARTMENT OF
TRANSPORTATION; NEW JERSEY DEPARTMENT OF THE
TREASURY; NEW JERSEY MOTOR VEHICLE COMMISSION,
Appellants.
________________
RELEVANT DOCKET ENTRIES
Date Filed

Docket Text

01/25/2019 CIVIL CASE DOCKETED.
Notice filed by Appellants
Delaware & Raritan Canal
Commission,
New
Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of the
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture
Development Committee, New
Jersey Water Supply Authority

JA 2
Date Filed

Docket Text
and State of New Jersey in
District Court No. 3-18-cv01597.
(KR)
[Entered:
01/25/2019 03:42 PM]

01/30/2019 CLERK ORDER consolidating
the Appeals at Nos. 19-1191
through
19-1232
for
all
purposes. The parties are
advised that all case opening
forms, motions and briefs must
be electronically filed in all
cases on the Court’s electronic
case filing (ECF) system. All
required case opening forms
should be filed within 14 days of
the date of this Order. For ease
of
docketing,
the
State
Defendants have been added to
the case by department as listed
on the notice of appeal rather
than by how the State
Defendants were listed on each
individual docket, filed. [191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 19-

JA 3
Date Filed

Docket Text
1218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (LML)
[Entered: 01/30/2019 11:39 AM]

*
*
*
03/05/2019 ECF FILER: Motion filed by
Appellants Delaware & Raritan
Canal Commission, New Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture
Development Committee, New
Jersey Water Supply Authority
and State of New Jersey to stay
District Court Order Pending
Resolution of the Appeal, to
Expedite the motion and the
appeals with proposed briefing
schedule. Certificate of Service
dated 03/05/2019. Service made
by ECF. [19-1191, 19-1192, 191193, 19-1194, 19-1195, 191196, 19-1197, 19-1198, 191199, 19-1200, 19-1201, 191202, 19-1203, 19-1204, 191205, 19-1206, 19-1207, 19-

JA 4
Date Filed

Docket Text
1208, 19-1209, 19-1210, 191211, 19-1212, 19-1213, 191214, 19-1215, 19-1216, 191217, 19-1218, 19-1219, 191220, 19-1221, 19-1222, 191223, 19-1224, 19-1225, 191226, 19-1227, 19-1228, 191229, 19-1230, 19-1231, 191232]--[Edited 03/05/2019 by
KR]
(MAC)
[Entered:
03/05/2019 03:18 PM]

*
*
*
03/08/2019 ECF FILER: Response filed by
Appellee County of Mercer to
motion for stay, motion to
Expedite
the
appeals.
Certificate of Service dated
03/08/2019. [19-1191, 19-1192,
19-1227]--[Edited 03/08/2019 by
KR] (PRA) [Entered: 03/08/2019
10:35 AM]
*
*
*
03/15/2019 ECF
FILER:
Reply
by
Appellants Delaware & Raritan
Canal Commission, New Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture

JA 5
Date Filed

Docket Text
Development Committee, New
Jersey Water Supply Authority
and State of New Jersey to
Response to motion for stay,
motion to Expedite, filed.
Certificate of Service dated
03/15/2019. Service made by
ECF, US mail [19-1191, 191192, 19-1193, 19-1194, 191195, 19-1196, 19-1197, 191198, 19-1199, 19-1200, 191201, 19-1202, 19-1203, 191204, 19-1205, 19-1206, 191207, 19-1208, 19-1209, 191210, 19-1211, 19-1212, 191213, 19-1214, 19-1215, 191216, 19-1217, 19-1218, 191219, 19-1220, 19-1221, 191222, 19-1223, 19-1224, 191225, 19-1226, 19-1227, 191228, 19-1229, 19-1230, 191231,
19-1232]--[Edited
03/15/2019 by KR] (MAC)
[Entered: 03/15/2019 03:26 PM]

03/19/2019 ORDER
(CHAGARES
and
JORDAN,
Circuit
Judges)
granting in part motion for stay
filed by Appellants New Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
State of New Jersey, New

JA 6
Date Filed

Docket Text
Jersey Department of Treasury,
New Jersey Motor Vehicle
Commission, New Jersey State
Agriculture
Development
Committee, New Jersey Water
Supply Authority and Delaware
& Raritan Canal Commission.
In
the
event
Appellee
transitions from the surveying
and testing phase to the
construction phase of the
pipeline
project,
physical
construction of the pipeline
shall be stayed pending this
appeal. Additionally, the just
compensation portion of the
litigation is stayed pending this
appeal. Appellants’ Motion to
Expedite is granted. Appellants’
Opening Brief of no more than
14,000 words must be filed and
served within thirty (30) days
from the date of this order.
Appellee’s Brief must be filed
and served within twenty (20)
days of service of Appellants’
Brief. A reply brief, if any, must
be filed and served within ten
(10) days of service of the
Appellee’s Brief. The matter will
be assigned to the first merits
panel
available
at
the
conclusion of briefing, filed.

JA 7
Date Filed

Docket Text
Panel
No.:
ECO-026E.
Chagares, Authoring Judge.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (KR)
[Entered: 03/19/201911:38 AM]

*
*
*
04/18/2019 ECF FILER: ELECTRONIC
BRIEF on behalf of Appellants
Delaware & Raritan Canal
Commission,
New
Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture
Development Committee, New
Jersey Water Supply Authority
and State of New Jersey in 19-

JA 8
Date Filed

Docket Text
1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232, filed.
Certificate of Service dated
04/18/2019 by ECF, US mail.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,
19-1231,19-1232]
[Appendix has been removed
from this entry by the Clerk as
it was filed separately]--[Edited

JA 9
Date Filed

Docket Text
04/24/2019 by MS] (MAC)
[Entered: 04/18/2019 08:56 PM]

*
*
*
04/24/2019 ECF FILER: ELECTRONIC
JOINT APPENDIX on behalf of
Appellants Delaware & Raritan
Canal Commission, New Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture
Development Committee, New
Jersey Water Supply Authority
and State of New Jersey in 191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232, filed.
Certificate of service dated

JA 10
Date Filed

Docket Text
04/24/2019 by ECF. [19-1191,
19-1192, 19-1193, 19-1194, 191195, 19-1196, 19-1197, 191198, 19-1199, 19-1200, 191201, 19-1202, 19-1203, 191204, 19-1205, 19-1206, 191207, 19-1208, 19-1209, 191210, 19-1211, 19-1212, 191213, 19-1214, 19-1215, 191216, 19-1217, 19-1218, 191219, 19-1220, 19-1221, 191222, 19-1223, 19-1224, 191225, 19-1226, 19-1227, 191228, 19-1229, 19-1230, 191231, 19-1232] (MAC) [Entered:
04/24/2019 11:20 AM]

*
*
*
04/25/2019 ECF FILER: ELECTRONIC
AMICUS BRIEF on behalf of
Niskanen Center in support of
Appellant/Petitioner,
filed.
Certificate of Service dated
04/25/2019 by ECF. F.R.A.P.
29(a) Permission: YES.[191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 19-

JA 11
Date Filed

Docket Text
1215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (JS)
[Entered: 04/25/2019 10:14 PM]

*
*
*
05/08/2019 ECF FILER: ELECTRONIC
BRIEF on behalf of Appellee
PennEast Pipeline Co LLC in
19-1191, 19-1192,19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232, filed.
Certificate of Service dated
05/08/2019 by 3rd party, ECF.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 19-

JA 12
Date Filed

Docket Text
1206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (JMG)
[Entered: 05/08/2019 04:57 PM]

*
*
*
05/15/2019 Amended
Oral
Argument
Notification
for
Monday,
06/10/2019. Courtroom & Time:
Maris
Courtroom/2:00p.m..
Location: Philadelphia, PA. [191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (TLG)
[Entered: 05/15/2019 03:06 PM]

JA 13
Date Filed

Docket Text

05/15/2019 ECF FILER: ELECTRONIC
AMICUS
BRIEF
with
Supplemental
Appendix
attached on behalf of Interstate
Natural Gas Association of
America,
American
Gas
Association,
American
Petroleum Institute, Chamber
of Commerce of the United
States of America, and National
Association of Manufacturers in
support of Appellee/Respondent,
filed. Certificate of Service
dated 05/15/2019 by ECF.
F.R.A.P. 29(a) Permission: YES.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] - [Entry
edited by the Clerk to reflect
that
Supp.
Appendix
is
attached]--[Edited 05/16/2019

JA 14
Date Filed

Docket Text
by MS] (AMM) [Entered:
05/15/2019 05:33 PM]

*
*
*
05/16/2019 ECF FILER: Motion filed by
Amicus Appellees American
Gas Association, American
Petroleum Institute, Chamber
of Commerce of the United
States of America, Interstate
Natural Gas Association of
America
and
National
Association of Manufacturers in
19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232 to
Extend the Record and File
Supplemental Appendix With
Amicus Brief. Certificate of
Service
dated
05/16/2019.
Service made by ECF. [19-1191,
19-1192, 19-1193, 19-1194, 19-

JA 15
Date Filed

Docket Text
1195, 19-1196, 19-1197, 191198, 19-1199, 19-1200, 191201, 19-1202, 19-1203, 191204, 19-1205, 19-1206, 191207, 19-1208, 19-1209, 191210, 19-1211, 19-1212, 191213, 19-1214, 19-1215, 191216, 19-1217, 19-1218, 191219, 19-1220, 19-1221, 191222, 19-1223, 19-1224, 191225, 19-1226, 19-1227, 191228, 19-1229, 19-1230, 191231, 19-1232] (AMM) [Entered:
05/16/2019 06:36 PM]

05/20/2019 ECF FILER: ELECTRONIC
REPLY BRIEF on behalf of
Appellants Delaware & Raritan
Canal Commission, New Jersey
Department of Environmental
Protection,
New
Jersey
Department of Transportation,
New Jersey Department of
Treasury, New Jersey Motor
Vehicle
Commission,
New
Jersey
State
Agriculture
Development Committee, New
Jersey Water Supply Authority
and State of New Jersey in 191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 19-

JA 16
Date Filed

Docket Text
1203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232, filed.
Certificate of Service dated
05/20/2019 by ECF, US mail.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (MAC)
[Entered: 05/20/2019 06:07 PM]

05/21/2019 ORDER (JORDAN, BIBAS and
NYGAARD, Circuit Judges)
granting Motion by Amicus
Appellees
Natural
Gas
Association of America, et al. for

JA 17
Date Filed

Docket Text
Leave to Extend the Record and
File Supplemental Appendix
with Amicus Brief, filed. Kent A.
Jordan, Authoring Judge. [191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230, 19-1231, 19-1232] (MS)
[Entered: 05/21/2019 04:41 PM]

*
*
*
06/10/2019 ARGUED on Monday, June 10,
2019. Panel: JORDAN, BIBAS
and
*NYGAARD,
Circuit
Judges. Jeremy Feigenbaum
arguing for Appellant New
Jersey
Department
of
Environmental
Protection;
James M. Graziano arguing for
Appellee PennEast Pipeline Co
LLC. *(Participated in Video
Conference). [19-1191, 19-1192,
19-1193, 19-1194, 19-1195, 19-

JA 18
Date Filed

Docket Text
1196, 19-1197, 19-1198, 191199, 19-1200, 19-1201, 191202, 19-1203, 19-1204, 191205, 19-1206, 19-1207, 191208, 19-1209, 19-1210, 191211, 19-1212, 19-1213, 191214, 19-1215, 19-1216, 191217, 19-1218, 19-1219, 191220, 19-1221, 19-1222, 191223, 19-1224, 19-1225, 191226, 19-1227, 19-1228, 191229, 19-1230, 19-1231, 191232]
(PM)
[Entered:
06/10/2019 03:32 PM]

*
*
*
09/10/2019 PRECEDENTIAL
OPINION
Coram: JORDAN, BIBAS and
NYGAARD, Circuit Judges.
Total
Pages:
35.Judge:
JORDAN Authoring. [19-1191,
19-1192, 19-1193, 19-1194, 191195, 19-1196, 19-1197, 191198, 19-1199, 19-1200, 191201, 19-1202, 19-1203, 191204, 19-1205, 19-1206, 191207, 19-1208, 19-1209, 191210, 19-1211, 19-1212, 191213, 19-1214, 19-1215, 191216, 19-1217, 19-1218, 191219, 19-1220, 19-1221, 191222, 19-1223, 19-1224, 191225, 19-1226, 19-1227, 19-

JA 19
Date Filed

Docket Text
1228, 19-1229, 19-1230, 191231,19-1232] (KR) [Entered:
09/10/2019 08:33 AM]

09/10/2019 JUDGMENT, Vacated and
Remanded. Parties to bear their
own costs. [19-1191, 19-1192,
19-1193, 19-1194, 19-1195, 191196, 19-1197, 19-1198, 191199, 19-1200, 19-1201, 191202, 19-1203, 19-1204, 191205, 19-1206, 19-1207, 191208, 19-1209, 19-1210, 191211, 19-1212, 19-1213, 191214, 19-1215, 19-1216, 191217, 19-1218, 19-1219, 191220, 19-1221, 19-1222, 191223, 19-1224, 19-1225, 191226, 19-1227, 19-1228, 191229, 19-1230, 19-1231, 191232] (KR) [Entered: 09/10/2019
08:36 AM]
09/11/2019 ORDER
AMENDING
OPINION (Clerk) It has come to
the attention of the Clerk that
Lela Hollabaugh counsel for
amicus appellees Interstate
Natural Gas Association of
America, et al, was not listed as
counsel on the opinion of this
Court in addition American Gas
Association was not listed as an
amicus appellee. Accordingly, it

JA 20
Date Filed

Docket Text
is hereby ORDERED that the
listing of counsel on the opinion
is amended as follows, filed.
(See Order for Corrections) Nda
regenerated to show American
Gas Association was also added
to the order with counsel. [191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,
19-1231,
19-1232]-[Edited 09/11/2019 by PDB]
(PDB) [Entered: 09/11/2019
11:40 AM]

*
*
*
09/19/2019 ORDER
AMENDING
OPINION (Clerk) It has come to
the attention of the Clerk that
Mark A. Collier and Jeremy
Feigenbaum are employed by
the Office of the Attorney
General of New Jersey, Division

JA 21
Date Filed

Docket Text
of Law, not the Division of
Criminal Justice, filed. [191191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,19-1231, 19-1232] (KR)
[Entered: 09/19/2019 02:42 PM]

*
*
*
10/22/2019 ECF FILER: Petition filed by
Appellee PennEast Pipeline Co
LLC for Rehearing before
original panel and the court en
banc. Certificate of Service
dated 10/22/2019. Service made
by ECF, US mail. [19-1191, 191192, 19-1193, 19-1194, 191195, 19-1196, 19-1197, 191198, 19-1199, 19-1200, 191201, 19-1202, 19-1203, 191204, 19-1205, 19-1206, 191207, 19-1208, 19-1209, 191210, 19-1211, 19-1212, 19-

JA 22
Date Filed

Docket Text
1213, 19-1214, 19-1215, 191216, 19-1217, 19-1218, 191219, 19-1220, 19-1221, 191222, 19-1223, 19-1224, 191225, 19-1226, 19-1227, 191228, 19-1229, 19-1230, 191231,
19-1232]--[Edited
10/23/2019 by KR] (JCM)
[Entered: 10/22/2019 01:33 PM]

*
*
*
10/29/2019 ECF FILER: ELECTRONIC
AMICUS BRIEF on behalf of
Amicus Appellees American
Gas Association, American
Petroleum Institute, Interstate
Natural Gas Association of
America
and
National
Association of Manufacturers in
support of Appellee’s Pettion for
Rehearing.
Certificate
of
Service dated 10/29/2019 by
ECF. [19-1191, 19-1192, 191193, 19-1194, 19-1195, 191196, 19-1197, 19-1198, 191199, 19-1200, 19-1201, 191202, 19-1203, 19-1204, 191205, 19-1206, 19-1207, 191208, 19-1209, 19-1210, 191211, 19-1212, 19-1213, 191214, 19-1215, 19-1216, 191217, 19-1218, 19-1219, 191220, 19-1221, 19-1222, 19-

JA 23
Date Filed

Docket Text
1223, 19-1224, 19-1225, 191226, 19-1227, 19-1228, 191229, 19-1230, 19-1231, 191232]--[Edited 10/30/2019 by
KR]
(AMM)
[Entered:
10/29/2019 04:12 PM]

*
*
*
10/29/2019 ECF FILER: ELECTRONIC
AMICUS BRIEF on behalf of TC
Energy Corporation in support
of Appellee’s petition for
rehearing. Certificate of Service
dated 10/29/2019 by ECF.
F.R.A.P. 29(a) Permission: NO.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,
19-1231,
19-1232]-[Edited 10/30/2019 by KR]
(CES) [Entered: 10/29/2019
04:38 PM]
*

*

*

JA 24
Date Filed

Docket Text

11/05/2019 ORDER (SMITH, Chief Judge,
CHAGARES,
JORDAN,
KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS
and
NYGAARD*,
Circuit
Judges) denying Petition En
Banc and Panel Rehearing filed
by Appellee PennEast Pipeline
Co LLC. Jordan, Authoring
Judge. *Judge Nygaard’s vote is
limited to panel rehearing only.
[19-1191, 19-1192, 19-1193, 191194, 19-1195, 19-1196, 191197, 19-1198, 19-1199, 191200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,
19-1231,
19-1232]-[Edited 11/05/2019 by LML to
attach corrected order] (LMR)
[Entered: 11/05/2019 08:04 AM]
11/13/2019 MANDATE ISSUED, filed.
1191, 19-1192, 19-1193,
1194, 19-1195, 19-1196,
1197, 19-1198, 19-1199,

[19191919-

JA 25
Date Filed

Docket Text
1200, 19-1201, 19-1202, 191203, 19-1204, 19-1205, 191206, 19-1207, 19-1208, 191209, 19-1210, 19-1211, 191212, 19-1213, 19-1214, 191215, 19-1216, 19-1217, 191218, 19-1219, 19-1220, 191221, 19-1222, 19-1223, 191224, 19-1225, 19-1226, 191227, 19-1228, 19-1229, 191230,
19-1231,
19-1232]-[Edited 11/13/2019 by TMK]
(TMM) [Entered: 11/13/2019
09:30 AM]
*

*

*

JA 26
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
________________
No. 3:18-cv-01597
________________
IN RE: PENNEAST PIPELINE COMPANY, LLC,
V.

Plaintiff,

A PERMANENT EASEMENT FOR 1.92 ACRES AND
TEMPORARY EASEMENT FOR 2.05 ACRES IN HOPEWELL
TOWNSHIP, MERCER COUNTY, NEW JERSEY, TAX
PARCEL NO. 1106-59-13.01, et al.,
Defendants.
________________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

02/06/2018

1

COMPLAINT
against
A
PERMANENT
EASEMENT
FOR
1.92
ACRES
AND
TEMPORARY
EASEMENT
FOR
2.05
ACRES
IN
HOPEWELL
TOWNSHIP,
MERCER COUNTY, NEW
JERSEY, TAX PARCEL NO.
1106-59-13.01, COUNTY OF
MERCER, JERSEY CENTRAL
POWER
AND
LIGHT
COMPANY, STATE OF NEW
JERSEY,
BY
THE

JA 27
Date Filed

#

Docket Text
SECRETARY OF THE NEW
JERSEY DEPARTMENT OF
ENVIRONMENTAL
PROTECTION,
TOWNSHIP
OF HOPEWELL, VERIZON
NEW JERSEY, INC. ( Filing
and Admin fee $ 400 receipt
number 0312-8457293), filed by
PENNEAST
PIPELINE
COMPANY,
LLC.
(Attachments: # 1 Civil Cover
Sheet, # 2 NOTICE OF
CONDEMNATION,
#
3
PROPOSED ORDER TO SHOW
CAUSE, # 4 Brief, # 5
DECLARATION OF DANIEL
MURPHY, # 6 DECLARATION
OF JEFFREY ENGLAND AND
EXHIBITS, # 7 Text of Proposed
Order)(GRAZIANO,
JAMES)
(Entered: 02/06/2018)

03/22/2018

04/02/2018

21

36

*
*
*
ANSWER to Complaint with
JURY
DEMAND
by
TOWNSHIP OF HOPEWELL.
(DUGGAN,
TIMOTHY)
(Entered: 03/22/2018)
*
*
*
ANSWER to Complaint with
JURY DEMAND (with Cert of
Service) by VERIZON NEW
JERSEY, INC..(DALCORTIVO,

JA 28
Date Filed

#

Docket Text
KATHLEEN)
04/02/2018)

04/03/2018

05/17/2018

38

44

(Entered:

*
*
*
ANSWER to Complaint with
JURY DEMAND by COUNTY
OF MERCER. (Attachments: #
1 Supplement Cover Letter)
(ADEZIO, PAUL) (Entered:
04/03/2018)
*
*
*
BRIEF
Final
Summation
(Attachments: # 1 Brief, # 2
Certification Appleget, # 3
Certification DeChristie, # 4
Certification
Gates,
#
5
Certification
Payne,
#
6
Certification
Yeany,
#
7
Certificate
of
Service)
(COLLIER, MARK) (Entered:
05/17/2018)
*
*
*
BRIEF
Plaintiff
PennEast
Pipeline Company, LLC Final
Written
Summation
(Attachments: # 1 Certificate of
Service)(GRAZIANO, JAMES)
(Entered: 05/18/2018)

05/18/2018

46

05/21/2018

47

BRIEF (DUGGAN, TIMOTHY)
(Entered: 05/21/2018)

06/04/2018

48

BRIEF
Pipeline

Plaintiff
PennEast
Company,
LLC

JA 29
Date Filed

#

Docket Text
Response to Closing Argument
of the State of New Jersey
(Attachments: # 1 Certificate of
Service) (GRAZIANO, JAMES)
(Entered: 06/04/2018)
*
*
*
BRIEF (DUGGAN, TIMOTHY)
(Entered: 12/10/2018)

12/10/2018

59

12/10/2018

60

BRIEF (DUGGAN, TIMOTHY)
(Entered: 12/10/2018)

12/14/2018

61

OPINION filed. Signed by
Judge Brian R. Martinotti on
12/14/2018. (Attachments: # 1
Exhibit A) (mps) (Entered:
12/14/2018)

12/14/2018

62

VACATED - ORDER Denying
the State Defendants’ request
for
dismissal;
PennEast’s
application
for
orders
of
condemnation
and
for
preliminary injunctive relief
allowing immediate possession
of the respective Rights of Way
in advance of any award of just
compensation
is
Granted;
PennEast shall post security in
the form of a surety bond into
the Courts Registry pursuant to
Local Civil Rule 67.1(a); upon
PennEast’s post of appropriate
security,
PennEast
is

JA 30
Date Filed

#

Docket Text
authorized to immediately enter
and take possession of the
Rights of Way for all purposes
allowed under the FERC Order;
The
Court
appoints
the
individuals listed herein as
Special Masters/Condemnation
Commissioners to adjudicate
and determine compensation;
CASE
MANAGEMENT
CONFERENCE
set
for
2/14/2019, at 10:00AM in
courtroom 1; PennEast shall
submit a revised, case-specific
forms of orders by 1/4/2019..
Signed by Judge Brian R.
Martinotti
on
12/14/2018.
(Attachments: # 1 Exhibit
A)(mps) (Entered: 12/14/2018)

12/28/2018

64

12/28/2018

65

*
*
*
MOTION for Reconsideration
by STATE OF NEW JERSEY,
BY THE SECRETARY OF THE
NEW JERSEY DEPARTMENT
OF
ENVIRONMENTAL
PROTECTION. (Attachments:
# 1 Brief, # 2 Certificate of
Service, # 3 Text of Proposed
Order) (COLLIER, MARK)
(Entered: 12/28/2018)
MOTION to Stay by STATE
OF NEW JERSEY, BY THE

JA 31
Date Filed

#

Docket Text
SECRETARY OF THE NEW
JERSEY
DEPARTMENT
OF
ENVIRONMENTAL
PROTECTION. (Attachments:
# 1 Brief, # 2 Certificate of
Service, # 3 Text of Proposed
Order) (COLLIER, MARK)
(Entered: 12/28/2018)

01/08/2019

70

01/08/2019

71

01/11/2019

73

*
*
*
BRIEF in Opposition filed by
PENNEAST
PIPELINE
COMPANY,
LLC
re
64
MOTION for Reconsideration
(Attachments: # 1 Certificate of
Service)(GRAZIANO, JAMES)
(Entered: 01/08/2019)
BRIEF in Opposition filed by
PENNEAST
PIPELINE
COMPANY,
LLC
re
65
MOTION to Stay (Attachments:
#
1
Certificate
of
Service)(GRAZIANO, JAMES)
(Entered: 01/08/2019)
*
*
*
NOTICE OF APPEAL as to 62
Order,,, 61 Opinion by STATE
OF NEW JERSEY, BY THE
SECRETARY OF THE NEW
JERSEY DEPARTMENT OF
ENVIRONMENTAL
PROTECTION. Filing fee $ 505,
receipt number 0312-9301226.

JA 32
Date Filed

#

Docket Text
The Clerk’s Office hereby
certifies the record and the
docket sheet available through
ECF to be the certified list in
lieu of the record and/or the
certified copy of the docket
entries. (Attachments: # 1
Certificate of Service)(MILES,
KRISTINA)
(Entered:
01/11/2019)

01/15/2019

01/23/2019

75

82

*
*
*
REPLY BRIEF to Opposition to
Motion filed by STATE OF
NEW JERSEY, BY THE
SECRETARY OF THE NEW
JERSEY DEPARTMENT OF
ENVIRONMENTAL
PROTECTION re 65 MOTION
to Stay (Attachments: # 1
Certificate
of
Service)
(COLLIER, MARK) (Entered:
01/15/2019)
*
*
*
ORDER
that
the
State
Defendants’
Motion
for
Reconsideration is denied. The
State Defendants’ Motion to
Stay is denied as moot. Signed
by Judge Brian R. Martinotti on
1/23/2019. (Attachments: # 1
Exhibit A, # 2 Exhibit B) (mps)
(Entered: 01/23/2019)

JA 33
Date Filed

#

Docket Text

01/25/2019

83

VACATED - ORDER that
PennEast has substantive right
to condemn a permanent Right
of Way and temporary easement
to be taken on the subject
property within this Order.
PennEast shall post security in
the form of a surety bond into
the Court’s Registry in the
amount of $112,200.00. The
Court, along with the Special
Master/Condemnation
Commissioners, shall hold a
case management conference on
2/14/2019, at 10:00 AM in
Courtroom 1, regarding the
protocol for determining just
compensation, Signed by Judge
Brian
R.
Martinotti
on
1/25/2019. (mmh) (Entered:
01/25/2019)

01/25/2019

84

USCA Case Number 19-1191 for
73 Notice of Appeal (USCA)
filed by STATE OF NEW
JERSEY,
BY
THE
SECRETARY OF THE NEW
JERSEY DEPARTMENT OF
ENVIRONMENTAL
PROTECTION. USCA Case
Manager
Kirsi
(Document
Restricted - Court Only) (ca3kr)
(Entered: 01/25/2019)

JA 34
Date Filed

#

Docket Text
*

*

*

JA 35
Order Issuing Certificates, PennEast Pipeline
Co., LLC, 162 FERC ¶ 61,053 (Jan. 19, 2018)
1. On September 24, 2015, PennEast Pipeline
Company, LLC (PennEast) filed an application
pursuant to section 7(c) of the Natural Gas Act (NGA) 1
and Parts 157 and 284 of the Commission’s
regulations, 2 requesting authorization to construct
and operate a new 116-mile natural gas pipeline from
Luzerne County, Pennsylvania, to Mercer County,
New Jersey, along with three laterals extending off
the mainline, a compression station, and appurtenant
above ground facilities (PennEast Project). The project
is designed to provide up to 1,107,000 dekatherms per
day (Dth/d) of firm transportation service. PennEast
also requests a blanket certificate under Part 284,
Subpart G of the Commission’s regulations to provide
open-access transportation services, and a blanket
certificate under Part 157, Subpart F of the
Commission’s regulations to perform certain routine
construction activities and operations.
2. As explained herein, we find that the benefits that
the PennEast Project will provide to the market
outweigh any adverse effects on existing shippers,
other pipelines and their captive customers, and on
landowners and surrounding communities. Further,
as set forth in the environmental discussion below, we
agree with Commission staff’s conclusion in the
Environmental Impact Statement (EIS) that the
project will result in some adverse environmental
impacts, but that these impacts will be reduced to
1

15 U.S.C. § 717f(c) (2012).

2

18 C.F.R. pt. 157 (2017).

JA 36
acceptable levels with the implementation of the
applicant’s
proposed
mitigation
and
staff’s
recommendations, as modified herein, and adopted as
conditions in the attached Appendix A of this order.
Therefore, for the reasons stated below, we grant the
requested authorizations, subject to the conditions
discussed herein.
I.

Background and Proposal

3. PennEast 3 is a Delaware limited liability
company organized and existing under the laws of the
State of Delaware, managed by UGI Energy Services,
LLC, pursuant to a Project Management Agreement.
Upon the commencement of operations proposed in its
application, PennEast will become a natural gas
company within the meaning of section 2(6) of the
NGA, 4 and will be subject to the Commission’s
jurisdiction.
A. Facilities and Services
4. PennEast proposes to construct a new greenfield
pipeline system to provide up to 1,107,000 Dth/d of
firm natural gas transportation service to markets in
New Jersey, New York, Pennsylvania, and
surrounding states. The project extends from various
receipt point interconnections with the interstate
PennEast is a joint venture owned by Red Oak Enterprise
Holdings, Inc., a subsidiary of AGL Resources Inc. (20 percent
interest); NJR Pipeline Company, a subsidiary of New Jersey
Resources (20 percent interest); SJI Midstream, LLC, a
subsidiary of South Jersey Industries (20 percent interest); UGI
PennEast, LLC, a subsidiary of UGI Energy Services, LLC (20
percent interest); and Spectra Energy Partners, LP (20 percent
interest).

3

4

15 U.S.C. § 717a(6) (2012).

JA 37
natural gas pipeline system of Transcontinental Gas
Pipe Line Company, LLC (Transco) and with
gathering systems in the eastern Marcellus Shale
region operated by UGI Energy Services, LLC,
Williams Partners, L.P., and Energy Transfer
Partners, L.P., to multiple delivery point
interconnections in natural gas-consuming markets in
New Jersey and Pennsylvania, terminating at a
delivery point with Transco in Mercer County, New
Jersey. 5 PennEast states that the project is designed
to bring lower cost natural gas to markets in New
Jersey, Pennsylvania, and New York and to provide
shippers with additional supply flexibility, diversity,
and reliability. 6
5. PennEast proposes to construct the following
facilities:
•

•

approximately 116 miles of 36-inch-diameter
mainline transmission pipeline originating in
Luzerne County, Pennsylvania, and extending
to Mercer County, New Jersey, traversing
Luzerne, Carbon, Northampton, and Bucks
Counties, Pennsylvania, and Hunterdon and
Mercer Counties, New Jersey;
three lateral pipelines extending off of the
mainline consisting of:
• the approximately 2.1-mile, 24-inchdiameter
Hellertown
Lateral
in
Northampton County, Pennsylvania to
connect with Columbia Gas Transmission,
LLC, and UGI Utilities, Inc.;

5

See PennEast’s Application at 3.

6

Id. at 4, 8-10.

JA 38
the approximately 0.6-mile, 12-inchdiameter Gilbert Lateral in Hunterdon
County, New Jersey to connect with NRG
REMA, LLC, and Elizabethtown Gas at the
Gilbert Electric Generating Station; and
• the approximately 1.54-mile, 36-inchdiameter
Lambertville
Lateral
in
Hunterdon County, New Jersey to connect
with Algonquin Gas Transmission, LLC,
and Texas Eastern Transmission, LP;
• one new compressor station in Carbon County,
Pennsylvania; and
• various associated aboveground facilities,
including interconnects, launchers, receivers,
and mainline block valves.
PennEast estimates that the proposed facilities will
cost approximately $1.13 billion.
6. PennEast states that it conducted an open season
for the project from August 11 to August 29, 2014. As
a result of the open season, PennEast states that it has
executed long-term precedent agreements with the
following 12 shippers for 990,000 Dth/d of firm
transportation service, or approximately 90 percent of
the project’s capacity:
•

Shipper (* indicates PennEast Contracted
Affiliate)
Volumes (Dth/d)
New Jersey
Company*

Natural

Gas

180,000

PSEG Power, LLC*

125,000

Texas Eastern Transmission,
LP*

125,000

South Jersey Gas Company*

105,000

JA 39
ConEd of New York

100,000

Elizabethtown Gas*

100,000

UGI Energy Services, Inc.*

100,000

Cabot Oil & Gas Corp.

50,000

Talen Energy Marketing, LLC

50,000

Enerplus Resources Corp.

30,000

Warren Resources, Inc.

15,000

NRG Rema LLC

10,000

PennEast proposes to provide service to the project
shippers at negotiated rates.
7. PennEast also requests approval of its pro forma
tariff. PennEast proposes to offer open-access
transportation services under Rate Schedules FTS
(Firm Transportation Service), ITS (Interruptible
Transportation Service), and PALS (Parking and
Lending Service).
B. Blanket Certificates
8. PennEast requests a blanket certificate of public
convenience and necessity pursuant to Part 284,
Subpart G of the Commission’s regulations
authorizing PennEast to provide transportation
service to customers requesting and qualifying for
transportation service under its proposed FERC Gas
Tariff, with pre-granted abandonment authorization. 7
9. PennEast requests a blanket certificate of public
convenience and necessity pursuant to Part 157,
Subpart F of the Commission’s regulations

7

18 C.F.R. § 284.221 (2017).

JA 40
authorizing certain future facility
operation, and abandonment. 8

construction,

II. Procedural Issues
A. Notice, Interventions,
Comments

Protests,

and

10. Notice of PennEast’s application was published in
the Federal Register on October 15, 2015. 9 Timely,
unopposed motions to intervene are granted by
operation of Rule 214 of the Commission’s Rules of
Practice and Procedure. 10 Late interventions were
granted by notice issued on March 23, 2017, and May
18, 2017.
11. Numerous entities, landowners, individuals, and
New Jersey State representatives filed protests and
adverse comments raising the following issues: (1) the
need for an evidentiary hearing; (2) the need for the
project; and (3) whether the use of eminent domain is
appropriate for this project. On November 13, 2015,
PennEast filed a Motion for Leave to Answer and
Answer to the protests, as well as to various comments
filed on the project. Although the Commission’s Rules
of Practice and Procedure generally do not permit
answers to protests, 11 we will accept PennEast’s
answer because it clarifies the concerns raised and
provides information that has assisted in our decision
making. These concerns are addressed below.

8

Id. § 157.204 (2017).

9

80 Fed. Reg. 62,068 (2015).

10

18 C.F.R. § 385.214 (2017).

11

Id. § 385.214(c) (2017).

JA 41
12. In addition, numerous comments were filed
raising concerns over the environmental impacts of
the project. These comments are addressed in the
Final Environmental Impact Statement (EIS) and, as
appropriate, below.
B. Request for Evidentiary Hearing
13. New Jersey Senator Shirley K. Turner, New
Jersey Assemblyman Reed Gusciora, and New Jersey
Assemblywoman Elizabeth Muoio requested an
evidentiary hearing to determine the need for the
project, and explore whether less disruptive, more
cost-effective alternatives exist to meet demand.
Similarly, the New Jersey Conservation Foundation
(NJCF) and Stony Brook-Millstone Watershed
Association (Stony Brook) assert that a hearing is
necessary in order to develop a record to determine the
public benefits of the project and whether the project
is viable without subsidies.
14. An evidentiary, trial-type hearing is necessary
only where there are material issues of fact in dispute
that cannot be resolved on the basis of the written
record. 12 No party has raised a material issue of fact
that the Commission cannot resolve on the basis of the
written record. As demonstrated by the discussion
below, the existing written record provides a sufficient
basis to resolve the issues relevant to this proceeding.
The Commission has satisfied the hearing
requirement by giving all interested parties a full and
complete opportunity to participate through
12 See, e.g., Southern Union Gas Co. v. FERC, 840 F.2d 964, 970
(D.C. Cir. 1988); Dominion Transmission, Inc., 141 FERC
¶ 61,183, at P 15 (2012).

JA 42
evidentiary submission in written form. 13 Therefore,
we will deny the request for a trial-type evidentiary
hearing.
III. Discussion
15. As PennEast’s proposed pipeline system would be
used to transport natural gas in interstate commerce
subject to the Commission’s jurisdiction, the
construction and operation of the facilities are subject
to the requirements of subsections (c) and (e) of section
7 of the NGA. 14
A. Application of the Certificate Policy
Statement
16. The Certificate Policy Statement provides
guidance for evaluating proposals to certificate new
construction. 15 The Certificate Policy Statement
establishes criteria for determining whether there is a
need for a proposed project and whether the proposed
project will serve the public interest. The Certificate
Policy Statement explains that in deciding whether to
authorize the construction of major new pipeline
facilities, the Commission balances the public benefits
against the potential adverse consequences. The
Commission’s goal is to give appropriate consideration
to the enhancement of competitive transportation
alternatives, the possibility of overbuilding,
subsidization by existing customers, the applicant’s
13

Moreau v. FERC, 982 F.2d 556, 568 (D.C. Cir. 1993).

14

15 U.S.C. §§ 717f(c), (e) (2012).

15 Certification of New Interstate Natural Gas Pipeline Facilities,
88 FERC ¶ 61,227 (1999), clarified, 90 FERC ¶ 61,128 (2000),
further clarified, 92 FERC ¶ 61,094 (2000) (Certificate Policy
Statement).

JA 43
responsibility for unsubscribed capacity, the
avoidance of unnecessary disruptions of the
environment, and the unneeded exercise of eminent
domain in evaluating new pipeline facilities
construction.
17. Under this policy, the threshold requirement for
pipelines proposing new projects is that the pipeline
must be prepared to financially support the project
without relying on subsidization from its existing
customers. The next step is to determine whether the
applicant has made efforts to eliminate or minimize
any adverse effects the project might have on the
applicant’s existing customers, existing pipelines in
the market and their captive customers, or
landowners and communities affected by the
construction. If residual adverse effects on these
interest groups are identified after efforts have been
made to minimize them, we will evaluate the project
by balancing the evidence of public benefits to be
achieved against the residual adverse effects. This is
essentially an economic test. Only when the benefits
outweigh the adverse effects on economic interests
will we proceed to consider the environmental analysis
where other interests are addressed.
1.

Subsidization
and
Existing Customers

Impact

on

18. As discussed above, the threshold requirement for
pipelines proposing new projects is that the pipeline
must be prepared to financially support the project
without relying on subsidization from existing
customers. As PennEast is a new company, it has no
existing customers. As such, there is no potential for

JA 44
subsidization on PennEast’s system or degradation of
service to existing customers.
2.

Need for the Project

19. Numerous parties and commenters challenge the
need for the project. 16 They raise a variety of
arguments including: (1) insufficient demand for
natural gas in New Jersey and Pennsylvania; (2) the
need for a regional analysis to determine if the project
is needed; (3) the availability of alternatives, including
renewable energy and capacity on existing and
proposed interstate pipelines, to meet future demand;
(4) the public benefits of the project, including cost
savings, supply flexibility and reliability, and local
employment impacts are unfounded or are overstated;
(5) the use of precedent agreements with affiliated
entities to demonstrate project need; and (6) that a
portion of the gas transported on the project may be
exported.
20. A number of commenters claim that the project is
not needed because there is little or no forecasted load
growth in New Jersey and Pennsylvania. 17 In
Many of the commenters conflate the balancing of economic
benefits (market need) and effects under the Certificate Policy
Statement with the distinct description of purpose and need in
the final EIS. The purpose and need statement in the final EIS
complied with Council on Environmental Quality (CEQ)
regulations that provide that this statement “shall briefly specify
the underlying purpose and need to which the agency is
responding in proposing the alternatives including the proposed
actions” for purposes of its environmental analysis. 40 C.F.R.
§ 1502.13 (2017).
16

17 See, e.g., October 29, 2015 Comments of NJCF at 9; February
11, 2016 Comments of Delaware Riverkeeper (citing attached
affidavit of David Berman, Labyrinth Consulting Services);

JA 45
addition, the New Jersey Division of Rate Counsel
(NJRC) cites to filings made by local distribution
companies (LDCs) before state regulatory agencies in
Pennsylvania and New Jersey which show that the
peak day requirements of the LDCs will be largely
stable through 2020, and can be met through existing
supply arrangements. 18
21. Numerous commenters suggest that increased
use of renewable resources to generate electricity and
energy conservation could eliminate the need for the
project. Several other commenters claim that there is
no need to construct a new pipeline, as PennEast’s
shippers could source gas on existing pipelines or on
other to be constructed, but already-authorized
pipeline capacity. 19 NJRC states that the fact that
utilization rates of several long-haul pipelines
declined from 2007 to 2013 suggests that there is
available firm capacity on these existing pipelines. 20
October 27, 2015 Comments of the West Amwell Citizens Against
the Pipeline.
See September 12, 2016 Comments of NJCF (citing attached
Affidavit of David E. Dismukes). On October 17, 2016, PennEast
filed an answer to NJRC. On November 14, 2016, the New Jersey
Division of Rate Council (NJRC) filed a Motion for Leave to
Answer and Answer to PennEast. Although the Commission’s
Rules of Practice and Procedure generally do not permit answers
to answers, we will accept NJRC’s answers because it clarifies
the concerns raised and provides information that has assisted in
our decision making.
18

19

See, e.g., October 29, 2015 Comments of NJCF at 10.

20 September 12, 2016 Comments of NJCF at 6-8 (citing Denny
Young, Black & Veatch, Has Emerging Natural Gas Shale
Production Affected Financial Performances of Interstate
pipelines? (2013).

JA 46
22. Multiple commenters assert that PennEast’s
claims that the project will provide cost-savings for
end users, and provide increased reliability and
supply diversity are unfounded or overstated. 21 The
NJCF filed a report prepared by Skipping Stone, LLC,
(Skipping Stone Report) which challenges the findings
in the Concentric study filed by PennEast 22 that the
PennEast Project would lower costs to consumers. 23
Among other things, the Skipping Stone Report
concludes that local gas distribution companies
already have more than enough capacity to meet peak
winter demand, suggesting that increased demand by
providers of gas-fired electric generation could be
more cost effectively met by dual fuel switching or by
purchasing gas from LNG facilities, and that the
PennEast Project could increase, rather than decrease
costs to consumers. Commenters also claim that the
employment and economic benefits of the project
See, e.g., November 14 Answer of NJRC, October 27, 2015
Comments of the West Amwell Citizens Against the Pipeline.

21

In Exhibit F-1, Resource Report 5, PennEast submitted a study
by Concentric Energy Advisors, Estimated Energy Market
Savings from Additional Pipeline Infrastructure Serving Eastern
Pennsylvania and New Jersey) (Concentric Study) that finds that
the project would provide increased access to low-cost natural gas
in New Jersey and Pennsylvania that could save consumers
nearly $900 million. Resource Report 5 also includes a study by
Econsult Solutions & Drexel University, Economic Impact Report
and Analysis: PennEast Pipeline Project Economic Impact
Analysis (2015) (Econsult Study) that estimates the total (direct,
indirect, and induced) jobs that would be supported during
construction and operation of the project.
22

See Report of Skipping Stone, LLC, attached to NJCF’s
December 1, 2016 Comments (Skipping Stone Report).

23

JA 47
contained in the Econsult study cited by PennEast
have been overstated, possibly significantly so. 24
23. Several commenters allege that because a large
portion of the project’s capacity has been subscribed by
affiliates of the pipeline, additional evidence of need
must be presented as precedent agreements with
pipeline affiliates may not be the result of an “armslength negotiation,” or reflect the competitive
market. 25 Commenters further claim that the project
is being cross-subsidized by the captive customers of
the affiliated shippers, and may not be financially
viable without these subsidies. 26
24. The NJCF and Stony Brook claim that the NGA
requires the Commission to evaluate the need for new
pipeline infrastructure on a regional basis. 27 They
state that the public interest cannot be effectively
safeguarded through the approval of individual
pipelines without coordinated planning to ensure that
pipeline proposal fits within long-term, regional plans.
Therefore, they assert that the Commission should
implement a planning process for natural gas
infrastructure development that is similar to the
planning process for electric transmission.
See November 7, 2015 Comments of NJCF (citing attached
Report of the Goodman Group, ltd.), September 8, 2016
Comments of the NJCF; September 8, 2016 Comments of Jeffrey
R. Shafer.
24

25

Id. at 9-10.

26 See October 20, 2016 Comments of the Eastern Environmental
Law Center, citing attached Report of Dr. Steve Isser, “Natural
Gas Pipeline Certification and Ratemaking.
27

NJCF Comments at 24-27.

JA 48
25. Finally, a few commenters contend that the
PennEast Project is not being proposed to benefit
United States markets but to support the growing
LNG export market. 28
PennEast’s Answers
26. PennEast filed several answers disputing
commenters’ claims that the project was not needed.
PennEast maintains that that substantial need for the
project has been demonstrated by precedent
agreements for long-term firm service for
approximately 90 percent of the project’s capacity. 29
PennEast filed a study that responds to NJRC’s
assessment of the need for the project that explains
that shippers contract for pipeline capacity for a
variety of reasons beyond simply the need to be able to
meet peak demands, including costs savings, supply
security, and price stability. 30 PennEast asserts that
the various studies by market experts that it filed in
the proceeding provide ample market data and
analysis supporting the market need for the project.
Commission Determination
27. The Certificate Policy Statement established a
policy under which the Commission will allow an
applicant to rely on a variety of relevant factors to
demonstrate need, rather than continuing to require
See, e.g., October 27, 2015 Comments of West Amwell Citizens
Against the Pipeline at 15-17; February 11, 2016 Comments of
Delaware Riverkeeper (attaching opinion of Labyrinth
Consulting Services, Inc.).
28

29

See PennEast’s October 17, and December 1, 2016 Answers.

30 PennEast’s October 17 Answer (attaching report of Concentric
Energy Advisors, Inc).

JA 49
that a percentage of the proposed capacity be
subscribed under long-term precedent or service
agreements. 31 These factors might include, but are not
limited to, precedent agreements, demand projections,
potential cost savings to consumers, or a comparison
of projected demand with the amount of capacity
currently serving the market. 32 The Commission
stated that it will consider all such evidence submitted
by the applicant regarding need. Nonetheless, the
Certificate Policy Statement made clear that,
although precedent agreements are no longer required
to be submitted, they are still significant evidence of
demand for the project. 33 As the court stated in
Minisink Residents for Environmental Preservation &
Safety v. FERC, and again in Myersville Citizens for a
Rural Community, Inc., v. FERC, nothing in the
Certificate Policy Statement or in any precedent
construing it suggest that the policy statement
requires, rather than permits, the Commission to
assess a project’s benefits by looking beyond the
market need reflected by the applicant’s precedent
agreements with shippers. 34 Moreover, it is current
Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747.
Prior to the Certificate Policy Statement, the Commission
required a new pipeline project to have contractual commitments
for at least 25 percent of the proposed project’s capacity. See
Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,743.
PennEast, at 90 percent subscribed, would have satisfied this
prior, more stringent, requirement.
31

32

Id. at 61,747.

33

Id. at 61,748.

Minisink Residents for Envtl. Pres. & Safety v. FERC, 762 F.3d
97, 110 n.10 (D.C. Cir. 2014); see also Myersville Citizens for a
Rural Cmty., Inc., v. FERC, 183 F.3d 1301, 1311 (D.C. Cir. 2015).

34

JA 50
Commission policy to not look beyond precedent or
service agreements to make judgments about the
needs of individual shippers. 35
28. We find that PennEast has sufficiently
demonstrated that there is market demand for the
project. PennEast has entered into long-term, firm
precedent agreements with 12 shippers for 990,000
Dth/d of firm transportation service, approximately 90
percent of the project’s capacity. 36 Further, Ordering
Paragraph (C) of this order requires that PennEast file
a written statement affirming that it has executed
contracts for service at the levels provided for in their
precedent
agreements
prior
to
commencing
construction. PennEast has entered into precedent
agreements for long-term, firm service with 12
shippers. Those shippers will provide gas to a variety
of end users, including local distribution customers,
electric generators, producers, and marketers and
those shippers have determined, based on their
assessment of the long-term needs of their particular
customers and markets, that there is a market for the
natural gas to be transported and the PennEast
Project is the preferred means for delivering or
receiving that gas. Given the substantial financial
commitment required under these contracts by project
Id. at 61,744 (citing Transcontinental Gas Pipe Line Corp., 82
FERC ¶ 61,084, at 61,316 (1998)).
35

Constitution Pipeline Company, LLC, 154 FERC ¶ 61,046, at P
21 (2016) (“Although the Certificate Policy Statement broadened
the types of evidence certificate applicants may present to show
the public benefits of a project, it did not compel an additional
showing … [and] [n]o market study or other additional evidence
is necessary where … market need is demonstrated by contracts
for 100 percent of the project’s capacity.”).

36

JA 51
shippers, we find that these contracts are the best
evidence that the service to be provided by the project
is needed in the markets to be served. We also find
that end users will generally benefit from the project
because it would develop gas infrastructure that will
serve to ensure future domestic energy supplies and
enhance the pipeline grid by providing additional
transportation capacity connecting sources of natural
gas to markets in Pennsylvania and New Jersey.
29. We are unpersuaded by the studies submitted by
commenters in their attempt to show that there is
insufficient demand for the project and by their
assertions that the Commission is required to examine
the need for pipeline infrastructure on a regional
basis. Commission policy is to examine the merits of
individual projects and assess whether each project
meets the specific need demonstrated. While the
Certificate Policy Statement permits the applicant to
show need in a variety of ways, it does not suggest that
the Commission should examine a group of projects
together and pick which project(s) best serve an
estimated future regional demand. In support of their
arguments regarding demand, commenters cite
general forecasts for load growth in Pennsylvania and
New Jersey or certain LDC supply forecast projections
through 2020 made to state commissions. 37 However,
projections regarding future demand often change and
are influenced by a variety of factors, including
economic growth, the cost of natural gas,
environmental regulations, and legislative and
regulatory decisions by the federal government and
individual states. Given this uncertainty associated
37

NJRC Comments at 5.

JA 52
with long-term demand projections, including those
presented in the studies noted by commenters above,
where an applicant has precedent agreements for
long-term firm service, the Commission deems the
precedent agreements to be the better evidence of
demand. The Commission evaluates individual
projects based on the evidence of need presented in
each proceeding. Under section 7(c) of the NGA, the
Commission shall issue a certificate for any proposal
found to be required by the public convenience and
necessity. 38 Where, as here, it is demonstrated that
specific shippers have entered into precedent
agreements for project service, the Commission places
substantial reliance on those agreements to find that
the project is needed.
30. Commenters also overlook the fact that shippers
on PennEast’s system have noted several reasons
other than load growth for entering into precedent
agreements with PennEast to source gas from the
Marcellus Shale region. 39 Project shippers state they
believe that the project will provide a reliable, flexible,
and diverse supply of natural gas that will lead to
increased price stability, and the opportunity to
expand natural gas service in the future. 40 Based on

38

15 U.S.C. § 717(f) (2012).

See Exhibit F-1 of PennEast’s application, Resource Report 1 General Project Description, section 1.1 - Purpose and Need.
39

40 See Motion to Intervene and Comments in Support of New
Jersey Natural Gas Co. (filed October 28, 2015); Pivotal Utility
Holdings, Inc., d/b/a Elizabethtown Gas (filed October 28, 2015);
Consolidated Edison Company of New York, Inc. (filed October
29, 2015); Texas Eastern Transmission, LP (filed October 29,

JA 53
the record before us, we find no reason to second guess
the business decisions of these shippers that they need
the service to which they have subscribed.
31. With respect to the ability of alternatives to meet
the project’s need, our environmental review
considered the potential for renewable energy and
energy conservation, and the availability of capacity
on existing or proposed natural gas systems, to serve
as alternatives to the project and concluded that they
do not presently serve as practical alternatives to the
project. 41 Specifically, the final EIS stated that
renewable energy and energy efficiency measures to
reduce the dependence on natural gas is not a
comparable replacement for the transportation of
natural gas to be provided by the project. 42 Moreover,
the final EIS found that there is not sufficient
available capacity on existing pipeline systems to
transport all of the volumes contemplated to be
transported by the PennEast Project to the range of
delivery points proposed by PennEast, and that
expansion of existing pipeline systems was not a
feasible alternative. 43 The EIS also found that the
proposed Atlantic Sunrise Project could not serve as a
practical system alternative because there is customer
demand for both projects (noting that approximately
100 percent of capacity of the Atlantic Sunrise Project,
and 90 percent of the capacity of the PennEast Project
2015); PSEG Energy Resources & Trade LLC (filed October 29,
2015); and South Jersey Gas (filed October 29, 2015).
41

Final EIS at 3-1 - 3-8.

42

Id. at 3-3.

43

Id. at ES-16; 3-4 - 3-7.

JA 54
has been contracted for), as well as the fact that the
Atlantic Sunrise Project would not provide for the
same delivery points for customers that have been
identified for the PennEast Project. 44
32. We also find that NJRC’s assertion that the
PennEast Project is not needed based on the fact that
pipeline utilization on long-haul pipelines from the
Gulf Coast to markets in the Northeast has declined
in recent years is unavailing. Pipeline utilization rates
reflect actual gas flows over the facilities but do not
indicate whether there is available firm capacity on
the pipelines. As indicated above, the EIS found that
there was insufficient firm capacity available on
existing pipeline systems to provide the service
proposed by PennEast.
33. Moreover, the fact that 6 of the 12 shippers on the
PennEast Project are affiliated with the project’s
sponsors does not require the Commission to look
behind the precedent agreements to evaluate project
need. 45 There is no evidence in the record of any
Id. at 3-7 - 3-8. The Atlantic Sunrise Project was authorized by
Commission order issued February 3, 2017 (see Transcontinental
Gas Pipe Line Company, LLC, 158 FERC ¶ 61,125 (2017)) and is
currently under construction.
44

Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277, at P 57
(2002) (“as long as the precedent agreements are long-term and
binding, we do not distinguish between pipelines’ precedent
agreements with affiliates or independent marketers in
establishing the market need for a proposed project”); Eastern
Shore Natural Gas Co., 132 FERC ¶ 61,204, at P 31 (2010) (“the
Commission gives equal weight to contacts with affiliates and
non-affiliates.” See also Certificate Policy Statement, 88 FERC at
61,748 (explaining that the Commission’s policy is less focused on
whether the contracts are with affiliated or unaffiliated shippers
and more focused on whether existing ratepayers would subsidize
45

JA 55
impropriety or abuse in connection with any of the
affiliate agreements. The mere fact that six of the
shippers are affiliates of PennEast does not call into
question their need for the new capacity or otherwise
diminish the showing of market support. Indeed, three
of the six affiliates, subscribing to 38 percent of the
total project design capacity, are LDCs with service
obligations toward their retail customers. The
Commission has found it reasonable for LDCs seek
additional sources of supply, and has emphasized its
disinclination to second-guess reasoned business
decisions by pipelines’ customers evidenced by
precedent agreements, as well as binding contracts. 46
Further, when considering applications for new
certificates, the Commission’s primary concern
regarding affiliates of the pipeline as shippers is
whether there may have been undue discrimination
against a non-affiliate shipper. 47 Here, no such
allegations have been made, nor have we found that
the project sponsors have engaged in any
the project); see also id. at 61,744 (the Commission does not look
behind precedent agreements to question the individual shippers’
business decisions to enter into contracts) (citing
Transcontinental Gas Pipe Line Corp., 82 FERC ¶ 61,084, at
61,316 (1998)).
See Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277, at P
201 (2002). See also, Midwestern Gas Transmission Co., 116
FERC ¶ 61,182, at P 42 (2006); Southern Natural Gas Co., 76
FERC ¶ 61,122, at 61,635 (1996), order issuing certificate and
denying reh’g, 79 FERC ¶ 61,280 (1997), order amending
certificate and denying stay and reh’g, 85 FERC ¶ 61,134 (1998),
aff’d Midcoast Interstate Transmission, Inc. v. FERC, 198 F.3d
960 (D.C. Cir. 2000).
47 See 18 C.F.R. § 284.7(b) (2017) (requiring transportation
service to be provided on a non-discriminatory basis).
46

JA 56
anticompetitive behavior. As discussed above,
PennEast held an open season for capacity on the
project and all potential shippers had the opportunity
to contract for service. Moreover, PennEast’s tariff, as
discussed below, ensures that any future shipper will
not be unduly discriminated against.
34. We also do not find merit in the commenters’
assertion that the proposed project will be subsidized
by the affiliated LDC shippers’ captive customers.
First, to the extent a ratepayer receives a beneficial
service, paying for that service does not constitute a
“subsidy.” 48 Further, state regulatory commissions are
responsible for approving any expenditures by stateregulated utilities. Moreover, PennEast is required to
calculate its recourse rates based on the design
capacity of the pipeline, thereby placing PennEast at
risk for costs associated with any unsubscribed
capacity.
35. Finally, allegations that the project is not needed
because gas that is transported by it may be exported
through an LNG terminal are not persuasive. There is
no evidence in the record that indicates that the
expansion capacity will be used to transport natural
gas for export. A number of the project shippers are
LDCs, which will locally distribute gas or use it to
generate electricity. Further, even if there was
evidence that some of the gas would be exported, the
Commission does not have jurisdiction over the
exportation or importation of natural gas. Such
jurisdiction resides with the Secretary of Energy, who

48

See Certificate Policy Statement, 88 FERC ¶61,227 at 61,746.

JA 57
must act on any applications for natural gas export or
import authority. 49
36. In conclusion, we find that the PennEast Project
will provide reliable natural gas service to end use
customers and the market. Precedent agreements
signed by customers for approximately 90 percent of
the project’s capacity adequately demonstrate that the
project is needed.

Section 3(a) of the NGA provides, in part, that “no person shall
export any natural gas from the United States to a foreign
country or import any natural gas from a foreign country without
first having secured an order of the Commission authorizing it to
do so.” 15 U.S.C. § 717b(a) (2012). In 1977, the Department of
Energy Organization Act transferred the regulatory functions of
section 3 of the NGA to the Secretary of Energy. 42 U.S.C.
§ 7151(b) (2012). Subsequently, the Secretary of Energy
delegated to the Commission authority to “[a]pprove or
disapprove the construction and operation of particular facilities,
the site at which such facilities shall be located, and with respect
to natural gas that involves the construction of new domestic
facilities, the place of entry for imports or exit for exports.” DOE
Delegation Order No. 00-004.00A (effective May 16, 2006). The
proposed facilities are not located at a potential site of exit for
natural gas exports. Moreover, the Secretary of Energy has not
delegated to the Commission any authority to approve or
disapprove the import or export of the commodity itself, or to
consider whether the exportation or importation of natural gas is
consistent with the public interest. See Corpus Christi
Liquefaction, LLC, 149 FERC ¶ 61,283, at P 20 (2014) (Corpus
Christi). See also National Steel Corp., 45 FERC ¶ 61,100, at
61,332-61,333 (1988) (observing that DOE, “pursuant to its
exclusive jurisdiction, has approved the importation with respect
to every aspect of it except the point of importation” and that the
“Commission’s authority in this matter is limited to consideration
of the place of importation, which necessarily includes the
technical and environmental aspects of any related facilities”).
49

JA 58
3.

Existing
Pipelines
Customers

and

their

37. PennEast’s project is not intended to replace
service on other pipelines, and no pipelines or their
customers have filed adverse comments regarding
PennEast’s proposal. Thus, we find that PennEast’s
project will not adversely affect other pipelines or their
captive customers.
4.

Landowners and Communities

38. Regarding the project’s impacts on landowners
and communities, the project would impact
approximately 1,588 acres of land during construction,
and approximately 788.3 acres of land during
operation. Approximately 44.5 miles, or 37 percent of
the 120.2 mile-long pipeline route, will be located
alongside existing rights-of-way.
39. While we are mindful that PennEast has been
unable to reach easement agreements with a number
of landowners, for purposes of our consideration under
the Certificate Policy Statement, we find that
PennEast has generally taken sufficient steps to
minimize adverse impacts on landowners and
surrounding
communities.
The
Commission
encourages pipeline companies to engage with project
stakeholders throughout the life of the project, and
provide all stakeholders and potential impacted
residents with informational materials, and hold
community meeting to enable stakeholders to learn
about the project, and educate project developers
about local concerns. 50 PennEast participated in the
50 Commission, Suggested Best Practices for Industry Outreach
Programs to Stakeholders at 11-17 (2015).

JA 59
pre-filing process, and held over 200 meetings with
public officials, as well as 15 “informational sessions”
for impacted landowners. 51 PennEast incorporated 70
of 101 identified route variations into its final
proposed pipeline route for various reasons, including
landowner requests, community impacts, and the
avoidance of sensitive resources. 52 Accordingly, we
find that PennEast’s proposal has taken appropriate
steps to minimize impacts on landowners and the
surrounding communities.
5.

Conclusion

40. Based on the benefits the project will provide to
the shippers, the lack of adverse effects on existing
customers, other pipelines and their captive
customers, and effects on landowners and
surrounding communities, we find, consistent with the
Certificate Policy Statement and section 7 of the NGA,
that the public convenience and necessity requires
approval of PennEast’s proposal, subject to the
conditions discussed below.
B. Eminent Domain Authority
41. Several
commenters
assert
that
it
is
inappropriate for PennEast to obtain property for the
project through eminent domain, as PennEast is a forprofit company, and has not shown that there is a
genuine need for the project, or that the public it is
intended to serve will benefit from it. 53

51

PennEast Application at 5.

52

Final EIS at 3-27 - 3-32.

53

See, e.g., Homeowners Against Land Taking-PennEast.

JA 60
42. Under section 7 of the NGA, the Commission has
jurisdiction to determine if the construction and
operation of proposed interstate pipeline facilities are
in the public convenience and necessity. Once the
Commission makes that determination, it is section
7(h) of the NGA that authorizes a certificate holder to
acquire the necessary land or property to construct the
approved facilities by exercising the right of eminent
domain if it cannot acquire the easement by an
agreement with the landowner. 54 In constructing this
provision, Congress made no distinction between forprofit and non-profit companies. Further, as discussed
above, need for the project has been demonstrated by
the existence of long-term precedent agreements for
approximately 90 percent of the project’s capacity.
Just as the precedent agreements provide evidence of
market demand/need, they are also evidence of the
public benefits of the project. 55
C. Blanket Certificates
43. PennEast requests a Part 284, Subpart G blanket
transportation certificate to provide open-access
transportation services to its shippers. Since a Part
284 blanket certificate is required for PennEast to
offer these services, we will grant PennEast a Part
284, Subpart G blanket certificate, subject to the
conditions imposed herein.

54

15 U.S.C. § 717f(h) (2012).

See Sierra Club v. FERC, 867 F.3d 1357, 1379 (D.C. Cir. 2017);
see also Florida Southeast Connection, LLC, 156 FERC ¶ 61,160,
at P 5 (2016); see also Minisink Residents for Environmental
Preservation and Safety v. FERC, 762 F.3d 97, 111, at n.10 (D.C.
Cir. 2014).

55

JA 61
44. PennEast has also applied for a Part 157, Subpart
F blanket construction certificate to automatically, or
after prior notice, perform certain activities related to
the construction, acquisition, abandonment, and
replacement and operation of pipeline facilities. This
blanket certificate includes requirements for
landowner notification before construction may begin.
45. The Trustees of the Joseph D. Ceader Family
Memorial Fund (Ceader Family) express concern over
issuing PennEast a Part 157, Subpart F blanket
certificate, alleging that doing so would grant
PennEast “carte blanche” (emphasis included)
authority to condemn land via eminent domain, and
construct significant facilities that could have
negative impacts on the environment and their
property value, without “extensive environmental
review” or findings of need. In addition, Hopewell
Township Citizens Against the PennEast Pipeline,
LLC, (Hopewell Township) oppose the issuance of a
blanket certificate to PennEast as it would be a “‘one
size fits all solution’” that is inappropriate for such a
project.
46. Neither the Ceader Family nor Hopewell
Township) present any arguments why PennEast’s
specific request for a blanket certificate should be
denied; rather they seem to take general issue with
the Commission’s blanket certificate program. Part
157, Subpart F of the Commission’s regulations
authorizes a certificate holder to engage in a limited
number of routine activities under a blanket
certificate, subject to certain reporting, notice, and

JA 62
protest requirements. 56 The blanket certificate
procedures are intended to increase flexibility and
reduce regulatory and administrative burdens.
Because the eligible activities permitted under a
blanket certificate regulations can satisfy our
environmental requirements and meet the blanket
certificate cost limits, they will have minimal impacts,
such that the close scrutiny involved in considering
applications for case-specific certificate authorization
is not necessary to ensure compatibility with the
public convenience and necessity. For almost all
eligible activities, a certificate holder seeking to
engage in such activities must notify landowners prior
to commencing the activity. 57 For activities that
require prior notice, an opportunity to protest is
afforded once notice of the certificate holder’s request
is issued to the public. 58 If a protest cannot be
resolved, then the certificate holder may not perform
the requested activity under a blanket certificate. 59
47. Receipt of a Part 157 blanket certificate does
confer the right of eminent domain authority under
section 7(h) of the NGA. 60 However, Commission
regulations require companies to include information
56

See 18 C.F.R. § 157.203 (2017).

57

See id. § 157.203(d).

58

See id. § 157.205.

59

See id. § 157.205(f).

See 15 U.S.C. § 717f(h) (2012); also Columbia Gas
Transmission, LLC v. 1.01 Acres, 768 F.3d 300, 314 (3rd Cir.
2014) (finding that the plain meaning of the Commission’s Part
157 blanket certificate regulations grants the holder of a blanket
certificate the right of eminent domain to obtain easements from
landowners.).
60

JA 63
on relevant eminent domain rules in notices to
potentially affected landowners. 61 The compensation
landowners receive for property rights is a matter of
negotiation between the pipeline company and
landowner, or is determined by a court in an eminent
domain proceeding. In view of the above-noted blanket
program procedures and protections, we expect the
Ceader Family and Hopewell Township will have the
opportunity to raise specific concerns and seek specific
relief regarding PennEast’s reliance on blanket
authority in undertaking a future activity.
48. Because PennEast will become an interstate
pipeline with the issuance of a certificate to construct
and operate the proposed facilities, we will issue
PennEast the requested blanket certificate authority
under Parts 157 and 284 of the Commission’s
regulations.
D. Rates
1.

Initial Rates

49. PennEast proposes an initial maximum
reservation recourse charge of $16.0799 per Dth per
month, and an initial usage charge of $0.0024 per Dth
for firm transportation service under Rate Schedule
FTS. 62 PennEast developed its proposed initial rates
based on a total first-year cost of service of
$224,270,492. The proposed cost-based rates reflect a
Straight-Fixed Variable rate methodology. The FTS
reservation rate is designed using the fixed costs of the

61

18 C.F.R. § 157.203(d)(2)(v) (2017).

62

Exhibit P, Schedule 2, of PennEast’s Application.

JA 64
project 63 and annual reservation design determinants
of 13,905,896 Dth. 64 The FTS usage rate is derived
using the variable costs of the project and billing
determinants of 282,838,500 Dth, based on a 70
percent load factor of the project’s annual design
throughput. 65
50. The proposed cost of service is based on a
depreciation rate of 2.5 percent for pipeline facilities
and 4 percent for compression and metering
facilities. 66 PennEast proposes a capital structure of
40 percent debt and 60 percent equity. PennEast’s
proposed rates include a return on equity of 14 percent
and a cost of debt of 6 percent. PennEast states that
the overall rate of return of 10.8 percent is consistent
with the range the Commission has found acceptable
for new greenfield pipelines. 67 PennEast’s proposed
cost of service also includes a federal corporate income
tax rate of 35 percent. 68
51. PennEast proposes an initial charge of $0.5310
per Dth for interruptible service under Rate Schedule
IT and for interruptible parking and lending service
Id. PennEast estimates the first year fixed costs of the project
to be $223,604,821.
63

Id. The annual reservation design determinants are based on
the project’s daily design capacity of 1,107,000 Dth plus 51,825
Dth of imputed IT billing determinants, as described further,
times 12.
64

The project’s daily design capacity of 1,107,000 Dth, times 365,
times 70 percent.

65

66

Exhibits L, O and P of PennEast’s Application.

67

PennEast’s Application at 32.

68

Id.

JA 65
under Rate Schedule PAL, based on a 100 percent load
factor equivalent of its Rate Schedule FTS rates. 69
52. Commission policy requires new pipelines to
allocate costs to all services (including interruptible
and short-term firm transportation) or credit revenues
generated by these services to maximum rate
shippers. 70 To comply with this policy, PennEast
proposes to assign $10 million of costs to interruptible
services, reflected as 51,825 Dth/d of imputed billing
determinants for interruptible service. PennEast
included the additional imputed billing determinants
for interruptible service in the calculation of the FT
reservation charge, which results in a lower FT
reservation charge for firm shippers.
53. The Commission has reviewed PennEast’s
proposed initial rates, cost of service, use of the
Straight Fixed-Variable method of cost classification,
billing determinants, and the treatment of
interruptible services and interruptible rate
calculations, and finds they reasonably reflect current
Commission policy, with the modifications and
conditions imposed below.
Return on Equity, Capital Structure, Debt Costs,
and Federal Corporate Tax Issues
54. In comments on the draft environmental impact
statement, the NJRC argues that PennEast’s
requested 60 percent equity capitalization, 14 percent

69

Exhibit P, Schedule 2, of PennEast’s Application.

70 Transcontinental Gas Pipe Line Corp., 78 FERC ¶ 61,057, at
61,209-61,210 (1997).

JA 66
return on equity, and 6 percent debt costs are
excessive.
Return on Equity and Capital Structure
55. NJRC asserts that a 14 percent return on equity
is too high because PennEast faces little risk as a new
market entrant constructing a new greenfield
pipeline. In support, NJRC notes that PennEast’s
system capacity is 90 percent subscribed, and that the
majority of that capacity is subscribed by local
distribution companies that are “all but guaranteed to
pay their bills.” 71 In addition, NJRC claims that
markets have changed significantly since the
Commission began granting 14 percent returns nearly
20 years ago due to the increase in hydraulic
fracturing and liquefied natural gas exports, and that
current capital markets lack the risk to necessitate
such high equity returns. 72
56. NJRC also asserts that returns on equity have
been trending down over the last few years as reflected
in both pipeline rate cases and a number of Federal
Power Act complaints regarding electric utilities, and
points out that average approved rates of return over
the last 5 years for LDCs has been less than 10
percent. 73 NJRC further points to a recent
Commission order in which it claims the Commission
“ordered a new pipeline” to use a 10.55 percent return

71

NJRC Comments at 11.

72 Id. at 11-12 (citing Alliance Pipeline L.P., 80 FERC ¶ 61,149,
at 61,552 (1997)).
73

Id. at 9-13.

JA 67
on equity, 74 and asserts that the Commission should
not “reflexively” award PennEast a 14 percent return
on equity “simply because earlier pipelines have
received that return on equity.” 75
57. Alternatively, if the Commission approves a 14
percent return on equity, NJRC contends that recent
Commission orders require the Commission to limit
PennEast’s capital structure to no more than 50
percent equity. 76
Commission Determination
58. For new pipelines, the Commission has approved
equity returns of up to 14 percent as long as the equity
component of the capitalization is no more than 50
percent. 77 As pointed out by NJRC, PennEast has
Id. at 13 (citing First ECA Midstream LLC, 155 FERC ¶ 61,222,
at P 23 (2016) (First ECA Midstream)).

74

75

Id.

Id. at 14 (citing Ingleside Energy Center, LLC, 112 FERC
¶ 61,101, at PP 32-33 (2005), vacated on other grounds, 136
FERC ¶ 61,114 (2011) (reducing a proposed 70% equity structure
to 50%).
76

See, e.g., Florida Southeast Connection, LLC, 154 FERC
¶ 61,080 (2016) (approving a 14 percent return on equity after
requiring the capital structure be modified to include at least 50
percent debt), MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165, at
P 27 (2008) (approving 14 percent return on equity based on 50
percent debt and 50 percent equity ratios); Corpus Christi LNG,
L.P., 111 FERC ¶ 61,081, at P 33 (2005) approving a 14 percent
return on equity based on 50 percent debt and 50 percent equity
ratios); Gulfstream Natural Gas System, L.L.C., 105 FERC
¶ 61,052, at n.26 (2003) and 91 FERC ¶ 61,119, at 61,463 (2000)
(approving 14 percent return on equity based on 70 percent debt
and 30 percent equity ratios); Georgia Strait Crossing Pipeline
LP, 98 FERC ¶ 61,271, at 62,054 (2002) (approving 14 percent
77

JA 68
proposed to establish its rates based only on a 40
percent debt capitalization. With such a debt ratio,
everything else being equal, PennEast will not face the
same level of financial risks as any of the new
pipelines that have been previously granted a 14
percent return on equity. Imputing a capitalization
containing a 60 percent equity ratio is more costly to
ratepayers, since equity financing is typically more
costly than debt financing, and also because the
interest on indebtedness is tax deductible. 78
Accordingly, the Commission will approve PennEast’s
proposed 14 percent return on equity, but will require
that it design its cost-based rates on a capital
structure that includes at least 50 percent debt. As a
result of the change to the capital structure required
here, we will require PennEast to recalculate its rates
in its compliance filing.
59. However, we reject NJRC’s request that we
reduce the proposed return of 14 percent, in addition
to requiring a lower equity capitalization. In
modifying PennEast’s proposed capital structure, we
are ensuring that consumers are protected and that
PennEast’s rates are on a level playing field with other
new pipelines. The Commission’s policy of approving
equity returns of up to 14 percent with an equity
capitalization of no more than 50 percent for new
pipeline companies reflects the fact that greenfield
pipelines undertaken by a new entrant in the market
face higher business risks than existing pipelines
proposing incremental expansion projects. For
return on equity based on 70 percent debt and 30 percent equity
ratios).
78

MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165, at P 27 (2008).

JA 69
example, in contrast to an existing pipeline company,
a new pipeline entrant does not have historical cost
data on which to base its cost-of-service estimates. In
addition, a new pipeline entrant is likely to face higher
risks in securing financing than an existing pipeline. 79
Thus, approving PennEast’s requested 14 percent
return on equity in this instance is not merely
“reflexive;” it is in response to the risk PennEast faces
as a new market entrant, constructing a new
greenfield pipeline system.
60. NJRC’s reliance on the Commission’s decision in
First ECA Midstream is misplaced. That proceeding
did not involve a greenfield project undertaken by a
new entrant in the market. Rather, the applicant was
an existing company proposing to operate its existing
non-jurisdictional gathering system as an interstate
pipeline. In approving a 10.55 percent return on
equity, the Commission specifically found that the
applicant had “more in common with existing
pipelines than with the greenfield pipeline projects
that have received returns of 14 percent.” 80
61. In addition, we find no support for NJRC’s
assertion that PennEast faces less risk than other new
pipelines that have received returns of 14 percent due
to its 90 percent subscription level. We have
consistently approved equity returns of 14 percent for
See, e.g., Rate Regulation of Certain Natural Gas Storage
Facilities, Order No. 678, 115 FERC ¶ 61,343, at P 127 (2006)
(“As a going concern with existing customers and financial
relationships, the risk associated with acquiring financing is
lower for incremental expansions than the risk associated with a
greenfield project undertaken by a new entrant in the market.”).
79

80

First ECA Midstream at P 23.

JA 70
new pipelines that have firm contracts subscriptions
equivalent or higher than PennEast’s 90 percent
subscription level. 81 Moreover, the returns approved
for electric utilities and LDCs are not relevant because
there is no showing that these companies face the
same level of risk as faced by greenfield projects
proposed by a new natural gas pipeline company. 82
62. Further, as explained below, we are requiring
PennEast to file a cost and revenue study at the end
of its first three years of actual operation to justify its
existing cost-based rates. The three-year study will
provide an opportunity for the Commission and the
public to review PennEast’s original estimates, upon
which its initial rates are based, to determine whether
PennEast is over-recovering its cost of service with its
approved initial rates, and whether the Commission
should exercise its authority under section 5 of the
NGA to establish just and reasonable rates.
Alternatively, PennEast may elect to make a NGA
section 4 filing to revise its initial rates. Should
PennEast elect to make such a filing, the public would
have an opportunity to review PennEast’s proposed
return on equity and other cost of service components
See, e.g. Florida Southeast Connection, LLC. 154 FERC
¶ 61,080 (2016). (approving a 14 percent return on equity where
project was 94 percent subscribed); Sierrita Gas Pipeline, LLC,
147 FERC ¶ 61,192 (2014), clarified 149 FERC ¶ 61,101 (2014)
(approving a 14 percent return on equity where project was fully
subscribed).
81

The Commission has previously concluded that distribution
companies are less risky than a pipeline company. See, e.g.
Trailblazer Pipeline Co., 106 FERC ¶ 63,005, at P 94 (2004)
(rejecting inclusion of LDCs in a proxy group because they face
less risk than a pipeline company.).
82

JA 71
at that time and would have an opportunity to raise
issues relating to the rate of return, as well as all other
cost components.
63. In section 7 certificate proceedings, the
Commission reviews initial rates for service using
proposed new pipeline capacity under the public
convenience and necessity standard, which is a less
rigorous standard than the just and reasonable
standard under NGA sections 4 and 5. 83 As
Atlantic Refining Co. v. Public Serv. Comm’n of New York, 360
U.S. 378, 390-391 (1959) (Atlantic Refining). In Atlantic Refining,
the Court contrasted the Commission’s authority under sections
4 and 5 of the NGA to approve changes to existing rates using
existing facilities and its authority under section 7 to approve
initial rates for new services and services using new facilities.
The court recognized “the inordinate delay” can be associated
with a full-evidentiary rate proceeding and concluded that was
the reason why, unlike sections 4 and 5, section 7 does not require
the Commission to make a determination that an applicant’s
proposed initial rates are or will be just and reasonable before the
Commission certificates new facilities, expansion capacity,
and/or services. Id. at 390. The Court stressed that in deciding
under section 7(c) whether proposed new facilities or services are
required by the public convenience and necessity, the
Commission is required to “evaluate all factors bearing on the
public interest,” and an applicant’s proposed initial rates are not
“the only factor bearing on the public convenience and necessity.”
Id. at 391. Thus, as explained by the Court, “[t]he Congress, in
§7(e), has authorized the Commission to condition certificates in
such manner as the public convenience and necessity may
require when the Commission exercises authority under section
7,” id., and the Commission therefore has the discretion in section
7 certificate proceedings to approve initial rates that will “hold
the line” and “ensure that the consuming public may be
protected” while awaiting adjudication of just and reasonable
rates under the more time-consuming ratemaking sections of the
NGA. Id. at 392.
83

JA 72
conditioned herein, we find that the approved initial
rates will “hold the line” and “ensure that the
consuming public may be protected,” until just and
reasonable rates can determined through the more
thorough and time-consuming ratemaking sections of
the NGA. 84
Debt Costs
64. NJRC argues that PennEast has not supported its
request for a 6 percent cost of debt. Referencing a
Moody’s report for Long-term Bond Yields in 2016,
NJRC states that long-term utility bond rates have
declined from January 2016 to July. 85 Thus, NJRC
asserts that the Commission should impute a debt cost
consistent with “actual debt market rates” and
consistent with the Commission’s approval of a debt
cost of 3 percent. 86
65. We find that PennEast’s proposed 6 percent cost
of debt is consistent with the cost of debt the
Commission has approved for recent greenfield
pipeline projects. The Commission has approved cost
of debt percentages ranging from 4.8 to 9.3. 87
Moreover, as explained above, the initial rates
established in First ECA Midstream, including
84

Id. at 392.

85

NJRC Comments at 15.

86

First ECA Midstream LLC, 115 FERC ¶ 61,222 at PP 22-23.

UGI Sunbury, LLC, 155 FERC ¶ 61,115, at 20 (2016) (7 percent
cost of debt); Florida Southeast Connection, LLC, 154 FERC
¶ 61,080 at n.141 (7 percent cost of debt); Ruby Pipeline, L.L.C.,
128 FERC ¶ 61,224, at P 43 (2009) (9.3 percent cost of debt);
Sierrita Gas Pipeline, LLC, 147 FERC ¶ 61,192, at P 40 (2014)
(4.8 percent cost of debt).
87

JA 73
approval of the applicant’s proposed 3 percent cost of
debt, are inapplicable to this proceeding. Therefore,
we will approve PennEast’s proposal to utilize a 6
percent cost of debt.
Federal Corporate Tax Issues
66. As noted above, PennEast used a federal
corporate income tax rate of 35 percent in calculating
its proposed cost of service. However, effective
January 2018, the Tax Cuts and Jobs Act of 2017
changed several provisions of the federal tax code,
including a reduction in the federal corporate income
tax rate to 21 percent and allowing certain
investments to receive bonus depreciation treatment.
Because these changes impact PennEast’s proposed
cost of service and the resulting initial recourse rates,
we direct PennEast to recalculate its initial recourse
rates consistent with the new 2018 federal corporate
tax law when it files actual tariff records. In order to
ensure compliance with this directive, we also require
PennEast to provide supporting work papers in
electronic spreadsheet format, including formulas.
2.

Negotiated Rates

67. PennEast states that it will provide service to the
project’s shippers under negotiated rate agreements
pursuant to its negotiated rate authority in section 24
of its pro forma General Terms and Conditions
(GT&C). PennEast must file either its negotiated rate
agreements or tariff records setting forth the essential
terms of the agreements in accordance with the
Alternative Rate Policy Statement 88 and the
88 Alternatives to Traditional Cost-of-Service Ratemaking for
Natural Gas Pipelines; Regulation of Negotiated Transportation

JA 74
Commission’s negotiated rate policies. 89 PennEast
must file the negotiated rate agreements or tariff
records at least 30 days, but not more than 60 days,
before the proposed effective date for such rates. 90
3.

Fuel

68. PennEast states it will use an in-kind fuel
tracking mechanism to recover fuel and lost and
unaccounted for gas (L&U) through a fuel retainage
percentage (FRP). PennEast has proposed an initial
FRP of 0.81 percent, calculated using engineering
principles and manufacturer’s specifications for the
proposed compressor engines, and an L&U percentage
of 0.00 percent. We will approve PennEast’s proposed
initial FRP rate of 0.81 percent, and its proposed
initial L&U rate of 0.00 percent.
69. In addition, PennEast proposes a fuel tracker as
part of its pro forma tariff. Section 20.3(a) of the GT&C
of PennEast’s pro forma tariff states:
With each filing hereunder for a specified
calendar period Pipeline shall calculate a
FRP as the quotient obtained by dividing (a)
Services of Natural Gas Pipelines, 74 FERC ¶ 61,076 (1996);
clarification granted, 74 FERC ¶ 61,194 (1996), order on reh’g, 75
FERC ¶ 61,024 (1996).
Natural Gas Pipelines Negotiated Rate Policies and Practices;
Modification of Negotiated Rate Policy, 104 FERC ¶ 61,134
(2003), order on reh’g and clarification, 114 FERC ¶ 61,042
(2006), reh’g dismissed and clarification denied, 114 FERC
¶ 61,304 (2006).
89

Pipelines are required to file any service agreement containing
non-conforming provisions and to disclose and identify any
transportation term or agreement in a precedent agreement that
survives the execution of the service agreement.

90

JA 75
the projected annual quantities of Fuel for the
upcoming calendar period, plus the amount of
any under-collection of Gas in-kind pursuant
to the prior period FRP or less the amount of
any over-collection of Gas in-kind pursuant to
the prior period FRP and (b) the projected
annual throughput for the upcoming calendar
period.
70. Section 154.403(c)(10) of the Commission’s
regulations 91 states that “[a] step-by step explanation
of the methodology used to reflect changes in the fuel
reimbursement percentage including the allocation
and classification of the fuel use and unaccounted-for
natural gas” must be included in the GT&C. PennEast
is directed to revise section 20 of the GT&C to include
an explanation of how the projected annual quantities
of fuel and projected annual throughput are
determined.
71. In addition, PennEast’s proposed language in
section 20.3(b) of the GT&C explains that it will
estimate the L&U quantities, but does not explain the
methodology PennEast will use to calculate those
estimates. Therefore, when PennEast files actual
tariff records in accordance with the ordering
paragraphs herein, it is directed to revise section 20 of
the GT&C to include an explanation of how PennEast
will calculate the estimates for the L&U quantities
required for the upcoming calendar period.
4.

Three-Year Filing Requirement

72. Consistent
with
Commission
precedent,
PennEast is required to file a cost and revenue study
91

18 C.F.R. § 154.403(c)(10) (2017).

JA 76
no later than three months after the end of its first
three years of actual operation to justify its existing
cost-based firm and interruptible recourse rates. 92 In
its filing, the projected units of service should be no
lower than those upon which PennEast’s approved
initial rates are based. The filing must include a cost
and revenue study in the form specified in section
154.313 of the Commission’s regulations to update
cost of service data. 93 PennEast’s cost and revenue
study should be filed through the eTariff portal using
a Type of Filing Code 580. In addition, PennEast is
advised to include as part of the eFiling description, a
reference to Docket No. CP15-558-000 and the cost
and revenue study. 94 After reviewing the data, the
Commission will determine whether to exercise its
authority under NGA section 5 to investigate whether
the rates remain just and reasonable. In the
alternative, in lieu of this filing, PennEast may make
a NGA general section 4 rate filing to propose
alternative rates to be effective no later than three
years after the in-service date for its proposed
facilities.
5.

Tariff

73. As part of its application, PennEast filed a pro
forma open-access tariff for the Commission’s
approval. PennEast proposed tariff generally

Bison Pipeline, LLC, 131 FERC ¶ 61,013, at P 29 (2010); Ruby
Pipeline, LLC, 128 FERC ¶ 61,224, at P 57 (2009) (Bison);
MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165, at P 34 (2008).
92

93

18 C.F.R. § 154.313 (2017).

94

Electronic Tariff Filings, 130 FERC ¶ 61,047, at P 17 (2010).

JA 77
conforms to the Commission’s requirements. We will
approve the tariff, as conditioned below.
Rate Schedule ITS
74. Section 2.5 of Rate Schedule ITS provides that the
pipeline shall not be required to provide
transportation service if the quantities tendered are so
small as to cause operational difficulties, such as with
measurement. Under sections 284.7(b) and 284.9(b) of
the Commission’s regulations, a transporter may not
discriminate as to the level of volumes transported. 95
In previous determinations, however, the Commission
has allowed a pipeline to include a minimum volume
restriction in its tariff when the pipeline was able to
show that the transportation of quantities below the
threshold were too small to be metered, and where the
company has provided operational and cost
justification for the restriction. 96 For example, the
Commission accepted a proposal for a 100 Dth/d
threshold for connections of new receipt and delivery
points, where the applicant demonstrated that serving
Section 284.7(b)(1) provides “[a]n interstate pipeline or
intrastate pipeline that offers transportation service on a firm
basis under Subpart B, C, or G must provide such service without
undue discrimination, or preference, including undue
discrimination or preference in the quality of service provided,
the duration of service, the categories, prices, or volumes of
natural gas to be transported, customer classification, or undue
discrimination or preference of any kind.” (emphasis added).
Section 284.9(b) applies these provisions regarding nondiscriminatory access to interruptible service.
95

96 See, e.g., Gulf South Pipeline Co., LP, 103 FERC ¶ 61,105, at P
13, n.7 (2003) (Gulf South); Trailblazer Pipeline Co., 39 FERC
¶ 61,103, at 61,336 (1987); Texas Eastern Transmission Corp., 37
FERC ¶ 61,260, at 61,680-61,681 (1986).

JA 78
small volume points presented operational challenges
because these receipt points were difficult to measure,
increasing the potential for lost system gas, and that
the cost of operating these delivery points was greater
than the maximum rate for service. In addition, the
applicant demonstrated that the costs associated with
operating small points would be greater than the
maximum rate would cover. 97
75. Here, PennEast has neither provided justification
nor has it provided a proposed threshold for minimum
volumes to be transported. Therefore, the Commission
requires PennEast to eliminate the proposed
minimum volume condition or, in the alternative,
state what that minimum volume is and provide the
justification to support it.
Rate Schedule PAL
76. Section 8.6 of Rate Schedule PAL provides that
parked quantities of gas shall become the property of
PennEast when: 1) a customer fails to comply with
notifications that receipts of parked quantities are to
be suspended or reduced; 2) a customer fails to comply
with notifications that customer’s parked quantities
must be removed; or 3) a PAL account reflects a
balance at the termination date of a PAL Service
Agreement. The Commission has found that a
pipeline’s confiscation of gas is an operationally
justified deterrent to shipper behavior that could
threaten the system or degrade service to firm
shippers. However, the Commission requires that the
value of such confiscated gas be credited to existing

97

Gulf South, 103 FERC ¶ 61,105, at PP 9-13.

JA 79
customers. 98 PennEast has not proposed a crediting
mechanism in its tariff. Therefore, we direct PennEast
to revise its tariff to include a mechanism to credit the
value of any confiscated gas, net of costs, to nonoffending shippers.
GT&C Section 5: Service Nomination
Procedures
77. PennEast proposes at section 5.1(c) of the GT&C:
Pipeline shall have the right to refuse to
receive or deliver any Gas not timely and
properly nominated. Pipeline shall not be
liable to Customer or any other person as a
direct or indirect consequence of such refusal
and Customer shall indemnify Pipeline from
and against any and all losses, damages,
expenses, claims, suits, actions and
proceedings whatsoever threatened, incurred
or initiated as a result of such refusal unless
such refusal was due to Pipeline’s gross
negligence, undue discrimination or willful
misconduct.
78. The Commission has found that a simple
negligence standard is appropriate for the liability and
indemnification provisions of open-access tariffs, as
this standard prohibits pipelines from limiting their
liability in a way that would immunize them from
direct damages resulting from simple negligence and
“gives service providers a powerful incentive to
operate their systems in a reasonable and prudent
98 AES Sparrows Point LNG, LLC and Mid-Atlantic Express,
LLC, 126 FERC ¶ 61,019, at P 42 (2009), (citing Colorado
Interstate Gas Co., 122 FERC ¶ 61,256, at P 102 (2008)).

JA 80
manner.” 99 The Commission, however, has allowed
pipelines to limit their liability for simple negligence
to direct damages, so that they are only liable for
indirect, consequential, incidental or punitive
damages where there is gross negligence, willful
misconduct, or bad faith. 100
79. PennEast’s proposed liability standard is
inconsistent with Commission policy because it
immunizes the pipeline from direct damages resulting
from simple negligence. Therefore, when it submits its
actual tariff filing, the Commission will require
PennEast to revise its liability standard proposed in
section 5.1(c) of the GT&C so as to not exclude it from
liability for direct damages arising from its own simple
negligence. Similarly, PennEast must revise sections
8.6 (Curtailment), 12.5 (Quality of Gas), and 37
(Nonrecourse Obligation of Pipeline’s Members and
Operator) of the GT&C, which also immunize the
pipeline from direct damages resulting from simple
negligence.
GT&C Section 6: Service Scheduling
80. Section 6.1 of PennEast’s GT&C lists the priority
order
in
which
quantities
nominated
for
transportation will be scheduled. Section 6.1(c) states:

See, e.g., Trailblazer Pipeline Co. LLC, 142 FERC ¶ 61,007, at
P 8 (2012); CenterPoint Energy Gas Transmission Co., LLC, 139
FERC ¶ 61,064, at P 19 (2012); Orbit Gas Storage, Inc., 126
FERC ¶ 61,095, at P 58 (2009)).
99

100 See, e.g., Bison, 131 FERC ¶ 61,013, at P 37; El Paso, 130
FERC ¶ 61,096, at P 4-5; ANR Pipeline Co., 100 FERC ¶ 61,132,
at 61,505 (2002).

JA 81
Pro rata among firm service Customers
utilizing a Secondary Point or Points with at
least one of such points being outside the
Contract Path or the nominated quantity
being in excess of the firm contractual
entitlement(s) for any pipeline segment as
described in subsection (g) below. (emphasis
added) 101
The emphasized language above appears to address
authorized overrun quantities. However, section
6.1(d) of the GT&C provides that authorized overrun
quantities will have the same scheduling priority as
interruptible services (“All interruptible service
Customers, excluding park and loan service
Customers, and Customers nominating authorized
overrun quantities in sequence starting with the
Customer paying the highest rate.”). 102 Commission
policy requires that nominations for authorized
overrun and interruptible services should have the
same scheduling priority. 103 Thus, we find that the
Section 6.1(g) of the GT&C provides, in part, “[i]n addition, for
any movement of Gas that traverses a segment(s) in which the
total nominated quantity for that contract exceeds the firm
contractual entitlement, the quantity in excess of the contractual
entitlement shall be deemed to be outside of the Customer’s
Contract Path.”

101

Section 6 of Rate Schedule FTS also provides that authorized
daily overrun quantities will be transported on an interruptible
basis.
102

Sierrita Gas Pipeline, LLC, 147 FERC ¶ 61,192, at P 66 (2014);
Central New York Oil and Gas Co., LLC, 114 FERC ¶ 61,105, at
P 9 (2006) (citing CNG Transmission Corp., 81 FERC ¶ 61,346,
at 62,592 (1997) and Tennessee Gas Pipeline Co., 62 FERC
¶ 61,250, at 62,676 (1993)).
103

JA 82
emphasized language in section 6.1 (c) of the GT&C
that applies to authorized overrun quantities is
inconsistent with Commission policy, as well as other
provisions of PennEast’s tariff. We direct PennEast to
delete this provision.
GT&C Section 8: Curtailment
81. PennEast proposes at section 8.1 of the GT&C:
Pipeline shall have the right to curtail or
discontinue transportation services, in whole
or in part, on all or a portion of its system at
any time for reasons of Force Majeure or
when, in Pipeline’s sole judgment, capacity or
operating conditions so require or it is
desirable or necessary to make modifications,
repairs or operating changes to its system.
(emphasis added.)
82. The Commission has held that pipelines should
plan routine repair, maintenance, and improvements
through the scheduling process, and should not curtail
confirmed scheduling nominations in order to perform
such work. 104 The Commission has found that
pipelines may only “curtail” service in an emergency
situation or when an unexpected capacity loss occurs
after the pipeline has scheduled service, and the
pipeline is therefore unable to perform the service
which it has scheduled. 105 The term “modifications,
repairs or operating changes” is not limited to an
104 CenterPoint Energy Gas Transmission Co., LLC, 144 FERC
¶ 61,195, at P 75 (CenterPoint).
105 Id.; Ryckman Creek Resources, LLC, 136 FERC ¶ 61,061, at P
68 (2011); MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165, at P 52
(2008).

JA 83
emergency situation or an unexpected loss of capacity,
and the pipeline should take outages required for
routine repair, maintenance, and operating changes
into account when it is scheduling service, rather than
curtailing service after it is scheduled. Therefore,
PennEast is required to revise the emphasized phrase
to comply with Commission policy.
83. In sections 8.2 (a) through (e) of the GT&C,
PennEast provides the order in which it would curtail
service. Sections 8.2 (d) and (e) of the GT&C set forth
the priorities for curtailing firm service and provide:
(d) Fourth, Pipeline shall curtail scheduled
service to those Customers receiving service
under the firm rate schedule at a Secondary
Point or Points, with at least one of such
points being outside the Contract Path, if the
operating condition that necessitates the
curtailment affects a location outside of the
Customers’ Contract Path, on a pro rata basis
among affected Customers;
(e) Fifth, Pipeline shall curtail scheduled
service to those Customers receiving service
under the firm rate schedule at Primary
Points of Receipt and Primary Points of
Delivery and at a Secondary Point or Points,
which points are wholly within the Contract
Path pro rata on the basis of scheduled
quantities.
84. The Commission rejects PennEast’s proposal as it
relates to curtailing firm transportation services.
Commission policy requires that once firm service is
scheduled, all scheduled firm transactions, whether
primary or secondary, must be curtailed on a pro rata

JA 84
basis. 106 PennEast’s proposed tariff is inconsistent
with this policy because it would curtail certain types
of scheduled firm transportation before other
scheduled firm transportation. PennEast is required,
in its tariff compliance filing, to revise sections 8.2 (d)
and (e) to provide that scheduled firm volumes may
only be curtailed on a pro rata basis.
85. Section 8.4 of PennEast’s GT&C states:
All volumes received and/or taken in violation
of Pipeline’s curtailment or interruption
orders shall constitute unauthorized receipts
or deliveries of Gas for which a penalty charge
equal to the higher of $50.00 per Dth and
150% times the Platts Gas Daily “Daily Price
Survey” High Common price for “Transco,
zone 6 non- N.Y. North” per Dth shall be
assessed, in addition to any other applicable
rate, charge or penalty. (emphasis added).
86. In addition to the above penalty, PennEast’s tariff
contains a “Usage Rate outside Tolerances” 107 penalty
provision that may result in penalizing the same
infraction twice. Commission policy prohibits multiple
Algonquin Gas Transmission Co., 104 FERC ¶ 61,118, at P 34
(2003); Order No. 636-B, 61 FERC ¶ 61,272, at 62,013 (1992).
106

Sections 3.2.B(2) of Rate Schedule FTS and 3.2A(2) of Rate
Schedule ITS provide, in part: “The Usage Charge outside
Tolerances as set forth on the Statement of Rates for Rate
Schedule FTS or the Statement(s) of Negotiated Rates, as
applicable, multiplied by that portion of the total quantity of Gas
deliveries on any Day pursuant to the effective Service
Agreement, except for authorized overrun quantities, which is in
excess of the lesser of 110% of scheduled service levels for such
Day or 102% of MDQ.”
107

JA 85
penalties for the same infraction. 108 Therefore,
PennEast is directed to revise its tariff to be consistent
with Commission policy. 109
GT&C Section 26: Force Majeure
87. PennEast’s proposed definition of force majeure
events in section 26.1 of the GT&C includes
“compliance with any court order, law, regulation or
ordinance promulgated by any governmental
authority having jurisdiction, whether federal, Indian,
state or local, civil or military, the necessity for testing
(as required by governmental authority or as deemed
necessary for safe operation by the testing party).”
PennEast’s proposed tariff language conflicts with
Commission policy because it can be interpreted to
include regular, periodic maintenance activities
required to comply with government actions as force
majeure events. The Commission has clarified the
basic distinction as to whether outages resulting from
governmental actions are force majeure or non-force
majeure events. 110 The Commission found that
outages necessitated by compliance with government
standards
concerning
the
regular,
periodic
Columbia Gas Transmission Corp., 100 FERC ¶ 61,084, at P
201 (2002).
108

E.g. MoGas Pipeline LLC, 151 FERC ¶ 61,201, at PP 22-23
(2015) (approving tariff language that permitted the imposition
of the greater penalty).
109

Kinder Morgan Louisiana Pipeline LLC, 154 FERC ¶ 61,145,
at P 30 (2016); DBM Pipeline, LLC, 152 FERC ¶ 62,056, at 64,159
(2015); TransColorado Gas Transmission Co., LLC, 144 FERC
¶ 61,175, at PP 35-43 (2013); Gulf South Pipeline Co., LP, 141
FERC ¶ 61,224, at PP 28-47 (2012), order on reh’g, 144 FERC
¶ 61,215, at PP 31-34 (2013).
110

JA 86
maintenance activities a pipeline must perform in the
ordinary course of business to ensure the safe
operation of the pipeline, including the Pipeline and
Hazardous
Materials
Safety
Administration’s
(PHMSA) integrity management regulations, are nonforce majeure events requiring full reservation charge
credits. Outages resulting from one-time, nonrecurring government requirements, including
special, one-time testing requirements after a pipeline
failure, are force majeure events requiring only partial
crediting. 111
88. In addition, PennEast’s proposed definition of
force majeure events in section 26.1 includes “any
other cause, whether of the kind herein enumerated,
or otherwise, not within the control of the party
claiming suspension and which by the exercise of due
diligence such party is unable to prevent or overcome.”
(emphasis added). The Commission has defined force
majeure outages as events that are both “unexpected
and uncontrollable.” 112 The Commission directs
PennEast to revise section 26.1 of the GT&C to comply
with Commission Policy, as discussed above.

See Algonquin Gas Transmission LLC, 153 FERC ¶ 61,038, at
P 104 (2015).
111

North Baja Pipeline, LLC v. FERC, 483 F.3d 819, 823 (D.C.
Cir. 2007), aff’g, North Baja Pipeline, LLC, 109 FERC ¶ 61,159
(2004), order on reh’g, 111 FERC ¶ 61,101 (2005). See also Kinder
Morgan Louisiana Pipeline LLC, 154 FERC ¶ 61,145, at P 29
(2016); Algonquin Gas Transmission LLC, 153 FERC ¶ 61,038 at
P 103.
112

JA 87
GT&C Section 32: North American
Energy Standards Board (NAESB)
89. PennEast adopted the Business Practices and
Electronic Communications Standards of NAESB
Wholesale Gas Quadrant’s (WGQ) Version 2.0.
PennEast has identified those standards incorporated
by reference in GT&C Section 32. Those standards not
incorporated by reference by PennEast have also been
identified, along with the tariff record in which they
are located. In the event an updated version of the
NAESB WGQ standards is adopted by the
Commission prior to PennEast’s in-service date, the
Commission directs PennEast to file revised tariff
records, 30 to 60 days prior to its in-service date,
consistent with the then current version.
GT&C Section 39:
Charge Crediting

Reservation

90. Sections 39.1 and 39.2 of the GT&C provide that
the pipeline will provide full reservation charge
credits to shippers during non-force majeure events
and partial reservation credits during force majeure
events, respectively, except as provided for in section
39.3.
91. Section 39.3 exempts PennEast from providing
reservation charge credits in a number of
circumstances including:
(xi) if Customer is provided service pursuant
to a negotiated rate agreement executed after
November 1, 2017, or any successor
negotiated rate agreement thereto, and such
agreement does not explicitly require
reservation charge credits.”

JA 88
92. The Commission has found that it is unreasonable
for a pipeline to apply a proposed new contractual
prerequisite for negotiated rate contracts to qualify for
reservation charge credits to agreements entered into
before the effective date of the proposed tariff
language. 113 Although section 39.3 (xi) of the GT&C
provides such protection to the agreements prior to the
filing of PennEast’s application, this provision does
not address any agreements that may be reached with
shippers before the effective date of the tariff.
Acceptance of PennEast’s proposal with respect to
existing
negotiated
rate
agreements
would
unreasonably deny reservation charge credits to
shippers which may have been unaware of PennEast’s
future contracting requirement. Therefore, the
Commission directs PennEast to revise this language
to apply only to negotiated rate contracts entered into
after the effective date of that tariff provision.
E. Environmental Analysis
1.

Pre-filing and Application Review

93. Commission
staff
began
a
pre-filing
environmental review of the project on October 10,
2014. On January 13, 2015, Commission staff issued a
Notice of Intent to Prepare an Environmental Impact
Statement for the Planned PennEast Pipeline Project,
Request for Comments on Environmental Issues, and
Notice of Public Scoping Meetings (NOI). This notice
was published in the Federal Register on February 3,

113 Florida Southeast Connection, LLC, et al., 154 FERC ¶ 61,080,
at P 176 (2016); Iroquois Gas Transmission Sys., LP, 145 FERC
¶ 61,233, at PP 67-71 (2013).

JA 89
2015, 114 and sent to more than 4,300 interested
entities, including representatives of federal, state,
and local agencies; elected officials; environmental
and public interest groups; Native American tribes;
potentially affected landowners as defined in the
Commission’s regulations (i.e., landowners crossed or
adjacent to pipeline facilities or within 0.5 mile of a
compressor station); concerned citizens; and local
libraries and newspapers. The NOI briefly described
the project and the environmental impact statement
(EIS) process, provided a preliminary list of issues
identified by staff, invited written comments on the
environmental issues that should be addressed in the
EIS, and listed the date and location of five public
scoping meetings. 115 On January 28, 2015,
Commission staff issued a Notice of Extension of
Comment Period and Clarification of Location of
Public Comment Meetings for the PennEast Pipeline
Project, which extended the comment period until
February 27, 2015. 116 At the public scoping meetings,
a total of 250 speakers provided verbal comments
about the project. In addition, more than 6,000 letters
were filed providing comments about the project. 117
94. To satisfy the requirements of the National
Environmental Policy Act (NEPA), Commission staff
114

80 Fed. Reg. 5744 (2015).

Commission staff held the public scoping meetings between
February 10 and 12, 2015 and February 25 and 26, 2015 in
Bethlehem, Jim Thorpe, and Wilkes-Barre, Pennsylvania; and
Trenton and Hampton, New Jersey.
115

116

80 Fed Reg. 4557 (2015).

117 Table 1.4-1 of the final EIS provides a detailed and
comprehensive list of issues raised during scoping.

JA 90
prepared a draft EIS for the project. The U.S. Army
Corps of Engineers (USACE), U.S. Environmental
Protection Agency (EPA), and the U.S. Department of
Agriculture’s Natural Resources Conservation Service
participated in the NEPA review as cooperating
agencies. Commission staff issued the draft EIS for
the project on July 22, 2016, which addressed the
issues raised during the scoping period and included
staff’s independent analysis of the environmental
impacts of the project.
95. Notice of the draft EIS was published in the
Federal Register on July 29, 2016, establishing a 45day public comment period that ended on September
12, 2016. 118 The draft EIS was mailed to over 4,280
stakeholders, which included the entities that were
mailed the NOI and additional interested entities.
Commission staff held six public comment sessions
between August 15 and 17, 2016, to receive comments
on the draft EIS. 119 Approximately 670 individuals
attended these public sessions, including 420 who
provided verbal comments. A total of 4,169 comment
letters were filed in response to the draft EIS before
the comment period closed on September 12, 2016.
The transcript of the public comment sessions and all
written comments on the draft EIS are part of the
public record for the project.
96. On September 23, 2016, PennEast filed 33 route
modifications, totaling 21.3 miles in length, to address
118

82 Fed. Reg. 49,971 (2017).

Commission staff held draft EIS comment sessions in
Bethlehem, Pennsylvania; Jim Thorpe, Pennsylvania; Clinton,
New
Jersey;
Lahaska,
Pennsylvania;
Wilkes-Barre,
Pennsylvania; and Trenton, New Jersey.

119

JA 91
environmental and engineering concerns. On
November 4, 2016, Commission staff issued a letter to
newly affected landowners describing the route
modifications and inviting comments on the route
modifications, and opening an additional 30-day
comment period, which concluded on December 5,
2016. Comments received after the close of the
comment periods (between September 12 and
November 4, 2016, and after December 5, 2016)
continued to be posted to the Commission’s eLibrary
website and were reviewed by staff for substantive
concerns.
97. The final EIS for the project was issued on April
7, 2017, and a public notice of the availability of the
final EIS was published in the Federal Register on
April 14, 2017. 120 The final EIS addresses all
substantive comments received on the draft EIS, the
November 4, 2016 letter, and comments received prior
to December 31, 2016. 121 The final EIS was mailed to
the same parties as the draft EIS, as well as additional
parties. 122 The final EIS addresses geology; soils;
water resources; wetlands; aquatic resources;
vegetation and wildlife; threatened, endangered, and
special status species; land use, recreation, and visual
resources; socioeconomics; cultural resources; air
120

82 Fed. Reg. 17,988 (2017).

All comments received prior to the end of the comment period
and in response to the November 4, 2016 letter that included
additional substantive concerns are included in the comment
responses contained in Appendix M of the final EIS (Volume II).
Any new issues raised after December 31, 2016, which were not
previously identified, are addressed in this order.
121

122

The distribution list is provided in Appendix A of the final EIS.

JA 92
quality and noise; reliability and safety; cumulative
impacts; and alternatives. The major environmental
issues raised during this proceeding, and comments
from stakeholders not addressed in the final EIS, as
well as substantive comments on the final EIS, are
discussed below.
98. The final EIS concludes that while the project will
result in some adverse environmental impacts, these
impacts will be reduced to less than significant levels
with the implementation of PennEast’s proposed
impact avoidance, minimization, and mitigation
measures, together with staff’s recommended
environmental conditions, now adopted, as modified,
as conditions in the attached Appendix A of this order.
While, the Commission recognizes that there are
incomplete surveys due to lack of access to landowner
property, the conclusions in the final EIS, and
affirmed by the Commission here, were based on the
information contained in the record, including
PennEast’s application and supplements, as well as
information developed through Commission staff’s
data requests, field investigations, the scoping
process, literature research, alternatives analysis, and
contacts with federal, state, and local agencies, as well
as with individual members of the public. As part of
its environmental review, staff developed specific
mitigation measures that we find will adequately and
reasonably reduce the environmental impacts
resulting from the construction and operation of the
PennEast Project. We believe that the substantial
environmental record and mitigation measures
sufficiently support reaching a decision on this project.

JA 93
99. Once a certificate is issued, the Commission’s
environmental staff is charged with ensuring that the
project will be constructed in compliance with the
Commission’s order, including the conclusions
regarding the project’s expected impacts upon the
environment. Recognizing that there are necessary
field surveys that are outstanding on sections of the
proposed route where survey access was denied, we
are imposing several environmental conditions that
require filing of additional environmental information
for review and approval once survey access is
obtained. This includes items such as site-specific
plans, survey results, documentation of consultations
with agencies, and additional mitigation measures.
The additional information ensures the EIS’s analyses
and conclusions are verified based on the best
available data, enabling us to improve and finalize
certain mitigation plans and ensure stakeholder
concerns are addressed. The information will also
provide Commission staff with the site-specific details
necessary to appropriately evaluate compliance
during the construction process. In addition,
Environmental Condition 10 requires that before
construction can commence, PennEast must file
documentation that it has received all applicable
authorizations required under federal law (or evidence
of waiver thereof).
100. Further, the final EIS has adequately
identified, as required by section 1502.22 of the
Council on Environmental Quality (CEQ) regulations,
where information is lacking. 123 CEQ regulations
recognize that some information simply may not be
123

40 C.F.R. § 1502.22 (2017).

JA 94
available. 124 Moreover, the final EIS contains
mitigation plans that provide for using the correct
mitigation measures, sediment control measures, and
restoration requirements based on the actual site
conditions experienced during construction. The
conditions in the order will ensure that all
environmental resources will be adequately protected.
101. The Commission needs to consider and study
environmental issues before approving a project, but
it does not require all environmental concerns to be
definitively resolved before a project’s approval is
issued. NEPA does not require every study or aspect
of an analysis to be completed before an agency can
issue a final EIS, and the courts have held that
agencies do not need perfect information before it
takes any action. 125 In U.S. Department of the Interior
v. FERC, the court held that “[v]irtually every decision
must be made under some uncertainty; the question is
whether
the
Commission’s
response,
given
uncertainty, is supported by substantial evidence and
is not arbitrary and capricious.” 126 Similarly, in State
of Alaska v. Andrus, the court stated that “[i]f we were
to impose a requirement that an impact statement can
never be prepared until all relevant environmental
124

Id.

U.S. Dep’t of the Interior v. FERC, 952 F.2d 538, 546 (D.C. Cir.
1992); State of Alaska v. Andrus, 580 F.2d 465, 473 (D.C. Cir.
1978), vacated in part sub nom. W. Oil & Gas Ass’n v. Alaska, 439
U.S. 922, 99 S. Ct. 303, 58 L. Ed. 2d 315 (1978) (“NEPA cannot
be ‘read as a requirement that complete information concerning
the environmental impact of a project must be obtained before
action may be taken’”).

125

126

U.S. Dep’t of the Interior v. FERC, 952 F.2d 538, 546.

JA 95
effects were known, it is doubtful that any project
could ever be initiated.” 127 There must, however, be
sufficient information in the record to enable the
Commission to take the requisite “hard look” required
by NEPA. As indicated above, we believe the record in
this proceeding meets that requirement. 128
2.

The EIS Process and Procedural
Concerns

102. Commenters requested public meetings be held
in areas affected by PennEast’s minor route
modifications, as identified in PennEast’s September
23,
2016
Supplemental
Information
filing.
Commission staff mailed notice on November 4, 2016,
to all landowners potentially affected by the
modifications, government officials, and other
stakeholders. The notice described the proposed route
changes, invited participation, and opened a special
30-day limited scoping period. Over 400 comments
were filed in response to the notice, which are
addressed in the final EIS. Commission staff
determined that additional public meetings were not
required and that written comments received from the
public were sufficient to identify potential concerns
associated with the minor route changes.

127

State of Alaska v. Andrus, 580 F.2d 465, 473.

See also Independence Pipeline Co., 91 FERC ¶ 61,102, at
61,352 (2000) (finding that despite landowners denying survey
access, the final EIS was sufficiently detailed to inform the
Commission and the public for purposes of NEPA); Southern
Natural Gas Co., 85 FERC ¶ 61,134, at 61,512 (1998) (finding
paper record sufficient even though landowners denied pipeline
survey access).
128

JA 96
103. In addition, several commenters asserted that
the comment period for the draft EIS was not
sufficient, and should have been extended in order to
allow parties additional time to study the draft EIS
and provide comment. Commission staff continued to
accept and review comments after the close of the
comment period for the draft EIS. All filings are
available on the docket for public review and
inspection. For these reasons, we concur that an
extended comment period was not needed.
3.

Major Environmental Issues and
Comments on the Final EIS
a.

Geology

104. Several commenters express concern regarding
construction near active quarries and in karst terrain.
Comments were also filed regarding the potential for
naturally occurring arsenic to mobilize and
contaminate groundwater, drinking water wells, and
surface waters. Commenters also express concerns for
landslide risks, as well as the potential for soil
compaction.
105. After the close of the draft EIS comment period,
United States Representative Matt Cartwright of
Pennsylvania forwarded a letter from his constituent,
Phyllis Jacewicz, particularly for residences on East
Saylor Avenue in Plains Township, Luzerne County,
Pennsylvania, citing concerns about construction of
the project near an active quarry. As stated in the final
EIS, PennEast has adjusted the pipeline route
through Luzerne County to avoid future expansion of
the quarry, PennEast also evaluated average quarry
blasting vibration, concluding there would be no effect

JA 97
from these activities on the pipeline. 129 Additionally,
PennEast provided documentation regarding the
expansion of the Trap Rock Quarry located at milepost
(MP) 99 in Delaware Township, New Jersey, and
provided a blasting assessment based on site-specific
data (geology, distance and wave propagation) and a
scaling relationship to solve for blast-induced effects
(peak particle velocity) on the pipeline. Based on the
blasting analysis, the EIS concludes that no impacts
on the pipeline from quarry blasting are
anticipated. 130 In response to comments received
regarding the accuracy of the explosive weights for the
blasting analysis, Environmental Condition 14
requires PennEast to file an updated report verifying
the explosive weights used by the quarry operator;
incorporate this information this into the final design
of the project; and to seek concurrence from Trap Rock
Quarry regarding the input parameters to the blasting
analysis. The updated report will be reviewed by
Commission staff prior to construction to confirm the
conclusions in the EIS remain valid.
106. In comments on the final EIS, Susan D.
Meacham discusses the potential risks of construction
in karst areas and the potential risk for scouring
where the pipeline will cross the floodplain along the
New Jersey side of the proposed horizontal directional
drill (HDD) crossing of the Delaware River. The final
EIS determines that there are approximately 13.8
miles of the project, in Carbon, Northampton, and
Bucks Counties, Pennsylvania, and Hunterdon
129

See final EIS at 4-5.

130

Id. at 4-5.

JA 98
County, New Jersey, where a karst hazard may be
present; approximately 50 percent of the karst survey
has been completed. 131 As discussed in the EIS,
PennEast developed a project-specific Karst
Mitigation Plan, as well as a specific HDD plan for
drilling through karst terrain. The project-specific
Karst Mitigation Plan, which provides guidance to
mitigate karst-related concerns during construction,
was developed using maps of known or suspected
karst areas, and field investigations completed todate. The HDD Drilling Plan for Karst Terrain
establishes
operational
procedures
and
responsibilities for the prevention, containment, and
clean-up of inadvertent returns of drilling muds and
losses associated with HDD through karst areas.
Further, we note that PennEast continues to complete
additional geophysical investigations as landowner
access becomes available, and will incorporate the
findings into an updated Karst Mitigation Plan. The
final updated plan will enable PennEast to finalize its
HDD design based on a detailed understanding of the
subsurface conditions, and more precisely identify
locations where the approved mitigation procedures
will be implemented. Accordingly, Environmental
Condition 16 requires PennEast to file for approval a
final Karst Mitigation Plan prior to construction,
which includes the results of all outstanding field
investigations, as well as requirements of the
Pennsylvania
Department
of
Environmental
Protection (PADEP), New Jersey Department of
Environmental Protection (NJDEP) and local
planning commissions. Based on staff’s review of the
131

Id. at 4-10.

JA 99
Karst Mitigation Plan, the HDD Drilling Plan for
Karst Terrain, and compliance with Environmental
Condition 16, we agree with the final EIS’s conclusion
that PennEast will adequately minimize impacts in
geologically sensitive areas. 132 Regarding the risk of
scour, PennEast’s HDD of the Delaware River will
drill underneath the river’s flood plain, with the HDD
entry/exit point on the New Jersey side of the river
approximately 1,100 feet east of the river’s edge,
outside of the flood zone and below the potential scour
depth. The segment of pipeline installed by HDD will
be considerably deeper than sections of pipeline
installed by standard trenching and will be below the
potential scour depths. Thus, scour from flooding on
the Delaware River will not affect the pipeline.
107. Several commenters expressed concern that the
final EIS contains an inadequate analysis of the
potential for construction and operation of the project
to contribute to arsenic contamination of groundwater
and the release of radioactivity. Comments were filed
from stakeholders, including a letter from
Congressman Brian Fitzpatrick on behalf of Bucks
County, Pennsylvania, from Dr. Tullis Onstott from
the Princeton University Department of Geosciences,
Dr. Julia Barringer, a retired U.S. Geologic Survey
research geochemist, and from the Township of
Kingwood, New Jersey, regarding the potential risk of
arsenic contamination of groundwater. Drs. Onstott
and Barringer contend that the final EIS fails to
address the potential for the project to increase
arsenic mobility, as well as the release of radioactivity.
Drs. Onstott and Barringer also comment that the
132

See final EIS at ES-5.

JA 100
pipeline has the potential to cause boron
contamination of the Lambertville, New Jersey
drinking water supply reservoir, and further state
that cathodic protection on the pipeline has the
potential to “promote the growth of microbes that
stimulate arsenic” while a potential methane leak
would input carbon into the soil, which could serve to
stimulate microbial activity, which in turn could
stimulate arsenic. 133 Further, Drs. Barringer and
Onstott state that the final EIS fails to fully analyze
the potential release of arsenic to local streams from
HDDs. In addition, several comments were filed
stating that the final EIS does not sufficiently address
the risk of uranium and uranium decay product
radionuclides potentially being released by blasting of
Newark Basin sedimentary bedrock.
108. PennEast conducted a laboratory arsenic
mobilization study, leaching experiments, and
dilution modeling to determine if trench excavation
and the use of HDDs will oxidize, release, and mobilize
naturally occurring arsenic and potentially increase
arsenic exposure to nearby groundwater users and/or
ecological receptors within waterbodies. The results of
the laboratory study demonstrate that broken
fragments of naturally occurring arsenic-enriched
rock generated during trenching activities and
subsequently returned as backfill, would not result in
an increased risk of arsenic mobilization in
groundwater; that drilling mud would not become
contaminated with particles of naturally occurring
arsenic enriched rock; and that concentrations of
133 See Comments of Drs. Julia Barringer and Tullis Onstott, filed
May 5, 2017 in Docket No. CP15-558-000.

JA 101
arsenic in groundwater will be below the EPA
maximum contaminant level (MCL) of 10 micrograms
per liter (ug/L) for public water supplies and the New
Jersey MCL of 5 micrograms per liter (μg/L) for both
public and private water supplies. Regarding
comments on the project’s ability to contaminate
Lambertville’s water supply from boron, the EIS found
that the pipeline alignment does not cross any stream
that provides water to Lambertville’s water supply
and the Lambertville reservoir is located up-gradient
of the planned PennEast pipeline.
109. As discussed in the final EIS, Drs. Onstott and
Barringers’ comments regarding the chemical
mechanisms that could mobilize arsenic and other
analytes during construction and operation were
found to be speculative, based upon misapplication of
physical principles, containing misinformation about
pipeline corrosion and corrosion prevention systems,
and not supported by empirical data for construction
and operation of natural gas pipelines. Further, the
final EIS found that radionuclides present in
groundwater and household air are “absolutely not
specific” to Newark Basin sedimentary bedrock
(Stockton, Lockatong, and Passaic formations), and
that human exposure issues related to radionuclides
are not likely to play a role in the construction and
operation of natural gas pipelines. Regarding the
potential for methane leaks to increase arsenic
mobility, PennEast has committed to several specific
measures to reduce the risk of methane leaks, which

JA 102
would in turn further reduce the risk of increased
arsenic mobility. 134
110. PennEast has prepared a Well Monitoring Plan
and proposes to conduct groundwater quality testing
of potentially affected wells prior to construction. This
will provide a baseline to determine whether any
arsenic increases in groundwater occur after the
pipeline is installed. In the unlikely event that
construction results in any arsenic impacts on a watersupply well, PennEast will provide a treatment
system to remove arsenic from the drinking water at
individual properties or find an alternative water
source.
111. In its September 20, 2016 comments on the
DEIS, the United States Department of the Interior
(DOI) expressed concern regarding the potential for
arsenic mobilization, and the potential for arsenic
contamination of individual wells, drinking water, and
groundwater. To address these concerns, we require in
Environmental Condition 23 that PennEast revise
and file for review and approval its above-described
Well Monitoring Plan to incorporate the well sampling
quality assurance/quality control elements suggested
by the DOI into its well sampling protocol and to
include provisions for treatment for groundwater
users impacted by increased arsenic levels, as well as
provisions for monitoring and maintaining such
treatment systems.
112. In comments on the final EIS, Lorraine Crown
of Holland Township expressed concern regarding
Route Deviation 1710, which she claims would lead to
134

Id. at 4-250.

JA 103
an increased risk of landslides on Gravel Hill. The
final EIS’ conclusion that that landslide incidences are
low in New Jersey is based on PennEast’s Phase I
Terrain Mapping and Geohazard Risk Evaluation,
which included the review of federal, state and local
geographic information system data, published maps,
available print and digitized terrain data, and sitespecific data collected by PennEast. The final EIS
notes that while generalized data from the United
States Geological Survey indicates that there is a low
risk of landslide potential for the New Jersey portion
of the project, several locations in New Jersey have
recorded landslides in close proximity to the proposed
pipeline. 135 This includes the area near steep slopes 75
and 76 near route deviation 1710 as identified in
Phase 1 of PennEast’s Terrain Mapping and
Geohazard Risk Evaluation Report. PennEast
identified these as areas where it will conduct further
field investigation and analysis. We require in
Environmental Condition 15 that, prior to
construction, PennEast shall file results of the
outstanding site-specific Phase 2 and 3 portions of the
Geohazard Risk Evaluation Report, which will include
a final landslide hazard inventory. The finalized
report will also include any specific measures and
locations where PennEast will implement specialized
pipeline design to mitigate for potential soil stability
or landslide hazards; and include a post-construction
monitoring plan.
113. In comments on the final EIS, the NJDEP
submitted a letter referencing previous comments by
the New Jersey Geological and Water Survey
135

Id. at 4-7.

JA 104
(NJGWS) which indicate that there are important
paleontological sites that are significantly closer than
0.25 mile to the proposed route. The NJDEP requests
that PennEast consult with Dr. William Gallagher
and provide him with the proposed project route
alignment shape files as over 90 percent of the route
crosses rock formations within the Newark Basin.
114. PennEast provided the NJGWS with updated
mapping of the proposed pipeline route in relation to
sites identified as significant paleontological locations
containing trace Triassic-age fossils and various casts,
including footprints. After analyzing the NJDEP
comments on the final EIS, we determined there is
potential for fossilized vertebrate footprints to be
affected by construction of the project through Newark
Basin sedimentary bedrock. Therefore, we have
included a new condition to address potential
discovery of paleontological resources during project
construction. Environmental Condition 20 requires
that PennEast prepare an unanticipated discovery
plan for paleontological resources in coordination with
the NJGWS and Dr. William Gallagher. The plan shall
be focused on areas where bedrock would have allowed
preservation of any significant paleontological
resource. We believe that Environmental Condition 20
sufficiently addresses NJDEP’s concerns and that any
adverse impacts on significant paleontological
resources will be appropriately mitigated.
b.

Soils

115. The project will cross numerous soil types,
which may be affected by pipeline construction
activities, such as clearing, grading, trench

JA 105
excavation, backfilling, and the movement
construction equipment along the right-of-way.

of

116. In comments on the final EIS, Emma A.
Switzler discusses the potential for soil compaction
from an HDD work space proposed on her property.
PennEast identified certain measures which will be
implemented to reduce the potential for soil
compaction, including regular testing of topsoil and
subsoil for compaction. PennEast indicated that it
would avoid construction during periods of high soil
saturation in order to minimize the risk of soil
compaction. Severely compacted topsoil will be plowed
or a green manure such as alfalfa will be planted and
plowed to decrease bulk density and improve soil
structure. 136 Given these measures and PennEast’s
adherence to the Commission’s Upland Erosion
Control, Revegetation, and Maintenance Plan (Plan),
which includes specific measures designed to mitigate
for soil compaction, the final EIS finds that the project
activities will not result in significant adverse soil
structural damage or compaction. 137
117. As stated in the final EIS, implementation of
PennEast’s Erosion and Sediment Control Plan
(E&SCP), FERC’s Plan and FERC’s Wetland and
Waterbody Construction and Mitigation Procedures
(Procedures), and other project-specific plans, will
adequately avoid, minimize, or mitigate construction
impacts on soil resources. Permanent impacts on soils
will mainly occur at the aboveground facilities where
the sites will be converted to industrial use. Based on
136

Id. at 4-28.

137

Id. at 4-21 to 4-22.

JA 106
the final EIS, we conclude that potential impacts on
soils will be avoided or effectively minimized or
mitigated.
c.

Water Resources

118. The project will cross 269 waterbodies. 138
Approximately 74 percent of these waterbodies are
classified as minor, 22 percent as intermediate, and 3
percent classified as major. Numerous commenters
expressed concern regarding the potential effects of
the construction and operation of the project on state
designated streams, with a particular emphasis on
locations where HDD crossing would occur. The final
EIS states that while minor impacts on waterbodies
may
occur
during
construction,
with
the
implementation of PennEast’s planned, and the
Commission’s required mitigation plans, no long-term
effects on surface waters are anticipated. In addition,
PennEast will comply with state regulations
regarding riparian buffers. Finally, PennEast will
comply with regulatory permit conditions that address
scour and sedimentation, flooding, or the introduction
of foreign or toxic substances into the aquatic system.
Accidental spills and leaks during construction and
operations will be prevented or adequately minimized
through implementation of PennEast’s Spill
Prevention Control and Countermeasure Plan.
119. Several comments addressed potential impacts
on state-designated waterbodies. Appendices G-7
through G-9 of the final EIS provide state
classifications for individual waterbody crossings in
Pennsylvania and New Jersey by milepost. The final
138

Id. at 4-45 (table 4.3.2-1).

JA 107
EIS analyzes construction impacts on waterbodies,
and determines that the mitigation measures
identified in our Procedures will adequately minimize
impacts on Pennsylvania and New Jersey statedesignated
waters,
including
High
Quality,
Exceptional Value and Category 1 waters. 139
Generally, PennEast will minimize impacts on statedesignated waterbodies and associated riparian zones
by locating temporary workspace in actively disturbed
areas with a vegetation buffer between the workspace
and the riparian zone. Where the riparian zone cannot
be avoided entirely, PennEast will reduce the
workspace to 75 feet in width and relocate additional
temporary workspaces upslope, or into actively
disturbed areas, to the extent practicable. For drycrossings, the workspace through the waterbody will
be reduced to 60 feet in width and the workspace
outside the waterbody will have a total width of 75 feet
on both sides of the waterbody until actively disturbed
areas are encountered. Where site constraints are
favorable, PennEast will use the HDD method, which
will not require tree clearing or workspace adjacent to
the waterbody, to directly avoid impacts within the
waterbody. PennEast has committed to preparing
sitespecific plans prior to construction for each
waterbody to be crossed via HDD. These site-specific
HDD Plans would include a description of the HDD
work site, justification of the work space required,
cleanup plans in the event of the inadvertent release

139

See final EIS at 4-49.

JA 108
of drilling mud, as well as a contingency plan in the
event the HDD is unsuccessful. 140
120. In comments on the final EIS, West Amwell
Township, New Jersey, expresses concern regarding
the crossing of Alexauken Creek, including the
feasibility of and dangers associated with using the
HDD crossing method; potential temperature and
sedimentation impacts; and PennEast’s plans for
hydrostatic testing. The majority of the HDD crossings
have had some geotechnical work performed, and staff
reviewed this data along with PennEast’s HDD
Inadvertent Returns and Contingency Plan and HDD
profiles. We require in Environmental Condition 19
that PennEast file the final design plans for each HDD
crossing for review and approval. The final design plan
will include the results for all geotechnical borings
conducted at each HDD crossing (lithology, standard
penetration testing and bedrock quality designation),
and a HDD feasibility assessment based on the soil
boring results, including an assessment of the risk for
hydrofracturing and inadvertent return of drilling
fluids at each crossing. Completion of all geotechnical
borings for each specific crossing will allow for a
comprehensive HDD feasibility and hydrofracture/
inadvertent return analysis that staff will review to
ensure PennEast has adequately minimized
environmental risks in the final design of the HDD.
121. Further, as indicated above and in the final
EIS, PennEast will prepare a detailed plan for each
waterbody that will be crossed via HDD that includes
site-specific construction diagrams of work areas;
140

Id. at 4-62.

JA 109
identification of any aboveground disturbance or
clearing between the HDD entry and exit; and a
contingency plan for crossing the waterbody or
wetland in the event the HDD is unsuccessful.
PennEast’s HDD crossing of the Alexauken Creek will
avoid any in-stream disturbance and any direct
impact to the riparian areas between the drilling entry
and exit sites, thus minimizing any potential for
sedimentation or temperature changes. In the
unlikely event that PennEast is required to cross this
waterbody using an alternative crossing method,
Commission staff must review and approve the plans
to verify appropriate mitigation measures will be
implemented
to
minimize
sedimentation.
Furthermore, PennEast’s Erosion and Sedimentation
Control Plan requires site-specific plans to mitigate
sedimentation.
122. We reviewed the hydrostatic test water source
and discharge locations provided by PennEast.
However, during exceptional dry periods when low
flow conditions may be encountered, PennEast will
assess if alternative sources would be necessary. Thus,
Environmental Condition 28 requires that PennEast
file its final hydrostatic test plan identifying the final
hydrostatic test water sources and discharge locations
and provide documentation that it has obtained all
necessary permits and approvals for withdrawal from
each source prior to construction. PennEast has
indicated that its hydrostatic testing program will
comply with state- and Delaware River Basin
Commission-issued water withdrawal and National
Pollutant Discharge Elimination System permits.

JA 110
123. Several comments were received regarding
potential impacts on groundwater supplies,
specifically supplies from private wells and
community aquifers. The final EIS evaluates potential
impacts on groundwater resources, and because
PennEast has not yet completed surveys for water
supply wells along the entire project, includes a
recommendation that PennEast complete all
necessary surveys for water supply wells and
groundwater seeps and springs, identify public and
private water supply wells within the construction
workspace, and file a revised list of wells, seeps, and
springs within 150 feet of any construction workspace
(500 feet in areas characterized by karst terrain). 141
We incorporate this requirement as Environmental
Condition 21 in Appendix A.
124. Although the precise locations of all water
supply wells have not yet been determined, the
avoidance and mitigation measures that will be
implemented are evaluated in the EIS. The final EIS
determines that no significant impacts to
groundwater resources are anticipated from the
construction or operation of the project. Installation of
the pipeline would include digging a trench
approximately 7-10 feet deep, which would have minor
impacts on surficial aquifers, and not impact deeper
bedrock or sole-source aquifers, including their
discharge and recharge patterns. 142 In addition
PennEast reviewed publicly available information
regarding wellhead protection areas to formulate
141

Id. at 4-38.

142

Id. at 4-42 - 4-43.

JA 111
alternatives and has committed to several mitigation
measures in order to further reduce the potential for
impacts to wellhead protection areas, including
prohibition of certain activities and material storage
in proximity to these areas, and consultation with the
appropriate wellhead protection authorities. 143
125. Several comments were received regarding
PennEast’s Well Monitoring Plan. The final EIS
concludes that the current Well Monitoring Plan
contains acceptable measures. As part of its initial
Well Monitoring Plan, PennEast commits to conduct
pre- and post-construction monitoring for water
quality and yield for private and public wells within
150 feet of the proposed construction workspace (500
feet in areas of karst terrain), with the well owner’s
permission. 144 However, the final EIS recommends
additional information regarding DOI’s comments on
PennEast’s initial Well Monitoring Plan, and
landowner comments on the draft EIS. Therefore, as
is discussed above, we require in Environmental
Condition 23 that PennEast file a revised Well
Monitoring Plan. The revised plan will provide
responses to address the DOI’s comments on the draft
plan; include an analysis and mitigation for radon,
radium 226, and radium 228; and provide more
information regarding the types of treatment systems
used, including provisions for monitoring and
maintenance of any treatment systems PennEast
provides.

143

See final EIS at 4-37.

144

See final EIS at 4-38.

JA 112
126. Several commenters raised concerns regarding
impacts to the Swan Creek Upper Reservoir, which is
the primary source of drinking water for the City of
Lambertville. As discussed in the final EIS, the Swan
Creek Upper Reservoir is located approximately 400
feet east of the proposed pipeline route, with the water
supply intake structure located upstream of the
pipeline. Due to the downstream location of the
proposed pipeline crossing, water quality of the active
reservoir will not be adversely affected. Blasting is not
anticipated near the Swan Creek Reservoir; however,
geotechnical evaluations are ongoing. 145 Therefore, we
require in Environmental Condition 25 that PennEast
provide the results of investigations regarding any
anticipated blasting near the Swan Creek Reservoir
prior to construction.
127. In comments on the final EIS, the EPA
recommends that PennEast consult with state
drinking water authorities to ensure state-defined
source water protection areas are not crossed by the
project. PennEast and Commission staff consulted
with federal, state and regional entities to identify
source water protection areas to be crossed by the
project. As noted above, PennEast has proposed
several mitigation measures to prevent impacts to
wellhead protection areas that staff determined will
adequately address potential impacts. In addition, the
final EIS responds to concerns about blasting impacts
on an existing water transmission tunnel managed by
the Bethlehem Authority. The pipeline will be
installed substantially above the location of the
tunnel, with about 480 feet of clearance at the point
145

See final EIS at 4-52.

JA 113
where it first crosses the tunnel, and about 75 feet of
clearance at the second crossing. Environmental
Condition 44 requires that PennEast file additional
information on the crossing, including a site-specific
crossing plan and details regarding potential blasting
within 2,000 feet of the water tunnel, and
documentation of working meetings with water
authority to ensure its concerns are adequately
addressed, prior to construction.
128. Several commenters, including the USACE,
PADEP, and the New Jersey Highlands Water
Protection and Planning Council, commented on the
final EIS and PennEast’s PADEP/USACE Joint
Permit Application, stating that more surveys needed
to be completed before the applications could be
processed, and the true environmental impacts could
be assessed. On April 25, 2017, the PADEP filed a
letter concerning the same application. The PADEP
and USACE state that the application was incomplete
due to lack of survey access. On April 26 and 28, 2017,
the NJDEP commented on the final EIS and
PennEast’s freshwater wetlands individual permit
application, stating that PennEast’s application was
determined administratively deficient, and that until
an application is determined by the NJDEP to be
complete, it is not possible to issue the permit or to
determine a proposed permit issuance date.
129. As previously noted, we are aware that
remaining field surveys need to be completed prior to
construction. For areas where PennEast was unable to
complete field surveys, remote-sensing resources were
used to approximate the locations and boundaries of
wetlands and waterbodies within the project area.

JA 114
Remote-sensing delineations were conducted using a
combination of high-resolution aerial photographic
imagery, National Wetland Inventory data, National
Hydrography Dataset data, hydric soil data
maintained by the Natural Resources Conservation
Service, floodplain and flood elevations maintained by
the Federal Emergency Management Agency,
watershed data from the USGS, and field survey
results on adjacent land parcels where access could be
obtained. Once surveys are completed following
issuance of this order, PennEast will submit any
outstanding survey information to the USACE,
PADEP, and NJDEP to enable the final processing of
its permit applications. Further, we require in
Environmental Condition 10 that no construction will
be allowed to commence until PennEast provides
documentation that it has received all applicable
authorizations required under federal law.
130. Sondra Wolferman filed comments on the final
EIS regarding the potential impact to waterways and
wetlands within Beltzville State park that could occur
if inadvertent releases of HDD drilling muds were to
occur. PennEast will be required to describe, in the
site specific plan for Beltzville State Park and
Reservoir, how an inadvertent release of drilling mud
will be contained and cleaned up. 146 In the unlikely
event of any release of drilling muds, including any
occurring in or near the Beltzville State Park,
PennEast will implement the mitigation measures in

146

See final EIS at 2-12.

JA 115
its HDD Inadvertent Returns and Contingency
Plan. 147
131. Based on the foregoing, and on PennEast’s
proposed and the Commission’s required prevention
and mitigation measures, we agree with the final
EIS’s conclusion that the construction and operation
of the PennEast project will not have adverse
longterm impacts on waterbodies, including surface
water and groundwater resources.
d.

Wetlands

132. Construction of the project will temporarily
impact approximately 36 acres of wetlands (20 acres
in Pennsylvania and 16 acres in New Jersey) and
permanently impact about 20 acres of wetlands (12
acres in Pennsylvania and 8 acres in New Jersey).
Construction impacts include 17.3 acres of forested
wetlands, 3.0 acres of scrub-shrub wetlands, 6.6 acres
of emergent wetlands, 0.2 acre of vernal pools, and 8.8
acres of modified agricultural wetlands. 148 With the
exception of 0.01 acre of palustrine emergent wetland,
no permanent fills or loss of wetlands will result from
the construction or operation of the project.
133. As described in the final EIS, construction
activities at wetland crossings will be performed in
accordance with applicable regulatory requirements,
PennEast’s E&SCP, and FERC’s Plan and Procedures.
PennEast is currently developing project-specific
mitigation measures in consultation with the USACE
and state agencies.
147

See final EIS at 4-14.

148

See final EIS at 4-81 (table 4.4.2-1).

JA 116
134. PennEast will also conduct routine wetland
monitoring of all wetlands affected by construction
until revegetation is successful. Once wetland
delineations are completed and available, we require
in Environmental Condition 30 that PennEast file
with the Commission its wetland delineation report as
submitted to the USACE and applicable state
agencies. As described above, the EIS utilized remotesensing surveys to analyze wetlands for areas where
access was denied. Completion of the wetland
delineations will allow for a more precise
determination of wetland boundaries in order for
PennEast to accurately apply wetland construction
and restoration methods in the appropriate locations.
135. In its comments on the final EIS, the EPA
recommends that PennEast develop a compensatory
mitigation plan for waterbodies and wetlands to
include appropriate success criteria, compensation for
exceptional value resources, and consideration of
temporal loss. PennEast has agreed to provide offsite
compensatory mitigation in accordance with agencyapproved compensatory wetland mitigation plans. As
mitigation design progresses, further coordination
with USACE, PADEP, and the NJDEP Mitigation
Unit will be required to incorporate site-specific
design features and/or modifications, as applicable.
Accordingly, we require in Environmental Condition
32 that PennEast file a final project-specific Wetland
Restoration Plan developed in consultation with the
USACE and applicable state agencies in Pennsylvania
and New Jersey.
136. With implementation of the acceptable
avoidance and minimization measures, as well as the

JA 117
environmental conditions in Appendix A of this order,
we agree with the final EIS’s conclusion that impacts
on wetland resources, including exceptional value
wetlands, will be appropriately mitigated and reduced
to less than significant levels. 149
e.

Vegetation, Forested Land, and
Wildlife

137. The project area currently supports a diverse
array of wildlife species, including wildlife adapted to
natural forested and open habitat types, as well as
disturbed habitats such as residential, industrial, and
agricultural areas. Forested areas will be the most
common habitat type affected by the project
(consisting of approximately 37 percent of the project’s
impacts),
followed
by
agricultural
areas,
residential/industrial/commercial areas, open lands,
and open water habitats. The project will affect
vegetation communities of special concern, including
ephemeral/fluctuating natural pools, herbaceous
vernal ponds, Leatherleaf—Cranberry bog shrubland,
Pitch pine—rhodora—scrub oak woodland, and red
spruce palustrine woodland. To avoid and minimize
effects on interior forest habitat, PennEast routed the
pipeline adjacent to existing rights-of-way when
possible, with 44.5 miles of the pipeline collocated with
existing right-of-ways. 150 The project will affect 220.6
acres of interior forest during construction and 63.6
acres during operation. 151 Additionally, the project
will have an indirect impact (through edge effects,
149

See final EIS at 5-7.

150

See final EIS at 4-101.

151

See final EIS at 4-90 (table 4.5.1-2).

JA 118
potentially resulting in avoidance of habitats or
decreased habitat quality) on 1,725 acres of interior
forest. 152
138. In response to the final EIS, West Amwell
Township discusses the Goat Hill Natural Heritage
Priority site. West Amwell Township notes in its
comments that PennEast has repeatedly and
erroneously understated the impacts on the Goat Hill
Natural Heritage Priority site, and misidentified its
location. PennEast believed the priority site was
strictly contained in the park near George Washington
Road, but it has been demonstrated that in fact the
Goat Hill Priority Site encompasses the entire hill (as
West Amwell Township indicated in a map submitted
to FERC showing the Priority Site Delineation, and
where PennEast will be impacting it). The final EIS
acknowledges the biological importance of Goat Hill
and Gravel Hill, 153 and the potential for the area to
contain sensitive biological resources. As identified in
the final EIS, and based on consultations with the
NJDEP, the Goat Hill Priority Site may contain
several vegetative communities of special concern and
is known to support three state endangered plant
species. Though state-required mitigation measures
have not been determined for state listed plant
species, the EIS identifies procedures that have been
successfully implemented for rare plants by similar
projects, including flagging/fencing the plant or
population to facilitate avoidance during construction,
minor alignment shifts to avoid larger populations,
152

See final EIS at 4-90 (table 4.5.1-2).

153

See Appendix M of the final EIS at M-266.

JA 119
topsoil segregation, and relocation of individual plants
and/or collection of seeds for cold storage/stockpiling
and replanting at a later date. These measures also
typically include monitoring to ensure that they are
successful.
PennEast
will
adhere
to
the
recommendations and requirements of NJDEPDivision of Fish and Wildlife in order to avoid or
minimize impacts on these species, including
completing all necessary surveys for state species. 154
139. The Goat Hill Priority Site is located in the
Sourland Mountain region. The final EIS evaluated
route alternatives in the Sourland Mountain area and
determined that the proposed route will have less
environmental impacts than the alternative routes. In
addition, the pipeline will be collocated with an
existing utility line in this area, further minimizing
impacts. In addressing visual impacts, the pipeline
will cross Sourland Mountain region for about 0.75
mile to the east of Goat Hill Overlook. The pipeline
will be separated from the overlook by about 0.75 mile
of mature forest and therefore will have minimal
visual impact in this area. Once surveys are
completed, PennEast will file its survey findings and
documentation of consultations/permits required and
Commission staff will review and verify that the new
biological information does not alter the EIS
conclusions. 155
140. In comments on the final EIS, the EPA
recommends that PennEast develop a revegetation
plan for nature preserves and parklands and that
154

See final EIS at 4-139.

155

See Appendix M of the final EIS at M-266.

JA 120
PennEast plant larger plant stocks (as opposed to
seedlings). Areas temporarily disturbed during
construction will be reseeded in accordance with our
Plan and Procedures, as well as any recommendations
made by the local soil conservation district or land
managing agency/individual. In accordance with
PennEast’s E&SCP, PennEast will implement and
monitor revegetation efforts to ensure successful postconstruction revegetation as outlined in our Plan and
Procedures. The seed mixes used for reseeding will be
selected based on consultation with local soil
conservation
districts,
or
appropriate
land
management agencies. Therefore, we find that
recommending revegetation plans and additional
measures regarding revegetation are not warranted.
141. In comments on the final EIS, the NJDEP
comments that the project is subject to the New Jersey
No Net Loss Compensatory Reforestation Act
(NNLRA) and recommends that the Commission
require compensatory mitigation for impacts on
forested areas. To mitigate impacts on forested areas,
the final EIS states that PennEast will assess the
purchase and permanent conservation of forested
lands in key watersheds and reforest areas within the
same municipality in which the impact occurs; or
develop mitigation measures for restoring areas of
temporary project impacts in New Jersey.
Compensation will be determined based on final
project acreage impacts and grid method assessment
techniques
consistent
with
the
NNLRA
156
requirements.
156

See final EIS at 4-91.

JA 121
142. We received comments concerning construction
impacts on forest disease, as well as concern with
noxious weeds invading revegetation efforts. The final
EIS addresses these issues and concludes that with
implementation of the measures in the E&SCP and
our Plan, the measures will minimize forest disease
spread
and
deter
noxious
weeds
from
occurring/spreading. However, further mitigation
measures are needed to address invasive species.
Based on staff’s analysis of the proposed project route,
invasive species were observed in areas that were
surveyed along the pipeline. An Invasive Species
Management Plan has yet to be developed by
PennEast. Therefore, we support the recommendation
in the final EIS and require in Environmental
Condition 33 that, prior to construction, PennEast file
complete results of its noxious weed surveys and a
final Invasive Species Management Plan for review
and approval that includes measures PennEast will
implement during construction and operation to
minimize invasive and noxious species from occurring
on the right-of-way.
143. Impacts will be short-term in non-forested
areas, and it is expected that these non-forested areas
will, with implementation of PennEast’s E&SCP and
the Commission’s Plans and Procedures, be
successfully restored within three years following
construction. 157 However, all impacts on forested
habitats will be considered long-term because of the
time required to restore woody vegetation to
preconstruction conditions (i.e., more than 30 years,
157

See final EIS at 4-89.

JA 122
and possibly hundreds of years for some forested
areas). 158
144. Regarding wildlife, PennEast will implement
restrictions on the timing and location of construction,
based on the requirements of local and state wildlife
agencies, in order to mitigate impacts on wildlife and
their habitat. Further, PennEast will prepare a
Migratory Bird Conservation Plan, and implement the
U.S. Fish and Wildlife Service’s (FWS) recommended
measures, to protect bald eagles and comply with the
Migratory Bird Treaty Act. We require in
Environmental Condition 34 that PennEast file a
migratory Bird Conservation Plan developed in
consultation with the FWS.
145. Based on the analysis in the final EIS, and
PennEast’s proposed and the Commission’s required
mitigation measures, we have determined that the
project will not significantly impact vegetation,
forested land or wildlife.
f.

Threatened, Endangered, and
Other Special Status Species

146. Based on input from the FWS, the final EIS
identified eight federally-listed species that
potentially occur in the project area: the Indiana bat,
northern long-eared bat, bog turtle, dwarf wedge
mussel, rusty patched bumble bee, northeastern
bulrush,
Atlantic
sturgeon,
and
Shortnose
sturgeon. 159 The final EIS concludes that the project
may affect and is likely to adversely affect the
158

See final EIS at 4-89.

159

Final EIS at 4-109 (table 4.6-1).

JA 123
northern long-eared bat, Indiana bat, bog turtle, and
northeastern bulrush, while it may affect but is not
likely to adversely affect the dwarf wedge mussel. 160
The final EIS found that the Atlantic sturgeon and the
Shortnose sturgeon, while found downstream of the
project, do not occur in the project area and will not be
affected. The final EIS concludes that the project may
affect and is likely to adversely affect the rusty
patched bumble bee; however, based on information
made available by the FWS since issuance of the final
EIS, 161 Commission staff has changed the
determination for this species, finding that the project
would not affect the rusty patched bumble bee.
Complete surveys of all potentially suitable habitat
within the project area have yet to be completed, due
to lack of access granted by affected landowners. In
accordance with section 7 of the Endangered Species
Act, Commission staff prepared a Biological
Assessment to support formal consultation with the
FWS for the northern long-eared bat, Indiana bat, bog
turtle, and northeastern bulrush. The Biological
Assessment was submitted to the FWS on July 14,
2017.
147. On November 29, 2017, the FWS provided its
biological opinion (BO) for the project, along with its
recommended conservation measures. The FWS has
determined that the project is not likely to adversely
affect the dwarf wedge mussel, Indiana bat, and the
northeastern bulrush. In addition, the FWS stated
160

Id.

161 Notes from April 24, 2017 teleconference between FWS,
Pennsylvania Field Office, and PennEast, as provided to
Commission staff by the FWS via email on May 22, 2017.

JA 124
that the project, as proposed, is not likely to jeopardize
the continued existence of the bog turtle or northern
long-eared bat. Accordingly, after receiving the FWS’
BO, we are not including the final EIS’s
Environmental Conditions 33, 34, and 36 through 41
(which are obviated by the BO) in this order, and are
adding to this order a new Environmental Condition
36, which requires that PennEast adopt the
recommended measures in FWS’ BO into its projectspecific implementation plan. These include
implementing reasonable and prudent measures,
adopting terms and conditions for the bog turtle;
avoidance measures for bulrush; and adopting
monitoring and reporting requirements; consulting
with
the
FWS
regarding
conservation
recommendations for the bog turtle and the northern
long-eared bat; and providing FWS with all remaining
survey
results
for
FWS
comment.
With
implementation of these measures we conclude our
consultation with the FWS under section 7 of the
Endangered Species Act for the bog turtle, Indiana
bat, northern long-eared bat, and northeastern
bulrush.
148. Based on input from state wildlife management
agencies, the EIS identified 24 state listed species that
could potentially occur in the project area. 162
PennEast has stated that it will adhere to the
recommendations and requirements of the respective
state agencies with jurisdiction over state listed
species and state species of concern (including the
Pennsylvania Game Commission, Pennsylvania Fish
162 Table 4.6-2 in the final EIS features a complete listing of all
state listed species.

JA 125
and Boat Commission, Pennsylvania Department of
Conservation and Natural Resources (PADCNR), and
NJDEP-Division of Fish and Wildlife) in order to avoid
or minimize impacts on these species, including
completing all necessary surveys for state species.
PennEast has indicated that ongoing permit review by
Pennsylvania and New Jersey wildlife agencies may
result in the identification of additional avoidance,
minimization, or mitigation measures that will be
attached as permit conditions from respective state
agencies with jurisdiction over state listed species and
state species of concern. As recommended in the final
EIS, we require in Environmental Condition 39 that
prior to construction, PennEast file a comprehensive
list of measures developed in consultation with
applicable state wildlife agencies to avoid or mitigate
impacts on state-listed species and state species of
concern. Commission staff will review these measures
prior to construction to verify consistency with the
Commission’s order.
149. Comments were received from several
individuals regarding potential impacts on bird
species, including bald eagles and peregrine falcons.
The final EIS recommends that PennEast develop a
Migratory Bird Conservation Plan and implement
measures recommended by the FWS to protect bald
eagles in order to comply with the Migratory Bird
Treaty Act and Bald and Golden Eagle Protection Act.
As a result, we require in Environmental Condition 34
that PennEast file a Migratory Bird Conservation
Plan developed in consultation with the FWS. In
addition, PennEast has committed to following the
FWS’ recommendations for implementation of
adaptive management practices to minimize impacts

JA 126
on migratory birds during construction and operation
of the project, as well as adhering to a more restrictive
window (September 11 to March 14) for vegetation
maintenance activities. 163
150. After the close of the draft EIS comment period,
comments were filed on behalf of Dr. Ned Heindel, Dr.
Linda Heindel, and the Linda Heindel Living Trust
concerning potentially occurring threatened and
endangered species on their property, including
species within vernal pools. As stated above, we
acknowledge that not all surveys for threatened and
endangered species have been completed due to lack
of survey access. To address sensitive vernal pools that
may be crossed, we require in Environmental
Condition 31 that PennEast survey all areas mapped
as being potential vernal pool habitat and identify if
any vernal pool habitat will be affected by project
construction and/or operation. Such survey shall be
submitted for review. Based on current information,
the final EIS identifies less than 0.3 acre of vernal pool
habitat that will be impacted by construction, with
about 0.1 acre permanently impacted during
operation. Should additional vernal habitats be
discovered in supplemental surveys, PennEast will
implement a time of year restriction if vernal habitats
cannot be avoided. This time of year restriction would
be observed during the key breeding period (i.e.,
March through June) for obligate and facultative
amphibian species. All disturbed areas would be
restored to pre-construction conditions following
pipeline installation. Based on the mitigation
measures and completion of remaining surveys, the
163

See final EIS at 4-104 to 4-105.

JA 127
EIS concludes that impacts on vernal pools would be
effectively minimized or mitigated. 164
151. In comments on the final EIS, Sondra
Wolferman states that the Habitat Mitigation Plan
discussed in the final EIS is insufficient to protect the
northern flying squirrel, a Pennsylvania-listed
endangered species, and suggests additions to the
Habitat Mitigation Plan for the species in Hickory
Run State Park. In general, PennEast has stated that
it will adhere to the recommendations and
requirements of the respective state agencies with
jurisdiction over state-listed species and state species
of concern. Pennsylvania Game Commission requires
a northern flying squirrel mitigation plan related to
the species’ loss of habitat as a result of the project.
PennEast has not yet developed this plan, but has
committed to working with the state agencies to
develop an adequate plan. 165 We are confident that the
Habitat Mitigation Plan developed with Pennsylvania
Game Commission will be sufficient to protect the
northern flying squirrel.
152. In comments on the final EIS, NJDEP notes two
discrepancies in tables 4.3.3-1 and G-13 of the final
EIS. NJDEP notes that channel catfish (Ictalurus
punctatus) and northern pike (Esox luclus) are listed
in table 4.3.3 - twice. Both species are representative
fish species in waterbodies crossed by the project in
Pennsylvania and New Jersey, therefore they are
listed twice. NJDEP also notes that Atlantic sturgeon
(Acipenser oxyrinchus) is noted as “Not Listed” for
164

See final EIS at 5-7.

165

See final EIS at 4-127 to 4-128.

JA 128
Federal Status in table G-13. The Federal Status of
this species is correctly identified in table 4.6-1 of the
final EIS. There are four distinct population segments
(DPS) of the Atlantic sturgeon that are listed as
endangered: the New York Bight DPS, the
Chesapeake Bay DPS, the Carolina DPS, and the
South Atlantic DPS; the Gulf of Maine DPS is listed
as threatened. None of these DPS occur within the
project area, but the New York Bight DPS could occur
downstream of the project area. 166 The final EIS
concludes that there will be no effect on the Atlantic
sturgeon, given that its known occurrence is at least
20 miles downstream of the Delaware River crossing,
which will be avoided via HDD. We concur.
153. Based on implementation of these measures
and the environmental conditions in Appendix A of
this order, we agree with the final EIS’s conclusion
that impacts on special-status species will be
adequately avoided or minimized.
g.

Land Use, Recreation, and Visual
Resources

154. Construction of the project will impact about
1,588 acres. About 61 percent of this acreage will be
utilized for the pipeline facilities, including the
construction right-of-way and additional temporary
work space. The remaining acreage affected during
construction will be associated with aboveground
facilities (4 percent), pipe and contractor ware yards
(25 percent), and access roads (9 percent). 167 During
operation, the new permanent pipeline right-of-way,
166

See final EIS at (table 4.6-1).

167

Due to rounding error, percentages do not add up to 100.

JA 129
aboveground facilities, and permanent access roads
will impact 788 acres. 168 Land uses impacted by the
project will include forest, agriculture, open land,
residential, industrial/commercial, and some open
water. About 37 percent of the pipeline will be
collocated with existing rights-of-way. We agree with
the final EIS’s conclusion that, with adherence to
PennEast’s proposed impact avoidance, minimization,
and mitigation plans, and implementation of the
environmental conditions in Appendix A of this order,
the overall impacts on land use will be adequately
minimized.
155. Several comments were received regarding the
use of public and private roads as access roads,
including driveways and the historic “Stymiest Road.”
The final EIS lists the access roads proposed for use
for the project, whether their use is temporary or
permanent, and considers these impacts. PennEast is
committed to maintaining access for landowners to
residences, driveways, fields, and other agricultural
facilities during construction to the extent possible. 169
PennEast continues to communicate at the state,
county, local, and private level in its effort to minimize
impacts on access roads, and discuss potential postconstruction restoration, and PennEast has stated it
would repair any damage to public or private
roadways resulting from construction. All temporary
access roads used for construction will be restored in
accordance with the provisions in PennEast’s ECS&P,
our Plan, and landowner agreements after
168

See final EIS at 4-140.

169

See final EIS at 4-153.

JA 130
construction. In addition, PennEast will determine
current average daily transit and evaluate current
conditions to finalize its Residential Access and Traffic
Management Plan. To further ensure PennEast takes
all appropriate mitigation measures to minimize
impacts on traffic and landowner access, we require in
Environmental Condition 40 that PennEast file a
revised Residential Access and Traffic Management
Plan which includes traffic counts, peak traffic
volumes, and site-specific mitigations measures.
156. West Amwell Township filed comments on the
final EIS regarding the impact on septic systems,
contending that the final EIS and PennEast erred in
stating that no septic systems were located within 150
feet of the pipeline and that such systems may be
adversely impacted during construction and operation
of the project. Because pipeline construction could
damage septic systems, including septic tanks,
distribution piping, and drain fields, we have included
a new condition to address potential septic system
impacts. Environmental Condition 22 requires that
PennEast identify septic systems within 150 feet of
any construction workspace and develop a plan that
describes how PennEast will avoid impacts on septic
systems where possible, as well as how PennEast will
mitigate or restore impacted systems to applicable
regulatory requirements.
157. William E. Markus filed comments regarding
impacts on a structure on his property which could be
damaged due to HDD operation and requests that
PennEast re-route the project to the opposite side of
the property. The final EIS points out that PennEast
has responded to landowner concerns, and has

JA 131
evaluated, and incorporated, several pipeline
variations based on landowner requests. We
acknowledge that PennEast will continue to evaluate
minor route changes. To ensure that Residential
Construction Plans address landowner comments
such as Mr. Markus’, we require in Environmental
Condition 41 that PennEast file additional
information for residences in close proximity to the
project prior to construction.
158. Several comments were received discussing
potential impacts on protected lands, including
conservancies and lands held in trust. In addition, the
EPA recommends that additional measures be taken
to monitor whether protected land impacted by new
easements lose quality and value to conservancy
patrons. Impacts on conservation easements are
addressed fully in section 4.7.2 of the final EIS. There
are no changes expected in the conservation status of
public lands crossed by the project, including state
game lands and state highways and maintenance
areas. No changes are expected in the conservation
status of private lands crossed by the project in
Pennsylvania. New Jersey parcels crossed by the
project that are subject to types of conservation or
open space protective easements will generally retain
their conservation and open space characteristics,
except with respect to the limited circumstance of New
Jersey State Agriculture Development Committee
(SADC) easements, as described in section 4.7.4 of the
final EIS.
159. The SADC asserts that table G-17 from
Appendix G of the final EIS is incomplete, as three
New Jersey farms encumbered by farmland

JA 132
preservation development easements and impacted by
the project are not included. This comment is noted.
The description of impacts and mitigation for impacts
on farmlands with preservation easements included in
sections 4.7.4.2 and 4.7.4.4 of the final EIS apply to
the three farms identified from SADC, even though
they are not listed in table G-17 of the final EIS.
160. The New Jersey Highlands Water Protection
and Planning Council states that the final EIS does
not adequately address the Highlands Region, nor the
Highlands Regional Master Plan. The final EIS states
that the New Jersey Highlands Water Protection and
Planning Council will review the proposed project
against the Highland Regional Master Plan and will
be
responsible
for
issuing
a
Consistency
Determination in accordance with the Highlands
Water Protection and Planning Act Rules. 170
Additionally, PennEast has indicated that it will
voluntarily prepare a Comprehensive Mitigation Plan
to detail proposed efforts to avoid, minimize, and
mitigate impacts on resources associated with the
New Jersey Highlands Region. 171 Based on
PennEast’s voluntary commitment to prepare the
Comprehensive Mitigation Plan, we find these
concerns have been adequately addressed.
161. In response to the USACE’s Draft Finding of No
Significant Impacts, Sondra Wolferman asserts that it
will be impossible to restore Beltzville State Park to
its original condition after project construction. Ms.
Wolferman argues that the project right-of-way will
170

N.J. Admin. Code §§ 7:15, 7:38-1.1 (2017).

171

See final EIS at 4-170 to 4-171.

JA 133
permanently and significantly alter the appearance of
the trails within the park. However, we believe that
any impacts to visual of park patrons will be minimal,
since PennEast will keep a 300-foot recreational and
aesthetic buffer around these areas and adhere to any
vegetation
management
request
from
the
172
PADCNR.
162. Several comments were filed regarding the
potential for impacts on visual resources, particularly
for recreational and conserved lands in New Jersey.
PennEast prepared site-specific crossing plans for
federal, state, and local lands that are used
recreationally and the EIS concludes the mitigation
measures proposed by PennEast, including sitespecific safety measures, modified construction
schedules, and the use of special construction
techniques, adequately mitigate potential visual
impacts resulting from the project.
163. In general, the final EIS concludes that the
effects of the project on recreational and special
interest areas occurring outside of forestland will be
temporary and limited to the period of active
construction, which typically lasts several weeks or
months in any one area. 173 These effects will be
minimized by implementing the measures in
PennEast’s E&SCP, FERC’s Plan and Procedures, and
other project-specific construction plans. In addition,
we require in Appendix A of this order that PennEast
continue to consult with the owners and managing
agencies of recreation and special interest areas
172

See final EIS at 4-164.

173

See final EIS at 5-11.

JA 134
regarding the need for specific construction mitigation
measures. 174
h.

Socioeconomics

164. Construction of the project will require
approximately 2,400 workers, with a maximum of 600
people working on any one section at any one time.
PennEast estimates that up to 40 percent of the
workforce will consist of local hires; operation of the
project will require 24 new permanent employees to
operate the new pipeline and compressor station.
Temporary impacts on traffic during construction will
result from the workforce commuting daily to the
construction site; however, PennEast will explore sitespecific mitigation measures in its revised Residential
Access and Traffic Management Plan that it may
implement to minimize impacts on local traffic. 175 The
project would cross one census block that could be
considered a minority population, and one census
block that could be considered low-income; however,
construction and operation of the project is not
expected to have high and adverse human health or
environmental effects on any nearby communities or
result in adverse and disproportionate human health
or environmental effects to minority or low income
communities.
165. After the close of the draft EIS comment period,
Phyllis Jacewicz filed comments regarding the
potential increase in homeowner’s insurance due to
proximity to the project. As noted in the final EIS,
insurance advisors consulted on previous natural gas
174

See Environmental Conditions 42 and 43 in Appendix A.

175

See Environmental Condition 40 in Appendix A.

JA 135
projects have indicated that natural gas pipelines do
not impact the rates or eligibility for residential
insurance applications. The final EIS finds that
homeowner’s insurance rates would be unlikely to
change due to construction and operation of the
proposed project. 176 However, to address any potential
insurance-related
issues,
we
require
in
Environmental Condition 45 that PennEast file
reports describing any documented complaints from a
homeowner that the construction of a pipeline, or the
existence of a pipeline right-of-way, directly impacted
a homeowner’s insurance. Additionally, as is typical
for similar projects, PennEast will maintain insurance
coverage for the project from the start of the survey
process through the lifetime of the project, with
coverage that will apply to qualifying claims from
third-parties, including landowners. 177
166. In comments on the final EIS, Kelly Kappler
discusses potential impacts on local tourism. The final
EIS finds that while the potential exists for the project
to have localized effects on recreation resources,
construction and operation of the project would not be
expected to substantially impact the recreation and
tourism sector in the affected counties. 178 We concur.
Emma Switzler comments on the final EIS that noise
from construction will impact her son’s ability to teach
tennis lessons. As discussed further below, any noise
impacts from construction will be highly localized and
temporary.
176

See final EIS at 4-195.

177

See final EIS at 4-195.

178

See final EIS at 4-185.

JA 136
167. In its comments on the final EIS, the EPA
recommends that meaningful coordination and
outreach be conducted with communities of concern,
including Environmental Justice communities.
Consistent with Executive Order 12898, all public
documents, notices, and meetings were made readily
available to the public during the Commission’s
review of the project. The final EIS provides additional
detail about coordination and outreach as well as an
assessment of impacts on Environmental Justice
communities. As noted above, the final EIS concludes
that construction and operation of the project will not
have high and adverse human health or
environmental effects on any nearby communities or
result in adverse and disproportionate human health
or environmental effects to minority or low income
communities. 179
i.

Cultural Resources

168. The final EIS identifies ten archaeological sites
in Pennsylvania and three sites in New Jersey in the
direct area of potential effect. Additionally, there are
110 aboveground historic resources identified in
Pennsylvania and 41 in New Jersey. This is based on
completed cultural resources identification surveys for
69 miles in Pennsylvania and 15 miles in New Jersey,
as well as desktop research. 180 Although the
Pennsylvania and New Jersey State Historic
Preservation Offices (SHPOs) concurred with some of
the final EIS recommendations, they did not agree
with all of the recommendations by PennEast.
179

See final EIS at 4-197 to 4-202.

180

See final EIS at 5-14.

JA 137
Consultation is ongoing with the Pennsylvania and
New Jersey SHPOs.
169. Commission staff consulted, and PennEast
conducted outreach, with 15 federally recognized
tribes, as well as several other non-governmental
organizations, local historical societies, museums,
historic
preservation
heritage
organizations,
conservation districts, and other potential interested
parties to provide them an opportunity to comment on
the project. 181 We have not received any responses to
the letters sent to the federally recognized tribes.
170. On January 24, 2017, after the close of the draft
EIS comment period, John P. Hencheck filed
comments regarding potential impacts on “The Road
Along the Rocks,” a historic resource associated with
the American Revolution. PennEast has a number of
evaluation studies, reports, and potential treatment
plans pending, including an architectural survey of
The Road Along the Rocks. 182
171. In letters dated August 7 and August 9, 2017,
the New Jersey SHPO commented on two historic
architecture survey report addenda for Hunterdon
and Mercer Counties, New Jersey. The New Jersey
SHPO agreed that no additional studies were
necessary for ten of the properties investigated.
Further, they stated that the John Moore Farmhouse
and Angel Farmstead are considered eligible for
listing on the National Register of Historic Places.
However, five properties (Kappus Farm, Cedarknoll
Farm, Flemington Branch of the Belvidere-Delaware
181

See final EIS at 4-210 to 4-211.

182

See final EIS at 4-226 (table 4.9.2-7).

JA 138
Railroad Historic District, Rock Road/Rocktown
Road/Road Along the Rocks/Bungtown Road, and 1465
NJ Route 179- Olde York Road) would require
additional information from PennEast for the New
Jersey SHPO to provide comments. Additionally, the
New Jersey SHPO noted that the Hopewell Township
Historic Preservation Commission should be provided
an opportunity to review and comment on cultural
resources reports for the Hopewell Township within
Mercer County. Environmental Condition 47 requires
PennEast to file the results of the New Jersey SHPO’s
assessment of these properties, and any related site
avoidance or mitigation plans. We find this adequate
to address the concerns raised.
172. On May 25, 2017, in comments on the final EIS,
the NJDEP submitted a letter noting that 68 percent
of the project alignment in New Jersey still needed to
be surveyed for historic properties. As identified in the
final EIS, compliance with Section 106 of the NHPA is
not complete due to pending surveys, evaluation of
certain archaeological sites and historic architecture,
as well as avoidance and potential treatment plans for
the project, both in New Jersey and Pennsylvania.
These activities are specifically identified in tables
4.9.2-2, 4.9.2-4, 4.9.2-5 and 4.9.2-7 of the final EIS. In
addition, Environmental Conditions 46 through 50
identify certain assessments, mitigation plans, and
consultations that PennEast must complete and file
with the Secretary prior to construction to address
stakeholder comments and address mitigation
requirements identified by Commission staff. To
ensure that our compliance with section 106 of the

JA 139
National Historic Preservation Act, 183 we require in
Environmental Condition 51 that PennEast not begin
construction until any additional required surveys are
completed, and survey reports and treatment plans (if
necessary) have been reviewed by consulted parties,
including the appropriate SHPO, and all appropriate
documentation is filed with the Secretary.
Commission staff will review all filings to ensure
PennEast completes all pending activities identified in
the final EIS, and required by Environmental
Conditions 46 through 51. Fulfillment of these
conditions will enable the Commission to complete
section 106 consultation, thereby, along with the
foregoing discussion, addressing all concerns on this
subject.
j.

Air Quality Impacts

173. General Conformity Determinations stem from
section 176(c) of the Clean Air Act, 184 which requires
a federal agency to demonstrate that a proposed action
conforms to the applicable State Implementation
Plan, a state’s plan to attain the National Ambient Air
Quality Standards (NAAQS) for nonattainment
pollutants. A General Conformity Determination is
required when the federal agency determines that an
action will generate emissions exceeding conformity
threshold levels of pollutants in the nonattainment
area, in order to assess whether the federal action will
indeed conform to the State Implementation Plan.
Because portions of the project will be located in five
different counties with a nonattainment or
183

54 U.S.C.A. §§ 300101 et seq. (West 2016).

184

42 U.S.C. § 7506(c) (2012).

JA 140
maintenance designation for at least one pollutant,
Commission staff reviewed the criteria pollutant
emissions expected to be generated during
construction of the project and compared them to the
General Conformity thresholds in section 93.153(b)(1)
of the EPA’s regulations. 185
174. Based on PennEast’s May 2016 revised
construction emission estimates, the final EIS
determines that project construction emissions will
not exceed any General Conformity applicability
thresholds. 186 Because no thresholds are triggered, a
General Conformity Determination is not required to
be made. To ensure this finding is based on the most
up-to-date information, however, Environmental
Condition 52 requires PennEast to file revised
construction emissions estimates if changes to the
project construction schedule and/or design occur that
will materially impact the construction nitrogen oxide
(NOx) emissions generated in a calendar year. If the
revised emissions exceed a General Conformity
applicability threshold, then the Commission will
need to prepare a draft General Conformity
Determination at that time and prior to any
construction.
175. In comments on the final EIS, the NJDEP
expresses concerns over the potential air emissions
associated with the USACE permits, and whether
these emissions were included in the General
Conformity analysis, as well as the emission totals
presented in tables 4.10.1-4 and 4.10.1-5 of the final
185

40 C.F.R. § 93.153(b)(1) (2017).

186

See final EIS at 4-240.

JA 141
EIS. The project will not include any additional
facilities related to the USACE permit. Therefore, no
additional emissions are anticipated.
176. NJDEP states that its Bureau of Evaluation
and Planning previously submitted a comment on the
draft EIS asking whether air emissions associated
with
transporting
pipe
within
the
nonattainment/maintenance areas to the staging
areas/worksites were included in tables 4.10.1-4 and
4.10.1-5, and states that Appendix M does not appear
to respond to the Bureau of Evaluation and Planning’s
comment. These pipe transport emissions are
accounted for by the “Float, Lowboy, Tractor Trucks”
line items provided in Appendix L-2 of Resource
Report 9 in PennEast’s application, and are accounted
for in Tables 4.10.1-4 and 4.10.1-5 in the final EIS.
177. NJDEP states that the Bureau of Evaluation
and Planning previously submitted a comment on the
draft EIS inquiring as to whether the construction
equipment list included HDD, and if tables 4.10.1-4
and 4.10.1-5 included emissions associated with HDD
activity, and states that Appendix M does not appear
to respond to the Bureau of Evaluation and Planning’s
comment. NJDEP further comments that the 150
horsepower rating for the category of “Skidder,
Trencher, Boring” equipment (as provided by
PennEast in Appendix L-2 of Resource Report 9), may
not be the appropriate horsepower rating for HDD
equipment used on a “major” crossing such as the
Delaware River. NJDEP requests that the horsepower
rating used for the HDD equipment be re-evaluated
and that the HDD air emissions for the Delaware
River crossing, as well as the emission totals used in

JA 142
the General Conformity analysis and in tables 4.10.14 and 4.10.1-5, be revised accordingly.
178. The comments from the Bureau of Evaluation
and Planning that were included in NJDEP’s
September 12, 2016 letter on the draft EIS do not refer
to HDD activity. Regardless, the construction
equipment list, as provided by PennEast in Appendix
L-2 of Resource Report 9, includes HDD equipment,
and that tables 4.10.1-4 and 4.10.1-5 of the final EIS
appropriately include air emissions associated with
HDD activity. However, we acknowledge the
possibility that the HDD crossing of the Delaware
River may require HDD equipment with higher
horsepower ratings than those used to estimate
construction emissions in the EIS. Incorporating the
increased
emissions
associated
with
using
appropriately-sized HDD equipment for the Delaware
River crossing into the General Conformity analysis
will not change the conclusion, as the increase in
emissions will be insignificant relative to overall total
construction emissions. As demonstrated below, even
by updating the General Conformity analysis to
include updated HDD equipment, construction
emissions in Bucks County, Pennsylvania, and
Hunterdon County, New Jersey, will remain well
below the applicability thresholds that would trigger
the requirement for a General Conformity
determination.
179. In order to approximate the potential increase
in construction emissions due to higher-rated HDD
equipment for the Delaware River crossing, we scaled
up emissions provided for the “Skidder, Trencher,
Boring” equipment in Pipeline Spread 3 (which

JA 143
encompasses the Delaware River crossing), and
applied the net emission increase to the values
presented in tables 4.10.1-4 and 4.10.1-5 of the final
EIS. The provided “Skidder, Trencher, Boring”
emissions were based on a horsepower rating of 150,
and we scaled these up by a factor of 3.33 to
approximate a horsepower rating of 500 hp, which was
the rating used by another similar pipeline project, as
suggested by NJDEP. Tables 4.10.1-4 and 4.10.1.-5 of
the final EIS are reproduced below with the emission
increase applied, and show that the increased
emissions will remain well below the General
Conformity applicability thresholds.

JA 144

180. NJDEP comments on the final EIS that the
emission factors and load factors used for on-road and
off-road construction equipment appear to represent
the use of (lower-emitting) Tier 3 and Tier 4 engines.
NJDEP further notes that while the final EIS includes
a recommendation that Tier 3 and Tier 4 engines be
used when possible, it doesn’t require this, leaving
open the possibility that lower-tier, higher-emitting
engines could be used. NJDEP therefore requests that
the emission factors, load factors, and estimated
construction emissions be re-evaluated to better
reflect the actual equipment that may be used, and
that the General Conformity analysis and tables
4.10.1-4 and 4.10.1-5 be revised accordingly.
181. Environmental Condition 53 requires that
PennEast implement several measures for on-road
vehicles and non-road diesel construction equipment,
including a requirement that “all non-road diesel
construction equipment greater than 100 horsepower
used for more than ten days shall have engines that
meet the EPA Tier 4 non-road emission standards or
the best available control technology that is
technologically feasible and verified by EPA or the
California Air Resources Board as a diesel emission
control strategy.” This requirement will ensure that

JA 145
PennEast will use low-emission-rated engines for all
construction equipment that will be utilized long
enough to potentially impact the construction
emissions of the project.
182. Air
quality
impacts
associated
with
construction of the project will include emissions from
fossil-fueled construction equipment and fugitive
dust. Local emissions may be elevated, and nearby
residents may notice elevated levels of fugitive dust,
but these will not be significant or permanent. We
agree with the final EIS’s conclusion that, with
implementation of PennEast’s proposed mitigation
measures and the environmental conditions in
Appendix A of this order, air quality impacts from
construction activities, such as elevated dust levels
near construction areas, will be temporary or short
term, and will not result in a significant impact on
local and regional air quality. 187
183. PennEast conducted modeling of emissions
from the proposed Kidder Compressor Station to
analyze potential impacts associated with the
operation of the proposed new sources, including
monitored background. Based on this modeling
analysis, the final EIS concludes the air quality
impacts from the sources at the proposed Kidder
Compressor Station are estimated to be below the
NAAQS for all pollutants. 188
184. We agree with the final EIS’s conclusion that,
with implementation of the environmental conditions
in Appendix A of this order, operational emissions will
187

See final EIS at 4-245.

188

See final EIS at 4-253.

JA 146
not have a significant impact on local or regional air
quality. 189
k.

Noise

185. Pipeline construction noise impacts would be
temporary as construction activities move along the
corridor. During construction, PennEast will employ a
combination of noise mitigation methods, including
equipment noise controls, temporary noise barriers,
and administrative measures. 190
186. The primary source of operational noise for the
project will be the Kidder Compressor Station.
Ambient sound measurements were collected in the
vicinity of the Kidder Compressor Station location, as
well as the vicinity of other operational sound sources
like the mainline valves and meter stations, to
establish existing conditions. PennEast will be
required to meet the most restrictive noise level limits
established
by
jurisdictional
agencies.
The
Commission limit of 55 decibel A-weighted (dBA) daynight sound level (Ldn), which is equivalent to a
continuous noise level of 49 dBA, would be the
governing limit for those areas where a more
restrictive county, local, or station-specific regulation
does not exist. 191 We require in Environmental
Condition 55 that PennEast conduct a noise survey of
the Kidder Compressor Station area, while the station
is operating at full load, to ensure that operational
noise is at or below this limit. With the
implementation of PennEast’s proposed mitigation
189

See final EIS at 5-15.

190

See final EIS at ES-15.

191

See final EIS at ES-15.

JA 147
measures and Environmental Condition 55, we
conclude that the compressor station’s operational
noise will not result in significant noise impacts on
residents and the surrounding areas.
187. Notable sources of intermittent noise include
blasting and drilling. PennEast’s Blasting Plan
includes mitigation measures related to blasting
noise, 192 and Environmental Condition 54 requires
that PennEast provide an HDD Noise Mitigation Plan,
which must be approved prior to construction. On
April 14, 2017, Emma A. Switzler commented on the
final EIS regarding noise mitigation for HDD
activities. However, with the implementation of
PennEast’s proposed mitigation measures and
Environmental Condition 54, we conclude that
construction of the project will not result in significant
noise impacts on residents and the surrounding areas.
l.

Safety

188. As described in the final EIS, PennEast will
design, construct, operate, and maintain the proposed
facilities to meet or exceed the U.S. Department of
Transportation’s (DOT) Minimum Federal Safety
Standards set forth in Title 49 Code of Federal
Regulations Part 192. DOT’s Pipeline and Hazardous
Materials Safety Administration’s (PHMSA) Office of
Pipeline Safety administers the national regulatory
program to ensure the safe transportation of natural
gas and other hazardous materials by pipeline. 193 In

192

See final EIS at 4-294.

193 Final EIS at 4-30; see also 49 U.S.C. § 60112 (authorizing the
Department of Transportation to determine that a pipeline

JA 148
general, the Commission appropriately relies on
PHMSA to monitor the pipeline’s construction and
operation of natural gas facilities to determine
compliance with its design and safety standards. 194
189. Based on available data, we agree with the final
EIS’s conclusions that PennEast’s implementation of
the above-mentioned DOT minimum Federal safety
standards, and implementation of the required
Environmental Conditions, will minimize the risk of
public harm related to the construction and operation
of the project.
190. Numerous commenters question the safety of
the project, and take particular issue with the pipeline
route’s proximity to existing natural gas pipelines and
quarries. In addition, several commenters, including
the Medical Society of New Jersey, express concerns
regarding potential effects of a pipeline rupture and
natural gas ignition (the area of potential effect is
sometimes referred to as the potential impact radius).
While a pipeline rupture does not necessarily ignite in
every instance, the DOT’s regulations define high
consequence areas where a gas pipeline accident could
do considerable harm to people and property, and
facility is hazardous and order the operator of the facility to take
corrective action).
See EarthReports, Inc. v. FERC, 828 F.3d 949, 959 (D.C. Cir.
2016) (the “opinions and standards of—and [LNG operator’s]
future coordination with—federal and local authorities” were a
reasonable component of the Commission’s public safety
evaluation); City of Pittsburgh v. Fed. Power Comm’n, 237 F.2d
741, 754 (D.C. Cir.1956) (explaining that the Commission
“would . . . do well to respect the views of . . . other agencies as to
those problems” for which those other agencies “are more directly
responsible and more competent than this Commission”).
194

JA 149
require an integrity management program to
minimize the potential for an accident in these areas.
PennEast routed the pipeline to minimize risks to
local residents and vulnerable locations/populations
(e.g., hospitals, prisons, schools, daycare facilities,
retirement or assisted-living facilities) and will follow
federal safety standards for pipeline class locations
based on population density. PennEast has also
followed federal safety standards with respect to
pipeline spacing. 195 The DOT regulations are designed
to ensure adequate safety measures are implemented
to protect all populations. In addition, PennEast will
take specific measures to reduce the risk of methane
and volatile organic compound leaks. 196
191. In its comments on the final EIS, the EPA
recommends that the pipeline design be upgraded to
Class 2 pipe specifications where there are significant
liquefaction or landslide hazards identified in Phases
2 and 3 of the Geohazard Risk Evaluation. Because
PennEast is conducting further field investigation and
analysis regarding geohazard risks, we require in
Environmental Condition 15 that PennEast provide
the results of the outstanding Phase 2 and 3 portions
of the Geohazard Risk Evaluation Report, as well as
any specific measures and locations where specialized
pipeline design will be implemented to mitigate the
potential for soil stability or landslide hazards for staff
review and approval prior to construction.
192. Several commenters expressed concern that the
final EIS does not sufficiently address safety concerns
195

See 40 C.F.R. § 192.325 (2017).

196

See final EIS at 4-250.

JA 150
regarding routing the pipeline near active quarries,
specifically two quarries in Plains Township, New
Jersey, which would be located within 0.23 mile of the
project area. As noted in the final EIS, PennEast
routed the project to avoid any future expansion of the
quarries, and determined that the average radius of
quarry blasting vibrations would have no effect on the
pipeline. 197 PennEast conducted similar site-specific
outreach and blast monitoring for other quarry
locations, and we are satisfied that PennEast has
routed the project to adequately minimize the risk
from blasting and other quarry operations.
m. Upstream
Impacts

and

Downstream

193. Several commenters, including U.S. Senators
Cory Booker and Robert Menendez, and Oil Change
International, 198 raise concerns regarding the
potential for increased upstream natural gas
production associated with construction and operation
of the project. Commenters request that the final EIS
include the greenhouse gas (GHG) emissions
associated with the upstream production and
downstream combustion of the natural gas to be
transported by the project. Oil Change International
also submitted a white paper, which states that the
197

See final EIS at 4-4 - 4-5.

Oil Change International filed comments on behalf of the
Sierra Club, Earthworks, Appalachian Voices, Chesapeake
Climate Action, 350.org, Bold Alliance, Environmental Action,
Blue Ridge Environmental Defense League, Protect Our Water,
Heritage and Rights (Virginia & West Virginia), Friends of
Water, Mountain Lakes Preservation Alliance, Sierra Club West
Virginia, and Sierra Club Virginia.
198

JA 151
final EIS fails to address upstream emissions, and
takes issues with the final EIS’ analysis of
downstream emissions and methane leakage.
194. CEQ’s regulations direct federal agencies to
examine the direct, indirect, and cumulative impacts
of proposed actions. 199 Indirect impacts are defined as
those “which are caused by the action and are later in
time or farther removed in distance, but are still
reasonably foreseeable.” 200 Further, indirect effects
“may include growth inducing effects and other effects
related to induced changes in the pattern of land use,
population density or growth rate, and related effects
on air and water and other natural systems, including
ecosystems.” 201 Accordingly, to determine whether an
impact should be studied as an indirect impact, the
Commission must determine whether it: (1) is caused
by the proposed action; and (2) is reasonably
foreseeable.
195. With respect to causation, “NEPA requires ‘a
reasonably close causal relationship’ between the
environmental effect and the alleged cause” 202 in order
“to make an agency responsible for a particular effect
under NEPA.” 203 As the Supreme Court explained, “a
‘but for’ causal relationship is insufficient [to establish

199

40 C.F.R. § 1508.25(c) (2017).

200

Id. § 1508.8(b).

201

Id. § 1508.8(b).

202 U.S. Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, at 767
(2004) (quoting Metropolitan Edison Co. v. People Against
Nuclear Energy, 460 U.S. 766, at 774 (1983)).
203

Id.

JA 152
cause for purposes of NEPA].” 204 Thus, “[s]ome effects
that are ‘caused by’ a change in the physical
environment in the sense of ‘but for’ causation,” will
not fall within NEPA if the causal chain is too
attenuated. 205 Further, the Court has stated that
“where an agency has no ability to prevent a certain
effect due to its limited statutory authority over the
relevant actions, the agency cannot be considered a
legally relevant ‘cause’ of the effect.” 206
196. An effect is “reasonably foreseeable” if it is
“sufficiently likely to occur that a person of ordinary
prudence would take it into account in reaching a
decision.” 207 NEPA requires “reasonable forecasting,”
but an agency is not required “to engage in speculative
analysis” or “to do the impractical, if not enough

Id.; see also Freeport LNG, 827 F.3d at 46 (FERC need not
examine everything that could conceivably be a but-for cause of
the project at issue); Sierra Club v. FERC, 827 F.3d 59, 68 (D.C.
Cir. 2016) (Sabine Pass LNG) (FERC order authorizing
construction of liquefied natural gas export facilities is not the
legally relevant cause of increased production of natural gas).
204

205

Metro. Edison Co., 460 U.S. at 774.

Pub. Citizen, 541 U.S. at 770; see also Freeport LNG, 827 F.3d
at 49 (affirming that Public Citizen is explicit that FERC, in
authorizing liquefied natural gas facilities, need not consider
effects, including induced production, that could only occur after
intervening action by the DOE); Sabine Pass LNG, 827 F.3d at
68 (same); EarthReports, Inc. v. FERC, 828 F.3d 949, 955-56
(D.C. Cir. 2016) (same).
206

207 Sierra Club v. Marsh, 976 F.2d 763, 767 (1st Cir. 1992). See
also City of Shoreacres v. Waterworth, 420 F.3d 440, 453 (5th Cir.
2005).

JA 153
information is available
consideration.” 208
i.

to

permit

meaningful

Impacts
from
Upstream
Natural Gas Production

197. As we have previously concluded in natural gas
infrastructure proceedings, the environmental effects
resulting from natural gas production are generally
neither caused by a proposed pipeline (or other
natural gas infrastructure) project nor are they
reasonably foreseeable consequences of our approval
of an infrastructure project, as contemplated by CEQ
regulations. 209 A causal relationship sufficient to
warrant Commission analysis of the non-pipeline
activity as an indirect impact would only exist if the
proposed pipeline would transport new production
from a specified production area and that production
would not occur in the absence of the proposed pipeline
(i.e., there will be no other way to move the gas). 210 To
N. Plains Res. Council, Inc. v. Surface Transp. Bd., 668 F.3d
1067, 1078 (9th Cir. 2011).
208

See, e.g., Central New York Oil and Gas Co., LLC, 137 FERC
¶ 61,121, at PP 81-101 (2011), order on reh’g, 138 FERC ¶ 61,104,
at PP 33-49 (2012), petition for review dismissed sub nom. Coal.
for Responsible Growth v. FERC, 485 Fed. Appx. 472, 474-75
(2012) (unpublished opinion).
209

See cf. Sylvester v. U.S. Army Corps of Engineers, 884 F.2d
394, 400 (9th Cir. 1989) (upholding the environmental review of
a golf course that excluded the impacts of an adjoining resort
complex project). See also Morongo Band of Mission Indians v.
FAA, 161 F.3d 569, 580 (9th Cir. 1998) (concluding that increased
air traffic resulting from airport plan was not an indirect,
“growth-inducing” impact); City of Carmel-by-the-Sea v. U.S.
Dep’t of Transportation., 123 F.3d 1142, 1162 (9th Cir. 1997)
(acknowledging that existing development led to planned
210

JA 154
date, the Commission has not been presented with a
proposed pipeline project that the record shows will
cause the predictable development of gas reserves. In
fact, the opposite causal relationship is more likely,
i.e., once production begins in an area, shippers or end
users will support the development of a pipeline to
move the produced gas.
198. Even accepting, arguendo, that a specific
pipeline project will cause natural gas production, we
have found that the potential environmental impacts
resulting from such production are not reasonably
foreseeable. As we have explained, the Commission
generally does not have sufficient information to
determine the origin of the gas that will be
transported on a pipeline. It is the states, rather than
the Commission, that have jurisdiction over the
production of natural gas and thus would be most
likely to have the information necessary to reasonably
foresee future production. There are no forecasts in
the record which would enable the Commission to
meaningfully predict production-related impacts,
many of which are highly localized. Thus, even if the
Commission knows the general source area of gas
likely to be transported on a given pipeline, a
meaningful analysis of production impacts would
require more detailed information regarding the
number, location, and timing of wells, roads,
gathering lines, and other appurtenant facilities, as
well as details about production methods, which can
vary per producer and depending on the applicable
regulations in the various states. Accordingly, the
freeway, rather than the reverse, notwithstanding the project’s
potential to induce additional development).

JA 155
impacts of natural gas production are not reasonably
foreseeable because they are “so nebulous” that we
“cannot forecast [their] likely effects” in the context of
an environmental analysis of the impacts related to a
proposed interstate natural gas pipeline. 211
199. Nonetheless, we note that the Department of
Energy has examined the potential environmental
issues associated with unconventional natural gas
production in order to provide the public with a more
complete understanding of the potential impacts. 212
The Department of Energy has concluded that such
production,
when
conforming
to
regulatory
requirements, implementing best management
practices, and administering pollution prevention
Habitat Education Center v. U.S. Forest Service, 609 F.3d 897,
902 (7th Cir. 2010) (finding that impacts that cannot be described
with enough specificity to make their consideration meaningful
need not be included in the environmental analysis). See also
Sierra Club v. U.S. Department of Energy, D.C. Cir. No. 15-1489,
slip op. at 16-18 (August 15, 2017) (accepting DOE’s “reasoned
explanation” as to why the indirect effects pertaining to induced
natural gas production were not reasonably foreseeable where
DOE noted the difficulty of predicting both the incremental
quantity of natural gas that might be produced and where at the
local level such production might occur, and that an economic
model estimating localized impacts would be far too speculative
to be useful).
211

U.S. Department of Energy, Addendum to Environmental
Review Documents Concerning Exports of Natural Gas from the
United States, 79 Fed. Reg. 48,132 (Aug. 15, 2014) (DOE
Addendum),
http://energy.gov/sites/prod/files/2014/08/f18/
Addendum.pdf. The U.S. Court of Appeals for the D.C. Circuit
upheld DOE’s reliance on the DOE Addendum to supplement its
environmental review of the proposed export of LNG. See Sierra
Club v. U.S. Department of Energy, D.C. Cir. No. 15-1489, slip op.
at 12, 19.
212

JA 156
concepts, may have temporary, minor impacts to
water resources. 213 With respect to air quality, the
Department of Energy found that natural gas
development leads to both short- and long-term
increases in local and regional air emissions. 214 It also
found that such emissions may contribute to climate
change. 215 But to the extent that natural gas
production replaces the use of other carbon-based
energy sources, the U.S. Department of Energy found
that there may be a net positive impact in terms of
climate change. 216 We find the information provided in
the Department of Energy (DOE) Addendum to be
helpful to generally inform the public regarding
potential impacts of increased natural gas production
and therefore consider the DOE Addendum to be
supplemental material to our environmental review.
200. The record in this proceeding does not
demonstrate the requisite reasonably close causal
relationship between the impacts of future natural gas
production and the proposed project that would
necessitate further analysis. The fact that natural gas
production and transportation facilities are all
components of the general supply chain required to
DOE Addendum at 19; see also Oil and Gas; Hydraulic
Fracturing on Federal and Indian Lands, 80 Fed. Reg. 16,128,
16,130 (Mar. 26, 2015) (Bureau of Land Management
promulgated regulations for hydraulic fracturing on federal and
Indian lands to “provide significant benefits to all Americans by
avoiding potential damages to water quality, the environment,
and public health”).
213

214

DOE Addendum at 32.

215

Id. at 44.

216

Id.

JA 157
bring domestic natural gas to market is not in dispute.
This does not mean, however, that approving this
particular project will induce further shale gas
production. Rather, as we have explained in other
proceedings, a number of factors, such as domestic
natural gas prices and production costs drive new
drilling. 217 If this project were not constructed, it is
reasonable to assume that any new production
spurred by such factors would reach intended markets
through alternate pipelines or other modes of
transportation. 218 Again, any such production would
take place pursuant to the regulatory authority of
state and local governments. 219
Rockies Express Pipeline LLC, 150 FERC ¶ 61,161, at P 39
(2015). See also Sierra Club v. Clinton, 746 F. Supp. 2d 1025,
1045 (D. Minn. 2010) (holding that the U.S. Department of State,
in its environmental analysis for an oil pipeline permit, properly
decided not to assess the transboundary impacts associated with
oil production because, among other things, oil production is
driven by oil prices, concerns surrounding the global supply of oil,
market potential, and cost of production); Florida Wildlife Fed’n
v. Goldschmidt, 506 F. Supp. 350, 375 (S.D. Fla. 1981) (ruling
that an agency properly considered indirect impacts when
market demand, not a highway, would induce development).
217

218

Rockies Express Pipeline LLC, 150 FERC ¶ 61,161 at P 39.

We acknowledge that NEPA may obligate an agency to
evaluate the environmental impacts of non-jurisdictional
activities. That states, however, not the Commission, have
jurisdiction over natural gas production and associated
development (including siting and permitting) supports the
conclusion that information about the scale, timing, and location
of such development and potential environmental impacts are
even more speculative. See Sierra Club v. U.S. Department of
Energy, D.C. Cir. No. 15-1489, slip op. at 18 (DOE’s obligation
under NEPA to “drill down into increasingly speculative
projections about regional environmental impacts [of induced
219

JA 158
201. Moreover, even if a causal relationship between
our action here and additional production were
presumed, the scope of the impacts from any induced
production is not reasonably foreseeable. That there
may be incentives for producers to locate wells close to
pipeline infrastructure does not change the fact that
the location, scale, and timing of any additional wells
are matters of speculation, particularly regarding
their relationship to the proposed project. As we have
previously explained, a broad analysis, based on
generalized assumptions rather than reasonably
specific information, will not provide meaningful
assistance to the Commission in its decision making,
e.g., evaluating potential alternatives to a specific
proposal. 220
202. As noted above, upstream impacts of the type
described by commenters do not meet the definition of
indirect impact, therefore, they are not mandated as
part of the Commission’s NEPA review. However, to
provide
the
public
additional
information,
Commission staff, after reviewing publicly-available
DOE and EPA methodologies, has prepared the
following analyses regarding the potential impacts
associated with unconventional natural gas
natural gas production] is also limited by the fact that it lacks
any authority to control the locale or amount of export-induced
gas production, much less any of its harmful effects”) (citing Pub.
Citizen, 541 U.S. at 768).
Rockies Express Pipeline LLC, 150 FERC ¶ 61,161 at P 40. See
also Sierra Club v. U.S. Department of Energy, No. 15-1489, slip
op. at 14 (D.C. Cir. August 15, 2017) (holding that the dividing
line between what is reasonable forecasting and speculation is
the “usefulness of any new potential information to the decisionmaking process”).
220

JA 159
production. As summarized below, these analyses
provide only an estimate of the upper limit of
upstream effects using general Marcellus shale well
information.
203. The final EIS discusses the direct GHG impacts
from construction and operation of the project and
other projects that were considered in the Cumulative
Impacts analysis, climate change impacts in the
region, the regulatory structure for GHGs under the
Clean Air Act. The final EIS quantified GHG
emissions from PennEast Project construction (33,276
metric tons, CO2 equivalent [metric tons per year (tpy)
CO2e 221) and operation (259,717 metric tpy CO2e). 222
The final EIS does not include upstream emissions.
However, presuming all gas transported represents
new, incremental production (as opposed, e.g., to
production which would otherwise have been
transported on another pipeline), Commission staff
has conservatively estimated the upstream GHG
emissions as 910,000 metric tpy CO2e from extraction,
1.7 million metric tpy CO2e from processing, and
400,000 metric tpy CO2e from the non-project pipelines
(both upstream and downstream transportation
pipelines). Again, this is an upper-bound estimate that
involves a significant amount of uncertainty.
204. With respect to upstream impacts, Commission
staff estimated the impacts associated with the
production wells that would be required to provide 100
percent of the volume of natural gas to be transported
by the PennEast Project, on an annual basis for GHGs.
221

See final EIS at 4-245 (Table 4.10.1-5).

222

See final EIS at 4-250 (Table 4.10.1-9).

JA 160
Commission staff also estimated land-use and water
use within the Marcellus shale basin for the life of the
project.
Commission
staff
estimated
that
approximately 1.48 acres of land is required for each
natural gas well pad and associated infrastructure
(i.e., road infrastructure, water impoundments, and
pipelines). Based upon the project volume and the
expected estimated ultimate recovery of Marcellus
shale wells, between 2,400 and 4,600 wells would be
required to provide the gas over the estimated 30-year
lifespan of the project. Therefore, on a normalized
basis, these assumptions result in an estimate of an
upper limit of an additional 120 to 230 acres per year
that may be impacted by well drilling. This estimate
of impacts is subject to a significant amount of
uncertainty.
205. Commission staff also estimates the amount of
water required for the drilling and development of
these wells over the 30 year period using the same
assumptions. Recent estimates show that an average
Marcellus shale well requires between 3.88 and 5.69
million gallons of water for drilling and well
development, depending on whether the producer uses
a recycling process in the well development. Therefore,
the production of wells required to supply the project
could require the normalized consumptive use of as
much as 300 to 880 million gallons of water per year
over the 30-year life of the project.
206. Oil Change International’s white paper
provided an a estimated figure of 24 million metric
tons of CO2e per year from upstream natural gas
production, using the Intergovernmental Panel on
Climate Change’s 20-year global warming potential

JA 161
(GWP) for methane, rather than the 100-year GWP
that is used by EPA in its official GHG inventories, as
well as in its mandatory GHG emission reporting
program. 223 The 20-year GWP for methane is 86,
meaning that each unit of CH4 mass emissions is
considered to have the same warming potential as 86
units of CO2 mass emissions. By comparison, the
conventional 100-year GWP for methane is 25. EPA
supported the 100-year time period over the 20-year
time period in its summary of comments and
responses in the final rulemaking, 2013 Revisions to
the Greenhouse Gas Reporting Rule and Final
Confidentiality
Determinations
for
New
or
Substantially Revised Data Elements. 224 Neither
Sierra Club, nor Oil Change International present any
reason why the 20-year GWP is preferable to the 100GWP. Further, the final EIS notes that fugitive
methane leaks along the PennEast pipeline would
only increase the potential annual GHG emissions by
approximately 0.05 percent. 225
ii. Impacts from Downstream
Combustion
of
ProjectTransported Natural Gas
207. As noted above, Oil Change International takes
issue with final EIS’ analysis of impacts from the
downstream combustion of natural gas transported by
the project. The court in Sabal Trail held that where
it is known that the natural gas transported by a
project will be used for end-use combustion, the
223

40 C.F.R. § 98, et al. (2017).

224

78 Fed. Reg. 71,904 (2013).

225

See final EIS at 4-249.

JA 162
Commission should “estimate[] the amount of powerplant carbon emissions that the pipelines will make
possible.” 226 The final EIS does precisely this. 227 Thus,
the Commission and the public were fully informed of
the potential impacts from the project.

Sierra Club v. FERC, 867 F.3d 1357, 1371 (D.C. Cir. 2017)
(Sabal Trail). The Commission’s environmental review of the
PennEast Project is distinguishable from its environmental
review of the project at issue in Sabal Trail. In Sabal Trail, the
court determined that the Commission should have examined the
GHG impacts of burning the natural gas to be delivered by that
project. In this case, as discussed above, the Commission has
estimated the GHG emissions associated with burning the gas to
be transported by PennEast, consistent with the quantification
that the Sabal Trail court required. The methodology used here
is similar to that in a number of recent cases. See NEXUS Gas
Transmission, LLC et al., 160 FERC ¶ 61,022 at PP 172-173
(NEXUS Project National Fuel Gas Supply Corp., 158 FERC
¶ 61,145, at PP 189-190 (Northern Access 2016 Project);
Dominion Carolina Gas Transmission, LLC, 158 FERC ¶ 61,126,
at P 81 (Transco to Charleston Project); Transcontinental Gas
Pipe Line Co., LLC, 158 FERC ¶ 61,125, at P 143 (Atlantic
Sunrise Project); Tennessee Gas Pipeline Co., 158 FERC ¶ 61,110,
at P 104 (Orion Project); and Rover Pipeline, LLC, 158 FERC
¶ 61,109, at P 274 (Rover Pipeline Project). Further, Sabal Trail
and this case are factually distinct, in that the record in Sabal
Trail showed that the natural gas to be transported on the new
project would be delivered to specific destinations—power plants
in Florida—such that the court concluded that the burning of the
gas in those plants was reasonably foreseeable and the impacts
of that activity warranted environmental examination. In
contrast, the gas to be transported by PennEast will be delivered
on behalf of 12 separate shippers, consisting of LDCs, marketers,
and an interstate pipeline, into the interstate natural pipeline
grid, and will serve a variety of end-uses.
226

227

See final EIS at 4-254.

JA 163
208. The final EIS conservatively estimates that if
all 1.1 million dekatherms per day of natural gas were
transported to combustion end uses, downstream enduse would result in the emission of about 21.3 million
metric tpy of CO2e. We note that this CO2e estimate
represents an upper bound for the amount of end-use
combustion that could result from the gas transported
by this project. This is because some of the gas may
displace fuels (i.e., fuel oil and coal) which could result
in lower total CO2e emissions. It may also displace gas
that otherwise would be transported via different
means, resulting in no change in CO2e emissions or be
used as a feedstock. This estimate also assumes the
maximum capacity is transported 365 days per year,
which is rarely the case because many projects are
designed for peak use. As such, it is unlikely that this
total amount of GHG emissions would occur, and
emissions are likely to be significantly lower than the
above estimate. In addition, these estimates are
generic in nature because no specific end uses have
been identified.
209. In an effort to put these emissions in to context,
we examined both the regional 228 and national
emissions of GHGs. If only the regions identified
Staff looked at the Transco, Columbia, and Texas Eastern
systems to identify the states those pipeline systems serve. The
natural gas can move anywhere on these systems. Thus we used
the combined inventory of (1) states served by Transco’s system,
(2) states served by Transco and Columbia, and (3) states served
by Transco and Texas Eastern (the Columbia system overlapped
the Texas Eastern system). We compared the 2014 inventory of
these states served by the three systems in comparison to the
downstream emissions to arrive at the potential increase in GHG
emissions.
228

JA 164
potentially served by the Transco system and
interstate interconnection are considered, the volume
of GHG emissions by the PennEast Project will result
in a 0.7-1 percent increase of GHG emissions from
fossil fuel combustion in these states. 229 From a
national perspective, combustion of all the gas
transported by the PennEast Project will result in a
0.4 percent increase of national GHG emissions. Based
on the myriad of existing and potential future
interconnections with other pipeline systems, it is
impossible to define which states and which facilities
may ultimately consume gas transported by the
PennEast Project. From a practical sense, we know
that as more states are considered, the percentage of
increase contributed by the PennEast Project would
decline. Therefore, speculating on the wider
distribution does little to clarify the impact. In any
case, the greatest possible contribution to GHG
emissions at a regional level is 1 percent.
210. The final EIS acknowledged that the emissions
would increase the atmospheric concentration of
GHGs, in combination with past and future emissions
from all other sources, and contribute incrementally to
climate change. 230 However, as the final EIS
explained, because the project’s incremental physical
impacts on the environment caused by climate change
cannot be determined, it also cannot be determined
The 22 states included in the GHG emissions analysis are:
Alabama, Arkansas, Delaware, Florida, Georgia, Illinois,
Indiana, Kentucky, Louisiana, Maryland, Mississippi, Missouri,
New Jersey, New York, North Carolina, Ohio, Pennsylvania,
South Carolina, Tennessee, Texas, Virginia, and West Virginia.
229

230

See final EIS at 4-335.

JA 165
whether the project’s contribution to cumulative
impacts on climate change would be significant. 231
n.

Alternatives

211. Based on comments and feedback from
landowners, agencies and municipalities, PennEast
incorporated 70 route variations into the proposed
route to avoid or reduce effects on environmental or
other
resources,
resolve
engineering
or
constructability issues, or address stakeholder
concerns. 232 The total length of these 70 route
variations is 68.4 miles. 233 Commission staff reviewed
the route variations and agreed with PennEast’s
conclusions regarding their incorporation into the
proposed route. Alternatives considered, which are
described in the final EIS, include the No Action
alternative, system alternatives, major pipeline route
alternatives, minor pipeline route variations, and
aboveground facilities alternatives.
212. Several commenters suggested renewable
energy sources be considered as an alternative to the
proposed project. As noted in the final EIS, electric
generation from renewable energy sources is a
reasonable alternative for reviewing generating
facilities powered by fossil fuels. It is the states,
however, not this Commission, that regulate
generating facilities. Authorizations related to how
markets would meet demands for electricity are not
part of the applications before the Commission.
Because the proposed project’s purpose is to transport
231

Id.

232

See final EIS at 3-24 to 3-32.

233

See final EIS at 3-26 to 3-31 (Table 3.3.2-1).

JA 166
natural gas, and electric generation from renewable
energy resources is not a natural gas transportation
alternative, it was not considered in the EIS. 234
213. The final EIS evaluates five major route
alternatives including three potential major route
alternatives that would avoid the Sourland Mountain
Region in New Jersey. 235 After the close of the draft
EIS comment period, several comments were filed
regarding the viability of Sourland Mountain
Alternative 1, which would cross into Bucks County,
Pennsylvania. Several of these comments appear to
assume the Sourland Mountain Alternative 1 was
incorporated into the proposed pipeline route, and
expressed concern that there was not an opportunity
to comment on the alternative, because it was filed by
PennEast after the close of the draft EIS comment
period. We clarify here that the Sourland Mountain
Alternative 1 is not part of the proposed route, as the
final EIS did not determine that the Sourland
Mountain Alternative 1 was preferable to the
proposed route.
214. The final EIS evaluates an alternate access
road for the Kidder Compressor Station. 236 On
January 9, 2017, after the close of the draft EIS
comment period, Sondra Wolferman filed comments
regarding the alternate access road adjacent to the
existing pipeline right-of-way for access to the Kidder
Compressor Station. Specifically, Ms. Wolferman
disagrees with the claim that the access road will be
234

See final EIS at 3-3.

235

See final EIS at 3-9 to 3-24.

236

See final EIS at 3-16.

JA 167
located on an existing road, and asserts that the I-80
alternative to the proposed access road is both
reasonable and preferable. On November 28, 2016,
PennEast filed a conceptual plan drawing and
comparison of the proposed access road and the access
road alternative in response to EPA’s comments on the
draft EIS. As discussed in the final EIS, the potential
advantages of the access road alternative are
collocation of most of the station’s new permanent
access road with the new and existing pipeline rightsof-way, and reduced forest clearing. Although the
access road alternative would reduce forest clearing by
about 2.3 acres and collocate the clearing with the
pipeline right-of-way, it would result in greater
permanent impacts on forested wetland, and would
have to cross approximately 400 feet of waterbody,
whereas the proposed access road would only cross
approximately 120 feet of waterbody. PennEast has
sited the proposed access road to partially utilize
(approximately 400 feet of the 2,000-foot-long road) an
existing road (which would need improvements), and
to avoid wetland areas. Therefore, the final EIS
determined that the compressor station access road
alternative would not be environmentally preferable
to the proposed access road location. We agree.
215. The final EIS evaluates an alternate site for the
interconnection with Transco at a site approximately
2.1
miles
southwest
of
the
proposed
interconnection. 237 PennEast filed an analysis of this
alternative on November 23, 2016. The primary
advantage of this alternative is that it would eliminate
about 2.5 miles of the proposed pipeline within
237

See final EIS at 3-37 to 3-39.

JA 168
Hopewell Township, New Jersey, where the pipeline
would cross residential areas, farmlands, a portion of
planned Hopewell Township affordable housing, and a
parcel planned for a Hopewell Township emergency
services facility. PennEast states that the Transco
Interconnect Alternative would not meet the project’s
delivery needs as negotiated with Transco. We believe
that an alternative interconnect on the same Transco
pipeline approximately 2.1 miles from the proposed
interconnect may be similar enough to the proposed
delivery point to allow the alternative to meet the
project’s delivery needs, and warrants further
analysis. Therefore, we require in Environmental
Condition 13 that, prior to construction, PennEast
provide additional details on the feasibility of
incorporating the Transco Interconnect Alternative
site.
4.

Environmental Analysis Conclusion

216. We have reviewed the information and analysis
contained in the final EIS regarding potential
environmental effects of the project, as well as other
information in the record. We are adopting the
environmental recommendations in the final EIS, as
modified herein, and are including them as
environmental conditions in Appendix A to this order.
Compliance with the environmental conditions
appended to our orders is integral to ensuring that the
environmental impacts of approved projects are
consistent
with
those
anticipated
by
our
environmental analyses. Thus, Commission staff
carefully reviews all information submitted. Only
when satisfied that the applicant has complied with
all applicable conditions will a notice to proceed with

JA 169
the activity to which the conditions are relevant be
issued. We also note that the Commission has the
authority to take whatever steps are necessary to
ensure the protection of all environmental resources
during construction and operation of the project,
including authority to impose any additional
measures deemed necessary to ensure continued
compliance with the intent of the conditions of the
order, as well as the avoidance or mitigation of
unforeseen adverse environmental impacts resulting
from project construction and operation.
217. Based on our consideration of this information
and the discussion above, we agree with the
conclusions presented in the final EIS and find that
the project, if constructed and operated as described in
the final EIS, is an environmentally acceptable
actions. Further, for the reasons discussed throughout
the order, as stated above, we find that the project is
in the public convenience and necessity.
218. Any state or local permits issued with respect to
the jurisdictional facilities authorized herein must be
consistent with the conditions of this certificate. The
Commission
encourages
cooperation
between
interstate pipelines and local authorities. However,
this does not mean that state and local agencies,
through application of state or local laws, may prohibit
or unreasonably delay the construction or operation of
facilities approved by this Commission. 238
238 See 15 U.S.C. § 717r(d) (state or federal agency’s failure to act
on a permit considered to be inconsistent with Federal law); see
also Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 310 (1988)
(state regulation that interferes with FERC’s regulatory
authority over the transportation of natural gas is preempted)

JA 170
219. The Commission on its own motion received and
made part of the record in this proceeding all evidence,
including the application, as supplemented, and
exhibits thereto, and all comments submitted, and
upon consideration of the record,
The Commission orders:
(A) A certificate of public convenience and
necessity is issued to PennEast, authorizing it to
construct and operate the proposed PennEast Project,
as described and conditioned herein, and as more fully
described in the application.
(B) The certificate authority issued in Ordering
Paragraph (A) is conditioned on:
(1) PennEast’s proposed project being
constructed and made available for service
within two years of the date of this order
pursuant to section 157.20(b) of the
Commission’s regulations;
(2) PennEast’s
compliance
with
all
applicable
Commission
regulations,
particularly the general terms and conditions
set forth in Parts 154, 157, and 284, and
paragraphs (a), (c), (e), and (f) of section
157.20 of the Commission’s regulations; and
(3) PennEast’s
compliance
with
the
environmental conditions listed in Appendix
A to this order.
and Dominion Transmission, Inc. v. Summers, 723 F.3d 238, 245
(D.C. Cir. 2013) (noting that state and local regulation is
preempted by the NGA to the extent it conflicts with federal
regulation, or would delay the construction and operation of
facilities approved by the Commission).

JA 171
(C) A blanket construction certificate is issued to
PennEast under Subpart F of Part 157 of the
Commission’s regulations;
(D) A blanket transportation certificate is issued
to PennEast under Subpart G of Part 284 of the
Commission’s regulations;
(E) PennEast shall file a written statement
affirming that it has executed firm contracts for the
capacity levels and terms of service represented in
signed precedent agreements, prior to commencing
construction.
(F) PennEast’s initial rates and tariff are
approved, as conditioned and modified above.
(G) PennEast is required to file actual tariff
records reflecting the initial rates and tariff language
that comply with the requirements contained in the
body of this order not less than 30 days and not more
than 60 days prior to the commencement of interstate
service consistent with Part 154 of the Commission’s
regulations.
(H) As described in the body of this order,
PennEast must file any negotiated rate agreement or
tariff record setting forth the essential terms of the
agreement associated with the project at least 30 days,
but not more than 60 days before the proposed
effective date of such rates.
(I) No later than three months after the end of
its first three years of actual operation, as discussed
herein, PennEast must make a filing to justify its
existing costbased firm and interruptible recourse
rates. PennEast’s cost and revenue study should be
filed through the eTariff portal using a Type of Filing

JA 172
Code 580. In addition, PennEast is advised to include
as part of the eFiling description, a reference to Docket
No. CP15-558-000 and the cost and revenue study.
(J) The requests for an evidentiary hearing are
denied.
(K) PennEast shall notify the Commission’s
environmental staff by telephone or e-mail of any
environmental noncompliance identified by other
federal, state, or local agencies on the same day that
such agency notifies PennEast. PennEast shall file
written confirmation of such notification with the
Secretary of the Commission within 24 hours.
By the Commission. Commissioners LaFleur and
Chatterjee are concurring with separate
statements attached. Commissioner Glick is
dissenting with a separate statement attached.
(SEAL)
Nathaniel J. Davis, Sr.
Deputy Secretary.

JA 173
Appendix A
Environmental Conditions for the PennEast
Pipeline Project
As recommended in the final environmental impact
statement (EIS) and otherwise amended herein, this
authorization includes the following conditions. The
section number in parentheses at the end of a
condition corresponds to the section number in which
the measure and related resource impact analysis
appears in the final EIS.
1.

2.

PennEast Pipeline, LLC (PennEast) shall follow
the construction procedures and mitigation
measures described in its application and
supplements (including responses to staff data
requests) and as identified in the EIS, unless
modified by the order. PennEast must:
a.

request any modification to these procedures,
measures, or conditions in a filing with the
Secretary of the Commission (Secretary);

b.

justify each modification relative to sitespecific conditions;

c.

explain how that modification provides an
equal or greater level of environmental
protection than the original measure; and
receive approval in writing from the Director
of the Office of Energy Projects (OEP) before
using that modification.

The Director of OEP, or the Director’s designee,
has delegated authority to address any requests
for approvals or authorizations necessary to carry
out the conditions of the order, and take whatever
steps are necessary to ensure the protection of all

JA 174
environmental resources during construction and
operation of the project. This authority shall
allow:
a.

the modification of conditions of the order;

b.

stop-work authority; and

c.

the imposition of any additional measures
deemed necessary to ensure continued
compliance with the intent of the conditions
of the order as well as the avoidance or
mitigation
of
unforeseen
adverse
environmental impacts resulting from project
construction and operation.

3.

Prior to any construction, PennEast shall file
an affirmative statement with the Secretary,
certified by a senior company official, that all
company personnel, Environmental Inspectors
(EIs), and contractor personnel will be informed of
the EIs’ authority and have been or will be trained
on the implementation of the environmental
mitigation measures appropriate to their jobs
before becoming involved with construction and
restoration activities.

4.

The authorized facility locations shall be as shown
in the EIS, as supplemented by filed alignment
sheets. As soon as they are available, and
before the start of construction, PennEast
shall file with the Secretary any revised detailed
survey alignment maps/sheets at a scale not
smaller than 1:6,000 with station positions for all
facilities approved by the order. All requests for
modifications of environmental conditions of the
order or site-specific clearances must be written
and must reference locations designated on these

JA 175
alignment maps/sheets. PennEast’s exercise of
eminent domain authority granted under the
Natural Gas Act (NGA) section 7(h) in any
condemnation proceedings related to the order
must be consistent with these authorized facilities
and locations. PennEast’s right of eminent
domain granted under NGA section 7(h) does not
authorize it to increase the size of its natural gas
facilities to accommodate future needs or to
acquire a right-of-way for a pipeline to transport
a commodity other than natural gas.
5.

PennEast shall file with the Secretary detailed
alignment maps/sheets and aerial photographs at
a scale not smaller than 1:6,000 identifying all
route realignments or facility relocations, and
staging areas, pipe storage-yards, new access
roads, and other areas that will be used or
disturbed and have not been previously identified
in filings with the Secretary. Approval for each of
these areas must be explicitly requested in
writing. For each area, the request must include
a description of the existing land use/cover type,
documentation of landowner approval, whether
any cultural resources or federally listed
threatened or endangered species will be affected,
and whether any other environmentally sensitive
areas are within or abutting the area. All areas
shall
be
clearly
identified
on
the
maps/sheets/aerial photographs. Each area must
be approved in writing by the Director of the OEP
before construction in or near that area.
This requirement does not apply to extra
workspace allowed by the FERC’s Upland Erosion

JA 176
Control, Revegetation, and Maintenance Plan
(Plan) and/or minor field realignments per
landowner needs and requirements that do not
affect
other
landowners
or
sensitive
environmental areas such as wetlands.
Examples of alterations requiring approval
include all route realignments and facility
location changes resulting from:

6.

a.

implementation
of
mitigation measures;

b.

implementation of endangered, threatened,
or special concern species mitigation
measures;

c.

recommendations
authorities; and

d.

agreements with individual landowners that
affect other landowners or could affect
sensitive environmental areas.

by

cultural

state

resources

regulatory

At least 60 days prior to beginning
construction,
PennEast
shall
file
an
Implementation Plan with the Secretary for
review and written approval by the Director of the
OEP. PennEast must file revisions to the plan as
schedules change. The plan shall identify:
a.

how
PennEast
will
implement
the
construction procedures and mitigation
measures described in its application and
supplements (including responses to staff
data requests), identified in the EIS, and
required by the order;

b.

how PennEast will incorporate these
requirements
into
the
contract
bid

JA 177
documents, construction contracts (especially
penalty clauses and specifications), and
construction drawings so that the mitigation
required at each site is clear to on-site
construction and inspection personnel;
c.

the number of EIs assigned per spread, and
how the company will ensure that sufficient
personnel are available to implement the
environmental mitigation;

d.

company personnel, including EIs and
contractors, who will receive copies of the
appropriate material;

e.

the location and dates of the environmental
compliance
training
and
instructions
PennEast will give to all personnel involved
with construction and restoration (initial and
refresher training as the project progresses
and personnel change), with the opportunity
for OEP staff to participate in the training
session(s);

f.

the company personnel (if known) and
specific portion of PennEast’s organization
having responsibility for compliance;

g.

the procedures (including use of contract
penalties)
PennEast
will
follow
if
noncompliance occurs; and

h.

for each discrete facility, a Gantt or PERT
chart (or similar project scheduling diagram),
and dates for:
(i) the completion of all required surveys
and reports;

JA 178
(ii) the environmental compliance training of
on-site personnel;
(iii) the start of construction; and
(iv) the start and completion of restoration.
7.

8.

PennEast shall employ a team of EIs (i.e., two or
more or as may be established by the Director of
the OEP) per construction spread. The EIs shall
be:
a.

responsible for monitoring and ensuring
compliance with all mitigation measures
required by the order and other grants,
permits, certificates, or other authorizing
documents;

b.

responsible for evaluating the construction
contractor’s
implementation
of
the
environmental mitigation measures required
in the contract (see condition 6 above) and
any other authorizing document;

c.

empowered to order correction of acts that
violate the environmental conditions of the
order, and any other authorizing document;

d.

a full-time position, separate from all other
activity inspectors;

e.

responsible for documenting compliance with
the environmental conditions of the order, as
well as any environmental conditions/permit
requirements imposed by other federal, state,
or local agencies; and

f.

responsible for maintaining status reports.

Beginning
with
the
filing
of
its
Implementation Plan, PennEast shall file

JA 179
updated status reports with the Secretary on a
weekly basis until all construction and
restoration activities are complete. On request,
these status reports will also be provided to other
federal and state agencies with permitting
responsibilities. Status reports shall include:
a.

an update on PennEast’s efforts to obtain the
necessary federal authorizations;

b.

the construction status of each spread, work
planned for the following reporting period,
and any schedule changes for stream
crossings or work in other environmentally
sensitive areas;

c.

a listing of all problems encountered and each
instance of noncompliance observed by the
EIs during the reporting period (both for the
conditions imposed by the Commission and
any
environmental
conditions/permit
requirements imposed by other federal, state,
or local agencies);

d.

a description of the corrective actions
implemented in response to all instances of
noncompliance, and their cost;

e.

the effectiveness of all corrective actions
implemented;

f.

a description of any landowner/resident
complaints that may relate to compliance
with the requirements of the order, and the
measures taken to satisfy their concerns; and

g.

copies of any correspondence received by
PennEast from other federal, state, or local

JA 180
permitting agencies concerning instances of
noncompliance, and PennEast’s response.
9.

PennEast shall develop and implement an
environmental complaint resolution procedure,
and file such procedure with the Secretary, for
review and approval by the Director of OEP. The
procedure shall provide landowners with clear
and simple directions for identifying and
resolving
their
environmental
mitigation
problems/concerns during construction of the
project and restoration of the right-of-way. Prior
to construction, PennEast shall mail the
complaint procedures to each landowner whose
property will be crossed by the project.
a.

In its letter to affected landowners, PennEast
shall:
(i) provide a local contact that the
landowners should call first with their
concerns; the letter should indicate how
soon a landowner should expect a
response;
(ii) instruct the landowners that if they are
not satisfied with the response, they
should call PennEast’s Hotline; the letter
should indicate how soon to expect a
response; and
(iii) instruct the landowners that if they are
still not satisfied with the response from
PennEast’s Hotline, they should contact
the Commission’s Landowner Helpline at
877-337-2237 or at LandownerHelp@
ferc.gov.

JA 181
b.

In addition, PennEast shall include in its
weekly status report a copy of a table that
contains the following information for each
problem/concern:
(i) the identity of the caller and date of the
call;
(ii) the
location
by
milepost
and
identification
number
from
the
authorized alignment sheet(s) of the
affected property;
(iii) a description of the problem/concern; and
an explanation of how and when the
problem was resolved, will be resolved, or
why it has not been resolved.

10. PennEast must receive written authorization
from the Director of OEP before commencing
construction of any project facilities. To
obtain such authorization, PennEast must file
with the Secretary documentation that it has
received all applicable authorizations required
under federal law (or evidence of waiver thereof).
11. PennEast must receive written authorization
from the Director of the OEP before placing the
project into service. Such authorization will
only be granted following a determination that
rehabilitation and restoration of the right-of-way
and other areas affected by the project are
proceeding satisfactorily.
12. Within 30 days of placing the authorized
facilities in service, PennEast shall file an
affirmative statement with the Secretary,
certified by a senior company official:

JA 182
a.

that the facilities have been constructed in
compliance with all applicable conditions,
and that continuing activities will be
consistent with all applicable conditions; or

b.

identifying which of the Certificate conditions
PennEast has complied with or will comply
with. This statement shall also identify any
areas affected by the project where
compliance measures were not properly
implemented, if not previously identified in
filed status reports, and the reason for
noncompliance.

13. Prior to construction, PennEast shall file with
the Secretary further details on the feasibility of
incorporating the Transcontinental Gas Pipe Line
(Transco) Interconnect Alternative site along the
CSX Railroad south of MP 111.8R2. At a
minimum, PennEast shall include:
a.

a map showing the extent of the CSX Railroad
right-of-way and Jersey Central Power &
Light easement on the east side of the CSX
right-of-way, and the CSX Railroad right-ofway adjacent to the Merrill Lynch property;

b.

a map showing apparently undeveloped
parcels adjacent to the Transco right-of-way
where the Transco right-of-way crosses the
CSX Railroad, and that could potentially be
used for the interconnect;

c.

a map showing wetlands along both the east
and west sides of the CSX Railroad;

d.

records of consultation with Transco
regarding feasibility of using the alternative

JA 183
site as the project delivery point to the
Transco system; and
e.

details that support if the interconnect with
Transco at the alternative site could meet
delivery needs of the project shippers.
(Section 3.4.4)

14. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, an updated report that
verifies explosive weights used by the Trap Rock
Quarry operator, including concurrence from
Trap Rock Quarry that the correct inputs were
used. The results of this study shall be
incorporated in the final design of the project.
(Section 4.1.4)
15. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, results of the outstanding
Phase 2 and 3 portions of the Geohazard Risk
Evaluation Report and include the following in its
pipeline design geotechnical report:
a.

an evaluation of soil stability hazards along
the pipeline route at the proposed compressor
station site and at locations with aboveground facilities;

b.

a final landslide hazard inventory;

c.

any specific measures and locations where
PennEast will implement specialized pipeline
design to mitigate for potential soil stability
or landslide hazards; and

d.

a post-construction monitoring plan. (Section
4.1.5.2)

JA 184
16. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, a final Karst Mitigation Plan
that incorporates the results of all outstanding
geophysical and geotechnical field investigations
in karst areas including stream crossings
proposed with the horizontal directional drill
(HDD) method. The final Karst Mitigation Plan
shall incorporate all Best Management Practices
developed based on the results of the final
geophysical and geotechnical field investigations
for construction through karst areas, including
any
requirements
of
the
Pennsylvania
Department
of
Environmental
Protection
(PADEP),
New
Jersey
Department
of
Environmental Protection (NJDEP), and local
planning commissions. (Section 4.1.5.4)
17. Prior to construction, PennEast shall file with
the Secretary the results of its ongoing
geotechnical evaluation of working, not active,
and abandoned mines near the proposed crossing
of the Susquehanna River. The evaluation shall
include final documentation of coordination with
the Pennsylvania Bureau of Abandoned Mine
Reclamation, along with the results of the
geotechnical investigation to confirm the final
design.
PennEast
shall
include
this
documentation in the Phase 2 and 3 portions of
the Geohazard Risk Evaluation Report. (Section
4.1.5.4)
18. Prior to construction, PennEast shall file with
the Secretary an updated table identifying all
areas that may require blasting. This table shall

JA 185
incorporate the results of the on-going geophysical
and geotechnical evaluations. (Section 4.1.6)
19. Prior to construction, PennEast shall file with
the Secretary the final design plans of each HDD
crossing, for review and written approval by the
Director of OEP. The final design plans will
include the results for all geotechnical borings
conducted at each HDD crossing (lithology,
standard penetration testing, and bedrock quality
designation), and an HDD feasibility assessment
based on the soil boring results, including an
assessment of the risk for hydrofracturing and
inadvertent returns of drilling fluids at each
crossing. (Section 4.1.7)
20. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, an unanticipated discovery
plan for paleontological resources. The discovery
plan shall be developed in coordination with the
New Jersey Geological and Water Survey and Dr.
William Gallagher. The significance of each
resource shall be defined in the discovery plan.
This plan shall describe proposed measures to
avoid or minimize impacts on significant
paleontological resources and include measures
that will be implemented in the event of a
discovery of paleontological resources during
construction.
21. Prior to construction, PennEast shall complete
all necessary surveys for water supply wells and
groundwater seeps and springs, identify public
and private water supply wells within the
construction workspace, and file with the

JA 186
Secretary a revised list of water wells and
groundwater seeps and springs within 150 feet of
any construction workspace (500 feet in areas
characterized by karst terrain). (Section 4.3.1.6)
22. Prior to construction, PennEast shall identify
all septic systems within the construction work
space, and file with the Secretary a list of septic
systems within 150 feet of any construction
workspace. PennEast shall also file with the
Secretary, a plan which describes how PennEast
will avoid septic systems, as well as how
PennEast will mitigate or restore septic systems
to applicable regulatory requirements, for review
and approval by the Director of OEP.
23. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, a final Well Monitoring Plan
that incorporates:
a.

PennEast’s response (Serfes 2016) to U.S.
Department of the Interior (DOI) comments;

b.

an analysis for radon, radium 226, and
radium 228 for wells in Hunterdon and
Mercer Counties, New Jersey, in accordance
with the New Jersey Private Well Testing
Act; and

c.

revisions to section 3.0 of the Well Monitoring
Plan to include the types of treatment that
PennEast
will
provide
to
impacted
groundwater users with increased arsenic in
groundwater concentrations above the
NJDEP established maximum contaminant
level (MCL) of 5 microgram per liter (μg/L),
and the U.S. Environmental Protection

JA 187
Agency (EPA) MCL of 10 μg/L for wells in
Pennsylvania, as well as other contaminants
detected in post-construction monitoring that
are above their respective NJDEP or EPA
MCL, and provisions for monitoring and
maintenance of any treatment systems
PennEast provides to impacted groundwater
users. (Section 4.3.1.6)
24. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, an updated Unanticipated
Discovery of Contamination Plan for the project
that identifies the management and field
environmental professionals responsible for
notification for contaminated sites. (Section
4.3.1.8)
25. Prior to construction, PennEast shall file with
the Secretary the results of the investigations
regarding any anticipated blasting near the Swan
Creek Reservoir. (Section 4.3.2.2)
26. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, site-specific crossing plans
for all waterbodies with contaminated sediments
(see table 4.3.2-5). The crossing method shall
ensure that the potential suspension of sediments
during construction shall be avoided or minimized
to the greatest extent possible to limit any change
to the bioavailability of any potential
contaminants present. PennEast shall include
documentation of consultation with pertinent
agencies and identify any recommended
minimization measures. (Section 4.3.2.2)

JA 188
27. Prior to construction, PennEast shall file a
revised Erosion and Sediment Control Plan
(E&SCP) with the Secretary for review and
written approval by the Director of the OEP. The
revised E&SCP shall:
a.

include a complete review of waterbody
crossings with steep slopes; and

b.

address waterbody crossing methods for steep
embankments and bank stabilization issues,
and include site-specific measures to address
erosion, sedimentation, and restoration of
steep embankments. (Section 4.3.2.2)

28. Prior to construction, PennEast shall file with
the Secretary its final hydrostatic test plan that
identifies the final hydrostatic test water sources
and
discharge
locations,
and
provides
documentation that all necessary permits and
approvals have been obtained for withdrawal
from each source. PennEast’s plan shall provide
the approximate water volume that will be
withdrawn and discharged as both a project-total
amount, and a daily amount, for each pipeline
segment. Also, PennEast’s plan shall detail the
decision process for determining when an
alternative water source will be used during
exceptional dry periods when low flow conditions
may be encountered. (Section 4.3.2.4)
29. Prior to construction, PennEast shall file with
the Secretary documentation after consulting
with appropriate local, state, and federal agencies
regarding any in-water timing restrictions which
are more restrictive than those required by the
Federal Energy Regulatory Commission (FERC)

JA 189
Wetland and Waterbody Construction and
Mitigation Procedures (Procedures) (e.g., June 1
through September 30 to protect coldwater
fisheries; and June 1 through November 30 to
protect coolwater and warmwater fisheries).
(Section 4.3.3.2)
30. Prior to construction, PennEast shall file with
the Secretary a complete wetland delineation
report for the entire project that includes all
wetlands delineated in accordance with the U.S.
Army Corps of Engineers (USACE) and the
applicable state agency requirements. (Section
4.4.1)
31. Prior to construction, PennEast shall survey
all areas mapped as being potential vernal pool
habitat and identify if any vernal pool habitat will
be affected by project construction and/or
operation. The results of these surveys shall be
filed with the Secretary and the appropriate state
agency(ies) for review. (Section 4.4.1.2)
32. Prior to construction, PennEast shall file with
the Secretary a final project-specific Wetland
Restoration Plan developed in consultation with
the USACE and applicable state agencies in
Pennsylvania and New Jersey, and file the plan
with the Secretary. PennEast shall provide
documentation of its consultation with the
applicable federal and state agencies. (Section
4.4.2)
33. Prior to the construction, PennEast shall file
with the Secretary, for review and written
approval by the Director of OEP, an Invasive
Species Management Plan that includes

JA 190
documentation of consultation with the
appropriate state agencies and measures it will
implement during construction and operation to
minimize the spread of invasive and noxious plant
species. (Section 4.5.1.2)
34. Prior to construction, PennEast shall file with
the Secretary, for review, a Migratory Bird
Conservation Plan developed in consultation with
the U.S. Fish and Wildlife Service (FWS), along
with documentation of consultation with the
FWS. (Section 4.5.2.3)
35. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of OEP, a list of locations by MP
where the FWS will require tree clearing
restrictions that are specifically applicable to
federally listed bat species. (Section 4.6.1.1)
36. PennEast shall incorporate the conservation
measures outlined in the FWS’ November 29,
2017 Biological Opinion into its implementation
plan, including:
a.

implementing the reasonable and prudent
measures;

b.

abiding by the terms and conditions for the
bog turtle;

c.

adopting the
requirements;

d.

consulting with FWS on conservation
recommendations for the bog turtle and
northern long-eared bat; and

e.

implementing specific requirements
bulrush as specified in the FWS BO.

monitoring

and

reporting

for

JA 191
PennEast shall provide FERC and the FWS with
all remaining survey results for their review and
comment.
37. Prior to construction, if rare flora or fauna are
discovered during PennEast’s planned surveys of
groundwater seeps, PennEast shall develop a
plan to avoid or minimize impacts on these species
and consult with the FWS. PennEast shall file
with the Secretary documentation of its
consultation with the FWS, as well as any
recommended measures. (Section 4.6.1.7)
38. Prior to construction, PennEast shall consult
with the NJDEP regarding timing and activity
restrictions that shall be applied within 300 feet
of streams that contain wood turtles. PennEast
shall file with the Secretary documentation of this
consultation with the NJDEP, as well as any
recommendations made by the NJDEP, and
whether PennEast agrees to implement these
recommendations. Such information regarding
this consultation process shall be filed with the
Secretary. (Section 4.6.2.7)
39. Prior to construction, PennEast shall file with
the Secretary a comprehensive list of measures
developed in consultation with applicable state
wildlife agencies to avoid or mitigate impacts on
state-listed species and state species of concern,
which shall include but not be limited to measures
applicable to the eastern small-footed bat, timber
rattlesnake, eastern box turtle, northern cricket
frog, long-tailed salamander, and Cobblestone
tiger beetle, as well as all other State listed
species that may be impacted. The NJDEP has

JA 192
recommended that PennEast use the State’s
“Utility
Right-of-Way
No-Harm
Best
Management
Practices”
document
while
developing these project specific measures.
(Section 4.6.2.28)
40. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, a revised Residential
Access and Traffic Management Plan which
includes the results of traffic counts and an
inventory of roadway and intersection geometry,
peak hour traffic volume collection, and related
observations of traffic operations in the project
area. PennEast shall also file any additional sitespecific mitigation measures that it will
implement to minimize impacts on local traffic in
the project area, including any recommendations
from state, county, and municipal agencies.
(Section 4.7.1.6)
41. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, the following information
for residences in close proximity to the project:
a.

the results of previously unsurveyed areas
along the pipeline route and an updated list
of residences and commercial structures
within 50 feet of the construction right-ofway;

b.

for all residences identified within 25 feet of a
construction work area, a final site-specific
construction plan that includes all of the
following: a dimensioned site plan that
clearly shows the location of the residence in

JA 193
relation to the pipeline, the boundaries of all
construction work areas, the distance
between the edge of construction work areas
and the residence and other permanent
structures, and equipment travel lanes;
c.

a description of how and when landowners
will be notified of construction activities;

d.

documentation of landowner concurrence if a
structure within the construction work area
will be relocated or purchased;

e.

documentation of landowner concurrence if
the construction work areas will be within 10
feet of a residence; and

f.

a description of how PennEast will provide
temporary housing for residents temporarily
displaced during construction and whether
PennEast will compensate landowners for
this cost. (Section 4.7.3.1)

42. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, a final crossing plan for
the Appalachian National Scenic Trail that
includes: timing restrictions, closure schedules,
and site-specific safety and mitigation measures
including signage and barriers if needed; and
documentation of consultation with the
Pennsylvania Game Commission. (Section 4.7.5.1)
43. Prior to construction, PennEast shall file with
the Secretary, for review and written approval of
the Director of the OEP, plans regarding a gating
or boulder access system for the pipeline right-ofway across Pennsylvania state lands, developed

JA 194
in
consultation
with
the
Pennsylvania
Department of Conservation and Natural
Resources (PADCNR), to prevent unauthorized
vehicle access while maintaining pedestrian
access. (Section 4.7.5.2)
44. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, additional information on
the crossing of the Bethlehem Authority water
transmission tunnel crossed at MPs 51.0R2 and
51.6R2. Additional information shall include, but
not be limited to:
a.

a site-specific crossing plan for each crossing
location, including construction methods and
measures used to avoid impacts on the water
transmission tunnel;

b.

identification of any blasting that will be
required within 2,000 feet of the water
tunnel;

c.

a vibration monitoring program that will be
implemented during construction; and

d.

documentation of working meetings with the
Water Authority to ensure that concerns
related to construction and operation of the
pipeline over the water transmission tunnel
are adequately addressed. (Section 4.7.5.3)

45. PennEast shall file with the Secretary reports
describing any documented complaints from a
homeowner that a homeowner’s insurance policy
was cancelled, voided, or amended due directly to
the grant of the pipeline right-of-way or
installation of the pipeline and/or that the

JA 195
premium for the homeowner’s insurance
increased materially and directly as a result of the
grant of the pipeline right-of-way or installation
of the pipeline. The reports shall also identify how
PennEast has mitigated the impact. During
construction, these reports shall be included in
PennEast’s
weekly
status
reports
(see
recommendation 8) and in quarterly reports for a
2-year period following in-service of the project.
(Section 4.8.8.2)
46. Prior to construction, PennEast shall assess
potential project impacts on the Hickory Run
Recreation Demonstration Area and file with the
Secretary a recommendation of effects and the
Pennsylvania State Historic Preservation Office’s
(SHPO’s) comments. (Section 4.9.2.1)
47. Prior to construction, PennEast shall file with
the Secretary all effects assessments related to
historic districts crossed in New Jersey. PennEast
shall also include site avoidance or mitigation
plans and documentation of New Jersey SHPO’s
comments. (Section 4.9.2.2)
48. Prior to construction, PennEast shall provide
an assessment of potential project effects to
Bridge #D-449 Worman Road along with
comments of the New Jersey SHPO and any
needed avoidance or treatment plans for the
resource. (Section 4.9.2.2)
49. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, a final vibration
monitoring plan for historic properties within 150
feet of the construction workspace in consultation

JA 196
with the Pennsylvania and New Jersey SHPOs.
(Section 4.9.5)
50. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, a revised Blasting Plan
that includes a review of potential effects on
cultural resources, including caves, rock shelters,
and aboveground historic structures, and how
those impacts will be addressed. (Section 4.9.5)
51. PennEast shall not begin construction of
facilities and/or use of all staging, storage, or
temporary work areas, and new or to-be-improved
access roads until:
a.

PennEast files with the Secretary:
(i) remaining cultural resources survey
report(s);
(ii) site or resource evaluation report(s) and
avoidance/treatment plan(s), as required;
(iii) the project’s recommended effects to
historic properties in Pennsylvania and
New Jersey; and
(iv) comments on the cultural resources
reports and plans from the Pennsylvania
and New Jersey SHPOs, as appropriate;

b.

the
Advisory
Council
on
Historic
Preservation is afforded an opportunity to
comment if historic properties will be
adversely affected; and

c.

the FERC staff reviews and the Director of
the OEP approves the cultural resources
reports and plans, and notifies PennEast in

JA 197
writing that treatment plans/mitigation
measures (including archaeological data
recovery) may be implemented and/or
construction may proceed.
All materials filed with the Commission
containing
location,
character,
and
ownership
information
about
cultural
resources must have the cover and any relevant
pages therein clearly labeled in bold lettering:
“CUI\\PRIV - DO NOT RELEASE.” (Section
4.9.6)
52. If changes to the project construction schedule
and/or design occur that will materially impact
the amount of construction nitrogen oxide (NOx)
emissions generated in a calendar year, PennEast
shall file with the Secretary, prior to
construction, revised construction emissions
estimates prior to implementing the revised
construction schedule and/or design modification
demonstrating that the annual NOx emissions
resulting from the revised construction schedule
and/or design do not exceed general conformity
applicability thresholds. In addition, if any such
project revised construction schedule and/or
design changes result in emissions that will
exceed the general conformity applicability
thresholds, then a draft general conformity
determination will need to be prepared at that
time, as required under Section 93.157(d) of the
Federal General Conformity regulation at 40
Code of Federal Regulations Part 93, Subpart B.
(Section 4.10.1.3)

JA 198
53. PennEast shall implement the following
measures for on-road vehicles and nonroad diesel
construction equipment used for construction of
the project;
a.

all
on-road
vehicles
and
non-road
construction equipment operating at, or
visiting, a construction site shall comply with
the three-minute idling limit, and anti-idling
signs shall be posted;

b.

all non-road diesel construction equipment
greater than 100 horsepower used for more
than ten days shall have engines that meet
the EPA Tier 4 non-road emission standards
or the best available control technology that
is technologically feasible and verified by
EPA or the California Air Resources Board as
a diesel emission control strategy; and

c.

all on-road diesel vehicles used to haul
materials or traveling to and from a
construction site shall use designated truck
routes that are designed to minimize impacts
on residential areas and sensitive receptors
such as hospitals, schools, daycare facilities,
senior citizen housing, and convalescent
facilities. (Section 4.10.1.4)

54. Prior to construction, PennEast shall file with
the Secretary, for review and written approval by
the Director of the OEP, a HDD noise mitigation
plan for each HDD location to reduce the projected
noise level attributable to the proposed drilling
operations at the 31 noise sensitive areas (NSAs)
with the predicted noise levels above 55 decibel Aweighted (dBA) day-night sound level (Ldn).

JA 199
During drilling operations, PennEast shall
implement the approved plan for all HDDs,
monitor noise levels, include the noise monitoring
results in its weekly status reports, and make all
reasonable efforts to restrict the noise
attributable to the drilling operations to no more
than an Ldn of 55 dBA at the NSAs. (Section
4.10.2.3)
55. PennEast shall file a noise survey with the
Secretary no later than 60 days after placing
the Kidder Compressor Station in service. If
a full load noise condition survey is not possible,
PennEast shall provide an interim survey at the
maximum horsepower load and provide the full
load survey within six months. If the noise
attributable to the operation of the compressor
station at full load exceeds an Ldn of 55 dBA at
any nearby NSA, PennEast shall file a report on
what changes are needed and shall install the
additional noise controls to meet the level within
one year of the in-service date. PennEast shall
confirm compliance with the above requirement
by filing a second noise survey with the Secretary
no later than 60 days after it installs the
additional noise controls. (Section 4.10.2.3)
56. Prior to construction, PennEast shall consult
with the Federal Aviation Administration and the
appropriate authority at the Trenton-Mercer
Airport regarding any requirements or guidelines
that need to be followed during construction or
operation of the project. Records of these
consultations, as well as any requirements made
by the Federal Aviation Administration and the

JA 200
Trenton- Mercer Airport, shall be filed with the
Secretary. (Section 4.11.3)

JA 201
LaFLEUR, Commissioner concurring:
In today’s order, the Commission authorizes the
development of the PennEast Project, a natural gas
pipeline from Luzerne County, Pennsylvania to
Mercer County, New Jersey. I write separately to
provide additional context regarding my conclusion
that the PennEast Project is in the public interest.
Deciding whether a project is in the public
interest requires a careful balancing of the economic
need for the project and its environmental impacts. 1
In applying this balancing test to the extensive record
developed in this case, I am persuaded that on
balance, the PennEast Project is in the public interest.
PennEast has demonstrated that approximately 90
percent of the project’s capacity has been subscribed,
primarily by state-regulated local distribution
companies and owners of natural gas-fired electric
generation facilities. I believe that under existing
Commission precedent, this evidence of precedent
agreements supports the determination that the
project is needed.
I have carefully considered the environmental
impacts of the PennEast Project, and agree with the
order’s determination that, while the Project will
result in some adverse environmental impacts, the
environmental conditions imposed in today’s order
will ensure that such impacts are reduced to
acceptable levels. I do share the concerns of my
colleagues that the record reflects a significant
1 See Atlantic Coast Pipeline, LLC, 161 FERC ¶ 61,042 (2017)
(LaFleur, Comm’r, dissenting); Mountain Valley Pipeline, LLC,
161 FERC ¶ 61,043 (2017) (LaFleur, Comm’r, dissenting).

JA 202
number of environmental surveys that are incomplete
due to lack of access to landowner property. I am
persuaded, however, that Commission staff has
developed a sufficient record to adequately evaluate
the environmental impacts resulting from the
PennEast Project. 2 Moreover, today’s order imposes a
number of environmental conditions which are
intended to specifically allow the Commission and
Commission staff to carefully monitor PennEast’s
ongoing compliance obligations, particularly related to
the completion of those surveys, and any necessary
avoidance, minimization, and mitigation measures
that may be needed.
I strongly support Chairman McIntyre’s
announcement that the Commission will undertake a
generic proceeding to look broadly at our pipeline
certificate policies. I believe this review should include
both our needs determination and our environmental
review of proposed projects. Today’s order highlights
the issue of how pipeline developers engage with
landowners, which I believe should also be explored in
the upcoming generic proceeding. For now, I will
continue to take a case-by-case approach to pipeline
applications, carefully applying the existing law that
governs our certificate process to the factual record
developed in each case. In this case, that review led

The order explains that the Commission relied upon
“PennEast’s application and supplements, as well as information
developed through Commission staff’s data requests, field
investigations, the scoping process, literature research,
alternative analyses, and contacts with federal, state, and local
agencies, as well as with individual members of the public.”

2

JA 203
me to conclude that the proposed pipeline is in the
public interest.
For these reasons, I respectfully concur.
Cheryl A. LaFleur
Commissioner

JA 204
CHATTERJEE, Commissioner, concurring:
I concur in this order and agree with granting a
certificate of public convenience and necessity to
PennEast, authorizing it to construct and operate the
proposed PennEast Project, subject to the conditions
in the order. I believe a clear need has been
demonstrated for the project. PennEast has executed
long-term, firm precedent agreements with 12
shippers for approximately 90 percent of the project’s
capacity. This additional gas infrastructure will
provide additional natural gas transportation capacity
into Pennsylvania and New Jersey.
However, I do have concerns about the order’s
impact on landowners. For this project, there are
incomplete surveys due to lack of access to landowner
property. I recognize that the rights of landowners are
important, and do not take their concerns lightly.
Under section 7 of the Natural Gas Act, once the
Commission grants a certificate, a certificate holder is
authorized to acquire the necessary land or property
to construct the approved facilities by exercising the
right of eminent domain if it cannot acquire the
easement by an agreement with the landowner. It is
important that the Commission have as much data as
possible on which to base a determination that has
such a momentous effect.
I am supporting the project despite these
concerns, because I believe the Commission has
sufficient information in the record on which to make
its decision—the certificate application and
supplements,
information
developed
through
Commission staff’s data requests, field investigations,
the scoping process, literature research, alternatives

JA 205
analysis, and contacts with federal, state, and local
agencies, and individual members of the public.
Additionally, the order imposes conditions requiring
the filing of additional environmental information for
review and approval once survey access is obtained.
But I would like to encourage pipeline companies
and landowners to work with the Commission to
maximize engagement and minimize the impacts on
landowners going forward. I believe that a cooperative
process leads to the best results for all stakeholders.
For these reasons, I respectfully concur.
Neil Chatterjee, Commissioner

JA 206
GLICK, Commissioner, dissenting:
I respectfully dissent from today’s order because I
believe that the record in this proceeding fails to
demonstrate that the PennEast Project satisfies the
requirements for a certificate of public convenience
and necessity under the Natural Gas Act. Section 7 of
the Natural Gas Act requires that, before issuing a
certificate for new pipeline construction, the
Commission find both a need for the pipeline and that,
on balance, the pipeline’s benefits outweigh its
harms. 1 I disagree with the Commission’s conclusion
that the PennEast Project meets these standards.
In today’s order, the Commission relies
exclusively on the existence of precedent agreements
with shippers to conclude that the PennEast Project is
needed. 2 Pursuant to these agreements, PennEast’s
affiliates hold more than 75 percent of the pipeline’s
subscribed capacity. 3 While I agree that precedent and
service agreements are one of several measures for
assessing the market demand for a pipeline, 4
1

15 U.S.C. § 717f (2012).

PennEast Pipeline Company, LLC, 162 FERC ¶ 61,053, at P 27
(2018) (explaining that “it is current Commission policy to not
look beyond precedent or service agreements to make judgments
about the needs of individual shippers”); id. P 29 (“Where, as
here, it is demonstrated that specific shippers have entered into
precedent agreements for project service, the Commission places
substantial reliance on those agreement to find that the project
is needed.”).
2

3

Id. P 6.

4 Certification of New Interstate Natural Gas Pipeline Facilities,
88 FERC ¶ 61,227, 61,747 (1999) (Certificate Policy Statement)
(“[T]he Commission will consider all relevant factors reflecting on
the need for the project. These might include, but would not be

JA 207
contracts among affiliates may be less probative of
that need because they are not necessarily the result
of an arms-length negotiation. 5 By itself, the existence
of precedent agreements that are in significant part
between the pipeline developer and its affiliates is
insufficient to carry the developer’s burden to show
that the pipeline is needed.
Under these circumstances, I believe that the
Commission must consider additional evidence
regarding the need for the pipeline. As the
Commission explained in the Certificate Policy
Statement, this additional evidence might include,
among other things, projections of the demand for
natural gas, analyses of the available pipeline
capacity, and an assessment of the cost savings that
the proposed pipeline would provide to consumers. 6
The Commission, however, does not rely on any such
evidence in finding that there is a need for the
PennEast Project. 7 Accordingly, I do not believe that
the Commission’s order properly concludes that the
PennEast Project is needed.
In addition to determining the need for a pipeline,
the Natural Gas Act requires the Commission to find
limited to, precedent agreements, demand projections, potential
cost savings to consumers, or a comparison of projected demand
with the amount of capacity currently serving the market.”).
5

Certificate Policy Statement at 61,744.

6

Id. at 61,747.

Indeed, the Commission concludes that “the fact that 6 of the 12
shippers on the PennEast Project are affiliated with the project’s
sponsors does not require the Commission to look behind the
precedent agreements to evaluate project need.” PennEast
Pipeline Company, LLC, 162 FERC ¶ 61,053 at P 33.

7

JA 208
that, on balance, the pipeline’s benefits outweigh its
harms. This includes weighing the risk of harm to the
environment, landowners, and communities, as well
as public safety more generally. 8 And where, as in this
proceeding, there is limited evidence of the need for
the proposed project, it is incumbent on the
Commission to engage in an especially searching
review of the project’s potential harms to ensure that
the project is in fact in the public interest. In this case,
PennEast’s certificate application lacks evidence that
I believe is important to making the public interest
determination. 9
The Commission addresses this lack of evidence
by conditionally granting the certificate, subject to
PennEast’s compliance with the environmental
conditions. I recognize that the courts have upheld the
Commission’s authority to issue conditional
As the United States Court of Appeals for the District of
Columbia Circuit has explained, “[t]he broad public interest
standards in the Commission’s enabling legislation are limited to
‘the purposes that Congress had in mind when it enacted this
legislation.’” Pub. Utils. Comm’n of Cal. v. FERC, 900 F.2d 269,
281 (D.C. Cir. 1990) (quoting NAACP v. FERC, 425 U.S. 662, 670
(1976)). The Court explained that, for the Natural Gas Act, these
purposes include “‘encourag[ing] the orderly development of
plentiful supplies of . . . natural gas at reasonable prices’” as well
as “‘conservation, environmental, and antitrust issues.’” Id.
(quoting NAACP, 425 U.S. at 670 n.6).
8

For instance, 68 percent of the project alignment in New Jersey
has yet to be surveyed for the existence of historic and cultural
resources. PennEast Pipeline Company, LLC, 162 FERC ¶ 61,053
at P 172. In addition, PennEast has not yet completed the
geotechnical borings work needed to ensure that the
environmental impacts of planned horizontal directional drilling
will be adequately minimized. Id. P 120.
9

JA 209
certificates. Nevertheless, doing so comes with
significant consequences for landowners whose
properties lie in the path of the proposed pipeline.
Although the certificate is conditional, it gives the
pipeline developer the authority to exercise eminent
domain and condemn land as needed to develop the
pipeline. 10 In my view, Congress did not intend for the
Commission to issue certificates so that certificate
holders may use eminent domain to acquire the
information needed to determine whether the pipeline
is in the public interest. 11 Further, under the Natural
15 U.S.C. § 717f(h) (2012). State supreme courts, including
New Jersey’s and Pennsylvania’s, have long recognized that the
power of eminent domain is a harsh and extraordinary power
that should be strictly construed. See Levin v. Twp. Comm. of
Twp. of Bridgewater, 274 A.2d 1, 26 (N.J. 1971)
(“Where . . . property is forcibly taken from one party for the
purpose of being transferred to another, thereby excluding the
consent of the owner and excluding all other prospective ultimate
purchasers and developers except the one selected by the
municipality, the facts which allegedly give rise to that municipal
power should be closely scrutinized.”); Woods v. Greensboro Nat.
Gas Co., 54 A. 470, 470-72 (Pa. 1903) (“The exercise of the right
of eminent domain, whether directly by the state or its authorized
grantee, is necessarily in derogation of private right, and the rule
in that case is that the authority is to be strictly construed.”
(internal citations omitted)); see also Harvey v. Aurora & G. Ry.
Co., 51 N.E. 163, 166 (Ill. 1898) (similar); Chesapeake & O. Ry.
Co. v. Walker, 40 S.E. 633, 636 (Va. 1902) (similar); City of Little
Rock v. Sawyer, 309 S.W.2d 30, 36 (Ark. 1958) (similar); La.
Power & Light Co. v. Lasseigne, 257 La. 72, 89 (1970) (similar).
10

See, e.g., Walker v. Gateway Pipeline Co., 601 So. 2d 970, 975
(Ala. 1992) (explaining that section 7(h) of the Natural Gas Act
addresses eminent domain needed for the “actual construction of
facilities, not entries that may take place prior to such
construction and in preparation for acquiring a certificate of
public convenience and necessity from the FERC”).
11

JA 210
Gas Act, this eminent domain authority is not limited
to the extent needed to complete the surveys and other
assessments used to satisfy the conditions imposed in
the Commission’s order. As a result, there will not
necessarily be any restriction on a pipeline developer’s
ability to exercise eminent domain while the
Commission waits to confirm that the pipeline is in the
public interest.
I recognize that part of the reason that the record
in this proceeding is incomplete is that landowners
have denied PennEast access to their land for the
purpose of conducting the necessary studies and
assessments. However, the question whether
landowners should be required to provide pipeline
developers with access to their property for the
purpose of determining whether it is suitable for a
proposed pipeline is one that is and should be left to
the states to decide. The Commission should not use
the pipeline certification process as an end run around
states and landowners that choose not to grant access
to their property before a certificate is issued. 12

Some states allow prospective interstate pipeline companies to
rely on state law to access private property for surveying prior to
obtaining a certificate of public convenience and necessity. See,
e.g., Texas E. Transmission, LP v. Barack, 2014 WL 1408058, at
*3 (S.D. Ohio Apr. 11, 2014) (granting a pipeline company access
under Ohio law to a property for purpose of surveying,
appraising, and conducting any necessary examinations ). Other
states, including New Jersey and Pennsylvania, do not provide
pipeline companies this right prior to obtaining a certificate of
public convenience and necessity from the Commission.
12

JA 211
For these reasons, I respectfully dissent.
Richard Glick
Commissioner

JA 212
Order Granting Rehearings for Further
Consideration, PennEast Pipeline Co., LLC,
No. CP15-558-001 (Feb. 22, 2018)
Rehearings have been timely requested of the
Commission’s order issued on January 19, 2018, in
this proceeding. PennEast Pipeline Company, LLC,
162 FERC ¶ 61,053 (2018). In the absence of
Commission action within 30 days from the date the
rehearing requests were filed, the request for
rehearing (and any timely requests for rehearing filed
subsequently) 1 would be deemed denied. 18 C.F.R.
§ 385.713 (2017).
In order to afford additional time for
consideration of the matters raised or to be raised,
rehearing of the Commission’s order is hereby granted
for the limited purpose of further consideration, and
timely-filed rehearing requests will not be deemed
denied by operation of law. Rehearing requests of the
above-cited order filed in this proceeding will be
addressed in a future order. As provided in 18 C.F.R.
§ 385.713(d), no answers to the rehearing requests
will be entertained.
Nathaniel J. Davis, Sr.,
Deputy Secretary.

See San Diego Gas & Electric Company v. Sellers of Energy and
Ancillary Services into Markets Operated by the California
Independent System Operator and the California Power
Exchange, et al., 95 FERC ¶ 61,173 (2001) (clarifying that a
single tolling order applies to all rehearing requests that were
timely filed).
1

JA 213
Order on Rehearing, PennEast Pipeline Co.,
LLC, 164 FERC ¶ 61,098 (Aug. 10, 2018)
1. On January 19, 2018, the Commission issued an
order pursuant to section 7(c) of the Natural Gas Act
(NGA) and parts 157 and 284 of the Commission’s
regulations authorizing PennEast Pipeline Company,
LLC (PennEast) to construct and operate the
PennEast pipeline system (PennEast Project). 1 The
PennEast Project consists of a new, 116-mile
greenfield natural gas pipeline extending from
Luzerne County, Pennsylvania, to Mercer County,
New Jersey, as well as three laterals, a new
compressor station and appurtenant facilities. The
PennEast Project is designed to provide up to
1,107,000 dekatherms per day (Dth/d) of firm
transportation service to a diverse group of customers
for a variety of purposes, including supply flexibility,
diversity, and reliability.
2. In the Certificate Order, the Commission found
that the benefits that the PennEast Project will
provide to the market outweigh any adverse effects on
existing shippers, other pipelines and their captive
customers, and on landowners and surrounding
communities. The Commission concluded after
preparing an Environmental Impact Statement (EIS)
for the project to satisfy the requirements of the
National Environmental Policy Act (NEPA) that, if
constructed and operated as described in the Final
EIS, the project will result in some adverse
environmental impacts, but that these impacts will be
PennEast Pipeline Co., LLC, 162 FERC ¶ 61,053 (2018)
(Certificate Order).

1

JA 214
reduced to less than significant levels with PennEast’s
implementation of the required mitigation measures
as adopted as conditions of the order. 2
3. Between January 23, 2018 and February 20,
2018, numerous parties filed, timely, unopposed
requests for rehearing of the Certificate Order. 3 In
addition, untimely requests for rehearing were filed by
Food and Water Watch, Sourland Conservancy and
the County of Mercer.
4. For the reasons discussed below, the requests for
rehearing are rejected, dismissed, or denied and the
requests for stay are dismissed as moot.
I.

Procedural Matters
A. Party Status

5. Under NGA section 19(a) and Rule 713(b) of the
Commission’s Rules of Practice and Procedure, only a
party to a proceeding has standing to request
rehearing of a final Commission decision. 4 Any person
seeking to become a party must file a motion to
intervene pursuant to Rule 214 of the Commission’s
Rules of Practice and Procedure. 5 On February 16,
2018, New Jersey State Senator Kip Bateman and
New Jersey State Assemblyman Reed Gusciora filed
requests for rehearing of the Certificate Order. On
February 20, 2018, New Jersey State Senator Shirley
2

Certificate Order, 162 FERC ¶ 61,053 at P 98.

On February 20, 2018, Virginia Banks filed a timely request for
rehearing. On August 2, 2018, Ms. Banks’ request for rehearing
was withdrawn.

3

4

15 U.S.C. § 717r(a) (2012); 18 C.F.R. § 385.713(b) (2017).

5

18 C.F.R. § 385.214(a)(3) (2017).

JA 215
Turner filed a request for rehearing of the Certificate
Order. Neither Senators Bateman or Turner, or
Assemblyman Gusciora filed motions to intervene in
this proceeding; therefore they are not parties to the
proceeding, and their requests for rehearing must be
rejected.
B. Untimely Requests for Rehearing
6. Pursuant to section 19(a) of the NGA, an
aggrieved party must file a request for rehearing
within 30 days after the issuance of the Commission’s
order. 6 Under Commission’s regulations, read in
conjunction with section 19(a), the deadline to seek
rehearing was 5:00 pm U.S. Eastern Time, February
20, 2018. 7 Food & Water Watch’s February 21, 2018
request for rehearing, the County of Mercer’s
February 27, 2018 request for rehearing, and
15 U.S.C. § 717r(a) (2012) (“Any person, State, municipality, or
State commission aggrieved by an order issued by the
Commission in a proceeding under this act to which such person,
State, municipality, or State commission is a party may apply for
a rehearing within thirty days after the issuance of such order”).
The Commission has no discretion to extend this deadline. See,
e.g., Transcontinental Gas Pipe Line Co., 161 FERC ¶ 61,250, at
P 10, n. 13 (2017) (Transco) (collecting cases).
6

Rule 2007 of the Commission’s Rules of Practice and Procedure
provides that when the time period prescribed by statute falls on
a weekend, the statutory time period does not end until the close
of the next business day. See 18 C.F.R. § 385.2007(a)(2) (2017).
The Commission’s business hours are “from 8:30 a.m. to 5:00
p.m.,” and filings—paper or electronic—made after 5:00 p.m. will
be considered filed on the next regular business day. Therefore,
although the Certificate Order was issued on January 19, 2018,
because February 19, 2018 fell on a federal holiday, the rehearing
period closed on February 20, 2018. See 18 C.F.R. §§ 375.101(c),
2001(a)(2) (2017).
7

JA 216
Sourland Conservancy’s March 25, 2018 request for
rehearing failed to meet this deadline. Because the 30day rehearing deadline is statutorily based, it cannot
be waived or extended, and their requests must be
rejected as untimely.
C. Deficient Requests for Rehearing
7. The NGA requires that a request for rehearing set
forth the specific grounds on which it is based. 8
Additionally, the Commission’s regulations provide
that requests for rehearing must “[s]tate concisely the
alleged error in the final decision” and “include a
separate section entitled ‘Statement of Issues,’ listing
each issue in a separately enumerated paragraph”
that includes precedent relied upon. 9 Consistent with
these requirements, the Commission “has rejected
attempts to incorporate by reference arguments from
a prior pleading because such incorporation fails to
inform the Commission as to which arguments from
the referenced pleading are relevant and how they are
relevant.” 10 Finally, “parties are not permitted to
8

15 U.S.C. § 717r(a) (2012).

9

18 C.F.R. § 385.713 (2017).

San Diego Gas and Electric Co. v. Sellers of Market Energy, 127
FERC ¶ 61,269, at P 295 (2009). See Tennessee Gas Pipeline Co.,
L.L.C., 156 FERC ¶ 61,007, at P 7 (2016) (“the Commission’s
regulations require rehearing requests to provide the basis, in
fact and law, for each alleged error including representative
Commission and court precedent. Bootstrapping of arguments is
not permitted.”). See also ISO New England, Inc., 157 FERC
¶ 61,060, at P 4 (2016) (explaining that the identical provision
governing requests for rehearing under the Federal Power Act
“requires an application for rehearing to ‘set forth specifically the
ground or grounds upon which such application is based,’ and the
Commission has rejected attempts to incorporate by reference
10

JA 217
introduce new evidence for the first time on rehearing
since such practice would allow an impermissible
moving target, and would frustrate needed
administrative finality.” 11
8. Numerous petitioners filed brief requests for
rehearing generally asserting that the Commission’s
Certificate Order did not comply with NEPA or the
NGA, or otherwise failed to adequately address a host
of issues. These petitioners did not include a concise
statement of issues, and failed to make reference to
specific findings in the Certificate Order, nor do they
rely on Commission or other precedent to support
their assertions. 12 In addition, several petitioners filed
requests for rehearing in which they simply seek to
incorporate by reference the requests for rehearing
filed by Conservation Foundation, and/or the New
Jersey Division of Rate Counsel (Rate Counsel). For
the reasons discussed above, these pleadings 13 do not
grounds for rehearing from prior pleadings”); Alcoa Power
Generating, Inc., 144 FERC ¶ 61,218, at P 10 (2013) (“The
Commission, however, expects all grounds to be set forth in the
rehearing request, and will dismiss any ground only incorporated
by reference.”) (citations omitted).
PaTu Wind Farm, LLC v. Portland General Electric Co., 151
FERC ¶ 61,223, at P 42 (2015). See also Potomac-Appalachian
Transmission Highline, L.L.C., 133 FERC ¶ 61,152, at P 15
(2010).
11

See, e.g., Boott Hydropower, Inc., 143 FERC ¶ 61,159 (2013)
(dismissing request for rehearing that did not include a
Statement of Issues and did not identify the specific error
alleged).
12

13 The requests for rehearing submitted by the following parties
are dismissed as they failed to comply with Commission
regulations: Elizabeth Balogh; Sari DeCesare, Linda and Ned
Heindel; Scott Hengst, Fairfax Hutter; Kelly Kappler; Karen

JA 218
comply with Commission regulations and are
dismissed. In any event, however, the concerns of
these parties are generally addressed in response to
arguments properly raised by other parties on
rehearing.
1.

Delaware Riverkeeper’s Rehearing
Request

9. On January 24, 2018, five days after the issuance
of the Certificate Order, Delaware Riverkeeper
Network (Delaware Riverkeeper) filed a 190-page
request for rehearing that lists 20 alleged errors that
purportedly relate to the Certificate Order. For two of
the alleged errors, there is no further discussion in the
rehearing request and these arguments are
dismissed. 14 For the 18 other alleged errors, Delaware
Riverkeeper’s request for rehearing is a verbatim or
near-verbatim copy of Delaware Riverkeeper’s
September 12, 2016 comments on the Draft
Environmental Impact Statement (Draft EIS)
prepared for the project. 15 The aim of the NGA’s
rehearing requirement is “to give the Commission the
first opportunity to consider challenges to its orders
Mitchell; Elizabeth Peer; Laura Pritchard; Roblyn Rawlins;
Sarah Seier; the City of Lambertville; the New Jersey Natural
Lands Trust; the Pipeline Safety Coalition, Sierra Club; and
Washington Crossing Audubon Society.
The issues Delaware Riverkeeper does not discuss further are
that the Final EIS did not perform an analysis of the economic
impacts of the PennEast Project, and that the Final EIS failed to
“undertake a healthy [sic] and safety impacts analysis”.
14

Compare Delaware Riverkeeper’s January 24, 2018 Request for
Rehearing at 7-158 with its September 12, 2016 Comments at 278.
15

JA 219
and thereby narrow or dissipate the issues before they
reach the courts.” 16 Simply repeating prior arguments
regarding an entirely separate document does not
serve this purpose. Nor does it comport with Delaware
Riverkeeper’s obligation to “set forth specifically the
ground or grounds upon which” a request for
rehearing is based. 17 Delaware Riverkeeper, in
essence, incorporates by reference their prior Draft
EIS comments into their request for rehearing.
Delaware Riverkeeper’s request for rehearing further
fails to address the Certificate Order itself, and in
several instances cites to the Draft EIS, as opposed to
the Final EIS, and otherwise contains generalized,
unsupported statements of purported errors in the
Final EIS. We find that these 18 assertions of error
have not been properly raised and are thus
dismissed. 18 Nevertheless, we find that these
arguments are without merit, as discussed below.
16

Sierra Club v. FERC, 827 F.3d 59, 69 (D.C. Cir. 2016).

15 U.S.C. § 717r(a). See also Constellation Energy Commodities
Group, Inc. v. FERC, 457 F.3d 14, 22 (D.C. Cir. 2006) (“Each
quoted passage states a conclusion; neither makes an argument.
Parties are required to present their arguments to the
Commission in such a way that the Commission knows
‘specifically ... the ground on which rehearing [i]s being sought’”).
17

These items include: (1) EIS does not support conclusion that
construction of project will not have significant environmental
impacts; (2) EIS assertion of need not supported by
preponderance of evidence; (3) EIS fails to consider cumulative
impacts; (4) EIS fails to consider impacts of induced shale gas
production; (5) Economic benefits asserted in the EIS are
unsupported
and
economic
harms
are
overlooked;
(6) Commission failed to consider greenhouse gas emissions and
climate change; (7) EIS alternative analysis is flawed;
(8) Commission improperly segmented its environmental
18

JA 220
D. PennEast’s Answer
10. On March 7, 2018, PennEast filed a motion for
leave to answer and answer to the requests for
rehearing and motions for stay. On March 15, 2018,
the New Jersey Conservation Foundation and Stony
Brook-Millstone Watershed Association (jointly,
Conservation Foundation) filed a response to
PennEast’s answer. Rules 713(d)(1) and 213(a)(2) of
the Commission’s Rules of Practice and Procedure 19
prohibit answers to a request for rehearing, and
answers to answers. Accordingly, we reject PennEast’s
answer and Conservation Foundation’s response.
E. Lack of Evidentiary Hearing
11. Conservation Foundation asserts that the
Commission erred in denying their request to hold an
evidentiary hearing to address the existence of need
for the project. 20 Conservation Foundation argues that
analysis; (9) EIS fails to address comments that standard
construction practices will result in environmental violations and
degradation; (10) EIS misrepresents the legal authority of the
Delaware River Basin Commission; (11) EIS is legally deficient;
(12) EIS contains, inaccurate, misleading, and/or deficient
assertions; (13) EIS contains an insufficient baseline for
Threatened and Endangered species review; (14) EIS fails to
adequately consider alternative routes or construction practices;
(15) PennEast Project will harm the public and property rights;
(16) Commission authorized tree felling prior to company’s
receipt of Clean Water Act Certification; (17) Commission failed
to provide accurate baseline from which to conduct its
environmental analysis; and (18) Commission relied on
inaccurate or complete information. Delaware Riverkeeper’s
Request for Rehearing at 5-7.
19

18 C.F.R. § 385.213(a)(2); 713(d)(1) (2017).

20

Conservation Foundation’s Request for Rehearing at 85-87.

JA 221
the Commission merely relied on precedent
agreements, and that “critical information for
evaluating public benefit… remains missing from the
record.” 21
Holding
an
evidentiary
hearing,
Conservation Foundation posits, would allow for
greater public participation, while enabling an
“independent assessment” of both the credibility of
PennEast’s evidence regarding need for the project,
and whether demand for the project exists. 22
12. As we stated in the Certificate Order, an
evidentiary, trial-type hearing is necessary only where
there are material issues of fact in dispute that cannot
be resolved on the basis of the written record. 23
Despite Conservation Foundation’s assertions, they
have not shown that a material issue of fact exists that
the Commission could not, and cannot, resolve on the
basis of the written record. As discussed in the
Certificate Order and below, precedent agreements for
project capacity are “significant evidence of project
need or demand.” 24 The written record contains
sufficient evidence to establish that the project is
needed, most notably from precedent agreements
subscribing to approximately 90 percent of the
project’s capacity, as well as additional evidence of the
various reasons project shippers sought to utilize the
21

Id., at 85.

22

Id., at 86-87.

See, e.g., Southern Union Gas Co. v. FERC, 840 F.2d 964, 970
(D.C. Cir. 1988); Dominion Transmission, Inc., 141 FERC
¶ 61,183, at P 15 (2012).

23

24 Certificate Order, 162 FERC ¶ 61,053 at PP 28, 36; Infra 1617.

JA 222
project. 25 Conservation Foundation, and all other
parties to the proceeding had the opportunity to view,
and respond to, this evidence. Thus, an evidentiary
hearing was not warranted. To the extent that
Conservation Foundation asserts that need for the
project has not been demonstrated adequately, we
address this issue below.
F. Motions for Stay
13. Michael Spille, The Township of Hopewell
(Hopewell), Lower Saucon Township (Lower Saucon),
Kingwood
Township,
Delaware
Riverkeeper,
Conservation
Foundation,
and
New
Jersey
Department of Environmental Protection (NJDEP)
request that the Commission stay the Certificate
Order pending issuance of an order on rehearing. This
order addresses and denies or dismisses the requests
for rehearing; accordingly, we dismiss the requests for
stay as moot.
II. Discussion
A. Public Convenience and Necessity
1.

Project Need

14. Numerous parties assert that the Commission
violated both the NGA and the Fifth Amendment by
failing to demonstrate that the PennEast Project is
required by the public convenience and necessity. 26
Specifically, it is alleged that the Commission’s
reliance on precedent agreements with PennEast’s
corporate affiliates as evidence of need for the project
25

Certificate Order, 162 FERC ¶ 61,053 at PP 28-36.

26 See, e.g., Lower Saucon’s Request for Rehearing at 2; Rate
Counsel’s Request for Rehearing at 2.

JA 223
is inconsistent with the Certificate Policy Statement, 27
and that the Certificate Order ignored record evidence
showing that demand for the project is lacking. 28
a.

Precedent
Agreements
with
Affiliated
Shippers
are
Appropriate Indicators of Need

15. Several petitioners state that the Commission
erred in relying on precedent agreements with
PennEast’s affiliates to determine whether the project
was needed. Petitioners assert that these types of
“self-dealing” precedent agreements are not indicative
of the need for the pipeline, 29 rather, they merely
reflect the desire of the pipeline’s affiliates to earn a
return on their investment. 30 Petitioners insist that
the Commission must “question the business
decisions” of the affiliated shippers, and “look behind”
the precedent agreements before determining that
need for a project exists. 31
16. We affirm the Certificate Order’s finding that the
Commission is not required to look behind precedent
See, e.g., Homeowners Against Land Taking—PennEast
(HALT) Request for Rehearing at 11-12; Lower Saucon’s Request
for Rehearing at 11; Conservation Foundation’s Request for
Rehearing at 26-35.
27

See, e.g., Rate Counsel’s Request for Rehearing at 9-13;
Conservation Foundation’s Request for Rehearing at 34-42;
Hopewell’s Request for Rehearing at 19- 21; Lower Saucon’s
Request for Rehearing at 10-12.

28

29

See Conservation Foundation’s Request for Rehearing at 27-28.

30 See Conservation Foundation’s Request for Rehearing at 27-28;
Michael Spille’s Request for Rehearing at 10.

NJDEP’s Request for Rehearing at 16-17; Michael Spille’s
Request for Rehearing at 10.

31

JA 224
agreements to evaluate project need, regardless of the
affiliate status of some of the project shippers. 32 As the
Certificate Order discussed, the Certificate Policy
Statement established a new policy under which the
Commission would allow an applicant to rely on a
variety of relevant factors to demonstrate need, rather
than continuing to require that a percentage of the
proposed capacity be subscribed under long-term
precedent or service agreements. 33 These factors
might include, but are not limited to, precedent
agreements, demand projections, potential cost
savings to customers, or a comparison of projected
demand with the amount of capacity currently serving
the market. 34 The Commission stated that it would
consider all such evidence submitted by the applicant
Certificate Order, 162 FERC ¶ 61,053 at P 33 (citing
Millennium Pipeline Co. L.P., 100 FERC ¶ 61,277, at P 57 (2002)
(“as long as the precedent agreements are long-term and binding,
we do not distinguish between pipelines’ precedent agreements
with affiliates or independent marketers in establishing the
market need for a proposed project”)). See also Certification of
New Interstate Natural Gas Pipeline Facilities, 88 FERC
¶ 61,227, at 61,748 (1999), order on clarification, 90 FERC
¶ 61,128, order on clarification, 92 FERC ¶ 61,094 (2000)
(Certificate Policy Statement) (explaining that the Commission’s
policy is less focused on whether the contracts are with affiliated
or unaffiliated shippers and more focused on whether existing
ratepayers would subsidize the project); see also id. at 61,744 (the
Commission does not look behind precedent agreements to
question the individual shippers’ business decisions to enter into
contracts) (citing Transcontinental Gas Pipe Line Corp., 82 FERC
¶ 61,084, at 61,316 (1998)).
32

33 Certificate Order, 162 FERC ¶ 61,053 at P 27 (citing Certificate
Policy Statement, 88 FERC at 61,747).
34

Certificate Policy Statement, 88 FERC at 61,747.

JA 225
regarding project need. Nonetheless, the policy
statement made clear that, although companies are no
longer required to submit precedent agreements for
Commission review, these agreements are still
significant evidence of project need or demand. 35 As
the United States Court of Appeals for the District of
Columbia Circuit (D.C. Circuit) affirmed in Minisink
Residents for Environmental Preservation and Safety
v. FERC, 36 the Commission may reasonably accept the
market need reflected by the applicant’s existing
contracts with shippers. 37 Moreover, it is current
Commission policy not to look behind precedent or
service agreements to make judgments about the
needs of individual shippers. 38 The D.C. Circuit also
confirmed in Minisink Residents that nothing in the
Certificate Policy Statement, nor any precedent
construing it, indicates that the Commission must

35

Id.

36

762 F.3d 97 (D.C. Cir. 2014) (Minisink Residents).

Minisink Residents, 762 F.3d at 110, n.10; see also Sierra Club
v. FERC, 867 F.3d 1357, 1379 (D.C. Cir. 2017) (Sabal Trail)
(finding that pipeline project proponent satisfied Commission’s
“market need” where 93 percent of the pipeline project’s capacity
has already been contracted).
37

Certificate Policy Statement, 88 FERC at 61,744 (citing
Transcontinental Gas Pipe Line Corp., 82 FERC at 61,316). See
Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277 at P 57 (“as
long as the precedent agreements are long-term and binding, we
do not distinguish between pipelines’ precedent agreements with
affiliates or independent marketers in establishing the market
need for a proposed project”).
38

JA 226
look beyond the market need reflected by the
applicant’s contracts with shippers. 39
17. A shipper’s need for new capacity and its
obligation to pay for such service under a binding
contract are not lessened just because it is affiliated
with the project sponsor. 40 As we stated in the
Certificate Order, when considering applications for
new certificates, the Commission’s primary concern
regarding affiliates of the pipeline as shippers is
whether there may have been undue discrimination
against a non-affiliate shipper. 41 Here, no allegations
have been made, nor have we found that the project
sponsors have engaged in any anticompetitive
behavior. PennEast held an open season for capacity
on the project, and all potential shippers had an
opportunity to contract for service. Further, because
the project rates are calculated based on design
capacity, PennEast will be at risk for unsubscribed
capacity, thereby giving it a powerful incentive to
market the remaining unsubscribed capacity and
serving as a strong deterrent to constructing pipelines
not supported by market demand. 42 In addition, to
Minisink Residents, 762 F.3d at 112, n. 10; see also Myersville
Citizens for a Rural Cmty., Inc. v. FERC, 783 F.3d 1301, 1311
(D.C. Cir. 2015) (rejecting argument that precedent agreements
are inadequate to demonstrate market need).
39

See, e.g., Greenbrier Pipeline Co., LLC, 101 FERC ¶ 61,122, at
P 59 (2002), reh’g denied, 103 FERC ¶ 61,024 (2003).
40

Certificate Order, 162 FERC ¶ 61,053, at P 33. See also 18
C.F.R. § 284.7(b) (2017) (requiring transportation service to be
provided on a non-discriminatory basis).
41

We also note that PennEast will be required to comply with the
Commission’s Part 358 Standards of Conduct, which require
PennEast to treat all customers, whether affiliated or non-

42

JA 227
confirm the legitimacy of the financial commitments
agreed to in affiliate and non-affiliate precedent
agreements, and thereby confirm the financial
viability of the project, Ordering Paragraph (C) of the
Certificate Order requires PennEast to file a written
statement affirming it has executed contracts for
service at the levels provided for in the precedent
agreements prior to commencing construction.
18. Petitioners again contend PennEast’s affiliated
local distribution companies (LDC) bear a lesser
market risk because they expect to pass PennEast
transportation costs through to their customers, so
that in the event of underutilization, it would be LDC
customers, not PennEast or its affiliate LDCs that
would be saddled with the financial risk. Our
jurisdiction does not extend to costs incurred by LDCs
or the rates they charge to their retail customers. As
explained in the Certificate Order, state regulatory
commissions will be responsible for approving any
expenditures by state-regulated utilities. Further, we
reiterate that because PennEast is required to
calculate its recourse rates based on the design
capacity of the pipeline, PennEast will bear the
financial risk attributable to unsubscribed capacity.
Therefore, the identified affiliations do not alter the
basis for our finding there is a market need for the
project and the project is required by the public
convenience and necessity.

affiliated, on a non-discriminatory basis. 18 C.F.R. Part 358
(2017). PennEast’s tariff incorporates these requirements. See
PennEast’s Application, Exhibit P (Tariff).

JA 228
b.

The Commission did not Ignore
Evidence of a Lack of Market
Demand for the PennEast
Project

19. Petitioners further allege that by basing its need
determination solely on precedent agreements, the
Commission “disregarded” its own Certificate Policy
Statement, and ignored “substantial” evidence
showing that the gas to be transported by the project
is not needed by the present or future public
convenience and necessity. 43 Rate Counsel asserts
that the Commission could not have determined that
the project is needed when presented with
“unchallenged market data showing exactly the
opposite” 44 that the Certificate Order “dismisses.” 45
20. Commission policy is to examine the merits of
individual projects and each project must demonstrate
a specific need. 46 Although the Certificate Policy
Statement permits the applicant to show need in a
variety of ways, it does not suggest that the
Commission should examine a group of projects
together and pick which projects best serve an
estimated future regional demand. The Certificate
Order specifically addressed load growth and supply
See, e.g., Rate Counsel’s Request for Rehearing at 9-13;
Conservation Foundation’s Request for Rehearing at 25;
Hopewell’s Request for Rehearing at 19.

43

44

Rate Counsel’s Request for Rehearing at 10.

45

Id. at 25.

With respect to comments requesting the Commission to assess
the market demand for gas to be transported by other proposed
interstate pipeline projects, we note

46

JA 229
forecasts submitted by commenters in an attempt to
show a lack of market demand for the project, and
found them unpersuasive. The Certificate Order
explains “projections regarding future demand often
change and are influenced by a variety of factors,
including economic growth, the cost of natural gas,
environmental regulations, and legislative and
regulatory decisions by the federal government and
individual states.” 47 And to the extent petitioners
would have the Commission look at information
beyond precedent agreements, we would note that the
record also contains evidence of market need for
natural gas pipeline transportation capacity in the
northeast region. 48 Given the uncertainty associated
with long-term forecasts, such as those presented in
this proceeding, where an applicant has precedent
agreements for long-term firm service, the
Commission deems the precedent agreements to be
the better evidence of demand. Thus, the Commission
evaluates individual projects based on the evidence of
need presented in each proceeding. Where, as here, it
is demonstrated that specific shippers have entered
47

Certificate Order, 162 FERC ¶ 61,053 at P 29.

In Exhibit F-1, Resource Report 5, PennEast submitted a study
by Concentric Energy Advisors, Estimated Energy Market
Savings from Additional Pipeline Infrastructure Serving Eastern
Pennsylvania and New Jersey) (Concentric Study) that finds that
the project would provide increased access to low-cost natural gas
in New Jersey and Pennsylvania that could save consumers
nearly $900 million. Resource Report 5 also includes a study by
Econsult Solutions & Drexel University, Economic Impact Report
and Analysis: PennEast Pipeline Project Economic Impact
Analysis (2015) (Econsult Study) that estimates the total (direct,
indirect, and induced) jobs that would be supported during
construction and operation of the project.

48

JA 230
into precedent agreements for project service, the
Commission appropriately places substantial reliance
on those agreements to find that the project is needed.
21. In addition, the Certificate Order explained that
the project shippers in this proceeding noted several
reasons other than load growth for entering into
precedent agreements with PennEast to source gas
from the Marcellus region. 49 In this regard, the that
the Commission will evaluate the proposals in those
proceedings in accordance with the criteria
established in our Certificate Policy Statement.
project shippers stated that the project will provide a
reliable, flexible, and diverse supply of natural gas
that will lead to increased price stability, and the
opportunity to expand natural gas service in the
future. 50 Based on the record, we find no reason to
second guess the business decisions of these shippers
given the substantial financial commitment required
under executed contracts. 51
22. On rehearing, the Conservation Foundation
asserts that there is no shortage of pipeline capacity
to meet current or projected regional demand, and
that therefore the PennEast project will result in
49

Certificate Order, 162 FERC ¶ 61,053 at P 30.

50

Id.

See Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277, at P 201
(2002). See also, Midwestern Gas Transmission Co., 116 FERC
¶ 61,182, at P 42 (2006); Southern Natural Gas Co., 76 FERC
¶ 61,122, at 61,635 (1996), order issuing certificate and denying
reh’g, 79 FERC ¶ 61,280 (1997), order amending certificate and
denying stay and reh’g, 85 FERC ¶ 61,134 (1998), aff’d Midcoast
Interstate Transmission, Inc. v. FERC, 198 F.3d 960 (D.C. Cir.
2000).
51

JA 231
overbuilding. 52 Rate Counsel claims that the
Certificate Order ignored evidence that in recent years
LDC’s, including project shipper Public Service
Electric & Gas Company, have turned back capacity. 53
We affirm our finding in the Certificate Order that
there is not sufficient available capacity on existing
pipeline systems to transport all of the volumes
contemplated to be transported by the PennEast
Project to the range of delivery points proposed by
PennEast, and that the expansion of existing pipeline
systems was not a feasible alternative. 54 Further, the
report central to Conservation Foundation’s
argument, the “Skipping Stone Winter 2017-2018
Report” was released on February 11, 2018, nearly a
month after the Certificate Order was issued, and
therefore constitutes new evidence. It is improper to
introduce new evidence at the rehearing stage. 55
23. Moreover, Rate Counsel makes no showing that
turn-back capacity on existing pipelines is sufficient
for transporting the required volumes of natural gas
52

Conservation Foundation’s Request for Rehearing at 36.

53

Rate Counsel’s Request for Rehearing at 10.

54

Certificate Order, 162 FERC ¶ 61,053 at P 31.

Northeast Utilities Serv. Co., 136 FERC ¶ 61,123, at P 9 (2011)
(“We will deny rehearing. CRS’ attempt to introduce new
evidence and new claims at the rehearing stage is procedurally
improper”); Commonwealth Edison Co., 127 FERC ¶ 61,301, at P
14 (2011) (“We reject as untimely the new affidavit which ConEd
includes in its request for rehearing. Parties are not permitted to
introduce new evidence for the first time on rehearing.”); New
York Indep. Sys. Operator, 112 FERC ¶ 61,283, at P 35 n.20
(2005) (“parties are not permitted to raise new evidence on
rehearing. To allow such evidence would allow impermissible
moving targets”).
55

JA 232
proposed by the PennEast, nor that this capacity
would service all the required receipt and delivery
points. Further, as stated in the Certificate Order “no
pipelines or their customers have filed adverse
comments regarding PennEast’s proposal.” 56 Those
with interests the Rate Counsel purports to represent,
i.e., pipelines that might compete with the PennEast
Project, have not protested.
2.

Balancing
Project
Need
Environmental Impacts

with

24. Conservation Foundation asserts that the
Commission violated the NGA 57 by balancing the
environmental impacts of the PennEast Project with
its economic benefits, on the basis of its flawed,
incomplete environmental review. 58 Conservation
Foundation contends that due to incomplete surveys
of environmental resources, as well as the
Commission’s insistence that it does not need to
consider certain types of environmental impacts, the
Commission did not have sufficient information to
assess the full breadth of the impacts of the PennEast
Project, therefore rendering the Commission unable to
perform a proper balancing of the project’s benefits
and impacts. 59

56

Id. at P 37.

57

15 U.S.C. § 717f (2012).

58

Conservation Foundation’s Request for Rehearing at 51-54.

59

Id.

JA 233
25. Consistent
with
the
Certificate
Policy
60
Statement, the need for and benefits derived from
the PennEast Project must be balanced against the
adverse impacts on landowners. The Commission
must, and did, balance the concerns of all interested
parties and did not give undue weight to the interests
of any particular party. 61 The Commission found that
PennEast incorporated 70 of 101 requested route
variations into its proposal in order to reduce any
adverse impacts on landowners and communities, and
held over 200 meetings with public officials, and 15
“informational sessions” with impacted landowners in
order to better assess local concerns. 62 Additionally,
approximately 37 percent of the pipeline route will be
collocated alongside existing rights-of-way. Thus,
although we are mindful that PennEast has been
unable to reach easement agreements with a number
of landowners, we find that PennEast has generally
taken sufficient steps to minimize adverse impacts on
landowners and surrounding communities.
26. Regarding petitioners’ assertions that the
Commission balanced the project’s benefits against
“flawed and incomplete” findings of the project’s
adverse environmental effects, such as impacting New
Jersey
and
Pennsylvania
water
resources,
63
communities, and historic landmarks, these issues
Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,744. See
also National Fuel Gas Supply Corp., 139 FERC ¶ 61,037, at P
12 (2012) (National Fuel).
60

61

Certificate Order, 162 FERC ¶ 61,053 at P 39.

62

Id.

63 See Hopewell’s Request for Rehearing 19-20; Conservation
Foundation’s Request for Rehearing at 52.

JA 234
are addressed below in our Environmental section.
The Certificate Policy Statement’s balancing of
adverse impacts and public benefits is an economic,
not environmental analysis. 64 Only when the benefits
outweigh the adverse effects on the economic interests
will the Commission proceed to complete the
environmental analysis where other interests are
considered. However, we do ensure avoidance of
unnecessary environmental impacts by including a
certificate condition providing that authorization for
the commencement of construction would not be
granted until PennEast has successfully executed
contracts for volumes and service terms equivalent to
those in their precedent agreements. 65
27. Based on the foregoing, we affirm the Certificate
Order’s conclusion that public need was demonstrated
for the PennEast Project.
B. Eminent Domain
28. Several parties assert that the Commission
violated the NGA and the Fifth Amendment by
conferring eminent domain authority on PennEast.
Petitioners allege that the Certificate Order failed to
perform a “public use” determination, and instead
cited precedent agreements as evidence of the public
benefits of the project, which are not “substantial
evidence” of the public benefits of the project. 66
Petitioners further contend that due to the
“questionable benefits” of the project, the Commission
64

National Fuel, 139 FERC ¶ 61,037 at P 12.

65

Certificate Order, 162 FERC ¶ 61,053 at ordering para. (E).

See HALT’s Request for Rehearing at 11, 15; Delaware
Riverkeeper’s Request for Rehearing at 23.

66

JA 235
could not have determined that its benefits outweigh
the adverse impacts on the public caused by
widespread use of eminent domain, and that the
Commission otherwise failed to consider the scale of
eminent domain being employed. 67 HALT asserts that
the Commission, in issuing PennEast a certificate of
public convenience and necessity without waiting for
other agencies to deny or issue PennEast other
necessary permits, is “illegally preempting the
authority of these agencies.” 68 HALT further contends
that the Commission’s practice of issuing conditional
certificates conferring eminent domain, which depend
on additional federal and state authorizations before
being constructed, violates the Due Process and
Takings clauses of the Fifth Amendment as it enables
PennEast to obtain land via eminent domain, even
though PennEast has yet to satisfy certain conditions
that could stop the project from being constructed. In
addition, NJDEP asserts that it is “premature” to
grant PennEast eminent domain authority as the final
route is likely to change, and requests that the
Commission limit PennEast’s eminent domain
authority to land necessary for PennEast to finish
necessary surveys. 69
29. We affirm that having determined that the
PennEast Project is in the public convenience and
necessity, we are not required to make a separate
finding that the project serves a “public use” to allow
See Delaware Riverkeeper’s Request for Rehearing at 25;
Michael Spille’s Request for Rehearing at 14-15.

67

68

See HALT’s Request for Rehearing at 6.

69

See NJDEP’s Request for Rehearing at 59.

JA 236
the certificate holder to exercise eminent domain. 70 A
lawful taking under the Fifth Amendment requires
that the taking must serve a “public purpose.” 71 The
U.S. Supreme Court has broadly defined this concept,
“reflecting [the court’s] longstanding policy of
deference to the legislative judgments in this field.” 72
Here, Congress articulated in the NGA its position
that “transporting and selling natural gas for ultimate
distribution to the public is affected with a public
interest, and that Federal regulation in matters
relating to the transportation of natural gas and the
sale thereof in interstate and foreign commerce is
necessary in the public interest.” 73 Congress did not
suggest that there was a further test, beyond the
Commission’s determination under NGA section
7(c)(e), 74 that a proposed pipeline was required by the
public convenience and necessity, such that certain
certificated pipelines furthered a public use, and thus
were entitled to use eminent domain, although others
did not. The power of eminent domain conferred by
NGA section 7(h) is a necessary part of the statutory
scheme to regulate the transportation and sale of
natural gas in interstate commerce. 75
Certificate Order, 162 FERC ¶ 61,053 at PP 36, 42. See Atlantic
Coast Pipeline, LLC, 161 FERC ¶ 61,042, at P 79 (2017).

70

Kelo v. City of New London, 545 U.S. 469, at 479-480 (upholding
a state statute that authorized the use of eminent domain to
promote economic development).

71

72

Id. at 480.

73

15 U.S.C. § 717(a) (2012).

74

Id. § 717f(e).

See Thatcher v. Tennessee Gas Transmission Co., 180 F.2d 644,
647 (5th Cir. 1950), cert. denied, 340 U.S. 829 (1950); Williams v.

75

JA 237
30. The Commission has interpreted the section 7(e)
public convenience and necessity determination as
requiring the Commission to weigh the public benefit
of the proposed project against the project’s adverse
effects. 76 Our ultimate conclusion that the public
interest is served by the construction of the proposed
project reflects our findings that the benefits of a
project will outweigh its adverse effects. Under section
7(h) of the NGA, once a natural gas company obtains
a certificate of public convenience and necessity it may
exercise the right of eminent domain in a U.S. District
Court or a state court, regardless of the status of other
authorizations for the project. 77 Therefore, after
issuing PennEast its certificate of public convenience
and necessity, the Commission lacks the authority to
limit its exercise of eminent domain.
Transcontinental Gas Pipe Line Corp., 89 F. Supp. 485, 487-88
(W.D.S.C. 1950).
As the agency that administers the NGA, and in particular as
the agency with expertise in addressing the public convenience
and necessity standard in the Act, the Commission's
interpretation and implementation of that standard is accorded
deference. See Chevron, USA, Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 842-843 (1984); Del. Riverkeeper Network v. FERC,
857 F.3d 388, 392 (D.C. Cir. 2017); Office of Consumers Counsel
v. FERC, 655 F.2d 1132, 1141 (D.C. Cir. 1980); Total Gas & Power
N. Am., Inc. v. FERC, No. 4:16-1250, 2016 WL 3855865, at 21
(S.D. Tex. July 15, 2016), aff'd, 859 F.3d 325 (5th Cir. 2017); see
also MetroPCS Cal., LLC v. FCC, 644 F.3d 410, 412 (D.C. Cir.
2011) (under Chevron, the Court “giv[es] effect to clear statutory
text and defer[s] to an agency's reasonable interpretation of any
ambiguity”).
76

77 15 U.S.C. § 717f(h); see also at § 717n(a)-(c) (addressing process
coordination for other federal permits or authorizations required
for projects authorized under NGA section 7).

JA 238
31. We further find that petitioners have failed to
show that the Commission’s decision to issue a
conditional certificate violates due process, or the
takings clause of the Fifth Amendment. The
Commission has fully addressed the Fifth Amendment
issues raised in other proceedings. 78 In addition,
although PennEast, as a certificate holder under
section 7(h) of the NGA, 79 can commence eminent
domain proceedings in a court action if it cannot
acquire the property rights by negotiation, PennEast
will not be allowed to construct any facilities on
subject property unless and until there is a favorable
outcome on all outstanding requests for necessary
federal and state approvals. Because PennEast may
go so far as to survey and designate the bounds of an
easement but no further, e.g., it cannot cut vegetation
or disturb ground pending receipt of any federal
approvals, any impacts on landowners will be
minimized. Further, PennEast will be required to
compensate landowners for any property rights it
acquires.
32. We dismiss NJDEP’s argument that the use of
eminent domain is premature because the current
route may be modified. Environmental Condition No.
Transcontinental Gas Pipe Line Co., LLC, 161 FERC ¶ 61,250,
at PP 30-35 (2017); Atlantic Coast Pipeline, LLC, 161 FERC
¶ 61,042 at PP 76-81; Mountain Valley Pipeline, 161 FERC
¶ 61,043 at PP 58-63. See Delaware Riverkeeper Network v.
FERC, No. 17-5084 (D.C. Cir. July 10, 2018) (rejecting Fifth
Amendment Due Process challenge to (1) statutory scheme for
Commission recovery of expenses from the regulated industry;
and (2) Commission use of tolling orders to satisfy deadlines for
acting on requests for rehearing).
78

79

Id. § 717f(h) (2012).

JA 239
4 requires that PennEast’s exercise of eminent domain
authority be consistent with the facilities and
locations authorized in this proceeding. Although
Environmental Condition No. 5 allows PennEast to
request route realignments, such must be in writing,
contain documentation of landowner approval, and
must be approved by the Director of the Office of
Energy Projects.
33. We also dismiss NJDEP’s request to limit
PennEast’s use of eminent domain to land necessary
for the completion of environmental assessments.
Under NGA section 7, Congress gave the Commission
the authority to determine if the construction and
operation of the proposed project is in the public
convenience and necessity. In the Certificate Order,
the Commission found that the public convenience and
necessity requires approval of PennEast’s proposal. 80
Once the Commission has authorized pipeline
construction, NGA section 7(h) authorizes a certificate
holder to acquire the necessary land or property by
exercising the right of eminent domain if it cannot
acquire the easement by an agreement with the
landowner. 81 The Commission does not have the
authority to limit a pipeline company’s use of eminent
domain once the company has received its certificate
of public convenience and necessity. Issues related to
the acquisition of property rights by a pipeline under
the eminent domain provisions of section 7(h) of the

80

Certificate Order, 162 FERC ¶ 61,053 at P 40.

81

15 U.S.C. § 717f(h) (2012).

JA 240
NGA are matters for the applicable state or federal
court. 82
C. Rates
1.

Return on Equity

34. As part of a NGA section 7 proceeding, the
Commission reviews initial rates for service using
proposed new pipeline capacity under the public
convenience and necessity standard. 83 Unlike NGA
sections 4 and 5, NGA section 7 does not require the
Commission to make a determination that an
applicant’s proposed initial rates are or will be just
and reasonable before the Commission certificates
new facilities, expansion capacity, and/or services. 84
Recognizing that full evidentiary rate proceedings can
take a significant amount of time, Congress gave the
Commission discretion in section 7 certificate
proceedings to approve initial rates that will “hold the
line” and “ensure that the consuming public may be
protected” while awaiting adjudication of just and
reasonable rates under the more time-consuming
ratemaking sections of the NGA. 85 The Certificate
Order applied the Commission’s established policy,
which balances both the consumer and investor
interests, in establishing PennEast’s initial rates.
Transco, 161 FERC ¶ 61,250, at P 35 (citing Rover Pipeline
LLC, 158 FERC ¶ 61,109 at PP 68, 70 (2017) (explaining that
“[t]he Commission does not oversee the acquisition of property
rights through eminent domain proceedings [.])).
82

83

See Certificate Order, 162 FERC ¶ 61,053 at P 63.

84 See Atl. Refining Co. v. Pub. Serv. Comm’n of New York, 360
U.S. 378, 390 (1959) (CATCO).
85

See id. at 392.

JA 241
Specifically, the Commission approved PennEast’s
proposed 14 percent return on equity (ROE) but
required that PennEast design its cost-based rates on
a capital structure that includes no more than 50
percent equity, rather than 60 percent equity proposed
by PennEast. 86
35. Rate Counsel argues that the Commission’s
approval of PennEast’s requested 14 percent ROE is
arbitrary and capricious, as the Certificate Order does
not perform a discounted cash flow (DCF) analysis, or
any other type of analysis to establish an appropriate
ROE. 87 Rate Counsel takes issue with the
Commission’s policy of “awarding” new pipelines a 14
percent ROE due to the risk they face, asserting that
the Commission should have quantified, or otherwise
explained PennEast’s risk before doing so. 88
36. We disagree. The Certificate Order approved
PennEast’s proposed 14 percent ROE, but required
the pipeline to design its cost-based rates using a
capital structure that includes at least 50 percent
debt, 89 consistent with Commission policy. 90 This
86

Certificate Order, 162 FERC ¶ 61,053 at P 58.

87

See Rate Counsel’s Request for Rehearing at 16.

88

Id. at 17-18.

Certificate Order, 162 FERC ¶ 61,053 at PP 58-63. Imputing a
capitalization with more than 50 percent equity “is more costly to
ratepayers, because equity financing is typically more costly than
debt financing and the interest incurred on debt is tax
deductible.” See MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165,
at P 17 (2008).
89

90 See, e.g., Florida Southeast Connection, LLC, 154 FERC
¶ 61,080, reh’g denied, 156 FERC ¶ 61,160 (2016), aff’d in
relevant part sub nom, Sierra Club v. FERC, 867 F.3d 1357 (D.C.

JA 242
requirement reduces the overall maximum recourse
rate, which acts as a cap on a pipeline’s rate of
return. 91 The Certificate Order explained that the
Commission’s policy of accepting a 14 percent ROE in
these circumstances reflects the increased business
risks that new pipeline companies like PennEast
face. 92 Because new entrants building greenfield
natural gas pipelines do not have an existing revenue
base, they face greater risks constructing a new
pipeline system and servicing new routes than
established pipeline companies do when adding
incremental capacity to their systems. 93 This is the
reason why Commission policy requires existing
pipelines that provide incremental services through
an expansion to use the ROE underlying their existing
system rates and last approved in a section 4 rate case
proceeding when designing the incremental rates.
This tends to yield a return lower than 14 percent,
reflecting the lower risk existing pipelines face when
building incremental capacity. 94
Cir. 2017) (finding that the Commission “adequately explained
its decision to allow Sabal Trail to employ a hypothetical capital
structure” of 50 percent debt and 50 percent equity).
The maximum recourse rate is the maximum rate the pipeline
is allowed to charge for transportation service.
91

Certificate Order, 162 FERC ¶ 61,053 at P 59 (explaining that
approving PennEast’s requested 14 percent was “…not merely
‘reflexive;’ [but] in response to the risk PennEast faces as a new
market entrant, constructing a greenfield pipeline system.”).
92

93 Id. P 59, n.79 (citing Rate Regulation of Certain Nat. Gas
Storage Facilities, 115 FERC ¶ 61,343, at P 127 (2006)).

See, e.g., Gas Transmission Northwest, LLC, 142 FERC
¶ 61,186, at P 18 (2013) (requiring use of 12.2 percent ROE from
recent settlement, not the proposed 13.0 percent).

94

JA 243
37. Rate Counsel cites to NGA section 4 rate
proceedings as evidence of the “detailed analysis of
capital markets that can be applied to rate review”
and takes issue with the Commission’s failure to do so
in the Certificate Order. 95 Rate Counsel further
asserts that the Commission’s failure to perform a
DCF analysis demonstrating that the 14 percent ROE
is “just and reasonable renders the Commission’s
decision arbitrary and capricious.” 96 As we explained
in the Certificate Order, an initial rate is based on
estimates until we can review Penn East’s cost and
revenue study at the end of its first three years of
actual operation. 97 Conducting a more rigorous DCF
analysis in an individual certificate proceeding when
other elements of the pipeline’s cost of service are
based on estimates would not be the most effective or
efficient way to determine an appropriate ROE.
Although parties have the opportunity in section 4
rate proceedings to file and examine testimony with
regard to the composition of the proxy group to use in
the DCF analysis, the growth rates used in the
analysis, and the pipeline’s position within the zone of
reasonableness with regard to risk, it would be
difficult, if not impossible, to complete this type of
analysis in section 7 certificate proceedings in a timely
manner, and attempting to do so would unnecessarily
delay proposed projects with time sensitive in-service
schedules. 98 The Commission’s current policy of
95

See Rate Counsel’s Request for Rehearing at 14.

96

Id. at 16.

97

Certificate Order, 162 FERC ¶ 61,053 at P 98.

See Transcontinental Gas Pipe Line Co., LLC, 158 FERC
¶ 61,125, at P 39 (2017).

98

JA 244
calculating incremental rates for new pipelines using
equity returns of up to 14 percent, as long as the equity
component of the capitalization is no more than 50
percent, is an appropriate exercise of its discretion to
approve initial rates under the “public interest”
standard of section 7. As conditioned herein, the
approved initial rates will “hold the line” and “ensure
that the consuming public may be protected” until just
and reasonable rates are adjudicated under section 4
or 5 of the NGA. 99 Here, that opportunity for review is
required no later than three years after the in-service
date for PennEast’s facilities. 100
2.

Cost of Debt

38. Rate Counsel similarly argues that the
Commission’s approval of a 6 percent cost of debt for
PennEast’s initial rates was arbitrary and capricious,
as there is an “absence of supporting rationale” for the
decision. 101 Rate Counsel asserts that the Certificate
Order did not include any analysis demonstrating why
a 6 percent cost of debt is appropriate. Rate Counsel
states that the Certificate Order should have looked at
“financial backing, state of capital markets, or any
other material factor” in supporting a 6 percent cost of
debt. Rate Counsel states that the as of October, 2017,
Moody’s Baa utility yield was 4.26 percent and the
junk bond yield 5.49 percent in January 2016, and
declined to 4.16 percent by July 2016.
39. As discussed above and in the Certificate Order,
initial rates are meant to “hold the line” and protect
99

CATCO 360 U.S. at 392.

100

Certificate Order, 162 FERC ¶ 61,053 at P 72.

101

Rate Counsel’s Request for Rehearing at 19.

JA 245
the consuming public until just and reasonable rates
can be determined through a more rigorous process
pursuant to the ratemaking sections of the NGA. 102
Therefore, the Commission approved PennEast’s
requested initial debt cost after determining that it
was within a range of previously approved, reasonable
cost of debt percentages for greenfield pipeline
projects. We also disagree with Rate Counsel’s
assertion that a 6 percent cost of debt is out of line
with capital markets. Moody’s Baa utility yield for
2015, the year Penn East filed its application, was 5.06
percent and for 2016 was 4.68 percent. Providing a 6
percent debt cost reasonably reflects the higher
business risks faced by a new entrant constructing a
greenfield pipeline, as well as the fact that utilities are
less risky than interstate pipeline companies. 103
Moreover, when PennEast files its three-year cost and
revenue study, the Commission will have the
information necessary to determine whether or not
PennEast’s initial rates, including its cost of debt, are
just and reasonable. 104
D. Environmental
1.

Final EIS Deficiencies

40. Numerous parties allege that the Commission
relied on incomplete and/or inaccurate information
102

See supra P 34; Certificate Order, 162 FERC ¶ 61,053 at P 63.

The Commission has previously concluded that local
distribution companies are less risky than a pipeline company.
See, e.g. Trailblazer Pipeline Co., 106 FERC ¶ 63,005, at P 94
(2004) (rejecting inclusion of local distribution companies in a
proxy group because they face less risk than a pipeline
company.).
103

104

Certificate Order, 162 FERC ¶ 61,053 at P 72.

JA 246
when assessing the environmental impacts of the
PennEast Project and thus the Final EIS fails to
comply with the requirements of NEPA. 105
41. Specifically, NJDEP and Hopewell argue that the
Final EIS did not contain sufficient information to
evaluate environmental impacts for 65 percent of the
project’s route in New Jersey. 106 By relying on survey
data for only 35 percent of the project route in New
Jersey, the parties claim that the Commission did not
have sufficient information to take the “hard look”
required by NEPA. Specifically, petitioners assert that
surveys are incomplete for several resources
including, water wells, wetlands, protected species,
cultural resources, and vernal pools. 107 Further,
NJDEP and Hopewell claim that the Commission
failed to follow NEPA regulations requiring agencies
to identify incomplete or unavailable information. 108
42. In addition, a number of parties argue that the
environmental conditions in the Final EIS and
Certificate Order require information that should
have been received and analyzed prior to certificate

See, e.g., Conservation Foundation’s Request for Rehearing at
64-84; Hopewell’s Request for Rehearing at 25-38; Delaware
Riverkeeper’s Request for Rehearing at 164-188.
105

NJDEP’s Request for Rehearing at 18; Hopewell’s Request for
Rehearing at 30.
106

107 NJDEP’s Request for Rehearing at 21-24; Hopewell’s Request
for Rehearing at 29; Conservation Foundation’s Request for
Rehearing at 78-79.
108 NJDEP’s Request for Rehearing at 27; Hopewell’s Request for
Rehearing at 27-28.

JA 247
issuance. 109 Conservation Foundation argues that the
Final EIS violated NEPA because it is based on
incomplete information, evidenced by the Certificate
Order’s adoption of numerous environmental
conditions requiring the completion of surveys and
finalized mitigation plans. Several petitioners also
claim that the Commission must prepare a
supplemental EIS.
43. We disagree that the Final EIS for the PennEast
Project was based on inadequate information. As we
explained in the Certificate Order, 110 although the
Commission needs to consider and study
environmental issues before approving a project, it
does not require all environmental concerns to be
definitively resolved before a project’s approval is
issued. NEPA does not require every study or aspect
of an analysis to be completed before an agency can
issue a Final EIS, and the courts have held that
agencies do not need perfect information before it
takes any action. 111
44. The Certificate Order specifically recognized the
existence of incomplete surveys, primarily due to lack

See, e.g., Conservation Foundation’s Request for Rehearing at
83-84.
109

110

Certificate Order, 162 FERC ¶ 61,053 at P 101.

U.S. Dep’t of the Interior v. FERC, 952 F.2d 538, 546 (D.C. Cir.
1992); State of Alaska v. Andrus, 580 F.2d 465, 473 (D.C. Cir.
1978), vacated in part sub nom. W. Oil & Gas Ass’n v. Alaska, 439
U.S. 922, 99 S. Ct. 303, 58 L. Ed. 2d 315 (1978) (“NEPA cannot
be ‘read as a requirement that complete information concerning
the environmental impact of a project must be obtained before
action may be taken’”).

111

JA 248
of access to landowner property. 112 However, the
Certificate Order explains that the conclusions in the
Final EIS, affirmed by the Certificate Order, were
based on sufficient information contained in the
record, including PennEast’s application and
supplements, as well as information developed
through Commission staff’s data requests, field
investigations, the scoping process, literature
research, alternatives analysis, and contacts with
federal, state, and local agencies, as well as with
individual members of the public, to support our
findings.
45. Moreover, where access to property has been
denied, the Final EIS is not the end of our review of
the project. As discussed below, recognizing that there
are necessary field surveys that are outstanding on
sections of the proposed route where survey access
was denied, the Certificate Order imposed several
environmental conditions that require the filing of
additional environmental information for review and
approval once survey access is obtained. The
additional information ensures that the Final EIS’s
analyses and conclusions are based on the best
available data, and that PennEast and Commission
staff will be better positioned to finalize mitigation
plans, address stakeholder concerns, and evaluate
Certificate Order, 162 FERC ¶ 61,053 at PP 98-99. We note
that where, as here, landowners deny an applicant access to
survey sites, any argument challenging the sufficiency of the
Final EIS as incomplete can, taken to its logical conclusion,
preclude the Commission from certificating natural gas
infrastructure projects, and therefore allow protesting
landowners to exercise veto power over such projects.
112

JA 249
compliance during construction. 113 As the Certificate
Order emphasized, compliance with environmental
conditions appended to our orders is integral to
ensuring the environmental impacts of approved
projects are consistent with those anticipated by our
environmental analyses. 114 Commission staff carefully
reviews all information submitted in response to the
environmental conditions adopted in the Certificate
Order. Only when satisfied that the applicant has
complied with all applicable conditions will a notice to
proceed with the activity to which the conditions are
relevant be issued.
46. Contrary to petitioners’ claim, our environmental
conditions that require PennEast to file mitigation
plans and additional survey information do not violate
NEPA. For each relevant resource area, the Final EIS
identified where and why information was incomplete,
what methods were used to best analyze the resource
impacts given the incomplete information, and any
additional measures to mitigate any potential adverse
environmental impacts on the resource. For example,
the Final EIS and Certificate Order explain that,
where survey access was unavailable, wetlands
crossed by the project were identified using sitespecific field delineation results, and estimation of
wetland boundaries using FWS National Wetlands
Inventory (NWI) mapping in Pennsylvania, and
NJDEP wetland mapping for Hunterdon and Mercer

113

Id. at P 99.

114

Certificate Order, 162 FERC ¶ 61,053 at P 216.

JA 250
counties. 115 Specifically, the Final EIS noted that
PennEast used remote-sensing resources to
approximate the locations and boundaries of wetlands
within the project area using a combination of: highresolution aerial photographic imagery; NWI data;
National Hydrography Dataset data; hydric soil data
maintained by the National Resources Conservation
Service; and floodplain and flood elevations
maintained by the Federal Emergency Management
Agency, and field survey results on adjacent land
parcels. 116 The Final EIS recommended, as adopted by
the Commission, that no construction will be allowed
to commence until PennEast submits outstanding
survey information, and affirms that it has received
all applicable authorizations required under federal
law. 117
47. Similarly, the Final EIS discussed geotechnical
investigations needed to understand if the existing
conditions would be suitable to use the horizontal
direction drill (HDD) method and to help design each
HDD crossing. As discussed in the Final EIS and
Certificate Order, PennEast completed desktop
analyses of geological conditions at each of the
proposed HDD crossings; although the majority of the
HDD crossings had some geotechnical work
performed, and staff reviewed this data along with
PennEast’s
HDD
Inadvertent
Returns
and
Contingency Plan, and HDD profiles. The Final EIS
115 Final EIS at 4-76; Certificate Order, 162 FERC ¶ 61,053 at P
129.
116

Id.

117

Id.

JA 251
noted that the geotechnical evaluation was incomplete
primarily because of lack of permission to access the
right-of way to install borings. 118 Accordingly, the
Final EIS recommended, as adopted by the
Commission, that prior to construction, PennEast file
final plans for each HDD crossing that include results
of all outstanding geophysical and geotechnical field
investigations. 119
48. As another example, as discussed in the Final
EIS, PennEast conducted surveys for potential
impacts on groundwater supplies, including supplies
from private and public wells located along the
pipeline construction workplace in both New Jersey
and Pennsylvania. Although PennEast was unable to
identify the precise locations of all water supply wells,
the Final EIS found that no significant impacts on
groundwater resources are anticipated from the
construction or operation of the project because of the
avoidance and mitigation measures set forth in the
Final EIS. 120 In any event, the Final EIS
recommended, as adopted by the Commission, that
prior to construction, PennEast complete all necessary
surveys to identify water supply wells. 121
49. Finally, we disagree that there was a need to issue
a revised or supplemental EIS. The Council on
Environmental
Quality
(CEQ)
regulations
118

Id. at 4-17.

119 Id.; see also Certificate Order, 162 FERC ¶ 61,053 at PP 120121.
120 Id. at 4-38. PennEast identified two public wells in New
Jersey, and found no public or private wells in Pennsylvania.
121

Id.; see also Certificate Order, 162 FERC ¶ 61,053 at P 123.

JA 252
implementing NEPA require agencies to prepare
supplements to either draft or final environmental
impact statements if: (i) the agency makes substantial
changes to the proposed action that are relevant to
environmental concerns; or (ii) there are significant
new circumstances or information relevant to
environmental concerns and bearing on the proposed
actions or its impact. 122 The Environmental
Conditions requiring site-specific plans, survey
results, and additional mitigation measures are not
designed to allow significant departures from the
project as certificated. Rather, the requirement that
PennEast file additional information once survey
access is obtained will enable Commission staff to
verify that the Final EIS’s analyses and conclusions
are based on the best available data, enabling us to
improve and finalize certain mitigation plans and
ensure stakeholders concerns are addressed, as well
as evaluate compliance during construction. 123
50. The dissent cites LaFlamme in support of its
contention that the Commission did not adequately
consider the environmental effects of the project
before issuing the certificate. 124 The proceeding in
LaFlamme, however, is entirely distinguishable from
the instant proceeding. LaFlamme involved a
proceeding in which Commission issued a license for
an unconstructed hydroelectric project without
preparing an EIS or environmental assessment (EA),
and relied solely on a two-season post-licensing
122

40 C.F.R. § 1502.9(c)(1) (2017).

123

Id., see also Certificate Order, 162 FERC ¶ 61,053 at P 99.

124

LaFlamme v. FERC, 852 F.2d 389 (9th Cir. 1988) (LaFlamme).

JA 253
recreation study to mitigate the project’s effects. 125 By
contrast, here Commission staff prepared an EIS
which fully considered the range of potential impacts
from the construction and operation of the project. 126
The Commission has acknowledged that several
surveys must be completed as a result of landowners
denying access to their property, and stated that
construction of the project will only be allowed to
proceed once these surveys, and additional studies,
have been completed. 127 The 9th Circuit, in upholding
the Commission’s issuance of a license on remand
after preparing an EA in LaFlamme II, held that after
“full consideration of the environmental issues” it is
permissible to “leave open the possibility” of potential
modifications to a Commission authorization based on
the results of post-issuance studies. 128 As the
Commission
has
stated
previously,
“perfect
information” need not be obtained before an action
may be taken; 129 rather, as the 9th Circuit stated in
Yakima, prior to issuing an authorization, the
Commission “must study the effect of a project…and
consider possible mitigative measures.” 130 This is
precisely what has been done here.

125

Id. at 399-400.

126

Supra P 44.

See Certificate Order, 162 FERC ¶ 61,053 at PP 98-101, supra
PP 45-46.
127

128

LaFlamme v. FERC, 945 F.2d 1124, 1130 (9th Cir. 1991).

129 See PP&L Montana, LLC, 97 FERC ¶ 61,060 at p. 61,323
(2001); see also Certificate Order, 162 FERC ¶ 61,053 at P 101.
130 Confederated Tribes and Bands of Yakima Indian Nation v.
FERC, 746 F.2d 466, 471 (9th Cir. 1984).

JA 254
51. In summary, our review of Penn East’s
application under the requirements of the NGA and
NEPA, discusses and identifies the NEPA issues
requiring further study treatment and requires their
completion and review prior to commencement of
construction. The extensive record on environmental
issues provided sufficient information regarding the
proposed action to be able to fashion adequate
mitigation measures to conclude that although the
project will result in some adverse environmental
impacts, these impacts will be reduced to less than
significant levels with the implementation of
PennEast’s proposed impact avoidance, minimization,
and mitigation measures, together with the
environmental conditions adopted in the Certificate
Order.
2.

Conditional Certificates

52. Several parties contend that the Commission’s
issuance of a conditional certificate for the PennEast
Project violates federal statutes including the NGA,
Clean Water Act (CWA), National Historic
Preservation Act (NHPA), and Delaware River Basin
Compact by authorizing project construction before
PennEast has acquired other, necessary federal
authorizations.
a.

Clean Water Act

53. Section 401(a)(1) of the CWA provides that an
applicant for a federal license to conduct an activity
that “may result in any discharge into navigable
waters” must obtain a water quality certification and,
further, that “[n]o license or permit shall be granted
until the certification required by the section has been

JA 255
obtained or has been waiver . . . .” 131 The
Pennsylvania
Department
of
Environmental
Protection (PADEP) and the NJDEP are the state
regulatory authorities that have delegated authority
under the CWA. PADEP issued a water quality
certification on February 7, 2017, for the portion of the
project located in Pennsylvania. NJDEP to date has
not issued a water quality certification for the portion
of the project located in New Jersey.
54. Although we have found that the PennEast
Project is consistent with the public interest under the
NGA, we recognize that the project cannot proceed
until it receives all other necessary federal
authorizations. As the parties have noted here, these
include relevant authorizations under the CWA.
Accordingly, as permitted by NGA section 7(e), 132132
the Commission subjected its authorization of the
PennEast Project to conditions that must be satisfied
before commencing construction or operation of the
project. 133 Among these conditions is the requirement
that PennEast receive the necessary state approvals
under this federal statute prior to construction. 134
131

33 U.S.C. § 1341(a)(1) (2012).

Section 7(e) of the NGA grants the Commission the “power to
attach to the issuance of the certificate and to the exercise of
rights granted thereunder such reasonable terms and conditions
as the public convenience and necessity may require.” 15 U.S.C.
§ 717f(e) (2012).
132

East Tennessee Natural Gas Co., 102 FERC ¶ 61,225, at P 23
(2003) (citations omitted), aff’d sub nom., Nat’l Comm. for the
New River, Inc. v. FERC, 373 F.3d 1323 (D.C. Cir. 2004).
133

134 Certificate Order, 162 FERC ¶ 61,053, Appendix A,
Environmental Condition 10. Environmental Condition 10
applies to all federal authorizations, including any necessary

JA 256
55. We disagree with the petitioners’ assertions that
the issuance of our order authorizing the PennEast
Project prior to receipt of the section 401 water quality
certification is impermissible. Although the
Commission issued authorizations under the NGA for
the PennEast Project, states’ rights under the CWA
and other federal statutes are fully protected.
PennEast must receive the necessary state approvals
under these federal statutes prior to construction. Nor
does our authorization in the Certificate Order impact
any substantive determinations that need to be made
by the states under these federal statutes. PADEP and
NJDEP, the state agencies with federally-delegated
section 401 certification authority, retain full
authority to grant or deny the specific requests. 135
Moreover, because construction cannot commence
before all necessary authorizations are obtained, 136
authorizations and/or permits required by the Delaware River
Basin Commission, under the Delaware River Basin Compact.
NJDEP argues that Ordering Paragraph (B)(1) of the
Certificate Order, which conditions the certificate on “PennEast’s
proposed project being constructed and made available for service
within two years of the date of this order . . .” impermissibly
reduces the time state regulatory agencies have to review permit
applications under the CWA. NJDEP’s Request for Rehearing at
39. NJDEP is mistaken. The two year window to construct and
operate the project is a certificate requirement that applies only
to PennEast and does not impact the timing of any permits to be
issued by state regulatory agencies pursuant to federal
authorizations. In any event, we find this argument
unpersuasive as the CWA explicitly contemplates that a
“reasonable period of time” to consider such permits “shall not
exceed one year.” 33 U.S.C. § 1341(a)(1) (2012).
135

See Certificate Order, 162 FERC ¶ 61,053, Appendix A,
Environmental Condition 10. Delaware Riverkeeper claims,
without elaboration, that the Commission “regularly issues letter

136

JA 257
there can be no impact on the environment until there
has been full compliance with all relevant federal
laws.
56. The Commission’s approach appropriately
respects the integration of the various permitting
requirements for interstate pipelines, as reflected in
the NGA and the CWA. As we have stated before, it is
also a practical response to the reality that, in spite of
the best efforts of those involved, it may be impossible
for an applicant to obtain all approvals necessary to
construct and operate a natural gas project in advance
of the Commission’s issuance of its certificate without
unduly delaying the project. 137 To rule otherwise could
place the Commission’s administrative process
indefinitely on hold until states with delegated federal
authority choose to act. Such an approach, which
would preclude companies from engaging in what are
sometimes lengthy pre-construction activities while
awaiting state or federal agency action, would likely
delay the in-service date of natural gas infrastructure
projects to the detriment of consumers and the public
in general. The Commission’s conditional approval
orders to proceed with tree felling construction activity prior to
the issuance of the CWA Section 401 water quality certifications.”
Delaware Riverkeeper’s Request for Rehearing at 157. Delaware
Riverkeeper mischaracterizes the Commission’s post-certificate
compliance process. PennEast is prohibited from commencing
construction, including any tree clearing activities, until
PennEast obtains all authorizations required under federal law
and receives written authorization from the Director of the
Commission’s Office of Energy Projects.
See, e.g., Broadwater Energy LLC, 124 FERC ¶ 61,225, at P 59
(2008); Crown Landing LLC, 117 FERC ¶ 61,209, at P 26 (2006);
Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277 at PP 225-231.

137

JA 258
process complies with the dictates of the CWA, as well
as other federal statutes. 138
57. Hopewell and Conservation Foundation cite to
City of Tacoma, Washington v. FERC 139 for the
proposition that the Commission lacks authority to
issue a license without a CWA section 401
certification. 140 But the court’s general statements
regarding section 401 in City of Tacoma are not
relevant here, where the Commission has issued only
a conditional certificate, a practice that the courts
have found does not violate section 401. 141

See Del. Riverkeeper Network v. FERC, 857 F.3d 388, 397 (D.C.
Cir. 2017) (“Because the Certificate Order expressly conditioned
FERC’s approval of potential discharge activity on Transco first
obtaining the requisite § 401 certification, and was not itself
authorization of any potential discharge activity, the issuance of
the Certificate Order before Pennsylvania’s issuance of its § 401
certificate did not violate § 401 of the [Clean Water Act].”). See
also Pub. Util. Comm’n of the State of Cal. v. FERC, 900 F.2d 269,
282 (D.C. Cir. 1990) (an agency can make “even a final decision
so long as it assessed the environmental data before the decision’s
effective date”); Del. Dept. of Nat. Res. and Envtl. Control v.
FERC, 558 F.3d 575, 578 (2009) (dismissing state’s appeal of
conditional authorization “in light of [the Commission’s]
acknowledgment of Delaware’s power to block the project” under
the CZMA); City of Grapevine, Tex. v. Dept. of Transp., 17 F.3d
1502, 1509 (D.C. Cir. 1994) cert. denied, 513 U.S. 1043 (1994)
(upholding Federal Aviation Administration’s approval of a
runway, conditioned upon the applicant’s compliance with the
NHPA) (City of Grapevine).
138

139

460 F.3d 53 (D.C. Cir. 2006) (City of Tacoma).

140 Hopewell’s Request for Rehearing at 13; Conservation
Foundation’s Request for Rehearing at 57.
141

See supra P 56, n. 137.

JA 259
58. Finally, we disagree with Hopewell that the
Commission’s January 2018 Order “improperly
stifles” states’ rights because it provides that “any
state or local permits issued with respect to the project
must be consistent with the conditions of the
certificate.” 142 The CWA section 401 certification is a
federal authorization delegated to the state rather
than a “state or local permit.” 143 Thus, Hopewell’s
argument lacks merit.
b.

National Historic Preservation
Act

59. Similarly, Conservation Foundation argues that
the Certificate Order is invalid because it was issued
prior to completing surveys and consultation required
by section 106 of the NHPA. 144 The Commission
previously affirmed that a conditional certificate could
be issued prior to completion of cultural resource
surveys and consultation procedures required under
the NHPA because destructive construction activities
would not commence until surveys and consultation
are complete. 145
As the Certificate Order
142

Hopewell’s Request for Rehearing at 15-16.

See e.g., Islander East Pipeline Co., LLC v. Conn. Dep’t of
Envtl. Prot., 482 F.3d 79, 85 (2d Cir. 2006) (“In conjunction with
the [Commission’s] review of a natural gas project application, it
must ensure that the project complies with the requirements of
all relevant federal laws, including NEPA, 42 U.S.C. §§ 43214370f, the Coastal Zone Management Act (CZMA), 16 U.S.C.
§§ 1451-1465, and the CWA, 33 U.S.C. §§ 1251-1387.”) (emphasis
added).

143

144

Conservation Foundation’s Request for Rehearing at 60-61.

See generally Iroquois Gas Transmission System, L.P., 53
FERC ¶ 61,194, at 61,758-61,764 (1990). See also City of
Grapevine, 17 F.3d 1502, 1509 (D.C. Cir. 1994) (upholding the

145

JA 260
acknowledged, Environmental Conditions 46 through
50 require PennEast to complete project impact
assessments, mitigation plans, and consultation
related to specific historic properties in Pennsylvania
and New Jersey in order to address stakeholder
comments
and
mitigation
requirements. 146
Additionally, to ensure compliance with NHPA section
106, the Certificate Order included Environmental
Condition 51, which prohibits PennEast from
beginning project construction until it files with the
Commission all remaining cultural resources survey
reports; site or resource evaluation reports and
avoidance/treatment
plans;
the
project’s
recommended effects to historic properties in
Pennsylvania and New Jersey; and comments on the
cultural resources reports and plans from the
Pennsylvania and New Jersey SHPOs. 147
c.

Conditional
Authority

Certificate

60. In addition, HALT asserts that the Commission’s
issuance of conditional certificates exceeds the
authority given to it by sections 7 and 15 of the NGA.
HALT cites CATCO 148 and FPC v. Hunt 149 as support
for its assertion that the Commission’s authority to
agency’s conditional approval because it was expressly
conditioned on the completion of section 106 process).
Certificate Order, 162 FERC ¶ 61,053 at P 172; Appendix A,
Environmental Conditions 46-50.
146

147 Certificate Order, 162 FERC ¶ 61,053, Appendix A,
Environmental Condition 51.
148

360 U.S. 378.

149

376 U.S. 515 (1964).

JA 261
place “reasonable terms and conditions” on certificates
of public convenience and necessity is limited to “the
rates and terms of the initial delivery of gas” and does
not extend to conditioning certificates on pending
determinations under different federal and state
agencies. 150 HALT argues that the Commission’s
practice of issuing conditional certificates in this
manner under section 7 exceeds its authority under
section 15 of the NGA to act as the lead agency when
coordinating the NEPA review of a project. 151
61. Despite HALT’s assertions, neither Congress nor
the courts intended to limit the Commission’s
authority to attach conditions to certificates to “the
rates and terms of the initial delivery of gas” 152 Section
7(e) of the NGA states that the Commission has the
authority to attach to a certificate “such reasonable
terms and conditions as the public convenience and
necessity may require.” 153 As the Court in CATCO
noted, rates are not “the only factor bearing on the
public convenience and necessity;” rather, section 7(e)
“requires the Commission to evaluate all factors
bearing on the public interest.” 154 As such, the
Commission considers a wide-range of factors when
evaluating the public convenience and necessity,
including market need, environmental, and
landowner impacts, among others. The conditions
150

HALT’s Request for Rehearing at 7.

Id. at 8 (citing Panhandle Eastern Pipe Line Co., 613 F.2d 1120
(D.C. Cir. 1979) (Panhandle)).

151

152

HALT’s Request for Rehearing at 7.

153

15 U.S.C. § 717f(e) (2012).

154

CATCO, 360 U.S. at 391.

JA 262
attached to the Certificate Order limit PennEast’s
activities where necessary to ensure that the project is
consistent with the public convenience and necessity.
62. HALT argues that because section 15(c) of the
NGA cross-references section 19(d) of the NGA when
discussing the right of an applicant to pursue
remedies against an agency that fails to meet the
Commission’s schedule for federal authorizations, the
Commission’s requirement to keep a consolidated
record of proceedings in section 15(d), without a cross
reference to section 7, indicates that Congress
“obviously expected FERC to wait for other agencies to
act before issuing its certificate.” 155
63. HALT’s assertion is without support, or merit. As
discussed above, neither Congress nor the courts have
placed any such limitation on the Commission’s NGA
section 7(e) conditioning authority. To the contrary,
the Commission’s practice of issuing conditional
certificates has consistently been affirmed by courts as
lawful. 156
155

HALT’s Request for Rehearing at 8.

See Del. Riverkeeper Network v. FERC, 857 F.3d at 399
(upholding Commission’s approval of a natural gas project
conditioned on securing state certification under section 401 of
the CWA); see also Myersville, 783 F.3d at 1320- 1321 (upholding
the Commission’s conditional approval of a natural gas facility
construction project where the Commission conditioned its
approval on the applicant securing a required federal Clean Air
Act air quality permit from the state); Del. Dep’t. of Nat. Res. &
Envtl. Control v. FERC, 558 F.3d 575, 578-579 (D.C. Cir. 2009)
(holding Delaware suffered no concrete injury from the
Commission’s conditional approval of a natural gas terminal
construction despite statutes requiring states’ prior approval
because the Commission conditioned its approval of construction

156

JA 263
3.

Insufficient Public Participation

64. Conservation Foundation alleges that the
Commission violated NEPA’s public participation
requirements. 157 Conservation Foundation and
Delaware Riverkeeper claim that because the Draft
and Final EIS lacked large amounts of data and
survey information, the public and federal and state
resource agencies were not afforded an opportunity to
meaningfully comment or scrutinize the project
proposal. 158 Hopewell states that although the
Certificate Order requires PennEast to resubmit
several reports and plans pursuant to completion of
studies and surveys, no public comment period was
identified. 159 Hopewell asks the Commission to extend
the comment period to allow the public to review and
comment on the final plans, surveys, and mitigation
strategies that PennEast must submit to comply with
the Certificate Order’s environmental conditions. 160 In
order to ensure compliance with state water quality
standards, NJDEP asserts that it needs an
opportunity to review, modify, or reject proposed plans
related to the Geohazard Risk Evaluation Report
(Environmental Condition 15), Karst Mitigation Plan
(Environmental
Condition
16),
Geotechnical
on the states’ prior approval); Pub. Utils. Comm’n. of State of Cal.
v. FERC, 900 F.2d 269, 282 (D.C. Cir. 1990) (holding the
Commission had not violated NEPA by issuing a certificate
conditioned upon the completion of the environmental analysis).
See Conservation Foundation’s Request for Rehearing at 8384 (citing 40 C.F.R. § 6.203; 40 C.F.R. § 1500.1(b)).
157

158

Conservation Foundation’s Request for Rehearing at 83-84.

159

Hopewell’s Request for Rehearing at 49-50.

160

Id. at 50.

JA 264
Evaluation of Mines (Environmental Condition 17),
Final
Design
Plans
for
HDD
Crossings
(Environmental Condition 19), and Final Hydrostatic
Test Plan (Environmental Condition 28) before they
are finalized and filed with the Commission.
65. Contrary to the claims of various petitioners, the
public had sufficient information and time to
meaningfully comment on the PennEast Project.
There were numerous opportunities for the public to
comment on the project’s potential impacts. PennEast
began the pre-filing process to get early stakeholder
involvement more than a year before filing its
application.
Early
opportunities
for
public
involvement included companysponsored open house
meetings, public scoping meetings, and several
comment periods (including an additional comment
period following PennEast’s submittal of route
modifications in response to environmental and
engineering concerns).
66. The fact that many of the permits, approvals,
consultations, and variances required for the
PennEast Project have been or will be filed after the
formal public notice and comment periods does not
mean that the public is excluded from meaningful
participation. The Draft EIS put interested parties on
notice of the types of activities contemplated and of
their impacts. The Draft EIS is a draft of the agency’s
proposed Final EIS and, as such, its purpose is to elicit
suggestions for change. Petitioners have not shown
that any “omissions in the [Draft EIS] left the public
unable to make known its environmental concerns

JA 265
about the project’s impact.” 161 Although the Draft EIS
serves as “a springboard for public comment,” 162 any
information that is filed after the comment period is
accessible to the public in the Commission’s electronic
database, eLibrary.
67. As noted in the Certificate Order, the Final EIS
addressed all substantive comments received prior to
December 31, 2016. 163 Comments filed too late to be
included in the Final EIS or filed after issuance of the
Final EIS were addressed in the Certificate Order to
the extent that they raised substantive concerns.
68. Moreover, as explained above, the environmental
conditions requiring site-specific plans, survey results,
and additional mitigation measures are not designed
to allow significant departures from the project as
certificated. Rather, the requirement that PennEast
file additional information once survey access is
obtained, will enable Commission staff to verify that
the EIS’s analyses and conclusions are based on the
best available data, enabling us to improve and
finalize certain mitigation plans and ensure
stakeholders concerns are addressed, as well as

Sierra Club, Inc. v. U.S. Forest Serv., No. 17-2399, 2018 WL
3595760, at *10 (4th Cir., July 27, 2018) (rejecting petitioners
claim that FERC’s Draft EIS precluded meaningful comment
where the applicant had not yet filed an erosion and sediment
control plan at the time the Draft EIS was published) (citing Nat’l
Comm. for the New River v. FERC, 373 F.3d 1323, 1329 (D.C. Cir.
2004)).
161

See Robertson v. Methow Valley Citizens Council, 490 U.S. 332,
349 (1989).

162

163

Certificate Order, 162 FERC ¶ 61,053 at P 97.

JA 266
evaluate
compliance
during
construction. 164
Accordingly, we find that it would be unnecessary and
inefficient to permit entities to “re-litigate” matters
that were fully addressed in the certificate proceeding.
69. In any event, any reports, plans or mitigation
measures filed in accordance with the cited conditions
are filed in the docket for these proceedings and
available for public review and inspection. To the
extent any of the pending consultations or studies
indicate a need for further review, or indicate a
potential for significant adverse environmental
impacts, the Director of the Office of Energy Projects
will not provide the necessary clearances for
commencement of construction. For these reasons, we
find that a formal comment period to allow the public
to review and comment on any final plans, surveys,
and mitigation strategies is not necessary.
70. We also do not find it is necessary for this
Commission to require PennEast to submit various
plans and reports required in Environmental
Conditions 15, 16, 17, 19 and 28 to the NJDEP for its
review, modification, or rejection. The NJDEP has
independent authority under the Clean Water Act to
require PennEast to submit any information
necessary for that agency to fulfill its responsibilities
under its delegated authority under that statute.
4.

Final EIS Bias Due to Tetra Tech’s
Conflicts of Interest

71. Lower Saucon contends that the Commission’s
use of third-party contractor Tetra Tech to assist in

164

Id. P 99.

JA 267
the environmental review was improper. 165 By
selecting Tetra Tech as the third-party contractor to
assist in the preparation of the Draft and Final EIS,
Lower Saucon argues that the Commission ignored
evidence of bias and conflicts of interest that should
have disqualified Tetra Tech under NEPA regulations
intended to preclude contractor conflicts of interest. 166
Lower Saucon alleges that Tetra Tech has a financial
interest—both as a business and as a member of a
natural gas industry group—in promoting natural gas
pipeline projects in the Marcellus Shale region, calling
into question Tetra Tech’s impartiality. 167 Finally,
Lower Saucon points to a prior allegation of
misconduct as evidence the Commission should have
disqualified Tetra Tech. 168
72. Third-party contracting involves the use of an
independent contractor to assist Commission staff in
its environmental analyses and review of a proposal.
165

Lower Saucon’s Request for Rehearing at 12-24.

166

Id. at 12 (citing 18 C.F.R. § 1506.5 (2017)).

167

Id. at 13-17.

Id. at 17-19 (citing Colorado Wild, Inc. v. U.S. Forest Serv.,
Civil Action No. 06-CV-020829-JLK-DLW (D. Colo. 2007) (citing
“Findings of Facts and Conclusions of Law Regarding Plaintiffs’
Motion to Complete and Supplement the Administrative Record,
and for Leave to Conduct Limited Discovery” finding
administrative record incomplete due to the destruction of a
computer hard drive belonging to a Tetra Tech employee);
Colorado Wild Inc. v. U.S. Forest Serv., 523 F. Supp. 2d 1213
(2007) (granting motion to continue preliminary injunction
preventing Forest Service from implementing an Final EIS and
Record of Decision related to its grant of a special use
authorization to a real estate developer for right-of-ways across
National Forest System lands)).
168

JA 268
Under this voluntary program, the independent
contractor is selected by the Director of the
Commission’s Office of Energy Projects and works
solely under the direction of the Commission staff. The
contractor
is
responsible
for
conducting
environmental analyses and preparing environmental
documentation, and is paid by the project applicant.
The process provides Commission staff with
additional flexibility in satisfying the Commission’s
NEPA responsibilities. 169
73. CEQ’s regulations provide conflict of interest
standards for contractors. Per CEQ regulations:
Contractors shall execute a disclosure
statement prepared by the lead agency,
specifying that they have no financial or other
interest in the outcome of the project. If the
document is prepared by contract, the
responsible Federal official shall furnish
guidance and participate in the preparation
and shall independently evaluate the
statement prior to its approval and take
responsibility for its scope and contents. 170
74. CEQ has issued guidance to aid agencies
attempting to comply with their responsibilities under
NEPA. While stressing the need for maintaining the
appearance of impartiality in the NEPA process, CEQ
cautions against an overly restrictive interpretation of
See generally, FERC Handbook for Using Third-Party
Contractors to Prepare Environmental Documents for Natural
Gas Facilities and Hydropower Projects (August 2016)
(https://www.ferc.gov/industries/hydropower/enviro/tpc/tpchandbook.pdf ).
169

170

40 C.F.R. § 1506.5(c) (2017).

JA 269
the conflict of interest provision. For example, it states
that, “[i]n some instances, multidisciplinary firms are
being
excluded
from
environmental
impact
statements preparation contracts because of links to a
parent company which has design and/or construction
capabilities.” 171 CEQ adds:
Section 1506.5(c) prohibits a person or entity
from entering into a contract with a federal
agency to prepare an [Environmental Impact
Statement (EIS)] when that party has at that
time and during the life of the contract
pecuniary or other interests in the outcome of
the proposal. Thus, a firm which has an
agreement to prepare an EIS for a
construction project cannot, at the same time,
have an agreement to perform the
construction, nor could it be the owner of the
construction site. However, if there are no
such separate interests or arrangements, and
if the contract for EIS preparation does not
contain any incentive clauses or guarantees
of any future work on the project, it is
doubtful that an inherent conflict of interest
will exist. 172
75. In addition to CEQ guidelines, the Commission
has organizational conflict of interest (OCI)
procedures that it uses to identify real and perceived
conflicts of interest associated with its third-party
contractors. Each prospective contractor must disclose
any recent or ongoing work and revenues for an
171

48 Fed. Reg. 34,266 (July 28, 1983).

172

Id.

JA 270
applicant or its affiliates. In general, where only one
percent or less of a contractor’s business (for each of
the current and two preceding calendar years) 173
involves a party that could be affected by the work, the
contractor would not have a disqualifying OCI. 174
76. Lower Saucon’s allegations that Tetra Tech has a
“financial, business, and corporate interest” in
promoting natural gas infrastructure in the Marcellus
Shale region do not demonstrate that Tetra Tech has
an OCI that necessitates an invalidation of the Final
EIS. 175 Lower Saucon points to a Tetra Tech
subsidiary that describes itself as a “pipeline
engineering company” and website descriptions of
previous Tetra Tech design projects for natural gas
pipelines in the Marcellus Shale region. 176 These
generic assertions are not sufficient to cause the
Commission to question Tetra Tech’s impartiality.
Further, in the event that Lower Saucon “had
In August 2016, the Commission revised its Handbook for
Using Third-Party Contractors to Prepare Environmental
Documents for Natural Gas Facilities and Hydropower Projects
to require that the third-party contractor submit financial
information based on the calendar year as opposed to the fiscal
year.
173

The one percent threshold applied by staff is based on wellestablished ethical standards, which recognize that a financial
interest of one percent or less would not typically compromise
impartiality. For example, the Office of Government Ethics
recognizes that an employee may ethically perform work while
maintaining a de minimis financial interest that could well
exceed one percent of his or her total income. See 5 C.F.R.
§ 2640.202 (2017).
174

175

Lower Saucon’s Request for Rehearing at 13-15.

176

Id. at 13.

JA 271
identified an actual conflict of interest, it would afford
a ground for invalidating the [EIS] only if it rose to the
level of ‘compromis[ing] the objectivity and integrity of
the NEPA process.’” 177
77. Nor do we believe that Tetra Tech’s membership
in, or role as a technical consultant to, a trade
organization that promotes the development of
natural gas supplies in the Marcellus Shale region
constitutes a disqualifying OCI. 178 It would be
inappropriate to disqualify Tetra Tech from serving as
a third-party contractor for belonging to a professional
organization. Were this the standard for conflicts of
interest, nearly all third-party contracts would likely
be disqualified for conflicts of interest. Moreover,
Commission staff’s oversight over all environmental
analyses and work product would be more than
sufficient to cure the low likelihood of contractor bias
arising merely from a contractor’s affiliation with a
trade group.
78. Finally, we are not persuaded by Lower Saucon’s
attempts to use a prior allegation of misconduct
involving one Tetra Tech employee to demonstrate
that
impropriety
was
present
during
the
Commission’s environmental review of this project.
The allegation of prior misconduct arose during a legal
challenge of a 2006 environmental document issued by
the U.S. Forest Service and prepared by Tetra Tech,
and has no bearing on the Commission’s oversight and
177 Sierra Club, Inc. v. U.S. Forest Serv., No. 17-2399, 2018 WL
3595760, at *10 (4th Cir., July 27, 2018) (citing Communities
Against Runway Expansion, Inc. v. FAA, 355 F.3d 678, 686 (D.C.
Cir. 2004).
178

Id. at 14-15.

JA 272
responsibility for the work of its third-party
contractors or the environmental review of the
PennEast Project.
79. In sum, we disagree with the contention that the
Commission’s use of Tetra Tech as a third-party
contractor during the environmental review process
“threatens the integrity of the NEPA process.” 179 We
believe that the procedures outlined above ensured
the integrity of the environmental review process in
this case and deny rehearing on this issue. 180
5.

Project Scope and Alternatives

80. Several parties, including Hopewell, Lower
Saucon, and the NJDEP, and Conservation
Foundation allege that the Commission failed to
properly identify or evaluate the project’s purpose and
need, and therefore, failed to evaluate a reasonable
range of alternatives. 181 Hopewell and Conservation
Foundation argue that such a narrow view of the need
for the project resulted in a “completely deficient” 182
alternatives analysis, especially in its consideration of

179

Lower Saucon’s Request for Rehearing at 16-17.

Lower Saucon requests additional information regarding
Tetra Tech’s disclosures on the OCI Disclosure Statement. Lower
Saucon’s Request for Rehearing at 17. As noted above, the
Commission received sufficient information in the OCI review to
determine that there was no disqualifying conflict of interest.
180

See Hopewell’s Request for Rehearing at 33-37; Lower
Saucon’s Request for Rehearing at 34-36; NJDEP’s Request for
Rehearing at 32-37; Conservation Foundation’s Request for
Rehearing at 70-77.

181

182

Hopewell’s Request for Rehearing at 33.

JA 273
the no-action alternative. 183 Hopewell and Lower
Saucon contend that the Final EIS failed to
adequately consider system alternatives including the
location of the interconnection with Transcontinental
Gas Pipeline Company, LLC (Transco), and the
Hellertown Lateral. 184 In addition, NJDEP asserts
that the Final EIS and Certificate Order ignored
suggested route alternatives which would have
avoided several environmental resources, as well as
the need for HDD. 185
a.

Statement of Purpose and Need

81. Several petitioners contend that the Commission
viewed the purpose of the project too narrowly, which
led to an insufficient analysis of the alternatives to the
project. 186 Delaware Riverkeeper states that by
viewing the purpose of the project so narrowly, “all
alternatives are preordained to fail in comparison.” 187
Conservation Foundation asserts that the statement
of purpose and need merely “parrots PennEast’s
stated purposes” resulting in an “improper
formulation of the purpose and need statement” and a
subsequent alternatives analysis that did not
adequately consider the no-action alternative, and
Id. at 34, Conservation Foundation’s Request for Rehearing at
70-76.

183

Hopewell’s Request for Rehearing at 34-37; Lower Saucon’s
Request for Rehearing at 34-36.
184

185

See NJDEP’s Request for Rehearing at 32.

186 Conservation Foundation’s Request for Rehearing at 64-65;
NJCF’s Request for Rehearing at 14; Delaware Riverkeeper’s
Request for Rehearing at 99.
187

Delaware Riverkeeper’s Request for Rehearing at 99.

JA 274
other alternatives including renewable energy. 188
Similarly, Lower Saucon contends that the 2.1-milelong Hellertown Lateral is not needed, as it will
“simply provide an interconnection point with the UGI
distribution system, which is more than adequately
served with existing natural gas supplies and pipeline
systems.” 189 Lower Saucon maintains that without the
lateral “[t]he overall objectives of the project could still
be met, with the only impact being to one shipper who
might fail to gain the advantage of capturing ‘pricing
differentials’ by obtaining transportation of gas via the
lateral.” 190
82. Other petitioners assert that the purpose and
need statement is flawed based on what they deem the
erroneous underlying assumption that the service
region suffers from unserved need for additional
pipeline capacity, and that the Commission “has made
no attempt to question much less scrutinize the
assumption of need underlying PennEast’s stated
project objectives.” 191
83. CEQ regulations state that an EIS must include a
statement to “briefly specify the underlying purpose
and need to which the agency is responding in
proposing the alternatives including the proposed
action.” 192 Thus, the EIS need only describe the
purpose and need of the project to the extent necessary
to inform its alternatives analysis. Courts have upheld
188

Conservation Foundation’s Request for Rehearing at 71-72.

189

Lower Saucon’s Request for Rehearing at 34.

190

Id.

191

Id. at 68-70.

192

40 C.F.R. § 1502.13 (2018).

JA 275
federal agencies’ use of applicants’ project purpose and
need as the basis for evaluating alternatives. 193 When
an agency is asked to consider a specific plan, the
needs and goals of the parties involved in the
application should be taken into account. 194 We
recognize that a project’s purpose and need should not
be so narrowly defined as to preclude consideration of
what may actually be reasonable alternatives. 195
Nonetheless, an agency need only consider
alternatives that will bring about the ends of the
proposed action, and the evaluation is “shaped by the
application at issue and by the function that the
agency plays in the decisional process.” 196
84. Here, the EIS appropriately recited the project’s
objective as stated by the applicant, that being “to
provide about 1.1 million dekatherms per day
(MMDth/d) of year-round natural gas transportation
service from northern Pennsylvania to markets in
New Jersey, eastern and southeastern Pennsylvania,
and surrounding states.” 197

193

See, e.g., City of Grapevine, 17 F.3d 1502, 1506.

Citizens Against Burlington, Inc. v. Busey, 938 F.2d 190, 196
(D.C. Cir. 1991).
194

195

Id. at 196.

196

Id. at 195, 199.

Final EIS at 3-1; PennEast’s Certificate Application at 3. Note
that courts have upheld federal agencies’ use of an applicant’s
stated purpose and need as the basis for evaluating project
alternatives. See, e.g., City of Grapevine, 17 F.3d 1502, 1506-07
(D.C. Cir. 1994). See also Sierra Club, Inc. v. U.S. Forest Serv.,
No. 17-2399 2018 WL 3595760, at *10 (4th Cir., July 27, 2018)
(“[T]he statement [of purpose and need] allows for a wide range
of alternatives but is narrow enough (i.e., it explains where the
197

JA 276
85. This statement of purpose and need mirrors that
for other gas pipeline projects, wherein the proposal is
described as a means to transport a specific volume of
gas from one or more receipt points to one or more
delivery points. 198198 Although this description limits
some types of alternatives considered, it does not
preordain that the project being proposed will be the
sole way to satisfy the specified purpose and need. In
this case, we were able to identify several reasonable
alternative means (summarized below) to satisfy the
stated objective of the PennEast Project. As discussed
in greater detail below, we found none of the
alternatives identified by petitioners would be
technically and economically feasible and/or offer a
significant environmental advantage over PennEast’s
proposed project or any of its segments, or otherwise
meet the project’s purpose and need. 199 We affirm this
finding.
86. We also find no merit in Conservation
Foundation’s argument that what it deemed the
gas must come from, where it will go, how much it would deliver)
that there are not an infinite number of alternatives.”)
Agencies are afforded considerable discretion in defining the
purpose and need of a project. See, e.g., Friends of Southeast's
Future v. Morrison, 153 F.3d 1059, 1066- 1067 (9th Cir. 1998).
198

See City of Alexandria v. Slater, 198 F.3d 862, 867 (D.C. Cir.
1999); 43 C.F.R. § 46.420(b) (2017) (defining “reasonable
alternatives” as those “that are technically and economically
practical or feasible and meet the purpose and need of the
proposed action”). Note that NEPA does not compel the selection
of the most environmentally benign alternative; rather, NEPA is
intended to ensure that the basis for reaching a decision be
informed by an awareness of the environmental impacts of a
proposed action.
199

JA 277
improper formulation of the purpose and need
resulted in an inadequate discussion of the “no action”
alternative, as the purpose and need of a proposed
project does not inform the no action alternative. The
CEQ regulations require the alternatives analysis to
include the “no action alternative.” 200 CEQ advises
that the “no action” alternative in cases, such as here,
involving federal decisions on proposals for projects,
would “mean the proposed activity would not take
place, and the resulting environmental effects from
taking no action would be compared with the effects of
permitting the proposed activity….” 201 Accordingly,
regardless of how the purpose and need is
“formulated,” the no action alternative means the
Commission would not authorize the PennEast
Project. As discussed in the Final EIS, 202 staff found
that the alternative of not authorizing the PennEast
Project would result in no environmental impacts.
87. Moreover, with respect to petitioner’s argument
that the Commission accepted without questioning
the applicant’s assertion that there is a need for the
project, we find that petitioners appear to conflate the
description of the purpose of and need for the project,
required by NEPA, with the Commission’s
determination of “public need” under the public
convenience and necessity standard of section 7(c) of
the NGA. As discussed above, when determining
“public need,” the Commission balances public
200

40 C.F.R. § 1502.14(d) (2017).

201 Council on Environmental Quality, CEQ 40 Most Asked
Questions, at 3 (Mar. 1981) https://www.energy.gov/sites/
prod/files/G-CEQ-40Questions.pdf.
202

Final EIS at 3-3.

JA 278
benefits, including market need, against project
impacts. 203 The Final EIS appropriately explained
that it was not a “decision document,” and that, under
NGA section 7(c), the final determination of the need
for the projects lies with the Commission. 204 Neither
NEPA nor the NGA requires the Commission to make
its determination of whether the project is required by
the public convenience and necessity before its final
order.
88. Although Lower Saucon dismisses UGI Utilities,
Inc.’s need for project capacity that would be provided
via the Hellertown Lateral, the Hellertown Lateral
was designed as part of the PennEast Project, and the
lateral’s delivery points are located specifically in
order to enable Columbia Gas Transmission, LLC and
UGI Utilities, Inc. to connect to the PennEast system.
We find Columbia and UGI’s contracting for capacity
as sufficient evidence of need for the lateral.
b.

Need
and
Alternative

the

No-Action

89. In arguing for the no-action alternative, several
petitioners contend that existing pipeline capacity,
renewable energy resources, and increased efficiency
and conservation measures could eliminate the need
for the project, and urge the Commission to reconsider
the no-action alternative. 205
203 See supra PP 14-27 (affirming the Certificate Order’s public
needs determination).
204

Final EIS at 1-3 - 1-4.

205 Conservation Foundation’s Request for Rehearing at 74-76;
Delaware Riverkeeper’s Request for Rehearing at 100-101; Lower
Saucon’s Request for Rehearing at 36.

JA 279
90. The Final EIS found that taking no action would
avoid adverse environmental impacts, but would fail
to fulfill the objective of the proposed project. 206
Although such alternatives could be environmentally
preferable, there are no projects currently being
considered that would rely on renewable sources to
supply target-market consumers with, or reduce
consumption by, the energy-equivalent of the gas the
PennEast Project will provide. Further, as the Final
EIS points out, generating electricity from renewable
sources and increasing energy efficiency and
conservation are not alternatives that satisfy the
purpose of the PennEast Project, which is to transport
gas along a particular production-to-consumption
pathway. 207 Accordingly, we reiterate our prior
finding that these are not reasonable alternatives to
review, and that adoption of the no-action alternative
was not appropriate.
c.

System Alternatives

91. System alternatives modify or add to existing or
proposed pipeline systems to meet the objective(s) of
the proposed project. As potential means to meet the
proposed project’s objective, the Final EIS reviewed
four major route alternatives, 208 three of which would
have made modifications to the existing pipeline
systems of Transco, Columbia Gas, and Texas
206

Final EIS at 3-3.

Id. See also Transco, 161 FERC ¶ 61,250 at P 50 (stating that
renewable energy is not an alternative to natural gas
transportation).
207

208 The Final EIS also reviewed 83 route variations identified by
PennEast or by commenters, 39 of which were incorporated into
the approved route.

JA 280
Eastern. We found capacity would not be available on
these existing systems to transport PennEast’s
volumes to the designated delivery points. Also, with
the exception of Transco’s Leidy Line, none of the
existing pipelines are in close proximity to the
production areas of northern Pennsylvania that are
intended to supply the PennEast Project. Accordingly,
we found that these are not reasonable alternatives.
i.

Leidy Line

92. Delaware Riverkeeper claims the Final EIS did
not adequately explain why we did not deem rerouting
the PennEast pipeline to track Transco’s Leidy Line to
be a preferable alternative, and promote various
means to make use of other existing easements.
Despite Delaware Riverkeeper’s assertion, the Leidy
Line system alternative is discussed in detail in the
Final EIS. 209 The Final EIS acknowledged that
although collocation within an existing right-of-way is
generally preferable, placing PennEast’s new pipeline
within existing easements would be “generally not
feasible, primarily because there is not enough space
for the addition of the proposed pipeline and new
required easement,” given that “[t]he width of existing
easements are limited to that needed to safely operate
and maintain the utility and do not include extra
width that would accommodate the PennEast
pipeline.” 210 The Final EIS further concluded that
routing the PennEast pipeline adjacent to the Leidy
209

Final EIS at 3-12 - 3-16.

210 Id. at 3-15. PennEast seeks a new permanent easement width
of 50 feet to operate and maintain the pipeline in accordance with
the Department of Transportation’s safety standards.

JA 281
Line would require an additional 54 miles of pipeline;
disturb 602 more acres during construction; require
142 more acres of operational rightof- way; impact
about 94 more acres of wetlands during construction;
and be within 50 feet of an estimated 325 more
residences. 211 In view of this, we affirm our finding
that rerouting the PennEast pipeline proximate to the
Leidy Line would not be environmentally preferable
and that using other existing easements would not be
feasible. 212
93. As a means to assess the alternative of placing the
new PennEast pipeline alongside the existing Leidy
Line, we constructed a table that numerically
compared the impacts (e.g., miles of pipe and acres of
construction) of this option with the proposed
project. 213 Delaware Riverkeeper faults the EIS for not
211

Id. at 3-13.

As another alternative, the Final EIS considered Transco’s
Atlantic Sunrise Project. We found that because there were
commitments for firm service for its full capacity, along with
commitments for approximately 90 percent of the capacity of the
PennEast Project, there was customer demand for both projects.
Consequently, the Atlantic Sunrise Project could not serve as a
PennEast substitute unless it were to be significantly expanded.
Also, the Atlantic Sunrise Project, like Transco’s Leidy Line,
could not bring gas to the same delivery points as the PennEast
Project. In view of this, we affirm our prior determination that
expanding the Atlantic Sunrise Project would not be a practicable
or environmentally preferable alternative. See Final EIS at 3-7 –
3-8.
212

213 See Final EIS Table 3.3.1-2 at 3-10. NJDEP faults this table’s
numerical summary of comparative impacts, along with other
instances when data are presented in the Final EIS, for failing to
describe “the data’s source or veracity.” NJDEP’s Request for
Rehearing at 47. It has not been our practice to footnote and

JA 282
similarly quantifying the impacts of the proposed
project versus the alternative of expanding the Leidy
Line. We find that choosing not to do so was
appropriate in view of our finding that boosting
capacity on the Leidy Line by looping and compression
would not fulfill the objective of the PennEast Project,
since the Leidy Line does not provide access to the
same delivery points or to an interconnection with
Algonquin Gas Transmission, LLC and Texas Eastern
Transmission, LP at one location. 214 For the Leidy
Line expansion to function as a feasible system
alternative, i.e., for gas flowing on an expanded Leidy
Line to be able to reach the PennEast Project’s market
area, new lateral lines would need to be built from the
Leidy Line to the designated delivery points. 215
Further, as discussed in the EIS, there are 30
locations along the Leidy Line, totaling about 20.3
miles, with dense residential or commercial
development along both sides of the pipeline that

cross-reference the source of all data in our environmental
review, since the origin of any particular piece of information is
generally either available in or referenced in the record of a
proceeding. The veracity of data submitted to the Commission is
subject to challenge by the Commission or any interested person.
When data needed to assess the environmental impacts of a
proposed project is unavailable, typically because a project
sponsor has been unable to gain access to complete an on-site
survey, we require that such data be submitted prior to
undertaking construction. See, e.g., Certificate Order, 162 FERC
¶ 61,053, Appendix A, Environmental Conditions 21, 31, 41, and
51.
214

Final EIS at 3-9.

215

Id. at 3-6.

JA 283
preclude looping within the existing right-of-way. 216
Thus, expanding the Leidy Line would require routing
loop lines outside the existing right-of-way to avoid
existing
development.
We
anticipate
the
environmental impacts of greenfield looping and new
laterals would be comparable to rerouting PennEast’s
pipeline along the Leidy Line right-of-way. In
addition, as noted above, because adding capacity to
the Leidy Line would not serve as a viable alternative
to PennEast’s proposal, we found no reason to quantify
impacts of a Leidy Line expansion.
ii. Adelphia Gateway
94. Numerous petitioners assert that the Adelphia
Gateway, LLC (Adelphia), Docket No. CP18-46-000,
should have been considered as an alternative to the
PennEast Project. The Adelphia application was filed
on January 12, 2018, a week before the Certificate
Order was issued and nine months after the Final EIS
was completed. It is impractical for an agency to
supplement an EIS every time new information comes
to light after the EIS is finalized, and “[t]o require
otherwise would render agency decision making
intractable, always awaiting updated information
only to find the new information outdated by the time
a decision is made.” 217 Consequently, agencies are
expected to follow a rule of reason in deciding how to
incorporate the continuously updating stream of
data. 218
216

Id. at 3-7.

217 Marsh v. Or. Nat. Res. Council, 490 U.S. 360, 373 (1989)
(citation omitted).
218

Marsh, 390 U.S. at 374.

JA 284
95. In this case, we considered all reasonable
alternatives to the PennEast project pending during
the preparation of the Final EIS. To have included
Adelphia—which had yet to be proposed when the EIS
was completed in April 2017—we would have had to
refrain from acting on PennEast and start preparing
a supplemental EIS after Adelphia submitted its
application, resulting in what we believe would been
an unwarranted delay. Thus, we believe our decision
to issue the PennEast order, rather than hold it in
abeyance to be able to assess Adelphia, was
appropriate and reasonable.
96. Had we considered Adelphia, we would have
found it to be an impractical system alternative.
Although both projects are designed to receive gas
from production areas in northeast Pennsylvania,
from there the pipelines diverge; PennEast tracks east
to deliver gas to markets in eastern Pennsylvania and
New Jersey, and Adelphia would direct gas south to
Philadelphia and Delaware. Because each project
serves a different market area, without extensive
additional construction, neither could deliver gas to
the other’s intended customers. Further, Adelphia is a
smaller scale project, and currently can accommodate
approximately 150,000 Dth/d (approximately 13.5
percent of PennEast’s capacity of 1,107,000 Dth/d)
along only the southern portion of its pathway. Thus,
an expansion of Adelphia would not be a preferable
alternative to PennEast.
d.

Route Alternatives

97. Hopewell continues to advocate for relocating
PennEast’s planned interconnection with Transco to a
site that would be located about 0.5 mile southwest at

JA 285
MP 111.8R2, and that would, according to Hopewell,
eliminate approximately 2.1 miles of pipeline running
through the town. This alternative interconnection is
addressed in the Final EIS 219 and Certificate Order. 220
The Final EIS concluded that although the alternative
may meet the project’s delivery needs, without further
information we could not determine if it would be
feasible. 221 Consequently, the Certificate Order
includes Environmental Condition 13, which bars
PennEast from commencing construction until it
submits additional details on this alternative’s
feasibility. 222 Because PennEast has yet to do so, we
have yet to reach a decision on whether to adopt the
PennEast or Hopewell Township interconnection. In
response to NJDEP’s objection to issuance of the
Certificate Order prior to a full review of the
alternative’s impacts, we stress that until PennEast
submits additional information to allow us to fully
review the alternative, neither of the proposed
Transco interconnections can go forward.
98. NJDEP states that if an HDD fails, it would most
likely not allow open trenching of sensitive habitat
and instead recommends an alternate route. 223 In
Id. at P 33, n. 46. The fact that the shipper and LDC may be
affiliates, and thereby have additional insight into future
developments, only strengthens the claim for the Hellertown
Lateral as a necessary component of the PennEast Project.
219

Final EIS at 3-37 – 3-39; Certificate Order, 162 FERC ¶ 61,053
at P 215.
220

221

Final EIS at 3-39.

222 See Certificate Order, 162 FERC ¶ 61,053, Appendix A,
Environmental Condition 13.
223

NJDEP’s Request for Rehearing at 34-37.

JA 286
view of this, NJDEP maintains the EIS should have
assessed routing alternatives that may be needed if an
HDD fails. 224
99. NEPA does not require an agency to assess
potential project modifications that may be
undertaken in response to every conceivable adverse
contingency. Because we believe an HDD failure is
unlikely when conducted in a suitable location in
accordance with the regulatory requirements, we
believe reviewing routing alternatives in anticipation
of an HDD failure to be unwarranted. However, if
there is such a failure, and if we find that relocating
the pipeline along a previously unstudied route would
be a preferable way to effect a water-body crossing,
then we will evaluate the route variation requested by
PennEast in accordance with Environmental
Conditions 1 and 5 of the Certificate Order. All
appropriate agency(ies) will be consulted with respect
to any alternative water-body crossing methods.
100. Delaware Riverkeeper urges the selection of
routing alternatives it believes would offer
environmental advantages. 225 These alternatives
have already been assessed, and rejected, in the Final
EIS
and/or
Certificate
Order. 226
Delaware
Riverkeeper complains that although our review of
alternatives “gives numbers of stream crossings,
wetlands cut, forest acres lost,” it “fails to provide an

224

Id. at 37.

225

Delaware Riverkeeper’s Request for Rehearing at 146.

226 Final EIS at 3-9 – 3-32; Certificate Order, 162 FERC ¶ 61,053
at PP 211-215.

JA 287
adequate level of detail regarding the selection of the
proposed preferred route.” 227
101. We believe that in our consideration of
alternatives,
the
data
presented
and
our
interpretation thereof are adequate to support the
rationale for our decision. Delaware Riverkeeper
questions our rejection of alternatives with a reduced
footprint, such as the Luzerne and Carbon Counties
alternative. The Final EIS considered the advantages
of this alternative route, noting it would be shorter
(27.2 versus 28.9 miles), and impact less wetland,
agricultural and special interest land. 228 However, the
alternative could only be collocated along an existing
right-of-way for 0.2 miles, as compared to 23 miles for
the approved route, and the alternative would require
seven additional waterbody crossings and clearing an
additional 15 acres of forest land. 229 Delaware
Riverkeeper challenges what it views as our
“[presumption] that if the pipeline is co-located with a
preexisting linear project that its impacts have been
avoided or been minimized as compared to other
options,” because when collocation does not take place
within an existing right-of-way, “it actually creates a
second, adjacent footprint, thereby expanding the
ROW footprint.” 230 The Final EIS took this outcome
into account, but reasoned that “[w]hile collocation
with another existing right-of-way would not
eliminate the need for new right-of-way and land
227

Delaware Riverkeeper’s Request for Rehearing at 150.

228

Final EIS at 3-9 – 3-12.

229

Id.

230

Delaware Riverkeeper’s Request for Rehearing at 151.

JA 288
impacts, it would place the new impacts adjacent to
existing cleared right-of-way,” and may “allow some
construction work area to overlap the existing
easement, therefore reducing the area of new
vegetation clearing required.” 231 Accordingly, we
affirm the selection of the approved route.
e.

Construction Alternatives

102. Delaware Riverkeeper argues that we should
compel PennEast to use construction practices it
deems environmentally preferable, such as using
HDD to bore under road and stream crossings, and the
selection of construction practices to avoid soil
compaction. 232 The construction practices we require
PennEast to use reflect our experience with previous,
similar projects, and incorporate mitigation measures
we have found ensure there will be no significant
adverse environmental impacts. No more is required.
103. Delaware Riverkeeper is concerned about postconstruction practices as well, in particular damage on
the right-of-way due to access by vehicular traffic,
including off-road vehicles. 233 PennEast’s E&SCP
provides that it will “[m]ake efforts to control
unauthorized off-road vehicle use, in cooperation with
the landowner, throughout the life of the project.” 234
Further, Environmental Condition No. 43 of the
Certificate Order responds to this concern by
requiring that prior to construction PennEast must
submit for approval “plans regarding a gating or
231

Final EIS at 3-12.

232

Delaware Riverkeeper’s Request for Rehearing at 146-152.

233

Id. at 153.

234

Application, Appendix E at 45.

JA 289
boulder access system for the pipeline right-of-way
across Pennsylvania state lands, developed in
consultation with the Pennsylvania Department of
Conservation and Natural Resources, to prevent
unauthorized vehicle access while maintaining
pedestrian access.”
6.

Indirect Impacts

104. Several petitioners allege that the EIS failed to
account for the indirect impacts of upstream natural
gas production, and the downstream GHG emissions
from the gas transported along the system, and the
resulting climate change impacts from these
emissions. 235 They assert the project would be
responsible for enabling upstream gas production and
downstream gas consumption, and therefore the
Commission must consider “their attendant
environmental consequences.” 236
105. The Certificate Order provided extensive
discussion on why the Commission is not required
under NEPA to analyze, as indirect impacts, the
environmental impacts from upstream natural gas
development. On rehearing, parties raise no new
arguments disputing the Commission’s reasoning,
therefore we need not address them in detail.
Petitioners further fail to acknowledge, much less
identify error with, the Commission’s analysis of

235 Delaware Riverkeeper’s Request for Rehearing at 50-60,
Conservation Foundation’s Request for Rehearing at 13, 93.
236

Conservation Foundation’s Request for Rehearing at 17.

JA 290
either the estimated upstream or downstream impact
analyses. 237
106. As discussed in the Certificate Order, CEQ
defines “indirect impacts” as those “which are caused
by the action and are later in time or farther removed
in distance, but are still reasonably foreseeable.” 238
With respect to causation, “NEPA requires a
‘reasonably close causal relationship’ between the
environmental effect and the alleged cause” in order
“to make an agency responsible for a particular effect
under NEPA.” 239 As the Supreme Court explained, “a
‘but for’ causal relationship is insufficient [to establish
cause for purposes of NEPA].” 240 Thus, “[s]ome effects
that are ‘caused by’ a change in the physical
environment in the sense of ‘but for’ causation” will
not fall within NEPA if the causal chain is too

The dissent relies on Mid States Coalition for Progress v.
Surface Transportation Board (Mid States) 345 F.3d 520 (8th Cir.
2003) to argue that the Commission must “engage in reasonable
forecasting” and “at the very least, examine the effects that an
expansion of pipeline capacity might have on production.” For the
same reasons we have previously explained, Mid States is
distinguishable from the circumstances here. See Dominion
Transmission, Inc., 163 FERC ¶ 61,128, at PP 64-66 (2018);
Tennessee Gas Pipeline Co., L.L.C., 163 FERC ¶ 61,190, at PP 6466 (2018); Nexus Gas Transmission, LLC, 164 FERC ¶ 61,054, at
P 96 (2018); and National Fuel Gas Supply Corp., 164 FERC
¶ 61,084, at PP 166-167 (distinguishing Mid States).
237

238

Certificate Order, 162 FERC ¶ 61,053 at P 194.

Id. P 195 (citing U.S. Dep’t of Transp. v. Pub. Citizen, 541 U.S.
752, at 767 (2004) (quoting Metropolitan Edison Co. v. People
Against Nuclear Energy, 460 U.S. 766, at 774 (1983))).

239

240

Id.

JA 291
attenuated.” 241 Further, the Court has stated that
“where an agency has no ability to prevent a certain
effect due to its limited statutory authority over the
relevant actions, the agency cannot be considered a
legally relevant ‘cause’ of the effect. 242
107. The Certificate Order thoroughly discussed the
Commission’s reasons for concluding that the
environmental effects resulting from natural gas
production are generally neither caused by a proposed
pipeline, nor are they reasonably foreseeable
consequences of an infrastructure project, as
contemplated by the CEQ regulations. 243 With respect
to causation, we noted that a causal relationship
sufficient to warrant Commission analysis of the nonpipeline activity as an indirect impact would only exist
if the proposed pipeline would transport new
production from a specified production area and that
production would not occur in the absence of the
proposed pipeline (i.e., there will be no other way to
move the gas). 244
108. The Certificate Order added that even
accepting, arguendo, that a specific pipeline project
Id. (quoting Metropolitan Edison Co. v. Pub. Citizen, 460 U.S.
at 774).

241

Id. (quoting U.S. Dep’t of Transp. v. Pub. Citizen, 541 U.S. at
770).
242

See Certificate Order, 162 FERC ¶ 61,053 at PP 197-210
(explaining that upstream production impacts are not indirect
impacts of the Project, as they are neither causally related nor
reasonably foreseeable, as contemplated by the CEQ
regulations). See also id. PP 203-206; Final EIS at 4-25 (Table
4.10.1-5); 4-250 (Table 4.10.1-9); and 4-249.
243

244

Certificate Order, 162 FERC ¶ 61,053 at P 197.

JA 292
will cause natural gas production, such potential
impacts, including GHG emissions impacts, resulting
from such production are not reasonably foreseeable.
Courts have found that an impact is reasonably
foreseeable if it is “sufficiently likely to occur that a
person of ordinary prudence would take it into account
in reaching a decision.” 245 Although courts have held
that NEPA requires “reasonable forecasting,” an
agency is not required “to engage in speculative
analysis” or “to do the impractical, if not enough
information is available to permit meaningful
consideration.” 246
109. The Certificate Order explained that the
Commission generally does not have sufficient
information to determine the origin of the gas that will
be transported on a pipeline, and that states, rather
than the Commission, have jurisdiction over the
production of natural gas and thus would be most
likely to have the information necessary to reasonably
foresee future production. Moreover, there are no
forecasts on record which would enable the
Commission to meaningfully predict productionrelated impacts, many of which are highly localized. 247
Thus, we found that, even if the Commission knows
the general source area of gas likely to be transported
on a given pipeline, a meaningful analysis of
production impacts would require more detailed
EarthReports, Inc, v. FERC, 828 F.2d 949, 955 (D.C. Cir. 2016)
(citations omitted); see also Sierra Club v. Marsh, 976 F.2d 763,
767 (1st Cir. 1992).

245

246 N. Plains Res. Council v. Surface Transp. Board, 668 F.3d
1067, 1078 (9th Cir. 2011).
247

Certificate Order, 162 FERC ¶ 61,053 at P 198.

JA 293
information regarding the number, location, and
timing of wells, roads, gathering lines, and other
appurtenant facilities, as well as details about
production methods, which can vary by producer and
depending on the applicable regulations in the various
states. 248 Accordingly, we found that here, the impacts
of natural gas production are not reasonably
foreseeable because they are “so nebulous” that “we
cannot forecast [their] likely effects” in the context of
an environmental analysis of the impacts of a
proposed interstate natural gas pipeline. 249
110. Notwithstanding our conclusions regarding
indirect impacts, the EIS for the project provided a
general analysis of the potential impacts, including
GHG
emissions
impacts,
associated
with
unconventional natural gas production, based on
publicly-available Department of Energy (DOE) and
Environmental
Protection
Agency
(EPA)
methodologies. 250
248

Id.

249

Id.

Id. PP 199, 202-206 (incorporating U.S. Department of
Energy, Addendum to Environmental Review Documents
Concerning Exports of Natural Gas from the United States, 79
Fed. Reg. 48,132 (Aug. 15, 2014) (DOE Addendum),
http://energy.gov/sites/prod/files/2014/08/f18/Addendum.pdf. The
U.S. Court of Appeals for the D.C. Circuit upheld DOE’s reliance
on the DOE Addendum to supplement its environmental review
of the proposed export of LNG. See Sierra Club v. U.S.
Department of Energy, 867 F.3d 189, 200 (D.C. Cir. 2017). See
also Oil and Gas; Hydraulic Fracturing on Federal and Indian
Lands, 80 Fed. Reg. 16,128, 16,130 (Mar. 26, 2015) (Bureau of
Land Management promulgated regulations for hydraulic
fracturing on federal and Indian lands to “provide significant
250

JA 294
111. The Final EIS also went beyond that which is
required by NEPA and quantified the estimated
downstream GHG emissions, assuming that the
project always transports the maximum quantity of
natural gas each day and that the full quantity of gas
is used for additional consumption. 251 As we have
previously stated, where the record does not show a
specific end use of the gas transported by the project,
downstream emissions from the consumption of that
natural gas are not indirect effects as defined by
CEQ. 252
7.

Cumulative Impacts

112. Several parties assert that the Commission
failed to adequately consider cumulative impacts
related to: (a) upstream natural gas development;
(b) the resulting climate change impacts from
benefits to all Americans by avoiding potential damages to water
quality, the environment, and public health”).
Certificate Order, 162 FERC ¶ 61,053 at PP 207-210; Final
EIS at 4-254; and 4-335.
251

See Dominion Transmission, Inc., 163 FERC ¶ 61,128, at PP
39, 40-42 (2018) (explaining that the upper-bound estimates of
downstream consumption provide the worst-case scenarios of
peak use and are therefore inherently speculative when “there is
nothing in the record that identifies any specific end use or new
incremental load downstream of the []Project. [K]nowledge of
these and other facts would indeed be necessary in order for the
Commission to fully analyze the effects related to
the . . . consumption of natural gas.”). See also Tennessee Gas
Pipeline Co., L.L.C., 163 FERC ¶ 61,190, at P 61 (2018)
(explaining that the downstream consumption of transported gas
is not an indirect impact because the gas to be transported by the
Broad Run Expansion Project will be delivered by the project’s
sole shipper, a producer, into the interstate natural pipeline grid
and not to a specific end user).
252

JA 295
upstream and downstream GHG emissions; (c)
impacts on specific resources; and (d) the construction
and operation of other pipeline projects in the area. 253
Conservation
Foundation
asserts
that
the
“Commission engaged in only a cursory and
analytically shallow assessment of cumulative
impacts, and makes “conclusory” findings that those
impacts would be minor or insignificant.” 254 We
disagree.
113. The CEQ regulations define cumulative impact
as “the impact on the environment that results from
the incremental impact of the action when added to
other past, present, and reasonably foreseeable future
actions.” 255 The D.C. Circuit has held that a
meaningful cumulative impact analysis must identify:
(1) the area in which the effects of the proposed project
will be felt; (2) the impacts that are expected in that
area from the proposed project; (3) other actions—
past, present, and proposed, and reasonably
foreseeable—that have had or are expected to have
impacts in the same area; (4) the impacts or expected
impacts from these other actions; and (5) the overall
impact that can be expected if the individual impacts
are allowed to accumulate. 256 The geographic scope of
our cumulative impact analysis varies from case to
See, e.g. Delaware Riverkeeper’s Request for Rehearing at 25,
Conservation Foundation’s Request for Rehearing at 81.
253

254

Id. at 81-82.

255

40 C.F.R. § 1508.7 (2017).

256 Sierra Club v. FERC (Freeport LNG), 827 F.3d 36, 39 (D.C.
Cir. 2016) (quoting TOMAC, Taxpayers of Mich. Against Casinos
v. Norton, 433 F.3d 852, 864 (D.C. Cir. 2006) and Grand Canyon
Trust v. FAA, 290 F.3d 339, 345 (D.C. Cir. 2002)).

JA 296
case, and resource to resource, depending on the facts
presented.
a.

Upstream
Production

Natural

Gas

114. As explained above, because the impacts of
upstream natural gas production are not reasonably
foreseeable, such impacts were correctly excluded
from the Final EIS’ cumulative impacts analysis to the
extent that they were outside the geographic scope of
the project.
115. Conservation Foundation argues that the
PennEast Project “should be viewed in the context of
the Marcellus Shale fracking boom and attendant
pipeline construction” which, it asserts, is causing,
among other things, erosion and runoff, habitat
destruction and alteration, wildlife displacement and
population stress. 257 Consistent with the CEQ
guidance and case law, the EIS identified the criteria
that defined the project’s geographic scope which was
used in the cumulative impact analysis to describe the
general area for which the project could contribute to
cumulative impacts. 258 For example, the EIS noted
that impacts on geology and soils, land use, residential
areas, visual resources, air quality, and noise by the
project would be highly localized. For cumulative
impacts on these resources, the EIS evaluated other
projects (e.g. residential development, small
commercial development, and small transportation
projects) within 0.25 mile of the construction work
areas for the project. On the other hand, the EIS also
257

Conservation Foundation’s Request for Rehearing at 81.

258

Final EIS at 4-320 - 4-321.

JA 297
concluded that the PennEast Pipeline Project’s Kidder
Compressor Station would result in long-term impacts
on air quality in the 81.55 Northeast PennsylvaniaUpper Delaware Valley Interstate Air Quality Control
Region (AQCR). Therefore, the EIS analyzed other
projects with the potential to result in long-term
impacts on air quality (e.g. natural gas compressor
stations or industrial facilities) within the same
AQCR. On rehearing, the parties do not dispute that
the EIS identified the appropriate scope for its
cumulative impact analysis. 259
116. The EIS further found that there is no current
or foreseeable well development or use within 10 miles
of the project, so project construction and operation
would not be expected to result in cumulative impacts
on any resources within the geographic scope of the
analysis. 260 However, the EIS acknowledged natural
gas production in its cumulative impact analysis,
noting that “recent activity has shown that
development creates potentially serious patterns of
land disturbance on the landscape.” 261
117. Even if we vastly expanded our cumulative
impact analysis, which would be inappropriate, the
impacts from natural gas development are not
reasonably foreseeable. The Commission does not
have sufficient information to determine the origin of
the natural gas that will be transported on the
PennEast Project, much less any impacts from
potential development associated with the natural gas
259

Conservation Foundation’s Request for Rehearing at 81.

260

Final EIS at 4-231.

261

Id. at 4-322.

JA 298
production. When the Commission lacks meaningful
information about potential future natural gas
production within the geographic scope of a projectaffected resource, then production-related impacts are
not reasonably foreseeable, and therefore cannot be
included in a cumulative impact analysis. 262
b.

GHG Emissions
Climate Change

Impacts

on

118. Sierra Club-New Jersey generally asserts that
the Commission was required to consider GHG
emissions and climate change implications of the
project primarily because “the U.S. Court of Appeals
for the District of Columbia…expressed deep concerns
regarding FERC’s treatment of downstream
greenhouse gas emissions.” 263 The EIS and Certificate
Order fully considered GHG emissions and climate
change and went beyond that which is required by
NEPA by assessing direct and indirect GHG
emissions. Although not required, in an effort to put
the estimated GHG emissions into context, the
Commission examined both regional and national
GHG emissions. 264 On rehearing, petitioners do not
take issue with the quantification of the GHG
emissions. Rather, petitioners contend that the
Commission failed to undertake a meaningful analysis
of the climate change impacts stemming from the
262 Dominion Transmission, Inc., 163 FERC ¶ 61,128, at P 34
(2018); Columbia Gas Transmission, 149 FERC ¶ 61,255, at P
120 (2014).
263 Sierra Club—New Jersey’s Request for Rehearing at 2
(providing no case citation).
264

See Certificate Order, 162 FERC ¶ 61,053 at P 209.

JA 299
project’s GHG emissions. 265 As the Commission has
explained, it cannot find a suitable method to attribute
discrete environmental effects to GHG emissions. 266
CEQ guidance, now withdrawn, for assessing the
effects of climate change in NEPA reviews does not
specifically list a threshold for determining
significance. 267 Rather, the guidance suggests that
agencies “discuss relevant approved federal, regional,
state, tribal, or local plans, policies, or laws for GHG
emission reductions or climate change adaptation to
make clear whether a proposed project’s GHG
emissions are consistent with such plans or laws.” 268
119. Further, it is, as the Commission did in this
case, appropriate to qualitatively discuss climate
change effects and quantify GHG emissions as a proxy
for climate change effects when the emissions are
related to the project. The courts have found that
See Delaware Riverkeeper’s Request for Rehearing at 68-99,
Sierra Club—New Jersey’s Request for Rehearing at 2.
265

Florida Southeast Connection, 162 FERC ¶ 61,233 at P 27
(2018).
266

CEQ, Final Guidance for Federal Departments and Agencies
on Consideration of Greenhouse Gas Emissions and the Effects of
Climate Change in National Environmental Policy Act Reviews
at 28-29 (Aug. 1, 2016), Notice of Availability, 81 Fed. Reg. 51,866
(Aug. 5, 2016) (Final Guidance). The Final Guidance, which is
“not a rule or regulation” and “does not change or substitute for
any law, regulation, or other legally binding requirement, and is
not legally enforceable,” was subsequently withdrawn.
Withdrawal of Final Guidance for Federal Departments and
Agencies on Consideration of Greenhouse Gas Emissions and the
Effects of Climate Change in National Environmental Policy Act
Reviews, 82 Fed. Reg. 16,576 (Apr. 5, 2017).
267

268

Final Guidance at 28-29.

JA 300
“qualitative analyses are acceptable in an
[environmental document] where an agency explains
‘why objective data cannot be provided,’” 269 which is
what the EIS did here. 270 The CEQ recommended in
its guidance, “that agencies use projected GHG
emissions . . . as a proxy for assessing potential
climate change effects when preparing a NEPA
analysis for a proposed agency action.” 271 CEQ added
that quantifying GHG emissions together with
providing a qualitative summary discussion of the
impacts of GHG emissions allows an agency to present
the impacts of a proposed action “in clear terms and
with sufficient information to make a reasoned choice
between no action and other alternatives and
appropriate mitigation measures, and to ensure the
professional and scientific integrity of the NEPA
review.” 272
Klamath-Siskiyou Wildlands Ctr. V. Bureau of Land
Management, 387 F.3d 989, 994 & n.1 (9th Cir. 2004). See also
League of Wilderness Defs.-Blue Mountains Biodiversity Project
v. U.S. Forest Serv., 689 F.3d 1060 (9th Cir. 2012) (“Here, the EIS
discusses the expected tree mortality under the no-action
alternative and provides a reasonable ‘justification regarding
why more definitive information could not be provided.’”) CEQ
regulations address procedures for “evaluating reasonably
foreseeable significant adverse effects” when there is “incomplete
or unavailable information.” 40 C.F.R. § 1502.22 (2017). We
believe that the discussion herein is consistent with the
procedures for addressing incomplete or unavailable information.
269

270

EA at 164-166.

See CEQ, Final Guidance for Federal Departments and
Agencies on Consideration of Greenhouse Gas Emissions and the
Effects of Climate Change in National Environmental Policy Act
Reviews at 10 (Aug. 1, 2016).

271

272

Id.

JA 301
120. Here, the EIS explained that GHG emissions
would increase the atmospheric concentration of
GHGs, in combination with past and future emissions
from all other sources, and contribute incrementally to
future climate change impacts. 273
121. The Final EIS and the Certificate Order
exceeded this guidance by quantifying the GHG
emissions for both direct project emissions and nonunrelated emissions, comparing those unrelated
downstream emissions to the regional and nationwide
GHG
emissions
inventory,
and
discussing
qualitatively the link between the direct project and
unrelated downstream GHG emissions and climate
impacts. Nothing more was required.
122. Delaware Riverkeeper claims that in
determining the significance of GHG emissions, the
Commission is required to use the Social Cost of
Carbon methodology, or “at the very least,” include a
discussion of why the Commission elected not to use
such methodology in determining the significance of
GHG emissions, in accordance with the Sabal Trail
decision. 274
123. Delaware Riverkeeper misstates the Sabal
Trail holding. There, the court directed the
Commission on remand to explain whether, and why,
the Commission holds to the position, which was
accepted by the court in EarthReports, Inc. v.
Certificate Order, 162 FERC ¶ 61,053 at P 210; Final EIS at
4-335.
273

274 Id. at 36, (citing Sabal Trail, 867 F.3d 1357, 1374). The Social
Cost of Carbon tool estimates the monetized climate change
damage associated with an incremental increase in CO2
emissions in a given year.

JA 302
FERC, 275 that the Social Cost of Carbon tool is not
useful for the Commission’s NEPA reviews because
several of the components of its methodology are
contested and because not every harm it accounts for
is necessarily significant with the meaning of
NEPA. 276 On remand, the Commission provided
extensive discussion on why the Social Cost of Carbon
tool is not appropriate in project-level NEPA review,
and cannot meaningfully inform the Commission’s
decisions on natural gas infrastructure projects under
the NGA. 277 Moreover, EPA recently confirmed to the
Commission that the tool, which “no longer represents
government policy,” was developed to assist in
rulemakings and “was not designed for, and may not
275

828 F.3d 949, 956 (D.C. Cir. 2016).

276

Sabal Trail, 867 F.3d at 1375.

Florida Southeast Connection, LLC, 162 FERC ¶ 61,233 at PP
30-51 (2018) (rehearing pending). See also Mountain Valley
Pipeline, LLC, 163 FERC ¶ 61,197 at PP 275-297 (2018),
(reiterating reasons Social Cost of Carbon tool is not useful in
informing the Commission). The dissent relies on High Country
Conservation Advocates v. U.S. Forest Service (High Country), 52
F. Supp. 3d 1174, 1193 (D. Colo. 2014) and Montana
Environmental Information Center v. U.S. Office of Surface
Mining (Montana Environmental Information Center) No. CV 15106-M-DWM, 2017 WL 5047901 (D. Mont. Nov. 3, 2017) to argue
that the Commission must calculate the Social Cost of Carbon.
For the same reasons we have previously explained, High
Country and Montana Environmental Information Center are
distinguishable from the circumstances here. See Millennium
Pipeline Co., L.L.C., 164 FERC ¶ 61,039 at PP 23-28 (2018)
(distinguishing Montana Environmental Information Center);
Dominion Cove Point LNG, LP, 151 FERC ¶ 61,095 (2015)
(distinguishing High Country), aff’d sub nom. EarthReports, 828
F.3d 949.
277

JA 303
be appropriate for, analysis of project-level
decisionmaking.” 278 We adopt that reasoning here. 279

See EPA July 26, 2018 Comments in PL18-1-000 (“Further,
with regard to the discussion of the social cost of carbon, EPA
notes that tool was developed to aid the monetary cost-benefit
analysis of rulemakings. It was not designed for, and may not be
appropriate for, analysis of project-level decision-making.”) In
support, the EPA cites the Technical Support Document—Social
Cost of Carbon for Regulatory Impact Analysis—Under
Executive Order 12866, Interagency Working Group on Social
Cost of Carbon, at 1 (Feb. 2010) (citing Executive Order 12866’s
requirement to “assess both the costs and the benefits of the
intended regulation” and observing that the “purpose of the
‘social cost of carbon’ (SCC) estimates presented here is to allow
agencies to incorporate the social benefits of reducing carbon
dioxide . . . emissions into cost-benefit analyses of regulatory
actions . . . .”). Even if the Commission were an “agency” to which
Executive Order 12866 applied, section 3(e) of the order defines
“regulatory action” as “any substantive action by an agency
(normally published in the Federal Register) that promulgates or
is expected to lead to the promulgation of a final rule or
regulation, including notices of inquiry, advance notices of
proposed rulemaking, and notices of proposed rulemaking.”
Executive Order 12866, 58 Fed. Reg. 51,735 (Sept. 30, 1993).
Project-specific NGA section 7 certificate proceedings do not fall
within that definition.
278

In our view, arguments with respect to upstream and
downstream impact analysis is based on the petitioners’ desire
for the Commission to conduct a programmatic NEPA review of
natural gas production in the Marcellus shale region, an area
that potentially covers thousands of square miles. We decline to
do so. As the Commission has previously explained, there is no
Commission program or policy to promote additional natural gas
development and production in shale formations. See National
Fuel Gas Supply Corp., 150 FERC ¶ 61,162, at P 55 (2015), order
on reh’g, 154 FERC ¶ 61,180, at P 54 (2016).
279

JA 304
c.

Cumulative
Resources

Impacts

on

124. Some parties assert that the EIS did not
conduct a sufficiently rigorous cumulative impact
analysis. Conservation Foundation claims that even
where the EIS acknowledges cumulative impacts on
various resources, it “simply makes the conclusory
finding that those impacts would be minor…” through
mitigation or other permit requirements. 280
Conservation Foundation adds that the EIS’s
discussion of cumulative impacts, which it contends
has “minimal qualitative” and “essentially no
quantitative” analysis, “cannot pass for proper
analytical rigor in an EIS.” 281 Delaware Riverkeeper
asserts that the EIS failed to consider the cumulative
impacts associated with pipeline construction,
operation, and maintenance on impacted ecological
systems over the lifetime of the project. 282
125. We disagree. The “determination of the extent
and effect of [cumulative impacts], and particularly
identification of the geographic area within which
they may occur, is a task assigned to the special
competency of the appropriate agencies.” 283 CEQ has
explained that “it is not practical to analyze the
cumulative effects of an action on the universe; the list
of environmental effects must focus on those that are

280

Conservation Foundation’s Request for Rehearing at 82.

281

Id.

282

Delaware Riverkeeper’s Request for Rehearing at 41-48.

283

Kleppe v. Sierra Club, 426 U.S. 390, 414 (1976).

JA 305
truly meaningful.” 284 Further, a cumulative impact
analysis need only include “such information as
appears to be reasonably necessary under the
circumstances for evaluation of the project rather than
to be so all-encompassing in scope that the task of
preparing it would become either fruitless or well-nigh
impossible.” 285 Moreover, although NEPA requires the
Commission to consider the impacts on resources, it
does not mandate a particular outcome. 286
126. Here, the EIS provided extensive discussion of
the potential cumulative impacts on a number of
resources,
including
soils,
water
resources,
socioeconomics, cultural resources, air quality, noise,
reliability, and safety, within the project’s geographic
scope for each particular resource. 287 The EIS
identified over 30 activities that have been recently
constructed, are being constructed, or are planned or
proposed within the project’s geographic scope, and
provided: the project description; approximate
permanent impact area; the resources cumulatively
affected; the relevant watershed; and the Air Quality
Control Region. 288 Although the EIS found that the

CEQ, Considering Cumulative Effects Under the National
Environmental Policy Act, at 8 (January 1997).

284

Natural Res. Def. Council, Inc. v. Calloway, 524 F.2d 79, 88
(2d. Cir. 1975).
285

286

Robertson v. Methow Valley Citizens Council, 490 U.S. at 335.

287

Final EIS at 4-312 – 4-335.

288 Id. at 4-313-420. The four types of actions that would
potentially result in a cumulative impact included: other natural
gas projects (both FERC-jurisdictional and non-jurisdictional);
electric generation and transmission projects; transportation

JA 306
majority of cumulative impacts would be temporary
and minor when considered in combination with past,
present, and reasonably foreseeable activities, it
identified and considered long-term cumulative
impacts that would occur on various resources
including wetland and forested and upland vegetation
and associated wildlife habitats; 289 and air quality and
noise impacts. 290
127. Moreover, the EIS analyzed the cumulative
impacts associated with the operational-phase
emissions of the Kidder Compressor Station over the
lifetime of the project; 291 the magnitude of the onetime release of sequestered CO2 caused by the initial
clearance of 601 acres of forested land, and also the
ongoing loss of carbon sequestration capacity for the
452 acres of forested land that would remain
permanently cleared during the project’s lifetime; 292
and, notwithstanding our finding that GHG emissions
impacts from natural gas production are not
reasonably foreseeable, the cumulative impact
analysis discussed the 2014 U.S. Global Change
Research Program report, Climate Change Impacts in
the United States (2014 USGRP report), which
summarizes the impacts that climate change has had
on the United States and what projected impacts
climate change may have in the future. Although the
projects; and
developments.

commercial

289

Id. at 4-329.

290

Id. at 4-332.

291

Id. at 4-246 - 4-248.

292

Id. at 4-254 - 4-255.

and

large-scale

residential

JA 307
EIS notes that climate change is a global concern, it
focused on the 2014 USGRP report’s projections for
potential climate change in the Northeast region of the
United States during the expected project lifetime. 293
128. Accordingly, we find that the level of detail in
the EIS was appropriate to ensure that the
Commission was fully informed on the potential
cumulative impacts of the PennEast Project.
Petitioners do not identify any particular issues that
were overlooked in the Commission’s analysis of
cumulative impacts on the various resources
considered. Instead, they take issue with the breadth
and depth of some of the discussion. However, NEPA
does not prescribe a certain level of detail, and
certainly does not dictate a minimum amount of
information required, to inform the decisionmaker.
Although “[i]t is of course always possible to explore a
subject more deeply and to discuss it more
thoroughly,” agencies must make “[t]he line-drawing
decisions necessitated by this fact of life.” 294
d.

Cumulative
Impacts
Additional Pipeline Projects

of

129. Delaware Riverkeeper asserts that the Final
EIS failed to examine the “cumulative impact[s] of
multiple … linear projects that are being proposed or
293

Id. at 4-334 - 4-335.

Coal. on Sensible Transp., Inc. v. Dole, 826 F.2d 60, 66 (D.C.
Cir, 1987). See also Sierra Club v. DOE, 867 F.3d at 196; Freeport
LNG, 827 F.3d at 46 (explaining that “our task is not to ‘flyspeck’
the Commission’s environmental analysis for ‘any deficiency no
matter how minor’”) (quoting Theodore Roosevelt Conservation
P'ship v. Salazar, 661 F.3d 66, 75 (D.C. Cir. 2011)).
294

JA 308
constructed in the Delaware River watershed[.]” 295 In
support, Delaware Riverkeeper identifies several
natural gas pipeline projects it asserts will impact the
watershed. Delaware Riverkeeper’s arguments in fact
appear to be a call for the Commission to perform a
programmatic review of interstate natural gas
pipeline projects in the region. As we discussed above,
there is no Commission program or policy which seeks
to promote additional natural gas infrastructure
development. 296
8.

Segmentation

130. On rehearing, Delaware Riverkeeper argues
that the EIS improperly segmented the environmental
review of the PennEast Project from the Texas
Eastern Marcellus to Market Project (M2M Project)
and the Greater Philadelphia Expansion Project, both
of which it claims are “interconnected projects
obviously being contemplated and planned for in the
same time frame by the same owner for delivery of the
gas…” 297
131. Hopewell and Sierra Club-New Jersey assert
that the Final EIS improperly segmented from the
analysis the environmental impacts of (1) Transco’s
Garden State Expansion Project; and (2) New Jersey
Natural Gas’ Southern Reliability Link (Southern
Reliability Project) intrastate pipeline. Hopewell
asserts that without a fully operational PennEast
Pipeline, the Garden State Expansion and Southern

295

Delaware Riverkeeper’s Request for Rehearing at 38-41.

296

Supra n.279.

297

Id. at 102-108.

JA 309
Reliability Projects would
independent utility.” 298

“otherwise

have

no

132. The CEQ regulations require the Commission
to include connected, cumulative, and similar actions
in its NEPA analyses. 299 An agency impermissibly
“segments” NEPA review when it divides connected,
cumulative, or similar federal actions into separate
projects and thereby fails to address the true scope
and impact of the activities that should be under
consideration. The CEQ regulations define connected
actions as those that: (1) automatically trigger other
actions, which may require environmental impact
statements; (2) cannot or will not proceed unless other
actions are taken previously or simultaneously; (3) are
interdependent parts of a larger action and depend on
the larger action for their justification. 300 In
evaluating whether multiple actions are, in fact,
connected actions, a “substantial independent utility”
test helps inform the Commission’s analysis. The test
asks “whether one project will serve a significant
purpose even if a second related project is not built.” 301
133. Hopewell and Sierra Club-New Jersey raise the
segmentation argument with respect to the Garden
State Expansion and Southern Reliability Projects for
the first time on rehearing. For the reasons discussed
298

Hopewell’s Request for Rehearing at 40-42

299

40 C.F.R. § 1508.25(a)(1)-(3) (2017).

300

Id.

See Coal. on Sensible Transp., Inc. v. Dole, 826 F.2d at 69. See
also O’Reilly v. U.S. Army Corps of Eng’rs, 477 F.3d 225, 237 (5th
Cir. 2007) (defining independent utility as whether a project “can
stand alone without requiring construction of the other [projects]
either in terms of other facilities required or of profitability”).
301

JA 310
above, parties are not permitted to introduce new
evidence for the first time on rehearing, therefore we
need not address their segmentation arguments. 302
However, even if they had timely raised the
segmentation issue, we would have dismissed their
arguments, for the reasons set forth below.
a.

M2M
Project
and
Greater
Philadelphia Expansion Project

134. The CEQ regulations require that “[p]roposals
or parts of proposals which are related to each other
closely enough to be, in effect, a single course of action
shall be evaluated in a single impact statement.” 303
For the purposes of segmentation, a “project proposal”
is one in which action is imminent. 304
135. The Texas Eastern M2M Project and the
Greater Philadelphia Expansion Project are not
connected actions that should have been considered in
the EIS, as they were not imminent. 305 The
Sierra Club-New Jersey also failed to specify error, as it
asserted in general terms that the Commission is “allowing
PennEast to segment this project and separate it from” the
Garden State Expansion and Southern Reliability Projects. As
discussed above, the NGA requires parties to present their
arguments to the Commission in such a way that the
“Commission knows specifically . . . the ground on which
rehearing [i]s being sought.”
302

303

40 C.F.R. § 1502.4(a) (2017).

O’Reilly v. U.S. Army Corps of Eng’rs, 477 F.3d 225, at 236
(citing 40 C.F.R. § 1508.23 (2017)).

304

See generally City of Boston Delegation v. FERC, D.C. Cir. Nos.
16-1081, et al., slip op. at 14-16 (July 27, 2018) (FERC did not
impermissible segment its environmental review of Algonquin’s
three upgrade projects on its northeast pipeline system where

305

JA 311
Commission has no information on them, as nothing
has been filed with the Commission, either in the form
of a request to initiate the early pre-filing process,
much less as a project application.
b.

Garden State Expansion Project

136. In approving Transco’s Garden State
Expansion Project, 306 the Commission addressed
several parties’ assertions that the PennEast Project
and Southern Reliability Project, together with the
proposed Garden State Expansion Project, constituted
a single interdependent pipeline system. The
Commission evaluated whether the PennEast and
Garden State Expansion Projects are connected
actions, and concluded they are not. We found that the
Garden State Expansion and PennEast Projects are
physically distinct, noting that the Garden State
Expansion Project consists primarily of compressor
facilities and a meter station on Transco; none of these
facilities directly connect with the PennEast Project,
and indeed the PennEast Project terminates
approximately 2.5 miles south of the Compressor
Station 205 in Mercer County, New Jersey. 307
137. We further found that neither the PennEast
Project nor the Garden State Expansion Project are

FERC’s review of the projects was not contemporaneous and
where the projects had substantial independent utility).
306 Transcontinental Gas Pipe Line Co., LLC, 155 FERC ¶ 61,016,
order on reh’g, 157 FERC ¶ 61,095 (2016).
307 Transcontinental Gas Pipe Line Co., LLC, 155 FERC ¶ 61,016
at PP 66-68; order on reh’g, 157 FERC ¶ 61,095 at P 12.

JA 312
functionally dependent on each other. 308 We noted
that although New Jersey Natural Gas is a shipper on
both projects, if the Garden State Expansion Project
did not proceed, the PennEast Project would still be
supported by the need to deliver natural gas for its
other shippers, including six anchor shippers. 309
Similarly, if the PennEast Project did not proceed,
New Jersey Natural Gas’ demand for 180,000 Dth/d
would still support the Garden State Expansion
Project. 310
138. Both Hopewell and Sierra Club-New Jersey
participated in the Garden State Expansion
proceeding; on rehearing, they raise generally the
same arguments that were addressed in the Garden
State Expansion Project proceeding. Accordingly, even
if Hopewell and Sierra Club-New Jersey had timely
raised their segmentation arguments, we would have
rejected them as an impermissible collateral attack on
the Garden State Expansion orders. 311

Transcontinental Gas Pipe Line Co., LLC, 155 FERC ¶ 61,016
at PP 66-68; order on reh’g, 157 FERC ¶ 61,095 at PP 12-15.
308

309

Id.

Transcontinental Gas Pipe Line Co., LLC, 155 FERC ¶ 61,016
at P 66.
310

We note that, contrary to Hopewell’s assertion, the Final EIS
appropriately included the Garden State Expansion Project in its
cumulative impact analysis at 4-314, 4-323. Moreover, the Final
EIS did not address the cumulative impacts of the Southern
Reliability Project because it occurs outside the geographic scope.
However, the November 4, 2015 NEPA analysis for the Garden
State Expansion Project analyzed its cumulative impacts with
the Southern Reliability Project. See Garden State Expansion
Project EA at 46-47; 50-56.
311

JA 313
c.

Southern
Project

Reliability

Link

139. Connected actions, for purposes of a NEPA
analysis, only extend to federal actions. 312 As noted
above, the Southern Reliability Project is an intrastate
pipeline under the jurisdiction of the New Jersey
Board of Public Utilities. Accordingly, the Southern
Reliability Project was appropriately excluded from
review as a connected action. 313
9.

Forest Impacts and Conservation
Easements

140. Lower Saucon argues that the Commission’s
order enables PennEast to violate the terms of
conservation easements that Lower Saucon holds over
forested lands. 314 Lower Saucon states that, pursuant
to the Pennsylvania Conservation and Preservation
Easements Act, industrial and commercial activity,
forest clear-cutting, and soil removal are prohibited on
conservation easement lands. 315 Lower Saucon alleges
that pipeline construction will result in the “continued
and perpetual violation” of the terms of the easements,
See Big Bend Conservation Alliance v. FERC, No. 17-1002,
2018 (WL 341729, at 4 (D.C. Cir. July 17, 2018); Sierra Club v.
Army Corps of Eng’r, 803 F.3d 31, 33-37 (D.C. Cir. 2015).
312

Although the Final EIS did not address the cumulative
impacts of the Southern Reliability Project because it occurs
outside the geographic scope, the November 4, 2015
Environmental Assessment (EA) for the Garden State Expansion
Project analyzed the cumulative impacts of the Southern
Reliability Project. Supra n. 311.
313

314

Lower Saucon’s Request for Rehearing at 43-46.

315 Conservation and Preservation Easements Act, 32 Pa. Cons.
Stat. § 5051, et seq. (2017).

JA 314
and that the Certificate Order improperly concluded
that no changes are expected in the conservation
status of private lands crossed by the project in
Pennsylvania. Lower Saucon further alleges that the
Final EIS failed to meaningfully analyze the
“unavoidable impacts” to conservation lands.
141. NJDEP alleges that the Certificate Order is
“contrary to state [forestry] law.” 316 NJDEP states
that pipeline construction will require tree removal on
state-owned and state-preserved lands, which are
subject to New Jersey’s No Net Loss Compensatory
Reforestation Act (NNLRA). 317 The Certificate Order
allows PennEast to compensate for forest loss by
purchasing and conserving existing forested areas,
which NJDEP argues is not an authorized means of
deforestation mitigation under the NNLRA. NJDEP
also argues that the Final EIS and Certificate Order
failed to adequately address long-term visual impacts
from deforestation, and that the Certificate Order
should have provided a time frame for when PennEast
must restore forested lands and should have included
EPA’s restoration recommendation that PennEast
reseed with “larger plant stocks,” as opposed to
seedlings. 318
142. As discussed in section 4.7.4.4 of the EIS (Land
Conservation Programs), the project will cross
approximately 21.7 miles of conservation easement
lands. Of the conservation easement lands crossed by
the project, 336 acres will be temporarily affected
316

NJDEP’s Request for Rehearing at 49-51.

317

N.J. Stat. Ann. § 13:1L-14.2, et seq. (West 2017).

318

See NJDEP’s Request for Rehearing at 51-52.

JA 315
during construction, whereas only 130 acres of
conservation easement lands will be located in the
project’s permanent right-of-way. 319 The Final EIS
further notes that for lands permanently or
temporarily impacted, “following pipeline installation
all activities and accesses currently available to the
public would be returned to their original state” and
that “during operation, there would be nothing that
would prevent public access to or normal
administration of these lands.” 320 Conservation
easement lands located within PennEast’s permanent
easement area would lose their conservation status,
however “only in that PennEast would acquire the
development rights to install and maintain the
pipeline.” 321 The majority of conservation easement
land crossed by the project would retain current
conservation restriction status. 322 Therefore, the
Certificate Order concluded that the project will
generally have temporary, limited impacts on special
interest areas (including conservation easement
lands), which will be further minimized with the
implementation of measures in PennEast’s Erosion
and Sediment Control Plan (E&SCP), the
Commission’s Upland Erosion Control, Revegetation
and Maintenance Plan (Plan), Wetland and Waterbody
Construction and Mitigation Procedures (Procedures),
and additional project-specific construction plans. 323
319

Final EIS at 4-173.

320

Id.

321

Id.

322

Id.

323

Certificate Order, 162 FERC ¶ 61,053 at P 163.

JA 316
143. Regarding NJDEP’s concerns over PennEast’s
method of compensation per the requirements of the
NNLRA, the Certificate Order states that in addition
to purchasing and conserving forested lands,
PennEast will “reforest areas within the same
municipality in which the impact occurs[,]” and
restore areas of temporary impacts via the
development of mitigation measures. 324 The
Certificate Order further notes that although final
compensation has yet to be determined, it will be
consistent with NNLRA requirements. 325
144. The EIS notes that the extent and duration of
visual impacts depends on the type of vegetation that
is cleared. Smaller-scale vegetation in open areas
generally regenerates in less than five years, with
“large specimen trees” taking considerably longer. The
EIS further acknowledges that visual impacts on
forest lands would be greater where regeneration on
PennEast’s 30-foot-wide permanent right-of-way is
prevented. 326 It would be impractical for the
Commission to impose on PennEast a specified timeframe for revegetation, given the wide range of
different vegetation communities that will be crossed
by the project, as well as their varied re-growth times.
Contrary to NJDEP’s assertion, the Certificate Order
did not “ignore” the EPA’s recommendation that we
require larger plant stock be used during revegetation
as opposed to seedlings. 327 The Commission addressed
324

Id. P 141.

325

Id.

326

Final EIS at 4-175.

327

NJDEP’s Request for Rehearing at 52.

JA 317
these comments when NJDEP raised them in
response to the Draft EIS, and explained in the
Certificate Order that in addition to reseeding in
accordance with PennEast’s E&SCP and the Plan and
Procedures, PennEast would consult with “local soil
conservation
districts,
or
appropriate
land
management agencies” to determine the best plan for
reseeding. 328 The Certificate Order concluded that
this would be appropriate to adequately address
revegetation, and we affirm that finding.
10. Threatened
Species

and

Endangered

145. Delaware Riverkeeper and Conservation
Foundation express concern that the Final EIS’
findings regarding threatened and endangered species
improperly relied on surveys with missing,
inadequate, or otherwise inaccurate information. 329
Delaware Riverkeeper further asserts that the Final
EIS failed to appropriately analyze the project’s
impacts on threatened or endangered bats, birds,
sturgeons, snakes, turtles and mussels. NJDEP
argues that the Final EIS did not give sufficient
consideration to state-listed species and state species
of concern. 330 Further, NJDEP states that the
Certificate Order should explicitly require PennEast
to comply with all NJDEP threatened and endangered
species conditions and that the Final EIS should have
considered an alternative to HDD crossings of C1
328

Certificate Order, 162 FERC ¶ 61,053 at P 140.

329 See Conservation Foundation’s Request for Rehearing at 78;
Delaware Riverkeeper’s Request for Rehearing at 136-145.
330

NJDEP’s Request for Rehearing at 47-49.

JA 318
streams, 331 which could have adverse impacts on wood
turtle and longtailed salamander habitats. In
addition, NJDEP argues that that the Certificate
Order failed to include or respond to NJDEP’s Rare
Plant Species Survey Target List and Rare Plant
Species Survey Protocol. 332
146. As part of Commission staff’s formal
consultation with the United States Fish and Wildlife
Service (FWS), a biological assessment was prepared
which analyzed impacts on threatened and
endangered species, and subsequently submitted to
the FWS. 333 As noted in the Certificate Order, the
findings in the Final EIS were considered best
available information from surveys conducted on
parcels for which landowner permission was obtained;
due to certain affected landowners refusing to grant
surveyors’ access to their property, not all surveys
were completed. 334 Environmental Condition 36 of the
Certificate Order requires PennEast to complete all
remaining surveys prior to construction, and provide
survey reports to the appropriate agencies. 335 The
FWS issued its Biological Opinion for the project on
November 29, 2017, and Commission staff
incorporated FWS’ conclusions into the Certificate
C1 Streams are “classified as waters to be maintained based
on their clarity, color, scenic setting, and other characteristics of
aesthetic value, exceptional ecological significance, exceptional
recreational significance, exceptional water supply significance,
or exceptional fisheries resources.” See Final EIS at 4-49.
331

332

Id. at 52-53.

333

Final EIS at 4-107.

334

Certificate Order, 162 FERC ¶ 61,053 at P 146.

335

Id. at Appendix A, Environmental Condition 36.

JA 319
Order’s Environmental Conditions. 336 FWS’ Biological
Opinion determined that that the project is not likely
to adversely affect the dwarf wedge mussel, Indiana
bat, and the northeastern bulrush, and is not likely to
jeopardize the continued existence of the bog turtle or
northern long-eared bat. As a result of these findings,
eight of the Final EIS’ recommended mitigation
measures (conditions 33, 34, and 36-41) were deemed
unnecessary for inclusion in the Certificate Order. 337
Further, PennEast is required under Environmental
Condition 36 to incorporate conservation measures
outlined in the Biological Opinion, including its Terms
and Conditions. 338
147. NJDEP’s concerns regarding the Final EIS’
analysis of state-listed species, and state species of
concern are unfounded. Section 4.6.2 of the Final EIS’
fully addresses the project’s potential impacts on New
Jersey and Pennsylvania listed species, or species of
concern. 339 Environmental Condition 39 requires
PennEast to file a list of measures to be developed
through consultation with state wildlife agencies to
avoid or mitigate impacts on several state-listed
species and species of concern, including the longtailed salamander; Environmental Condition 39
further notes that NJDEP recommends PennEast
utilize New Jersey’s “Utility Right-of-Way No-Harm
Best Management Practices” when preparing these

336

Id. at P 147.

337

Id.

338

Id.

339

Final EIS at 4-124 – 4-139.

JA 320
measures. 340 The Certificate Order further adopts as
Environmental Condition 38 the Final EIS’
recommended mitigation measure 43, which requires
PennEast to consult with NJDEP regarding any
timing and/or activity restrictions that should be
applied when project construction occurs within 300
feet of streams containing wood turtles. 341 As noted in
the Certificate Order, the Final EIS identified
procedures that have been used in similar projects for
the avoidance of impacts on rare plants; the
Certificate Order further states that PennEast will
adhere
to
NJDEP’s
recommendations
and
requirements regarding state-listed and state species
of concern. 342
11. Safety and Property Impacts
148. Lower Saucon and Delaware Riverkeeper
assert that the Commission “completely failed” to take
a hard look at the PennEast Pipeline’s safety risks and
the consequences of potential accidents to residents,
property, and resources along the pipeline route. 343
Delaware Riverkeeper, in a verbatim recitation of its
comments on the Draft EIS, asserts that the
Commission “diminish[es]” the threats posed by
natural gas pipelines, as well as the impacts to the

Certificate Order, 162 FERC ¶ 61,053, Appendix A,
Environmental Condition 39.
340

341 See Final EIS at 4-131; Certificate Order, 162 FERC ¶ 61,053
at Appendix A, Environmental Condition 38.
342 See Final EIS at 4-139; Certificate Order, 162 FERC ¶ 61,053
at P 138.
343

Lower Saucon’s Request for Rehearing at 37-39.

JA 321
public. 344 Lower Saucon further states that the
Commission “provided only industry-wide, generic”
information. 345 In addition, Lower Saucon argues that
the Final EIS failed to adequately consider the risks
and consequences associated with a physical or cyber
terrorist attack. 346
149. Contrary to petitioners’ assertions, the Final
EIS and the Certificate Order fully considered the
safety risks associated with the project, including
specific risks along the project route. As explained in
the Final EIS, pipeline safety standards are mandated
by regulations adopted by the Department of
Transportation’s (DOT) Pipeline and Hazardous
Materials Safety Administration (PHMSA). 347 DOT
has the exclusive authority to promulgate federal
safety standards used in the transportation of natural
gas. 348 As the Final EIS further specifies, PennEast
has designed and will construct, operate, and
maintain the project in accordance with DOT’s
pipeline safety regulations. 349
150. The Final EIS and Certificate Order’s safety
analysis was not, as Lower Saucon characterizes it,
generic, nor did it fail to evaluate the risks or
344

Delaware Riverkeeper’s Request for Rehearing at 155-156.

345

Lower Saucon’s Request for Rehearing at 42-43.

346

Id. at 39-43.

347

Final EIS at 4-301.

See FERC Memorandum of Understanding Between the
Department of Transportation and FERC Regarding Natural Gas
Transportation
Facilities
(Jan.
15,
1993),
http://www.ferc.gov/legal/mou/mou-9.pdf.

348

349

See Final EIS at 4-304.

JA 322
consequences of a pipeline accident, as Delaware
Riverkeeper alleges. 350 The Final EIS utilized data
obtained from the PHMSA repository of thousands of
miles of natural gas pipeline throughout the United
States. In addition, Appendix G-21 of the Final EIS
provided a list of all highconsequence areas 351 along
the project route, delineated by milepost. Both the
Certificate Order and the Final EIS state that highconsequence areas are defined based on where a
pipeline accident could cause considerable harm to
people and their property; PHMSA further requires
pipeline operators to apply its integrity management
program 352 to sections of the pipeline within highconsequence areas. 353 As noted in the Certificate
Order, PennEast designed its pipeline route to
minimize risks to “local residents and vulnerable
locations/populations”, and followed federal safety
standard regarding pipeline spacing, and will follow
federal safety standards regarding pipeline class
locations. 354 In addition to these safety measures,
PHMSA requires PennEast to establish an emergency
response plan that would include procedures to
Lower Saucon’s Request for Rehearing at 38, Delaware
Riverkeeper’s Request for Rehearing at 155-156.
350

For more information on high consequence areas, see 49 C.F.R.
§ 192.903 (2017) (defining high consequence areas); 49 C.F.R.
§ 192.905 (2017) (discussing how pipeline operators may identify
high consequences areas).

351

352 For more information on pipeline integrity management in
high consequence areas, see 49 C.F.R. § 195.492 (2017).
353 See Final EIS at 4-302 – 4-303; Certificate Order, 162 FERC
¶ 61,053 at P 190.
354

Certificate Order, 162 FERC ¶ 61,053 at P 190.

JA 323
minimize the hazards in a natural gas pipeline
emergency. 355 A required element of the emergency
management plan is a method for evacuating
individuals and rerouting traffic as necessary to avoid
any area that is deemed to be unsafe. Accordingly, we
find that the safety risks of the PennEast Project were
addressed adequately.
151. The Final EIS fully considered, to the extent
possible and practicable, the risks of terrorism
associated with the PennEast Project. The Final EIS
stated that PennEast, in accordance with DOT
surveillance requirements, will incorporate air and
ground inspections into its inspection program, and
will implement security measures including secure
fencing around aboveground facilities. 356 However the
Final EIS ultimately concludes that while the
combined efforts of the Commission, the DOT, and the
Department of Homeland Security continue to address
the risk of terrorism on the PennEast Project, and
other natural gas infrastructure, the possibility of
terrorism is unpredictable, and therefore not a basis
to deny PennEast a certificate. We affirm this finding.
12. Violation of Standard Construction
Practices
152. Delaware Riverkeeper asserts that the Final
EIS improperly assumes that the project will be
“constructed in full compliance with all applicable
laws” and Delaware Riverkeeper states that “the
reality of pipeline construction” is that “construction
is fraught with environmental violations” resulting in
355

See Final EIS at 4-304; see also 49 C.F.R. § 192.615 (2017).

356

Final EIS at 4-311.

JA 324
potentially significant environmental impacts that the
Final EIS ignores. 357 Delaware Riverkeeper points to
instances of noncompliance with environmental laws,
standard
construction
practices,
and
best
management practices during the construction of
Tennessee Gas Pipe Line Company’s 300 Line
Upgrade and Northeast Upgrade projects, as well as
Columbia Gas Transmission’s Line 1278 project, in an
attempt to demonstrate that pipeline construction
“results in unavoidable, unmitigated and irreparable
harm[.]” 358 Delaware Riverkeeper further claims that
the Commission, with knowledge of these violations,
“turn[s] a blind eye”. 359
153. The Commission takes matters of noncompliance seriously, but such matters must be
addressed in the proper venue. The non-compliance
issues that Delaware Riverkeeper raises here involve
completely different proceedings and are properly
addressed in those proceedings, not here. It is often
the case during construction that circumstances may
be encountered in the field that are slightly different
from what was expected. For this reason, the
environmental conditions in most Commission orders
prescribe the criteria under which changes can be
made.
154. We find that the conditions imposed in the
Certificate Order, viewed as a whole, are sufficient to
ensure PennEast’s compliance with the requirements
of the Certificate Order. The EIS notes PennEast’s
357

Delaware Riverkeeper’s Request for Rehearing at 108.

358

Id. at 110.

359

Id.

JA 325
environmental inspection program, which will consist
of two environmental inspectors (EIs) assigned to each
of the four construction spreads, as well as a thirdparty monitoring oversight program to ensure
implementation of appropriate measures to minimize
impacts and ensure compliance with federal, state,
and local permit stipulations. The EIs have the
authority to stop work activities if any environmental
conditions, including those in PennEast’s permits and
the Certificate Order, are violated. The third-party
monitors will represent the Commission, and be onsite
daily during construction and restoration. 360
Environmental Condition 3 requires the EIs be
trained
in
the
proper
implementation
of
environmental
mitigation
measures,
and
Environmental Condition 7 authorizes the EIs to
order the correction of acts violating the
environmental conditions of the Certificate Order, and
requires the EIs to maintain status reports, and
document compliance with the environmental
conditions and/or permit requirements of the
Certificate Order, and any other federal, state, or local
permits or authorizations. We impose sanctions and/or
penalties for non-compliance on a case-bycase basis in
order to tailor our remedies to the specific facts
presented (e.g., degree of non-compliance and
resulting impacts). If PennEast fails to comply with
the conditions of the order, it is subject to sanctions
and the potential assessment of civil penalties. 361

360

Final EIS at 2-16 – 2-17.

361

See 15 U.S.C. § 717t-1(c) (2012).

JA 326
13. Water Resources, Well Safety, and
Wetland Impacts
155. NJDEP states that the Certificate Order
“inappropriately conflates mitigation requirements
with minimization and avoidance requirements” and
improperly relies on mitigation to ensure there will be
no significant adverse impacts on wetlands. 362
Consequently, NJDEP argues that the Certificate
Order should be rescinded and a supplemental EIS be
issued, which considers alternatives that avoid
impacts on wetlands. Delaware Riverkeeper argues
that the Final EIS contained multiple deficiencies
regarding the size and quality of wetlands that could
be impacted by the project and failed to examine the
functions and values of wetlands. 363 Therefore,
Delaware Riverkeeper argues that the Commission
could not determine the appropriate scope of
mitigation necessary to compensate for impacts on
wetlands. 364 In addition, NJDEP states that if the
water needs for project construction exceed 100,000
gallons per day, PennEast will be required to obtain
either a short term water use permit or a dewatering
permit. 365 NJDEP contends that the Certificate Order
should have required that PennEast obtain any
necessary water use permit before beginning
construction. 366 NJDEP and Hopewell further assert
362

NJDEP’s Request for Rehearing at 4 and 28-31.

Delaware Riverkeeper’s Request for Rehearing at 119-121 and
159-164.
363

364

Id.

365

See N.J. Admin Code § 7:19-1.1 et seq. (2017).

366

NJDEP’s Request for Rehearing at 47.

JA 327
that in order to ensure drinking water safety,
additional post-construction well-monitoring should
be required. 367 Hopewell further requests that the
Commission require PennEast to comply with
Hopewell’s tree removal permit process, in order to
protect Hopewell’s groundwater supply, as well as
compliance with Hopewell’s regulation of disturbances
to a waterbody’s steep slopes. 368
156. Contrary to Delaware Riverkeeper’s assertions,
the Final EIS described the features of the various
types of wetlands the PennEast Project would cross,
as well as the important role they play within the
ecosystem. 369 The Final EIS notes, however, that
because PennEast had not been granted survey access
for the project route, wetland delineations were
incomplete. 370 In order to ensure PennEast has a
precise determination of wetland boundaries with
which to apply proper wetland construction and
restoration methods, the Commission requires
PennEast to prepare a wetlands delineation report,
prepared in accordance with the U.S. Army Corps of
Engineers (USACE) and all appropriate state
agencies. 371 PennEast will also incorporate several
measures to avoid and reduce the impacts project
construction will have on wetlands. The Final EIS
notes that PennEast would incorporate measures
367

Id. at 45-46; Hopewell’s Request for Rehearing at 47-48.

368

Hopewell’s Request for Rehearing at 44-47.

369

Final EIS at 4-77 – 4-80.

370

Id. at 4-77

371 Certificate Order, 162 FERC ¶ 61,053 at Appendix A,
Environmental Condition 30.

JA 328
including minimizing the time topsoil is segregated
during open trench construction, the utilization of
timber mats to minimize disturbances to wetlands,
and minimizing erosion during trench dewatering. 372
The Certificate Order further requires PennEast to
file a completed Wetland Restoration Plan in
consultation with the USACE and state agencies, and
provide documentation of this consultation. 373 Due to
the avoidance, mitigation and restoration measures
proposed by PennEast and required by the
Commission, the Certificate Order appropriately
supported the Final EIS’ conclusion that impacts on
wetlands will be reduced to less than significant
levels, and we affirm this conclusion. 374
157. Environmental Condition 28 requires PennEast
to file, prior to construction, its final hydrostatic test
plan, and states that the plan must identify the final
hydrostatic test water sources and discharge
locations, provide the appropriate documentation
showing that all necessary permits (which would
include, if necessary, short term water use permits
and/or dewatering permits) have been obtained, and
provide the approximate water volume that will be
withdrawn and discharged in project-total and daily
amounts. 375 The Certificate Order further notes that
PennEast has stated that its hydrostatic testing
program will comply with all state- and Delaware
River Basin Commission-issued water withdrawal
372

Final EIS at 4-81.

373

Id. Appendix A, Environmental Condition 32.

374

Id. P 136.

375

Id. Appendix A, Environmental Condition 28.

JA 329
and National Pollutant Discharge Elimination System
permits. 376 To protect drinking water safety,
Environmental Condition 23 requires PennEast to
file, prior to construction, a final Well Monitoring Plan
that addresses comments from stakeholders, and
includes pre- and post-construction monitoring of
wells. 377
158. The Final EIS explains that clearing vegetation
(including tree removal) would enhance sedimentation
and remove the natural filtration layer provided by
the vegetation, resulting in enhanced runoff in the
disturbed areas, the potential for changes in
groundwater percolation rates. 378 However, the Final
EIS determines that these impacts would be localized
and
temporary,
and
minimized
with
the
379
implementation of the E&SCP.
The Final EIS
ultimately determined, and the Commission agreed,
that construction and operation of the project would
not result in adverse, long-term impacts on
groundwater resources 380 Hopewell correctly notes
that Environmental Condition 27 requires PennEast
to revise and submit its E&SCP for review and
approval by Commission staff, which will include a
“complete review of waterbody crossings with steep
slopes” and “site-specific measures to address erosion,
sedimentation,
and
restoration
of
steep

376

Id. P 122.

377

Id. Appendix A, Environmental Condition 23.

378

Final EIS at 4-43.

379

Id.

380

Id. at 4-43; Certificate Order, 162 FERC ¶ 61,053 at P 131.

JA 330
embankments.” 381 Thus, the Final EIS determined
that with the implementation of the E&SCP, impacts
on steep slopes would be appropriately mitigated.
14. Requests
for
Additional
Environmental Conditions
159. NJDEP requests that the Commission modify
and add numerous environmental conditions,
including conditions pertaining to well-monitoring,
water use, state-listed threatened and endangered
species, and reforestation mitigation measures. 382
160. We need not do so, because the Certificate
Order and its Environmental Conditions address
NJDEP’s concerns. For example, NJDEP requests
that the Commission include environmental
conditions that address state threatened and
endangered species. 383 Environmental Condition 39
requires PennEast to consult with state wildlife
agencies to avoid and/or mitigate state-listed species
and species of concern. 384 Environmental Condition 39
further notes that NJDEP has recommended
PennEast utilize the state’s “Utility Right-of Way NoHarm Best Management Practices” when developing
measures. Similarly, NJDEP requests that the
Commission include environmental conditions to
avoid impacts on state-owned or preserved lands. 385
Id., Appendix A, Environmental Condition 23, see also Final
EIS at 4-57 – 4-58.
381

382

NJDEP’s Request for Rehearing at 9-10.

383

Id. at 9.

384 Certificate Order, 162 FERC ¶ 61,053 at Appendix A,
Environmental Condition 39.
385

NJDEP’s Request for Rehearing at 10.

JA 331
However, both the Final EIS and Certificate Order
determined that potential visual impacts would be
mitigated through the implementation of PennEast’s
E&SCP, FERC’s Plan and Procedures, and other
construction
plans. 386
Thus,
an
additional
environmental condition addressing visual impacts is
not necessary. As a final example, NJDEP requests a
condition requiring a “firm time frame” for
revegetation, including on stateowned or statepreserved land, 387 however, as discussed in greater
detail above, although PennEast will adhere to the
Commission’s Plan for revegetation, requiring a firm
timeframe for revegetation is impractical. 388 Thus, the
concerns NJDEP wishes to resolve through the
addition of modification of environmental conditions
have already been addressed in the Final EIS or the
Certificate Order. As indicated above, NJDEP has the
authority to include environmental conditions in its
respective state permits and authorizations.
15. Additional Delaware Riverkeeper
Arguments
a.

Socioeconomics

161. Delaware Riverkeeper asserts that “FERC’s
consideration of economic benefits is so misleading,
inaccurate and deficient as to be a meaningless
element of the EIS…” and particularly alleges that the
Final EIS “ignores the economic harms inflicted by
construction and operation of PennEast.” 389 Delaware
386

Certificate Order, 162 FERC ¶ 61,053 at P 162.

387

NJDEP’s Request for Rehearing at 10.

388

Supra P 144.

389

Delaware Riverkeeper’s Request for Rehearing at 51.

JA 332
Riverkeeper’s argument fails to cite to any specific
page of the Final EIS, or Certificate Order, as proof of
the supposed shortcomings.
162. Contrary to Delaware Riverkeeper’s assertion,
the Final EIS identifies and quantifies the impacts of
constructing and operating the project on towns and
counties in the vicinity of the project. The Final EIS
discusses not only the employment the PennEast
Project will generate, but the property value impacts
of PennEast, as well as PennEast’s commitment to
reimburse landowners and producers for the loss of
the use of their property as a result of the project. The
Final EIS and Certificate Order further discuss the
project’s potential adverse impacts on recreation and
tourism. 390 Thus, we deny Delaware Riverkeeper’s
request for rehearing.
b.

Delaware
River
Basin
Commission’s Legal Authority

163. Delaware Riverkeeper, without reference to
specific sections of the Final EIS or Certificate Order,
states that “[t]he mission and authority ascribed to the
[Delaware River Basin Commission] in the [final] EIS
is flagrantly incorrect and misleading.” 391 Delaware
Riverkeeper further asserts that the Delaware River
Basin Commission’s authority is “far broader than
asserted . . . ” by the Commission, and that this “fails
to ensure full and accurate information has been
provided to the public . . . . ” 392
390 See Final EIS section 4.8.2, Socioeconomics; see also
Certificate Order, 162 FERC ¶ 61,053 at PP 164-167.
391

Delaware Riverkeeper’s Request for Rehearing at 111.

392

Id.

JA 333
164. Delaware Riverkeeper’s vague assertions of a
failure by the Commission to “give due regard to [the
Delaware River Basin Commission’s] authority” fail to
point to any specific inaccuracy in either the Final EIS
or the Certificate Order. Table 1.3-1 in the Final EIS
lists the Delaware River Basin Commission as among
the agencies that PennEast must obtain permits and
approvals from, namely a water withdrawal
approval. 393 The Final EIS further notes that because
the Delaware River Basin Commission itself stated
that its permits are not federal actions for the
purposes of NEPA review, additional analysis of the
Delaware River Basin Commission’s authority was
not necessary. Therefore, as the Final EIS correctly
stated the Delaware River Basin Commission’s role
regarding its authority to issue PennEast a water
withdrawal permit, and Delaware Riverkeeper does
not state with specificity any shortcoming in this
determination, we deny Delaware Riverkeeper’s
request for rehearing.
c.

Final EIS Inaccuracies

165. Delaware Riverkeeper asserts that the
environmental impacts of the PennEast Project are
inaccurately reported or are otherwise incomplete.
Delaware Riverkeeper’s argument consists of over 20
pages 394 of bulleted accusations that are vague and
unsupported and without citation to the Final EIS or
to the Certificate Order. In no instance does Delaware
Riverkeeper provide additional information that
would enable the Commission to respond to its claims.
393

Id. at 1-12, 4-62.

394

See id. at 164-188.

JA 334
The Commission orders:
(A) The requests for rehearing filed by Jacqueline
Evans, Home Owners Against Land Taking—
PennEast, Michael Spille, The Township of Hopewell,
Kingwood Township, Lower Saucon Township, the
New Jersey Department of Environmental Protection
and Delaware and Raritan Canal Commission, the
New Jersey Division of Rate Counsel, Sierra Club—
New Jersey, and the New Jersey Conservation
Foundation—Stony Brook Millstone Watershed
Association are denied.
(B) The requests for rehearing filed by New Jersey
State Senators Kip Bateman and Shirley Turner, and
New Jersey State Assemblyman Reed Gusciora are
rejected.
(C) Food and Water Watch’s February 21, 2018
request for rehearing, the County of Mercer’s
February 27, 2018 request for rehearing, and
Sourland Conservancy’s March 15, 2018 request for
rehearing are rejected as untimely.
(D) The requests for rehearing filed by Elizabeth
Balogh, Sari DeCesare, Delaware Riverkeeper
Network, Linda and Ned Heindel, Scott Hengst,
Fairfax Hutter, Kelly Kappler, the City of
Lambertville, Karen Mitchell, the New Jersey Natural
Lands Trust, Elizabeth Peer, the Pipeline Safety
Coalition, Laura Pritchard, Roblyn Rawlins, Sarah
Seier, Sierra Club, and the Washington Crossing
Audubon Society are dismissed as deficient.
(E) PennEast’s March 7, 2018 answer, and New
Jersey Conservation Foundation—Stony Brook
Millstone Watershed Association’s March 15, 2018
response are rejected.

JA 335
(F) The requests for stay filed by Delaware
Riverkeeper Network, Hopewell Township, Kingwood
Township, Lower Saucon Township, Michael Spille,
New Jersey Conservation Foundation—Stony BrookMillstone Watershed Association, and the New Jersey
Department of Environmental Protection are
dismissed as moot.
By the Commission. Commissioner LaFleur is
concurring in part and dissenting in part with a
separate statement attached. Commissioner Glick
is dissenting with a separate statement attached.
(SEAL)
Nathaniel J. Davis, Sr.,
Deputy Secretary.

JA 336
LaFLEUR, Commissioner, concurring in part and
dissenting in part:
Today’s order denies rehearing of the order
authorizing the construction and operation of the
PennEast Project, a natural gas pipeline from Luzerne
County, Pennsylvania to Mercer County, New Jersey. 1
I supported the Commission’s original authorization of
the project, finding that on balance, the project was in
the public interest. 2 While I continue to believe the
PennEast Project is in the public interest, I am
compelled to dissent in part today because I think the
Commission’s policy approach to certain aspects of its
environmental review of the PennEast Project is
fundamentally flawed. For the reasons set forth below,
I am concurring in part and dissenting in part.
As I explained in my concurrence in Broad Run, 3
despite my ongoing disagreement with the
Commission’s approach to its environmental review of
pipeline projects, I have attempted to address each
case based on the facts in the record and the governing
law as I read it. I do believe that many pipelines are
needed and in the public interest, and I have been
focusing my efforts on determining if, and how, I can
support
these
projects
despite
my
strong
disagreement on the Commission’s policy and practice
on addressing the climate change impact of pipeline
projects. This has become particularly difficult in
PennEast Pipeline, LLC, 164 FERC ¶ 61,098 (2018) (Rehearing
Order).
1

2 PennEast Pipeline, LLC, 162 FERC ¶ 61,053 (2018) (LaFleur,
Comm’r, concurring) (Certificate Order).

Tennessee Gas Pipeline Company, 163 FERC ¶ 61,190 (2018)
(LaFleur, Comm’r, concurring) (Broad Run).

3

JA 337
recent months since the Sabal Trail remand order, 4
and the subsequent decision in New Market 5 to change
our policy on disclosure and consideration of
downstream and upstream GHG emissions in our
pipeline review.
In this case, I supported the original
authorization of the PennEast Project. I found that the
record demonstrated sufficient need for the proposed
project, and I carefully considered all of the
environmental impacts in this case, balanced them
against economic need, and ultimately concluded the
project was in the public interest. While I still believe
that to be the case, I must nonetheless dissent in part
because I fundamentally disagree with the majority’s
approach to its consideration of climate change
impacts as part of our environmental review of the
proposed project.
At the time the Commission originally authorized
the PennEast Project, the Commission’s approach to
evaluating downstream GHG emissions was largely
reliant on full-burn estimates of downstream GHG
emissions for proposed projects. 6 The Commission
Florida Southeast Connection, LLC, 162 FERC ¶ 61,233 (2018)
(LaFleur, Comm’r, dissenting in part) (Sabal Trail).
4

Dominion Transmission Inc., 163 FERC ¶ 61,128 (2018)
(LaFleur, Comm’r, dissenting in part) (New Market).

5

Since late 2016, the Commission has included increasing
amounts of information on downstream GHG emissions in our
pipeline orders. Initially, the Commission estimated downstream
GHG emissions by assuming the full combustion of the total
volume of gas being transported by the project, which was what
was done in this case. Commission orders that included the fullburn calculation. E.g., Columbia Gas Transmission, LLC, 158
FERC ¶ 61,046, at P 120 (2017); Algonquin Gas Transmission,

6

JA 338
included such analysis in the Certificate Order. 7 While
that approach has its limitations, I have viewed the
full-burn estimate of downstream GHG emissions as
important to our environmental review, 8 and
necessary for our public interest determination under
NEPA.
While I support the quantification and disclosure
of the upper-bound estimate of GHG emissions, I
strongly disagree with the majority’s continued
refusal to ascribe significance to this identified
environmental impact. I believe that the majority’s
stated approach for determining the significance of
those impacts does not comply with NEPA. The
majority once again concludes, “it cannot find a
suitable method to attribute discrete environmental
LLC, 158 FERC ¶ 61,061, at P 121 (2017); Rover Pipeline LLC,
158 FERC ¶ 61,109, at P 274 (2017); Tennessee Gas Pipeline Co.,
L.L.C., 158 FERC ¶ 61,110, at P 104 (2017); Nat'l Fuel Gas
Supply Corp., 158 FERC ¶ 61,145, at P 189 (2017); Dominion
Carolina Gas Transmission, LLC, 158 FERC ¶ 61,126, at P 81
(2017); Nexus Gas Transmission, LLC, 160 FERC ¶ 61,022, at P
173 (2017); Atlantic Coast Pipeline, LLC, 161 FERC ¶ 61,042, at
P 298 (2017); Millennium Pipeline Co., L.L.C., 161 FERC
¶ 61,229, at P 164 (2017); Florida Southeast. Connection, LLC, c,
at P 22 (2018); DTE Midstream Appalachia, LLC, 162 FERC
¶ 61,238, at P 56 (2018).
7

Certificate Order at P 208.

As I have said repeatedly, this upper-bound GHG quantification
and analysis is the bare minimum we should be doing as part of
our environmental review of pipeline projects when we do not
have more evidence in the record to calculate the gross and net
GHG emissions. See Broad Run, 163 FERC ¶ 61,190 (LaFleur,
Comm’r, concurring); Millennium Pipeline Company, L.L.C., 164
FERC ¶ 61,039 (2018) (LaFleur, Comm’r, concurring in part and
dissenting in part).
8

JA 339
effects to GHG emissions.” 9 The majority has made
this same argument in a number of recent pipeline
orders to justify its conclusion that it cannot
determine whether a particular quantity of GHG
emissions poses a significant impact on the
environment. 10
Yet, the majority appears to reframe its approach
for
considering
downstream
GHG
impacts,
notwithstanding the language cited above, by
claiming that it has been evaluating the impacts of
downstream GHG emissions all along by using a
qualitative approach. 11 The majority suggests that
quantifying the downstream GHG emissions,
comparing the project’s emission to the regional and
nationwide emissions inventory, and reciting generic
9

Rehearing Order at P 117.

Columbia Gas Transmission, LLC, 164 FERC ¶ 61,036, at P 57
(2018) (“no standard methodology, including the Social Cost of
Carbon tool, exists to determine how a project’s contribution to
greenhouse gas emissions would translate into physical effects on
the environment for the purposes of evaluating the project’s
impacts on climate change. In the absence of an accepted
methodology, the Commission is unable to make a finding as to
whether a specific quantify of greenhouse gas emissions presents
a significant impact on the environment […].”); Broad Run, 163
FERC ¶ 61,190 at P 67 (“We continue to find that no standard
methodology exists. Without an accepted methodology, the
Commission cannot make a finding whether a particular
quantity of GHG emissions poses a significant impact on the
environment, whether directly or cumulatively with other
sources, and how that impact would contribute to climate
change.”). See also New Market, 163 FERC ¶ 61,128 at P 67;
Florida Southeast Connection, L.L.C., 162 FERC ¶ 61,233, at PP
26-27, 30-51 (2018).
10

11

Rehearing Order at P 118.

JA 340
information acknowledging that GHGs contribute to
climate change, satisfies our obligations to under
NEPA. 12 I do not agree that this is sufficient. Under
NEPA, when evaluating the significance of a
particular impact, the Commission must consider both
context 13 and intensity. 14 By evaluating how the
emissions from the PennEast Project would impact
the regional 15 and nationwide emissions inventories,
the majority contends it provides context for the
environmental impact, but, even assuming that is
true, the analysis does not address the intensity of the
impact.
I recognize that determining the severity of a
particular impact would require thoughtful and
complex analysis, and I am confident that the
Commission could perform that analysis if it chose to
do so; indeed, we routinely grapple with complex
issues in many other areas of our work. 16 In fact, this
12

Rehearing Order at P 120.

40 C.F.R. § 1508.27(a) (2017) (Context means “that the
significance of an action must be analyzed in several contexts
such as society as a whole (human, national), the affected region,
the affected interests and the locality.”).
13

40 C.F.R. § 1508.27(b) (2017) (Intensity refers to “the severity
of the impact”).
14

The 22 states included in the regional GHG emissions analysis
include: Alabama, Arkansas, Delaware, Florida, Georgia, Illinois,
Indiana, Kentucky, Louisiana, Maryland, Mississippi, Missouri,
New Jersey, New York, North Carolina, Ohio, Pennsylvania,
South Carolina, Tennessee, Texas, Virginia, and West Virginia. I
find that this “regional” comparison provides little context for a
project that based in Pennsylvania and New Jersey.
15

Many of the core areas of the Commission’s work have required
the development of analytical frameworks, often a combination

16

JA 341
is precisely the use for which the Social Cost of Carbon
was developed—it is a scientifically-derived metric to
translate tonnage of carbon dioxide or other GHGs to
the cost of long-term climate harm. 17 However, the
majority rejects the use of the Social Cost of Carbon as
of quantitative measurements and qualitative assessments, to
fulfill the Commission’s responsibilities under its broad
authorizing statutes. This work regularly requires that the
Commission exercise judgment, based on its expertise, precedent,
and the record before it. For example, to help determine just and
reasonable returns on equity (ROEs) under the Federal Power
Act, NGA, and Interstate Commerce Act, the Commission
identifies a proxy group of comparably risky companies, applies
a discounted cash flow method to determine a range of potentially
reasonable ROEs (i.e., the zone of reasonableness), and then
considers various factors to determine the just and reasonable
ROE within that range. See also, e.g., Promoting Transmission
Investment through Pricing Reform, Order No. 679, FERC Stats.
& Regs. ¶ 31,222 (2006), order on reh’g, Order No. 679-A, FERC
Stats. & Regs. ¶ 31,236 (2006), order on reh’g, 119 FERC ¶ 61,062
(2007) (establishing Commission regulations and policy for
reviewing requests for transmission incentives); Transmission
Planning and Cost Allocation by Transmission Owning and
Operating Public Utilities, Order No. 1000, FERC Stats. & Regs.
¶ 31,323 (2011), order on reh’g, Order No. 1000- A, 139 FERC
¶ 61,132, order on reh’g and clarification, Order No. 1000-B, 141
FERC ¶ 61,044 (2012), aff’d sub nom. S.C. Pub. Serv. Auth. v.
FERC, 762 F.3d 41 (D.C. Cir. 2014) (requiring, among other
things, the development of regional cost allocation methods
subject to certain general cost allocation principles); BP Pipelines
(Alaska) Inc., Opinion No. 544, 153 FERC ¶ 61,233 (2015)
(conducting a prudence review of a significant expansion of the
Trans Alaska Pipeline System).
See, e.g., Environmental Protection Agency Fact Sheet—Social
Cost
of
Carbon,
available
at
https://www.epa.gov/
sites/production/files/2016-12/documents/social_cost_of_carbon_
fact_sheet.pdf; see also, e.g., Sabal Trail, 162 FERC ¶ 61,233
(LaFleur, Comm’r, dissenting in part).
17

JA 342
a method for meaningfully measuring climate change
impact, noting “several of the components of its
methodology are contested […].” 18 I continue to
disagree with the technical and policy arguments
relied upon by the majority to attack the usefulness of
the Social Cost of Carbon, many of which I addressed
in my dissent on the Sabal Trail remand order. 19
Finally, the majority cites recent comments from
the Environmental Protection Agency (EPA) in our
Certificate Policy Statement, Notice of Inquiry docket
generally explaining that the Social Cost of Carbon is
not appropriate for “project-level decision making.” 20 I
note that in prior comments submitted by the EPA in
the same docket, the EPA offered specific views on how
the Social Cost of Carbon can be utilized in our
environmental reviews. The EPA specifically
concludes that “even absent a full [benefitcost
analysis], [Social Cost of Carbon and other greenhouse
gases] estimates may be used for project analysis
when FERC determines that a monetary assessment
of impacts associated with the estimated net change
in GHG emissions provides useful information in its
environmental
review
or
public
interest
determination.” 21 As I have said repeatedly, I believe
the Social Cost of Carbon can meaningfully inform the
Commission’s decision-making to reflect the climate
18

Rehearing Order at P 122.

19 Sabal Trail, 162 FERC ¶ 61,233 (LaFleur, Comm’r, dissenting
in part).
20 EPA, Comments, Docket No. PL18-1-000 at 2 (filed July 25,
2018).
21 EPA, Comments, Docket No. PL18-1-000 at 4 (filed June 21,
2018).

JA 343
change impacts of an individual project, and these
comments support that position.
For all of these reasons, I concur in part and
dissent in part.
_______________________
Cheryl A. LaFleur
Commissioner

JA 344
GLICK, Commissioner, dissenting:
Today’s order denies rehearing of the
Commission’s decision to authorize the PennEast
Project (Project) under section 7 of the Natural Gas
Act (NGA). 1 I dissent from the order because—for
several reasons—it fails to comply with our
obligations under the NGA and the National
Environmental Policy Act (NEPA). 2 First, I disagree
with the Commission’s conclusion that the Project is
needed, which is based only on the existence of
precedent agreements, including contracts with the
project developers’ affiliates accounting for 74 percent
of the Project’s subscribed capacity. 3 Second, I
disagree with the Commission’s conclusion that the
Final Environmental Impact Statement (Final EIS)
adequately assessed the environmental harms caused
by the Project. The Commission, in this proceeding,
determined that the Project will be environmentally
acceptable even though the record lacks information
that is critical to assessing the Project’s
environmental impact. The absence of this
information should have prevented the Commission
from concluding that the Project was in the public
interest—a fatal flaw that is not cured merely by
designating the certificate “conditional.” Finally, I
disagree with the Commission’s assertion that it does
not need to consider the harm from the Project’s
1

15 U.S.C. § 717f (2012).

2 National Environmental Policy Act of 1969, Pub. L. No. 91-190,
83 Stat. 852.

PennEast Pipeline Company, LLC, 164 FERC ¶ 61,098, at P 20
(2018) (Rehearing Order); PennEast Pipeline Company, LLC, 162
FERC ¶ 61,053, at P 6 (2018) (Certificate Order).

3

JA 345
contribution to climate change. While the Commission
quantified the Project’s upstream and downstream
greenhouse gas (GHG) emissions, the Commission
nonetheless maintains that these emissions are not
reasonably foreseeable and that it is not obligated to
determine whether the resulting impact from climate
change is significant. 4 Today’s order simply is not the
product of reasoned decisionmaking.
I.

The Commission Fails to Demonstrate That
the Project Is Needed

Section 7 of the NGA requires that, prior to
issuing a certificate for new pipeline construction, the
Commission must find both that the pipeline is
needed, and that, on balance, the pipeline’s benefits
outweigh its harms. In today’s order, the Commission
reaffirms its exclusive reliance on the existence of
precedent agreements with shippers to conclude that
the Project is needed. 5 While PennEast’s affiliates
hold 74 percent of the pipeline’s subscribed capacity, 6
the Commission rejects the notion that it is necessary

Rehearing Order, 164 FERC ¶ 61,098 at PP 105, 107, 109, 111,
118-121.
4

Rehearing Order, 164 FERC ¶ 61,098 at P 20 (“Where, as here,
it is demonstrated that specific shippers have entered into
precedent agreements for project service, the Commission places
substantial reliance on those agreement to find that the project
is needed.”).
5

6 Certificate Order, 162 FERC ¶ 61,053 at P 6 (explaining that
six of the 12 shippers are affiliates of PennEast Pipeline
Company, subscribing to 735,000 dekatherms (Dth) per day, or
74 percent of the 990,000 Dth per day of subscribed capacity).

JA 346
to look behind precedent agreements in any
circumstance “regardless of the affiliate status.” 7
As I have stated previously, 8 precedent
agreements are one of several types of evidence that
can be valuable in assessing the market demand for a
pipeline. However, contracts among affiliates are less
probative of that need because they are not necessarily
the result of an arms-length negotiation. Indeed, the
Commission itself has recognized that “[u]sing
contracts as the primary indicator of market support
for the proposed pipeline project also raises additional
issues when the contracts are held by pipeline
affiliates.” 9 I could not agree more. It does not take
much imagination to understand why an affiliate
shipper might be interested in contracting with a
related pipeline developer for capacity that may not be
needed, such as the parent company’s prospect of
earning a 14 percent return on equity on an

Rehearing Order, 164 FERC ¶ 61,098 at P 16 (further
explaining that “it is current Commission policy to not look
beyond precedent or service agreements to make judgments
about the needs of individual shippers”).
7

Certificate Order, 162 FERC ¶ 61,053 (Glick, Comm’r,
dissenting); see also Spire STL Pipeline LLC, 164 FERC ¶ 61,085,
at 1-4 (2018) (Glick, Comm’r, dissenting); NEXUS Pipeline
Company, L.L.C., 164 FERC ¶ 61,054, at 2-4 (2018) (Glick,
Comm’r, dissenting); Mountain Valley Pipeline, LLC, 163 FERC
¶ 61,197, at 2-4 (2018) (Glick, Comm’r, dissenting in part).
8

9 Certification of New Interstate Natural Gas Pipeline Facilities,
88 FERC ¶ 61,227, at 61,744 (1999) (Certificate Policy
Statement), clarified, 90 FERC ¶ 61,128, further clarified, 92
FERC ¶ 61,094 (2000).

JA 347
investment, 10 or increased profits earned by an
affiliated electric generator if new gas pipeline
capacity frees up congestion that has been restraining
gas and electric prices in a particular zone.
I agree with the protesting parties 11 that affiliate
precedent agreements cannot be sufficient in and of
themselves to demonstrate that a pipeline is needed.
In such cases, the Commission must review additional
evidence in the record. As the Certificate Policy
Statement explains, this evidence might include,
among other things, “demand projections, potential
cost savings to consumers, or comparison of projected
demand with the amount of capacity currently serving
the market.” 12 Yet, the Commission dismisses any
need to consider evidence beyond precedent
agreements, stating that it is not current policy to look
beyond the “market need reflected by the applicant’s
contract with shippers.” 13 That conclusion belies the
Commission’s assertion that it evaluates individual
projects based on the evidence of need presented in
each proceeding. 14 If precedent agreements are the
only evidence it seriously considers, it cannot
simultaneously claim to have given the record

Rehearing Order, 164 FERC ¶ 61,098 at P 34; Rate Counsel’s
Request for Rehearing at 9-10.
10

Rate Counsel’s Request for Rehearing at 9-10; New Jersey
Conservation Foundation’s Request for Rehearing at 26.
11

12

Certificate Policy Statement, 88 FERC at 61,747.

13

Rehearing Order, 164 FERC ¶ 61,098 at P 16.

Id. (stating that the Commission “evaluates individual projects
based on the evidence of need presented in each proceeding”).

14

JA 348
evidence the review it deserves and that the
Administrative Procedures Act 15 demands.
The Commission attempts to support its stubborn
reliance on affiliated precedent agreements by citing
to Minisink Residents for Environmental Preservation
and Safety v. FERC. 16 Minisink is readily
distinguished. In that case, the D.C. Circuit concluded
that the Commission could rely generally on a
precedent agreement as a reflection of market need.
But the Court neither considered nor addressed
whether affiliate precedent agreements should be
viewed similarly, as the issue was not raised in the
proceeding. In fact, no court has found that the
Commission can rely solely on affiliated precedent
agreements to demonstrate need. 17
In cases, such as this, where the record contains
evidence raising fundamental questions about the
Project’s underlying need, the Commission must look
beyond precedent agreements to determine need. 18
Here for instance, the Rehearing Parties point out
that existing pipeline infrastructure can satisfy the
current demand for natural gas of New Jersey and
5 U.S.C § 706 (2012); see Motor Veh. Mfrs. Ass'n of U.S., Inc. v.
State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
15

Id. (citing Minisink Residents for Envtl. Pres. & Safety v.
FERC, 762 F.3d 97, 111 n.10 (D.C. Cir. 2014)).
16

The Commission refers only to prior Commission decisions to
directly support reliance on affiliated precedent agreements to
support a finding of need. Rehearing Order, 164 FERC ¶ 61,098
at P 16 n.38.
17

See, e.g., Rate Counsel’s Request for Rehearing at 9-13;
Conservation Foundation’s Request for Rehearing at 25;
Hopewell’s Request for Rehearing at 19.

18

JA 349
Pennsylvania local distribution companies, and
projections of natural gas demand suggest “peak day
requirements will remain relatively stable through
2020,” “indicat[ing] that there is no imminent need for
significant amounts of additional capacity.” 19
Evidence showing declining utilization of existing
pipeline infrastructure further calls into question
whether there is sufficient market demand to justify a
new pipeline. 20 The Commission, however, refuses to
even consider the evidence suggesting a lack of market
demand for the Project, arguing that “[p]rojections
regarding future demand often change” and “[g]iven
this uncertainty associated with long-term demand
projections . . . the Commission deems precedent
agreements to be the better evidence of demand.” 21
While the Commission declines to rely on such
record evidence for the purposes of establishing need,
to counter the Rehearing Parties’ arguments the
Commission nonetheless suggests, if it were to
consider other record evidence in the case, it would
point to evidence supporting a market need for the
Project. The Commission cannot have it both ways.
Selectively highlighting evidence of market demand
when it supports the Commission’s position, while
summarily ignoring the same type of evidence when it
does not, is arbitrary and capricious.
My point is not that precedent agreements can
never be a meaningful indication of the need for a
project. Indeed, there may be some instances when
19

Rate Counsel’s Request for Rehearing at 5.

20

Id. at 6.

21

Rehearing Order, 164 FERC ¶ 61,098 at P 20.

JA 350
precedent agreements, between unaffiliated entities,
can serve as a strong indicator of need. But that does
not mean that the Commission should rely uncritically
on precedent agreements, especially when they are
between affiliates. The Commission itself has
recognized a broad spectrum of evidence that can bear
on the need for a particular project. Reasoned
decisionmaking requires that the Commission grapple
with this evidence, rather than merely brushing it off
and restating its absolute commitment not to look
behind precedent agreements.
II. The Final EIS Is Deficient
Section 7 requires the Commission to balance
“‘the public benefits [of a proposed pipeline] against
the adverse effects of the project,’ including adverse
environmental effects.” 22 And where, as in this
proceeding, there is limited evidence of the need for
the proposed project, it is incumbent on the
Commission to engage in an especially searching
review of the project’s potential harms to ensure that
the project is in the public interest. 23 In this case, the

Sierra Club v. FERC, 867 F.3d 1357, 1373 (D.C. Cir. 2017)
(quoting Myersville Citizens for a Rural Cmty. v. FERC, 783 F.3d
1301, 1309 (D.C. Cir. 2015)); Pub. Utils. Comm’n of Cal. v. FERC,
900 F.2d 269, 281 (D.C. Cir. 1990) (quoting NAACP v. FERC, 425
U.S. 662, 670 (1976)). The Court explained that, for the Natural
Gas Act, the purposes that Congress has in mind when enacting
the legislation include “‘encourag[ing] the orderly development of
plentiful supplies of . . . natural gas at reasonable prices’” as well
as “‘conservation, environmental, and antitrust issues.’” Id.
(quoting NAACP, 425 U.S. at 670 n.6).
22

Certificate Policy Statement, 88 FERC at 61,748 (“The amount
of evidence necessary to establish the need for a proposed project

23

JA 351
Rehearing Parties are right to question whether the
Final EIS is sufficient in light of the incomplete record
concerning the Project’s environmental impact. For
instance, PennEast has yet to complete the
geotechnical borings work, which is needed to ensure
that the environmental impacts of planned horizontal
directional drilling will be adequately minimized. 24 In
addition, 68 percent of the Project alignment in New
Jersey has yet to be surveyed for the existence of
historic and cultural resources. 25 These are critical
aspects of the Commission’s review of the proposed
pipeline that should not be lightly brushed aside.
The Commission argues that the insufficient
environmental record can be remedied by granting the
certificate subject to PennEast’s compliance with
certain conditions. 26 Furthermore, the Commission
asserts that NEPA does not require all environmental
concerns to be definitively resolved before a project’s
approval is issued. 27 While that may be true in certain
cases, there must be a limit to that principle, such that
the Commission cannot grant a certificate based on
little more than a premise that it will compile an
adequate record that a project is in the public interest
at some point in the future. “NEPA clearly requires
that consideration of the environmental impacts of
proposed projects take place before any [] decision is
will depend on the potential adverse effects of the proposed
project on the relevant interests.”).
24

Certificate Order, 162 FERC ¶ 61,053 at P 120.

25

Id. P 172.

26

Rehearing Order, 164 FERC ¶ 61,098 at PP 43-45.

27

Id. P 43.

JA 352
made” 28 and “[t]he very purpose of NEPA’s
requirement that an EIS be prepared for all actions
that may significantly affect the environment is to
obviate the need for speculation by insuring that
available data is gathered and analyzed prior to the
implementation of the proposed action.” 29 Today’s
order defies both NEPA and the NGA’s public interest
standard by accepting an inadequate Final EIS
without explaining how the incomplete information is
sufficient to permit the Commission to adequately
balance the Project’s adverse effects against its
benefits. At a minimum, a significant amount of
missing information on environmental impacts fails to
meet a basic threshold of ensuring that the Federal
agency will “have available, and will carefully
consider, detailed information concerning significant
environmental impacts” and that this information will
also be “available to the larger audience that may also
play a role in both the decisionmaking process and the
implementation of that decision.” 30
The Commission suggests that the Final EIS does
not violate NEPA because it identifies where and why
information was incomplete, includes mitigation plans
on resources where information was lacking, and
promises to continue working to collect the missing
data. 31 Although mitigation measures can help inform
28

La Flamme v. FERC, 852 F.2d 389, 400 (9th Cir. 1988).

29 Id. (citing Found. for N. Am. Wild Sheep v. U.S. Dep’t of
Agriculture, 681 F.2d 1172, 1179 (1982)).

Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, 768 (2004)
(quoting Robertson v. Methow Valley Citizens Council, 490 U.S.
332, 349 (1989)).

30

31

Rehearing Order, 164 FERC ¶ 61,098 at P 46.

JA 353
an agency’s conclusion that a project’s impact is not
significant, 32 mitigation plans are no substitute for
providing a detailed statement on the actual
environmental impact of the proposed action, as
NEPA
requires. 33
More
fundamentally,
the
Commission’s reliance on mitigation plans and
postdecision information suggests that it is treating
NEPA review as a “check-the-box” exercise instead of
providing the “hard look” that Congress intended.
I appreciate that some of the information is not
available because some landowners have refused the
project developer access to their lands. But that does
not change the fact that the Commission does not have
the information it needs to properly perform its
responsibilities under both NEPA and the NGA. It is
the project developer’s responsibility to reach
agreements with landowners so that necessary
surveys can be performed. Their difficulties in
satisfying that responsibility is no reason to shirk our
statutory mandates.
I believe it is a particularly cynical approach for
the Commission to participate in a scheme designed to
resolve this concern by granting certificate authority
to the pipeline developer so that it can use eminent
domain authority to gain access to land for the purpose
of gathering missing information that is necessary to
inform a finding of public interest in the first place.
This is not only circular logic, but an outright abuse of
the eminent domain authority that a section 7
LaFlamme, 852 F.2d at 399; see also Jones v. Gordon, 792 F.2d
at 829.

32

33

42 U.S.C. § 4332 (2012).

JA 354
certification conveys. Today’s order makes clear that
the Commission is using its certificate authority with
little heed for the rights of landowners or the harms
they may suffer as a result of the Commission’s
decision to grant a pipeline on inadequate record. As
we can all agree, the rights of landowners must not be
circumvented and the impacts to landowners cannot
be an afterthought in the Commission’s assessment of
a pipeline’s adverse impacts. 34
III. The Commission Fails To Consider the
Impacts of Climate Change
Unlike many of the challenges that our society
faces, we know with certainty what causes climate
change: It is the result of GHG emissions, including
carbon dioxide and methane, which can be released in
large quantities through the production and the
consumption of natural gas. Accordingly, it is critical
that the Commission carefully consider the Project’s
contribution to climate change, both in order to fulfill
NEPA’s requirements and to determine whether the
Project is in the public interest under the NGA. The
Commission, however, goes out of its way to avoid
seriously addressing the Project’s contributions to the
harm caused by climate change. The Commission
contends that it is not required to consider the impacts
of upstream and downstream GHG emissions because
the record in this proceeding does not demonstrate
that the emissions are indirect effects of the Project. 35

34 E.g., Certificate Order, 162 FERC ¶ 61,053, at 1 (Chatterjee,
Comm’r, concurring).
35

Rehearing Order, 164 FERC ¶ 61,098 at PP 105, 107, 109, 111.

JA 355
While quantifying the annual upstream and
downstream GHG emissions from the Project in the
Certificate Order, 36 the Commission continues to
refuse to consider these emissions as reasonably
foreseeable indirect effects. The Commission suggests
that there is insufficient information about the
production and consumption activities associated with
the pipeline to render the effects reasonably
foreseeable. Regarding upstream emissions, the
Commission claims that it can conclude that GHG
emissions from upstream activities are reasonably
foreseeable only where it has definitive information
about the specific, number, location, and timing of
production
wells,
as
well
as
production
37
methodologies. Similarly, the Commission suggests
that it cannot determine whether downstream GHG
emissions are reasonably foreseeable because “where
the record does not show a specific end use of the gas
transported by the project, downstream emissions
from the consumption of that natural gas are not
indirect effects.” 38 But such definitions of indirect
effects are circular and overly narrow. 39 In adopting
them, the Commission disregards the Project’s central
36

Certificate Order, 162 FERC ¶ 61,053 at PP 203, 208.

37

Rehearing Order, 164 FERC ¶ 61,098 at P 109.

38

Id. P 111.

See San Juan Citizens All. v. U.S. Bureau of Land Mgmt., No.
16-CV-376- MCA-JHR, 2018 WL 2994406, at *10 (D.N.M. June
14, 2018) (holding that it was arbitrary for the Bureau of Land
Management to conclude “that consumption is not ‘an indirect
effect of oil and gas production because production is not a
proximate cause of GHG emissions resulting from consumption’”
as “this statement is circular and worded as though it is a legal
conclusion”).
39

JA 356
purpose—to facilitate natural gas production and
consumption.
The Commission claims that the impacts of GHG
emissions associated with natural gas production are
not reasonably foreseeable because they are “so
nebulous” that the Commission “cannot forecast
[their] likely effects” in the context of an
environmental analysis of the impacts of a proposed
natural gas pipeline. 40 But the evidence in the record
shows that the applicant “designed its Project to
provide a direct and flexible path for transporting
natural gas produced in the Marcellus Shale
production area in northeastern Pennsylvania.” 41
Similarly, the Commission’s assertion that there is a
lack of information about end-use consumption
directly conflicts with record evidence suggesting the
gas will be consumed, at least in part, for the purposes
of electric generation. 42 Under NEPA’s obligation to
Rehearing Order, 164 FERC ¶ 61,098 at P 109 (citing
Certificate Order, 162 FERC ¶ 61,053 at P 198). Furthermore,
the Commission seems to rely on a criteria of its own creation to
determine indirect effects by asserting that the Commission is
not obligated to consider upstream impacts unless the
Commission knows definitively that the “production would not
occur in the absence of the pipeline,” suggesting the record must
also prove a negative in order to qualify an impact as indirect.
Certainly, this is not what NEPA meant in the obligation for
federal agencies to take a “hard look” at environmental impacts.
40

Exhibit F-1, Resource Report 5, PennEast submitted a study
by Concentric Energy Advisors, Estimated Energy Market
Savings from Additional Pipeline Infrastructure Service Eastern
Pennsylvania and New Jersey (Concentric Study) at 5-1.
41

42 Certificate Order, 162 FERC ¶ 61,053 at P 28 (“PennEast has
entered into precedent agreements for long-term, firm service
with 12 shippers. Those shippers will provide gas to a variety of

JA 357
engage in reasonable forecasting 43 and make
assumptions where necessary, 44 combined with the
record provided, it is entirely foreseeable that the
incremental transportation capacity of the Project will
spur upstream production and will be combusted, both
resulting in GHG emissions that contribute to climate
change. 45
end users, including local distribution customers, electric
generators, producers, and marketers.”).
Forecasting environmental impacts is a regular component of
NEPA reviews and a reasonable estimate may inform the federal
decisionmaking process even where the agency is not completely
confident in the results of its forecast. See Del. Riverkeeper
Network v. FERC, 753 F.3d 1304, 1310 (2014) (quoting Scientists’
Inst. for Pub. Info., Inc. v. Atomic Energy Comm’n, 481 F.2d 1079,
1092 (D.C. Cir. 1973)); see Sierra Club, 867 F.3d at 198 (“In
determining what effects are ‘reasonably foreseeable,’ an agency
must engage in ‘reasonable forecasting and speculation.’”)
(quoting Del. Riverkeeper, 753 F.3d at 1310)).
43

As the D.C. Circuit explained in Sierra Club, in the face of
indefinite variables, “agencies may sometimes need to make
educated assumptions about an uncertain future.” 867 F.3d at
1357.
44

Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, 768 (2004)
(quoting Robertson v. Methow Valley Citizens Council, 490 U.S.
332, 349 (1989)). In evaluating the upstream and downstream
impacts of a pipeline that are reasonably foreseeable results of
constructing and operating that pipeline, I am relying on
precisely the sort of “reasonably close causal relationship” that
the Supreme Court has required in the NEPA context and
analogized to proximate cause. See id. at 767 (“NEPA requires a
‘reasonably close causal relationship’ between the environmental
effect and the alleged cause. The Court [has] analogized this
requirement to the ‘familiar doctrine of proximate cause from tort
law.’”) (quoting Metropolitan Edison Co. v. People Against
Nuclear Energy, 460 U.S. 766, 774 (1983)); see also Paroline v.
United States, 134 S. Ct. 1710, 1719 (2014) (“Proximate cause is

45

JA 358
As the U.S. Court of Appeals for the Eighth
Circuit explained in Mid States—a case that also
involved the downstream emissions from new
infrastructure for transporting fossil fuels—when the
“nature of the effect” (end-use emissions) is reasonably
foreseeable, but “its extent is not” (specific
consumption activity producing emissions), an agency
may not simply ignore the effect. 46 Put differently, the
fact that an agency may not know the exact location
and amount of GHG emissions to attribute to the
federal action is no excuse for assuming that impact is
zero. Instead, the agency must engage in a case-bycase inquiry into what effects are reasonably
foreseeable and estimate the potential emissions
associated with that project—making assumptions
where necessary—and then give that estimate the
weight it deserves.
Quantifying the GHG emissions that are indirect
effects of the Project is a necessary, but not sufficient,
step in meeting the Commission’s obligation to
consider the Project’s environmental effects associated
with climate change. As required by NEPA, the
Commission must also identify, and determine the
often explicated in terms of foreseeability or the scope of the risk
created by the predicate conduct.”); Staelens v. Dobert, 318 F.3d
77, 79 (1st Cir. 2003) (“[I]n addition to being the cause in fact of
the injury [the but for cause], the plaintiff must show that the
negligent conduct was a proximate or legal cause of the injury as
well. To establish proximate cause, a plaintiff must show that his
or her injuries were within the reasonably foreseeable risks of
harm created by the defendant’s negligent conduct.”) (internal
quotation marks and citations omitted).
46 Mid States Coal. for Progress v. Surface Transp. Bd., 345 F.3d
520, 549 (8th Cir. 2003).

JA 359
significance of, the harm caused by those emissions. 47
Absent such consideration, the Commission failed to
undertake a meaningful analysis of the climate
change impacts stemming from the Project’s GHG
emissions.
The Commission again rejects the use of the
Social Cost of Carbon to provide meaningful
information to evaluate the environmental impact of
the GHG emissions associated with a certificate
decision. 48 I disagree. The CEQ Guidance further
recognizes that monetized quantification of an impact
is appropriate to be incorporated into the NEPA
document, if doing so is necessary for an agency to
fully evaluate the environmental consequences of its
decisions. 49 Similarly, the U.S. Environmental
Protection Agency (EPA) explains that “even absent a
full [cost-benefit analysis],” estimates of the Social
Cost of Carbon “may be used for project analysis when
[the Commission] determines that a monetary
assessment of the impacts associated with the
estimated net change in GHG emissions provides
useful information in its environmental review or
public interest determination.” 50
47

40 C.F.R. § 1502.16 (2017).

48

Rehearing Order, 164 FERC ¶ 61,098 at P 123.

See CEQ, Final Guidance for Federal Departments and
Agencies on Consideration of Greenhouse Gas Emissions and the
Effects of Climate Change in National Environmental Policy Act
Reviews at 32-33 (Aug. 1, 2016), https://obamawhitehouse.
archives.gov/sites/whitehouse.gov/files/documents/nepa_final_gh
g_guidance.pdf.
49

50 Although the Rehearing Order cites revised comments
submitted by the EPA, in the original comments submitted in the

JA 360
Similarly, several courts have found that it is
arbitrary and capricious to monetize some benefits but
not utilize the Social Cost of Carbon to consider the
harm caused by GHG emissions associated with the
federal action. 51 By measuring the long-term damage
done by a ton of carbon dioxide, the Social Cost of
Carbon provides a meaningful method for linking
GHG emissions to particular climate impacts for
quantitative and qualitative analyses. The pertinent
question is whether the Commission’s consideration of
the harm caused by the Project’s contribution to
climate change is consistent with how the Commission
considers the Project’s other effects, including
benefits. In today’s order, the Commission fails this
Commission’s pending review of the natural gas certification
process, the EPA recommended a number of tools the
Commission can use to quantify the reasonably foreseeable
“upstream and downstream GHG emissions associated with a
proposed natural gas pipeline.” These include “economic
modeling tools” that can aid in determining the “reasonably
foreseeable energy market impacts of a proposed project.” U.S.
Environmental Protection Agency, Comments, Docket No. PL181-000, at 3-4 (filed June 21, 2018) (explaining that the “EPA has
emission factors and methods” available to estimate GHG
emissions—both net and gross—from activities upstream and
downstream of a proposed natural gas pipeline, including the
Greenhouse Gas Reporting Program and the U.S. Greenhouse
Gas Inventory); see Certification of New Interstate Natural Gas
Facilities, Notice of Inquiry, 163 FERC ¶ 61,042 (2018).
High Country Conservation Advocates, 52 F. Supp. 3d at 1191
(“Even though NEPA does not require a cost-benefit analysis, it
was nonetheless arbitrary and capricious to quantify the benefits
of the lease modifications and then explain that a similar
analysis of the costs was impossible when such an analysis was
in fact possible . . . .”); see also Montana Envt’l Info. Ctr., 274 F.
Supp. 3d at 1095-96.
51

JA 361
test by simultaneously refusing to use the Social Cost
of Carbon to monetize the impact of GHG emissions
while monetizing the Project’s longterm socioeconomic
benefits related to construction and operations from
employment, tourism, and local taxes construction,
operation and consumption, 52 as well as the
consumption-related benefits of access to lower-cost
fuel due to access to new production. 53
Ultimately, the Commission claims that it has
satisfied its obligation under NEPA to consider the
harm caused by the Project’s contribution to climate
change by providing a qualitative discussion that
concludes it cannot accurately assess the impacts of
GHG emissions generally. The reality is the
Commission has still failed to make an explicit
determination of whether the harm associated with
the Project’s contribution to climate change is
significant. 54 In order to satisfy NEPA, the
environmental review documents must both disclose
direct and indirect impacts, which can include
quantitative and qualitative considerations, and
disclose their significance. 55 To support this directive
that NEPA explicitly requires, CEQ regulations
expressly outline a framework for determining
whether the Project’s impacts on the environment will
be considered significant—and this CEQ framework
52

Final EIS at 4-181‒4-186.

53 Exhibit F-1, Resource Report 5, PennEast submitted a study
by Concentric Energy Advisors, Estimated Energy Market
Savings from Additional Pipeline Infrastructure Service Eastern
Pennsylvania and New Jersey (Concentric Study) at tbl. 5.4-6.
54

Rehearing Order, 164 FERC ¶ 61,098 at P 121.

55

40 C.F.R. § 1502.16.

JA 362
requires considerations of both context and intensity,
noting that significance of an action must be analyzed
in several contexts. 56
Today’s order makes it abundantly clear that the
Commission does not take environmental impacts into
account when finding that a proposed project is in the
public interest. The Commission cannot legitimately
suggest it is fulfilling its obligations under the NGA to
“evaluate all factors bearing on the public interest” 57
while simultaneously relying solely on economic
factors in its determination. I do not believe the
Commission’s finding of public interest in this
proceeding is a product of reasoned decisionmaking.
Moreover, the record is insufficient to demonstrate
that the Project is needed or that its potential benefits
outweigh the adverse effects inclusive of the
environment.
For all of these reasons, I respectfully dissent.
______________________
Richard Glick
Commissioner
40 C.F.R. § 1508.27 (setting forth a list of factors agencies
should rely on when determining whether a project’s
environmental impacts are “significant” considering both
“context” and “intensity”).
56

Atl. Refining Co. v. Pub. Serv. Comm’n of N.Y., 360 U.S. 378,
391 (1959) (Section 7 of the NGA “requires the Commission to
evaluate all factors bearing on the public interest.”); see also Pub.
Utils. Comm’n of Cal. v. FERC, 900 F.2d 269, 281 (D.C. Cir. 1990)
(The public interest standard under the NGA includes factors
such as the environment and conservation, particularly as
decisions concerning the construction, operation, and
transportation of natural gas in interstate commerce “necessarily
and typically have dramatic natural resource impacts.”).
57

